<html>
<title> - U.S. POLICY ON IRAQ</title>
<body><pre>[Senate Hearing 107-840]
[From the U.S. Government Printing Office]




                                                        S. Hrg. 107-840

                          U.S. POLICY ON IRAQ

=======================================================================

                                HEARINGS

                               before the

                      COMMITTEE ON ARMED SERVICES
                          UNITED STATES SENATE

                      ONE HUNDRED SEVENTH CONGRESS

                             SECOND SESSION

                               __________

                       SEPTEMBER 19, 23, 25, 2002

                               __________

         Printed for the use of the Committee on Armed Services









                           U.S. GOVERNMENT PRINTING OFFICE
84-837 PDF                        WASHINGTON : 2003
----------------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2104 Mail: Stop IDCC, Washington, DC 20402-0001















                      COMMITTEE ON ARMED SERVICES

                     CARL LEVIN, Michigan, Chairman

EDWARD M. KENNEDY, Massachusetts     JOHN WARNER, Virginia
ROBERT C. BYRD, West Virginia        STROM THURMOND, South Carolina
JOSEPH I. LIEBERMAN, Connecticut     JOHN McCAIN, Arizona
MAX CLELAND, Georgia                 BOB SMITH, New Hampshire
MARY L. LANDRIEU, Louisiana          JAMES M. INHOFE, Oklahoma
JACK REED, Rhode Island              RICK SANTORUM, Pennsylvania
DANIEL K. AKAKA, Hawaii              PAT ROBERTS, Kansas
BILL NELSON, Florida                 WAYNE ALLARD, Colorado
E. BENJAMIN NELSON, Nebraska         TIM HUTCHINSON, Arkansas
JEAN CARNAHAN, Missouri              JEFF SESSIONS, Alabama
MARK DAYTON, Minnesota               SUSAN COLLINS, Maine
JEFF BINGAMAN, New Mexico            JIM BUNNING, Kentucky

                     David S. Lyles, Staff Director
              Judith A. Ansley, Republican Staff Director

                                  (ii)








                            C O N T E N T S

                               __________

                    CHRONOLOGICAL LIST OF WITNESSES

                          U.S. Policy on Iraq

                           september 19, 2002

                                                                   Page

Rumsfeld, Hon. Donald H., Secretary of Defense...................    15
Myers, Gen. Richard B., USAF, Chairman, Joint Chiefs of Staff....    35

          Continue to Receive Testimony on U.S. Policy on Iraq

                           september 23, 2002

Shalikashvili, Gen. John M., USA (Ret.), Former Chairman, Joint 
  Chiefs of Staff................................................   122
Clark, Gen. Wesley K., USA (Ret.), Former Supreme Allied 
  Commander, Europe..............................................   124
Hoar, Gen. Joseph P., USMC (Ret.), Former Commander in Chief, 
  United States Central Command..................................   126
McInerney, Lt. Gen. Thomas G., USAF (Ret.), Former Assistant Vice 
  Chief of Staff, United States Air Force........................   129

                          U.S. Policy on Iraq

                           september 25, 2002

Berger, Hon. Samuel R., Former Assistant to the President for 
  National Security Affairs......................................   177
Schlesinger, Dr. James R., Former Secretary of Defense, Secretary 
  of Energy, and Director of Central Intelligence................   181

                                 (iii)

 
                          U.S. POLICY ON IRAQ

                              ----------                              


                      THURSDAY, SEPTEMBER 19, 2002

                                       U.S. Senate,
                               Committee on Armed Services,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 2:33 p.m. in room 
SD-106, Dirksen Senate Office Building, Senator Carl Levin 
(chairman) presiding.
    Committee members present: Senators Levin, Kennedy, Byrd, 
Lieberman, Cleland, Landrieu, Reed, Akaka, Bill Nelson, Ben 
Nelson, Carnahan, Dayton, Warner, Thurmond, McCain, Inhofe, 
Roberts, Allard, Hutchinson, Sessions, and Collins.
    Committee staff members present: David S. Lyles, staff 
director, and Christine E. Cowart, chief clerk.
    Majority staff members present: Richard D. DeBobes, 
counsel, Evelyn N. Farkas, professional staff member; Richard 
W. Fieldhouse, professional staff member; and Michael McCord, 
professional staff member.
    Minority staff members present: Judith A. Ansley, 
Republican staff director; Charles W. Alsup, professional staff 
member; Edward H. Edens IV, professional staff member; Patricia 
L. Lewis, professional staff member; Thomas L. MacKenzie, 
professional staff member; and Joseph T. Sixeas, professional 
staff member.
    Staff assistants present: Daniel K. Goldsmith, Andrew Kent, 
and Nicholas W. West.
    Committee members' assistants present: Brady King and 
Sharon L. Waxman, assistants to Senator Kennedy; Christina 
Evans, Erik Raven, and Craig E. Bury, assistants to Senator 
Byrd; Frederick M. Downey, assistant to Senator Lieberman; 
Marshall A. Hevron and Jeffrey S. Wiener, assistants to Senator 
Landrieu; Elizabeth King, assistant to Senator Reed; Davelyn 
Noelani Kalipi and Richard Kessler, assistants to Senator 
Akaka; William K. Sutey, assistant to Senator Bill Nelson; Eric 
Pierce, assistant to Senator Ben Nelson; Neal Orringer, 
assistant to Senator Carnahan; William Todd Houchins, assistant 
to Senator Dayton; Benjamin L. Cassidy, assistant to Senator 
Warner; Bill Tuten, assistant to Senator Thurmond; Christopher 
J. Paul, assistant to Senator McCain; John A. Bonsell, 
assistant to Senator Inhofe; Robert Alan McCurry and James 
Beauchamp, assistants to Senator Roberts; Douglas Flanders, 
assistant to Senator Allard; James P. Dohoney, Jr., assistant 
to Senator Hutchinson; Arch Galloway II, assistant to Senator 
Sessions; Kristine Fauser, assistant to Senator Collins; and 
Derek Maurer, assistant to Senator Bunning.

       OPENING STATEMENT OF SENATOR CARL LEVIN, CHAIRMAN

    Chairman Levin. Good afternoon, everybody. The Senate Armed 
Services Committee meets this afternoon to continue our 
hearings on U.S. policy toward Iraq. The purpose of these 
hearings is to give the administration an opportunity to 
present its position on Iraq and to allow this committee to 
examine the administration's proposal with administration 
witnesses and experts outside the government.
    We welcome Secretary of Defense, Donald Rumsfeld, and 
Chairman of the Joint Chiefs of Staff, General Richard Myers, 
to the committee. Next week, the committee will hear from 
former senior military commanders on Monday and from former 
national security officials on Wednesday.
    We begin with the common belief that Saddam Hussein is a 
tyrant and a threat to the peace and stability of the region. 
He has ignored the mandates of the United Nations and is 
building weapons of mass destruction and the means of 
delivering them.
    Last week, in his speech to the United Nations, President 
Bush rightfully declared that the Iraqi threat is, ``exactly 
the kind of aggressive threat that the United Nations was born 
to confront.'' The President reminded the world that Iraqi 
aggression was stopped after the invasion of Kuwait, in his 
words, ``by the might of the coalition force and the will of 
the United Nations.'' The President called upon the United 
Nations to act again, stating, ``My Nation will work with the 
U.N. Security Council to meet our common challenge. If Iraq 
defies us again, the world must move deliberately, decisively 
to hold Iraq to account. We will work with the U.N. Security 
Council for the necessary resolutions.''
    We, in Congress, applauded the President's efforts to 
galvanize the world community through the United Nations to 
deal with the threat posed by Saddam Hussein. Our actions now 
in Congress should be devoted to presenting a broad, bipartisan 
consensus in that critical effort. This does not mean giving a 
veto to the U.N. over U.S. foreign policy. No one is going to 
do that. It is an acknowledgment that Saddam is a world problem 
and should be addressed in the world arena, and that we are in 
a stronger position to disarm Iraq and even possibly avoid war 
if Saddam sees the world at the other end of the barrel, not 
just the United States.
    Some have suggested that we also commit ourselves to 
unilateral action in Iraq and that we do so now. In the middle 
of our efforts to enlist the world community to back a U.N. 
resolution or resolutions enforcing Iraqi compliance with 
unconditional inspections and disarmament requirements, they 
say that, although we told the U.N. that their role is vital 
just a week ago, we should now say we are just fine in 
proceeding on our own. I believe if we really mean it when we 
say that we want the U.N. to be relevant, then we should not 
act in a manner that treats them as irrelevant.
    When Iraq invaded Kuwait in August of 1990, the United 
Nations, at the urging of former President Bush and with the 
full support of Congress, condemned Iraq's invasion of Kuwait, 
demanded that Iraq withdraw its forces, and, in November of 
1990, passed a resolution authorizing member states to use all 
necessary means to free Kuwait. Two months later, in January 
1991, after debate and a close vote, Congress passed a 
resolution authorizing the participation of U.S. Armed Forces 
in that effort. The military campaign against Saddam Hussein in 
1991 by the U.S.-led coalition was carried out with the active 
participation of most of our NATO allies, the ground forces of 
several Muslim nations, and the support and backing of 
virtually every nation in the world.
    U.N. resolutions paved the way for the establishment and 
enforcement of the no-fly zones over Northern and Southern Iraq 
and for the air and missile attacks on Iraqi facilities related 
to weapons of mass destruction programs that it had in December 
of 1998 following Iraq's expulsion of the U.N. weapons 
inspectors.
    The experience of the last decade teaches us that, in 
dealing with Iraq, the United States has been able to work with 
the world community through the United Nations. A go-it-alone 
approach where we attack Iraq without the support and 
participation of the world community would be very different. 
It would entail grave risks and could have serious consequences 
for U.S. interests in the Middle East and around the world.
    If we go it alone, would we be able to secure the use of 
air bases, ports, supply bases, and overflight rights in the 
region important to the success of a military operation against 
Saddam Hussein? If we go it alone, would we continue to enjoy 
broad international support for the war on terrorism, including 
the law enforcement, financial, and intelligence cooperation 
that has proven to be so essential? If we go it alone, what 
would be the impact on the stability of moderate Arab nations, 
and what would be our future relationship with moderate Arab 
and Muslim nations? If we go it alone without U.N. authority in 
attacking Saddam, would he or his military commanders be more 
likely to use weapons of mass destruction against other nations 
in the region and against U.S. military forces in response than 
would be the case if he faced a U.N.-authorized coalition, 
particularly if that coalition included a number of Muslim 
nations, as the coalition did during the Gulf War? If we go it 
alone, would other nations use our action as a precedent for 
threatening unilateral military action against their neighbors 
in the future?
    Members of this Senate Armed Services Committee are ever 
mindful of the fact that confronting the threat posed by Saddam 
Hussein could ultimately lead to committing U.S. military 
forces, including ground forces, to combat. How and under what 
circumstances we commit our Armed Forces to an attack on Iraq 
could have far-reaching consequences for our interests 
throughout the world and for the future peace and stability in 
the Persian Gulf and Middle East.
    I want to echo the statement that General Myers makes in 
his prepared remarks. ``America's military is the most capable 
and professional fighting force in the world.'' There is no 
doubt in my mind--and there should be no doubt in Saddam 
Hussein's mind--that, once committed, our Armed Forces will 
prevail in any conflict. None of us seeks such a conflict, but, 
if it comes, our military will have the full support of every 
member of this body, whether they favor committing to a go-it-
alone approach at this time or not.
    Senator Warner.

                STATEMENT OF SENATOR JOHN WARNER

    Chairman Warner. Thank you, Mr. Chairman.
    Secretary Rumsfeld, I read, with great interest, an account 
of your testimony before the House yesterday. I was 
particularly moved by your comments with regard to Israel, its 
role in the 1991 episode, and the threats poised as a 
consequence of this extraordinary unrest relating to Iraq.
    I wrote the President a letter on August 2, a copy of which 
went to you. I went to the floor of the Senate today and put 
that letter in the record, expressing my deep concern about 
this conflict and my compassion for the people of Israel who 
have suffered these devastating losses. I would hope, in due 
course, that could be taken into consideration, because I think 
there's a connection between the unrest that is a consequence 
of the tragic disputes between the people of Israel and the 
Palestinian people and the options that we face as we examine 
the problems in Iraq.
    So I thank you, Mr. Chairman, for this hearing. I begin by 
commending President Bush for the leadership he has shown on 
the issue of the threat to the world, not just the United 
States, posed by Saddam Hussein in his relentless drive to 
manufacture and acquire weapons of mass destruction. We would 
not be holding this hearing today--we, in all likelihood, would 
not be having the full attention of the United Nations--had it 
not been for the bold leadership given by President George Bush 
together with the Prime Minister of Great Britain, Tony Blair, 
who both brought attention to the threat posed by Saddam 
Hussein to the whole world.
    I commend you, Mr. Secretary, the Secretary of State, Colin 
Powell, and others who have been in the very forefront of 
bringing into sharp focus threats posed by the weapons of mass 
destruction which he possesses today and which every single day 
he is working to augment and build.
    Mr. Chairman, on August 27, I wrote you, as a follow on to 
our previous discussions, a letter requesting that the 
committee hold these hearings on Iraq. You and I have concurred 
on a series of hearings, the details of which are forthcoming. 
We're going to go into this situation very carefully.
    [The information referred to follows:]
                                                   August 27, 2002.
Chairman Carl Levin,
Committee on Armed Services,
United States Senate,
Washington, DC.
    Dear Carl: We have been regularly discussing the role of our 
committee in the on-going debates in Congress and in the public on 
Iraq. Together, we decided to defer setting a schedule for hearings on 
Iraq until the Senate Foreign Relations Committee undertook an initial 
exploration of policy-related considerations. Those hearings, which 
were conducted on July 31 and August 1, turned out to be constructive 
and beneficial.
    Since the commencement of our recess on August 1, the crescendo of 
debate on Iraq has reached an extraordinary level, with knowledgeable 
people--many of whom have served in public office--rendering 
conscientious, constructive opinions, with a growing diversity of 
viewpoints.
    The time has come, I think you will agree, for you and I to set a 
schedule of hearings for our committee to explore the national security 
implications of possible military action against Iraq. While any 
schedule of hearings will follow our regular procedures for selecting 
witnesses, I believe we should begin with administration witnesses--
preferably Secretary Rumsfeld and Chairman of the Joint Chiefs General 
Myers.
    As I look back on the 1990 and 1991 congressional activities 
related to Iraq, the work of our committee was crucial. Sam Nunn, as 
the chairman, and I, as the ranking member, held a series of hearings 
throughout the fall and winter of 1990, leading up to the historic 
debate on the Gulf War resolutions on January 10-12, 1991. As you may 
recall, when our committee conducted a series of hearings in 1990 
following the Iraqi invasion of Kuwait, our first hearing was with 
then-Secretary of Defense Cheney and then-Chairman of the Joint Chiefs 
General Powell on September 11, 1990.
    I was the principal author of the resolution to authorize the use 
of force against Iraq, which passed by a mere five votes on January 12, 
1991. Immediately following that vote, having satisfied itself that the 
Senate had had a full and fair debate, all united in support behind the 
President. This resolution is now being cited--as it was during the 
previous administration--as one of the legal foundations for military 
action against Iraq.
    Our committee performed an essential role through its hearings in 
1990 in developing the body of fact that was used during the Senate 
floor debate and the public debate. It is important, subject to 
protecting classification of certain facts, that the American people be 
informed. Their support is essential.
    While I cannot predict all that the Senate will do in the coming 
weeks prior to adjournment, I believe that the issue of Iraq will be 
central. Our committee, therefore, should convene a series of hearings 
on Iraq, as soon as possible, to contribute to a full body of fact for 
any Senate deliberations on this issue.
    As I read and follow the debate, there appears to be a ``gap'' in 
the facts possessed by the executive branch and the facts possessed by 
the legislative branch. I am encouraged that the President and his 
senior advisors have repeatedly stated that there will be 
``consultations'' with Congress prior to the initiation of any military 
action against Iraq. Our committee has an important role to play in 
these consultations. We must act to provide the necessary facts so 
individual members can make informed decisions.
    Congress, as a co-equal branch of government, is, in my opinion, 
not going to sit on the sidelines. It is essential, I believe, in this 
extraordinarily complex foreign policy debate, that Congress step up 
and assume its responsibilities, and share with the President and the 
executive branch accountability to the public for such actions as may 
be taken regarding military action against Iraq.
    Speaking for myself, I do not contest the President's right, as 
Commander in Chief under the Constitution, to initiate the use of 
military force when U.S. interests are threatened. Through our 24 years 
in the Senate, you and I have witnessed many Senate debates over the 
War Powers Resolution and related issues, and those issues will not be 
resolved now.
    I do believe, as do a majority of members, that Congress has a 
responsibility to add its voice to the debate on an issue involving the 
use of U.S. military force. Hearings by our committee on Iraq are an 
essential first step in exercising that responsibility.
    We owe no less to the brave men and women of our Armed Forces, and 
their families, who stand by, as always, to carry out the orders of the 
Commander in Chief.
    With kind regards, I am
            Sincerely,
                                               John Warner,
                                                    Ranking Member.

    In 1990 and 1991, when I was privileged to be ranking 
member of the committee, together with Senator Nunn as 
chairman, our committee was critical in putting together a 
record for the historic debate on the Senate floor early in 
January. The committee held a series of nine hearings and two 
closed briefings on the situation in the Persian Gulf in the 
fall and winter of 1990, leading up to the debate on the Senate 
floor on January 10, 11, and 12, 1991. Those hearings developed 
the body of fact that was used during the Senate floor debate 
and, indeed, the equally important public debate on Iraq. The 
committee will fulfill that same important function today.
    I was privileged to be an author of the resolution that was 
debated on the floor, and it carried by a mere five votes. My 
distinguished colleague to my right, Mr. Lieberman, was my 
principal cosponsor on that resolution.
    We started the committee hearings on Iraq on Tuesday with 
testimony from the Director of Central Intelligence, George 
Tenet, and the acting Director of the Defense Intelligence 
Agency, Rear Admiral Jake Jacoby. It was a sobering, thorough 
assessment that was given to all members of the committee, a 
common base of knowledge about the clear and growing threat 
that Saddam Hussein poses to the United States, to the region, 
and to the entire international community. In particular, 
Saddam Hussein's relentless pursuit of weapons of mass 
destruction and the means to deliver these weapons represents a 
present threat and an immediate challenge to the international 
community. Our President made that ever so clear in his speech.
    We must end Saddam Hussein's continued defiance of the 
clear pronouncements of the international community as 
expressed in a series of 16 U.N. Security Council resolutions, 
beginning with the resolution which mandated the council's 
terms and conditions for how the war was to end.
    I remind my colleagues that the Iraqis agreed in writing on 
April 6, 1991, in a letter to the U.N. Secretary General from 
the Iraqi Foreign Minister, to accept the cease-fire conditions 
as embodied in U.N. Security Council Resolution 687.
    Prior to that, we all watched as Iraqi generals, at the 
direction of Saddam Hussein, met in a tent at the Safwan 
Airfield in Iraq, with General Norman Schwarzkopf, the brave 
commander who led the U.S. and coalition forces to victory, to 
discuss the conditions for a ceasefire. Those conditions have 
never been met.
    It is now most appropriate that we hear from the Secretary 
of Defense and the Chairman of the Joint Chiefs on the role of 
the Department of Defense--and particularly the men and women 
in uniform--in implementing U.S. policy toward Iraq as that 
evolves. Most important is the readiness of our Armed Forces 
and their ability to carry out such military operations as may 
be directed in the future.
    Our President didn't go to the U.N. and declare war. He 
went to the U.N. to say, ``It's time for you to become 
accountable to your charter, to your forebears, to those who 
conceived this organization, and to the world.''
    One week ago, our President gave a historic speech at the 
United Nations, challenging the U.N. to live up to its 
responsibilities as stated in Article I of the U.N. Charter and 
``to take effective collective measures for the prevention and 
removal of threats to the peace.''
    In my view, President Bush's speech was clearly one of the 
finest and most important speeches ever given by a head of 
state to the August assembly of the United Nations. The speech 
dramatically elevated the level of debate and the attention of 
the world's leaders on Iraq's conduct and continued defiance of 
the United Nations. It further challenged the nations of the 
world to think long and hard about what they expect from the 
United Nations. Is it to be effective and relevant and live up 
to its Charter, or is it to be irrelevant and fall into the 
dustbin of history, as did the League of Nations as the world 
descended into darkness in the aftermath of World War I?
    Of equal importance, the President's U.N. speech 
articulated a clear, decisive, and timely U.S. policy on Iraq, 
that is, to remove the threat before Iraq is able to use 
weapons of mass destruction now in its arsenal and every day 
being added to the arsenal. The U.S. is now firmly on a course 
to accomplish this policy and invites the nations of the world 
to join.
    I remind my colleagues that the President's policy of 
regime change is the same policy that Congress adopted with the 
unanimous support of the Senate in October of 1998 and the 
policy that President Clinton later endorsed and vigorously 
defended.
    Over the past several weeks, many Members of Congress and 
many American citizens have expressed their hope for meaningful 
consultations between Congress and the President, as well as 
consultations with our allies and the United Nations. Our 
President has done exactly that. It is now time for Congress to 
express to the people of our Nation and to the world its 
support squarely and overwhelming behind our President as he 
leads the international community. The price of inaction is far 
too great if the international community fails to confront this 
danger now, once and for all.
    By bringing his case to the U.N., President Bush clearly 
demonstrated his belief that the effort to counter Saddam 
Hussein is an international responsibility. The United States 
strongly desires multilateral action. But if the U.N. fails to 
act, the United States, like all other member nations under the 
U.N. Charter, reserves unto itself the right to take whatever 
action is necessary to protect our people and our Nation from 
the threat of Saddam Hussein.
    Predictably, the Iraqi regime has responded to the 
President's speech with a tactical move designed to fracture 
the consensus that was forming in the United Nations. It is 
merely a trap, in my opinion, to buy more time for Saddam 
Hussein to further delay compliance with international 
mandates, as expressed in the 16 U.N. Security Council 
resolutions. I shall not recite those resolutions, but just 
place them in the record.
    [The information referred to follows:] 

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    Senator Warner. How will we explain to the American people, 
if, in the wake of a future attack on the United States or U.S. 
interests, directly by Saddam Hussein or indirectly through 
surrogate terrorists equipped and directed by him, that we knew 
Saddam Hussein had weapons of mass destruction, that we knew he 
intended to manufacture and acquire even more and to use these 
weapons, and yet, at this time, we failed to act? Now, more 
than ever before, Congress, as an equal branch of the 
Government, must join our President and support the course he 
has set. We have to demonstrate a resolve within our Nation and 
internationally that communicates to Saddam Hussein that enough 
is enough. He has to be convinced that American and 
international resolve is real, unshakable, and enforceable if 
there's to be hope of any progress of disarmament of his 
weapons of mass destruction.
    To the extent that Congress joins in support of our 
President and sends that message unambiguously to the 
international community, the United Nations, is the extent to 
which the forthcoming resolution of the U.N. will resolve this 
crisis.
    I thank you.
    [The prepared statement of Senator Warner follows:]
               Prepared Statement by Senator John Warner
    Thank you, Mr. Chairman. I join you in welcoming Secretary Rumsfeld 
and General Myers back before the committee.
    I begin this afternoon by commending our President, President Bush, 
for the leadership he has shown on the issue of the threat to the 
world, not just to the United States, posed by Saddam Hussein in his 
relentless drive to manufacture and acquire weapons of mass 
destruction. We would not be holding this hearing today, not be 
preparing for a full debate in the U.S. Senate, had not our President 
focused the attention of the world on this threat to freedom. This is 
not the United States against the Iraqi people; it is the free world 
against Saddam Hussein.
    Mr. Chairman, on August 27, I wrote you, as a follow-on to our 
previous discussions, requesting that the committee hold a series of 
hearings on U.S. policy on Iraq. I ask unanimous consent that the text 
of my letter be made a part of the record of this hearing.
    In 1990 and 1991, our committee's activities were critical to the 
congressional action on the first Gulf War resolution, which authorized 
the use of force against Iraq. Our committee held a series of nine 
hearings and two closed briefings on the situation in the Persian Gulf 
in the fall and winter of 1990, leading up to the historic debate on 
the Senate floor on January 10-12, 1991. Those hearings developed the 
body of fact that was used during the Senate floor debate and, indeed, 
the equally important public debate on Iraq. Our committee will fulfill 
that same important function again, together with other committees.
    We started the committee's hearings on Iraq on Tuesday with 
testimony from the Director of Central Intelligence, George Tenet, and 
the acting Director of the Defense Intelligence Agency, Rear Admiral 
Jake Jacoby, on the situation in Iraq. It was a sobering, thorough 
assessment that has given all members of the committee a common base of 
knowledge about the clear and growing threat that Saddam Hussein poses 
to the United States, to the region, and to the entire international 
community. In particular, Saddam Hussein's relentless pursuit of 
weapons of mass destruction, and the means to deliver these weapons, 
represents a present threat and an immediate challenge to the 
international community. We must end Saddam Hussein's continued 
defiance of the clear pronouncements of the international community, as 
expressed in a series of 16 U.N. Security Council Resolutions (UNSCR), 
beginning with the resolution which mandated the Council's terms and 
conditions for how the war was to end.
    I remind my colleagues that the Iraqis agreed, in writing--on April 
6, 1991, in a letter to the U.N. Secretary General from the Iraqi 
Foreign Minister--to accept the cease fire conditions, as embodied in 
U.N. Security Council Resolution 687. Prior to that, we all watched as 
Iraqi generals, at the direction of Saddam Hussein, met in a tent at 
the Safwan Airfield in Iraq, with General Norman Schwarzkopf, the brave 
commander who led the U.S. and coalition forces to victory, to discuss 
the conditions for a cease fire. Those conditions have never been met.
    It is now most appropriate that we hear from the Secretary of 
Defense and the Chairman of the Joint Chiefs of Staff on the role of 
the Department of Defense--and particularly the men and women in 
uniform--in implementing U.S. policy toward Iraq. Most important is the 
readiness of our Armed Forces and their ability to carry out such 
military operations as may be directed in the future.
    One week ago today, our President gave an historic speech at the 
United Nations, challenging the U.N. to live up to its responsibilities 
as stated in article 1 of the U.N. Charter, ``. . . to take effective 
collective measures for the prevention and removal of threats to the 
peace.'' In my view, President Bush's speech was clearly one of the 
finest and most important speeches ever given by a head of state to the 
August assembly in the U.N. The speech dramatically elevated the level 
of debate and the attention of the world's leaders on Iraq's conduct 
and continued defiance of the U.N. It further challenged the nations of 
the world to think long and hard about what they expect from the United 
Nations--is it to be effective and relevant, and live up to its 
Charter; or is it to be irrelevant and fall into the dustbin of 
history, as did the League of Nations as the world descended into the 
darkness of World War II?
    Of equal importance, the President's U.N. speech articulated a 
clear, decisive, and timely U.S. policy on Iraq--that is, to remove the 
threat before Iraq is able to use its WMD arsenal. The U.S. is now 
firmly on a course to accomplish this policy and invites the nations of 
the world to join. I remind my colleagues that the President's policy 
of regime change is the same policy that Congress adopted--with the 
unanimous support of the Senate--in October of 1998, and the policy 
that President Clinton later endorsed and vigorously defended.
    Over the last several weeks, many Members of Congress and many 
American citizens expressed their hope for meaningful consultations 
between Congress and the President, as well as consultations with our 
allies and the U.N. Our President has done exactly that. It is now time 
for Congress to express to the people of our Nation and to the world 
its support, squarely and overwhelmingly behind our President as he 
leads the international community. The price of inaction is far too 
great if the international community fails to confront this danger, 
now, once and for all.
    By bringing his case to the U.N., President Bush clearly 
demonstrated his belief that the effort to counter Saddam Hussein is an 
international responsibility. The United States strongly desires 
multilateral action. But if the U.N. fails to act, the United States--
like all other member nations under the U.N. Charter--reserves unto 
itself the right to take whatever action is necessary to protect our 
people and our Nation from the threat posed by Saddam Hussein.
    Predictably, the Iraqi regime has responded to the President's 
speech with a tactical move designed to fracture the consensus that was 
forming at the U.N. It is merely a trap to buy more time for Saddam 
Hussein to further delay compliance with international mandates, as 
expressed in 16 U.N. Security Council resolutions.
    As we contemplate the vote we will be called on to cast in the 
weeks ahead, it is important to remember what we know about Saddam 
Hussein and his actions, to date:

        <bullet> We know Saddam Hussein is a tyrant who has ruthlessly 
        suppressed and murdered all opposition, dissident elements, and 
        potential political competitors since he assumed office in 1979 
        (he murdered 20 potential rivals in his own Ba'athist Party 
        within a month of taking power).
        <bullet> We know Saddam Hussein intends to dominate the region 
        and control significant portions of world oil production, as 
        demonstrated by his aggression against Iran in the 1980s, his 
        invasion and annexation of Kuwait in 1990, and his continuing 
        threats against Kuwait, Saudi Arabia, Jordan, the Kurds and 
        others.
        <bullet> We know Saddam Hussein has extensive stocks of 
        chemical and biological weapons.
        <bullet> We know Saddam Hussein is aggressively seeking nuclear 
        weapons capabilities on multiple fronts.
        <bullet> We know Saddam Hussein continues to develop a variety 
        of means to deliver his stockpile of weapons of mass 
        destruction, both conventional and unconventional.
        <bullet> We know Saddam Hussein has used such weapons on his 
        own people, using chemical weapons to kill 50-100,000 Kurds in 
        northern Iraq in 1988.
        <bullet> We know Saddam Hussein has used weapons of mass 
        destruction against another nation--even though the survival of 
        his regime was not in doubt--when he used chemical weapons 
        against Iranian soldiers multiple times between 1981 and 1986.
        <bullet> We know Saddam Hussein has successfully used denial 
        and deception techniques over the past decade to fool the world 
        and U.N. inspectors about the extent of his WMD efforts and 
        stocks.

    I could go on and list other horrific conduct by Saddam, but I 
think the point is clear--we know a great deal about this ruthless man 
and his brutal regime; we cannot allow the threat to continue.
    How will we explain to the American people--in the wake of a future 
attack on the United States or U.S. interests, directly by Saddam 
Hussein, or indirectly through surrogate terrorists equipped and 
directed by him--that we knew Saddam Hussein had weapons of mass 
destruction, that we knew he intended to manufacture and acquire even 
more and to use these weapons--and yet, we failed to act.
    Now, more than ever, Congress, as an equal branch of government, 
must join our President and support the course he has set. We have to 
demonstrate a resolve within our Nation and internationally, that 
communicates to Saddam Hussein that ``enough is enough.'' He has to be 
convinced that American and international resolve is real, unshakable 
and enforceable if there is to be any hope of progress.
    To the extent that Congress joins and supports our President and 
sends that message unambiguously to the international community, is the 
extent to which the forthcoming resolution of the United Nations will 
resolve this crisis. Thank you.

    Chairman Levin. Thank you very much, Senator Warner. I 
would like to submit the written statements of Senator Kennedy 
and Senator Landrieu.
    [The prepared statements of Senator Kennedy and Senator 
Landrieu follow:]
            Prepared Statement by Senator Edward M. Kennedy
    September 11, 2001, has irrevocably changed America's view of the 
world. No American will ever forget watching a hijacked civilian 
aircraft crash into the towers of the World Trade Center or seeing the 
plume of smoke rise from the Pentagon in the aftermath of the terrorist 
attack. No American will ever forget the sense of anger and 
vulnerability that swept our Nation that day, when thousands of 
innocent lives were suddenly, and senselessly, ended by those vicious 
acts. Since then, the United States has conducted a war on terrorism, 
defeating the Taliban regime in Afghanistan, disrupting the al Qaeda 
operations in that country and supporting a new government there that 
will give no refuge to terrorists. We know that the war on terrorism 
will continue on many fronts, militarily and diplomatically.
    Now our Nation and the international community are in the midst of 
a debate about how best to address the threat posed by Iraq. There is 
no doubt that Saddam Hussein's regime is a serious danger. I commend 
President Bush for expressing America's willingness to work with the 
United Nations to end that danger and prevent Iraq from using chemical, 
biological, or nuclear weapons to threaten other countries.
    Working with the United Nations is the right course. The United 
States is better off working with the international community, rather 
than unilaterally, in dealing with the threat Hussein poses. We need to 
do all we can to win the support of other nations.
    As of today, many questions still remain unanswered: Is war the 
only option? How much support will we have in the international 
community? How will war affect our global war against terrorism? How 
long will the United States need to stay in Iraq? How many casualties 
will there be? Would our action make a wider and more dangerous war 
more likely, especially if Saddam decides to use chemical, biological, 
or nuclear weapons? Congress will continue to debate the issue and seek 
answers to these and other questions. War must always be a last resort, 
not the first resort.
    I look forward to hearing from Secretary Rumsfeld and General Myers 
on these issues that are of deepest concern to all of us.
                                 ______
                                 
             Prepared Statement by Senator Mary L. Landrieu
    We cannot question that Saddam Hussein is a totalitarian leader who 
poses an emerging threat to the United States and the Middle East. He 
has shown no respect for the rule of law or civil order. Saddam Hussein 
has a long history of destabilizing the Middle East--first by invading 
Iran and second by invading Kuwait. Moreover, Saddam Hussein has and 
will continue to pursue Iraq's chemical, biological, and nuclear 
weapons programs--weapons he could use himself or peddle to our 
terrorist enemies. Saddam has used weapons of mass destruction against 
his own people and the Iranians, killing thousands. It could only be a 
matter of time before he uses them, again, to cause havoc and mayhem in 
the world. At this hearing, we are not here to question if Saddam 
Hussein must go, but when and how.
    Pursuing diplomatic means is very worthy to compel Iraq to readmit 
weapons inspectors and disarm, but diplomatic means alone are 
insufficient. All too often, we have seen Iraq thumb its nose to the 
international community. Sixteen resolutions were passed before and 
after the Gulf War. None was followed. Just 2 days ago, Iraq notified 
the United Nations that Iraq would be willing to admit U.N. weapons 
inspectors to return. Regrettably, Saddam Hussein has burned too many 
bridges and his entreaties have lost all credibility. No purely 
diplomatic resolution will ensure that Iraq allows inspectors full 
access throughout the country to search for weapons of mass destruction 
(WMD). No purely diplomatic resolution will guarantee that Iraq will 
disarm and discontinue its pursuit and production of WMD. It would be 
folly for the United Nations Security Council to support a resolution 
that only requires Iraq to invite inspectors to return. If the future 
is anything like the past, Saddam Hussein would only make a charade of 
the inspections. Those inspectors would have everything but unfettered 
access to Iraq's weapons of mass destruction. With all diplomacy 
involving Saddam Hussein, he must know that military force capable of 
toppling his regime will bear down upon him if he does not fully 
cooperate with inspectors wishing to dismantle his chemical, 
biological, and nuclear weapons programs.
    Conversely, we simply cannot pursue war without diplomacy. To fight 
alone would be unwise. We have an opportunity to install a paradigm 
shift in the Middle East. This is an opportunity to make a real 
difference to bring the American values of peace, democracy, and free 
markets, as Tom Friedman has said, to Iraq and the region, if we use 
our influence and our military might properly. We must embark on a 
diplomatic path that unites those in favor of peace, democracy, and 
free markets on a mission to use force, if necessary, to change the 
regime in Iraq and demilitarize Iraq so that the Iraqi people can throw 
off the chains of Saddam's oppression. Then, the Iraqi people will be 
able to accept the notion that American ideals are ideals all people 
want to share. With the proper diplomacy, the United States can build a 
coalition--one just as large as the coalition created to fight the Gulf 
War that also includes our Arab allies--to topple Saddam Hussein if he 
does not allow for full inspections and disarmament.
    For weeks and months the administration pursued a unilateral 
approach that favored a call to arms with too little attention to 
diplomacy. Last week, the President addressed the United Nations and 
took a necessary step to create a balanced approach that will permit 
the use of force if diplomacy is thwarted in Iraq. The administration 
still has much work to do to convince the Security Council and a 
coalition to support the authorization of force if Saddam Hussein does 
not commit to full inspections and disarmament. The French, Russians, 
and Chinese, who hold veto power on the Security Council, have not yet 
endorsed military force as the stick-to-the-carrot of inspections. 
Nevertheless, the administration should not give up easily to bring 
these countries in line with our point of view. We should not simply 
say that we can defeat Saddam Hussein on our own. Of course, America 
can topple Iraq without our allies, but more harm than good could be 
done by such actions. America will be seen as the bully, not the 
protector of the world from despots and terrorists. We will not be, as 
we have always been, the liberator of people without a voice.
    Rather, we should redouble our diplomatic efforts in support. After 
all, there have been successes in just a few days. For months Saudi 
Arabia voiced objections to the American use of Saudi bases to strike 
Iraq, but Saudi Arabia is now warming up to the use of their bases 
after the President's address to the U.N. Diplomacy is creating the 
consent to use force.
    Again, I do not question if Saddam must disarm or be toppled; the 
question is when we should do it. Quite frankly, we should be prepared 
to use force if he does not respond to U.S. and international 
diplomatic pressure. We should not wait for him to assemble a nuclear 
weapon before taking it out of his hands. Saddam is analogous to the 
drug dealer poisoning the neighborhood by selling drugs to the 
residents. Saddam is capable of supplying al Qaeda, Hamas, and 
Hezbollah with WMD to attack us and our allies, if he does not choose 
to do it himself. Again, as he seeks a nuclear bomb, he is looking to 
push an even more deadly drug. He should not be allowed to push his 
brand of despotism any further.
    Finally, we must take seriously how we will depose Saddam, if 
necessary. The administration should work diligently to build a 
coalition. Because if we invade Iraq, we will need to be there for the 
long term. We cannot act alone and then expect to use diplomatic 
efforts to gain support from the rest of the world. We will need the 
world's military, economic, and political backing, and we must act now 
to gain that partnership.
    In closing, diplomacy and military force together will allow 
America to reach its objectives in Iraq. Either alone will fail.

    Secretary Rumsfeld, we now turn to you and General Myers 
for your opening statements, and then when it comes back to us 
we'll have rounds of 6 minutes each.

   STATEMENT OF HON. DONALD H. RUMSFELD, SECRETARY OF DEFENSE

    Secretary Rumsfeld. Mr. Chairman, members of the committee, 
I thank you for this opportunity to meet with you today. I have 
submitted a rather lengthy statement where I set forth in some 
detail what I believe to be the situation with respect to Iraq. 
I request that it be made a part of the record, and I will just 
make some brief remarks, nowhere near as long as an opening 
statement.
    Chairman Levin. We'll make your full statement part of the 
record.
    Secretary Rumsfeld. Last week we commemorated the 1-year 
anniversary of the most devastating attack our Nation has ever 
experienced, more than 3,000 people killed in a single day. 
Today, I want to discuss the task of preventing even more 
devastating attacks, attacks that could kill not thousands, but 
potentially tens of thousands of our fellow citizens.
    This is not an intelligence briefing. It is obviously an 
open hearing, and my remarks will reflect those facts. Further, 
I'm not here to recommend the use of force in Iraq, 
multilateral or unilateral, or to suggest that the President 
has made a decision beyond what he has told the United Nations 
and the congressional leadership and, indeed, the American 
people.
    I am here to discuss Iraq, as requested by the committee 
and by the President, and to try to address a number of the 
questions that have come up during this national debate and 
public dialogue that's been taking place.
    As we meet, chemists, biologists, and nuclear scientists 
are toiling in weapons labs and underground bunkers, working to 
give the world's most dangerous dictators weapons of 
unprecedented power and lethality. The threat posed by some of 
those regimes is real, is dangerous, and is growing with each 
passing day. We've entered a new security environment, one in 
which terrorist movements and terrorist states are developing 
the capacity to cause unprecedented destruction.
    Today, our margin for error as a country is distinctly 
different than before. In the 20th century, we were dealing for 
the most part with conventional weapons that could kill 
hundreds or thousands, generally combatants. In the 21st 
century, we're dealing with weapons of mass destruction that 
can kill potentially tens of thousands of people--innocent men, 
women, and children.
    We are in an age of little or no warning when threats can 
emerge suddenly. Terrorist states are finding ways to gain 
access to these powerful weapons, and in word and deed they 
have demonstrated a willingness to use those capabilities. 
Moreover, since September 11, we have seen a new means of 
delivering these weapons: terrorist networks. To the extent 
that they might transfer WMD to terrorist groups, they could 
conceal their responsibility for attacks on our people.
    So I submit, Mr. Chairman, that we are on notice that an 
attack will likely be attempted. It's a question of when and by 
what technique. It could be months or years, but it will 
happen. If the worst were to happen, not one of us here today 
would be able to honestly say that it was a surprise, because 
it will not be a surprise. We have connected the dots as much 
as is humanly possible before the fact. Only by waiting until 
after the event could we have proof positive, and then it, of 
course, would be too late.
    The question facing us is this, what is the responsible 
course of action for our country with our history and 
tradition? Do we believe it is our responsibility to wait for a 
chemical or biological or even nuclear September 11? Or is it 
the responsibility of free people to take steps to deal with 
the threat before we are attacked?
    There are a number of terrorist states pursuing weapons of 
mass destruction--Iran, Libya, North Korea, Syria, just to name 
a few--but no terrorist state poses a greater or more immediate 
threat to the security of our people than the regime of Saddam 
Hussein in Iraq.
    Mr. Chairman, these facts about Saddam Hussein's regime 
should be part of the record and of our country's 
considerations. He has ordered the use of chemical weapons 
against his own people, in one case killing 5,000 innocent 
civilians in a day. His regime has invaded two of its 
neighbors. It has launched ballistic missiles against four of 
its neighbors. He plays host to terrorist networks. He 
regularly assassinates his opponents, both in Iraq and abroad. 
He has executed a member of his own cabinet, whom he personally 
shot and killed. He has ordered doctors to surgically remove 
the ears of military deserters. His regime has committed 
genocide and ethnic cleansing in Northern Iraq. His regime, on 
almost a daily basis, continues to fire missiles and artillery 
at U.S. and coalition aircraft. He has amassed large 
clandestine stockpiles of biological weapons, including 
anthrax, botulism toxin, and possibly smallpox. He has amassed 
large clandestine stockpiles of chemical weapons, including VX, 
sarin, and mustard gas. His regime has an active program to 
acquire nuclear weapons. His regime has dozens of ballistic 
missiles and is working to extend their ranges, in violation of 
U.N. restrictions. He has in place an elaborate organized 
system of denial and deception to frustrate both inspectors and 
outside intelligence efforts. His regime has diverted funds 
from the U.N.'s Oil for Food Program, intended to feed starving 
Iraqis, to fund weapons of mass destruction programs. He has 
violated 16 U.N. resolutions, repeatedly defying the will of 
the international community, without cost and without 
consequence.
    The President warned the United Nations last week that his 
regime is a grave and gathering danger. It's a danger that we 
do not have the option to ignore. President Bush made clear 
that the United States wants to work with the U.N. Security 
Council, but he made clear the consequences of Iraq's continued 
defiance. ``The purpose of the United States should not be 
doubted,'' he said, ``The Security Council resolutions will be 
enforced or action will be unavoidable, and a regime that has 
lost its legitimacy will also lose its power.''
    The President has asked the Members of Congress to support 
actions that may be necessary to deliver on that pledge. He 
urged that Congress act before the recess. Delaying a vote in 
Congress would send the wrong message, just as we are asking 
the international community to take a stand and as we are 
cautioning Iraq to reflect on its options.
    It was Congress that changed the objective of U.S. policy 
from containment to regime change by passage of the Iraq 
Liberation Act in 1998 by, as I recall, a 10-to-1 margin in 
both houses. The President is now asking Congress to support 
that policy. A decision to use military force, potentially, is 
never easy, and it's important that the issues surrounding this 
decision be discussed and debated seriously.
    In recent weeks, a number of questions have been surfaced, 
many by Members of Congress and others. Some of the arguments 
raised are important, and, in my prepared testimony, I've tried 
to discuss in detail a number of those issues that have been 
raised. Let me just touch on a few here this afternoon.
    Now that Iraq has agreed to unconditional inspections, the 
question goes, why does Congress need to act? Well, if we want 
to measure the depth of their so-called change of heart, I 
suggest we watch what they do, not what they say. On Monday, 
they sent a letter indicating that they were ready to begin 
cooperating with the U.N. Within hours, they began firing and 
trying to shoot down coalition aircraft. There have been two 
inspection regimes. They've thrown the ground inspectors out. 
The air inspections, Operations Northern Watch and Southern 
Watch, have been continuing with coalition pilots flying at 
risk of their lives. Since delivering the letter promising 
unconditional access, they have fired at coalition aircraft 
somewhere between 15 and 20 times, which is a considerable 
increase from the preceding period, before the letter.
    I would add that today I'm told that the Iraqi Foreign 
Minister up at the United Nations made a speech and added a 
series of conditions to the unconditional proposal that had 
been sent by letter 2 or 3 days ago. They suggest that the 
inspections must operate within guidelines in a manner that 
respects Iraqi sovereignty and security. That was the quotation 
I was given, although I did not have a chance to listen to the 
speech personally.
    The point is that Iraq has demonstrated great skill at 
playing the international community. When it's the right moment 
to lean forward, they do. When it's the right moment to lean 
back, they do. It's a dance. They go on for months, and, 
indeed, they've gone on for years jerking the U.N. around. When 
they find things are not going their way, they throw out a 
proposal like this. The issue is not inspections; the issue is 
disarmament. The problem is a lack of compliance. As the 
President made clear in his U.N. address, we require Iraq's 
compliance with all 16 U.N. resolutions.
    Some have asked whether an attack on Iraq would disrupt and 
distract from the U.N. global war on terror. The answer is no. 
Iraq is part of the global war on terror. Stopping terrorist 
regimes from acquiring weapons of mass destruction is a key 
objective of that war, and we can fight the various elements of 
the global war on terror simultaneously, as General Myers will 
indicate in his remarks.
    Our principal goal in the war on terror is to stop another 
September 11, or a weapon of mass destruction attack that could 
make September 11 seem modest by comparison, and to do it 
before it happens. Whether that threat comes from a terrorist 
regime or a terrorist network is beside the point. Our 
objective is to stop them.
    Another question has been, ``What about a smoking gun?'' 
Well, Mr. Chairman, the last thing we want is a smoking gun. A 
gun smokes after it has been fired, and the goal must be to 
stop an attack of the type I have described before it happens. 
As the President told the United Nations last week, the first 
time we may be absolutely completely certain that a country has 
nuclear weapons is when, God forbid, they are used. We owe it 
to our citizens to do everything in our power to prevent that 
day from coming. If Congress and the world wait for a so-called 
smoking gun, it's certain that they will have waited too long.
    I suggest that anyone who insists on perfect evidence 
really is thinking back in the 20th century, and they're still 
thinking pre-September 11. On September 11, we were awakened to 
the fact that America is now vulnerable to unprecedented 
destruction. We have not, we will not, and we cannot know 
everything that is going on in the world. Over the years, 
despite our best efforts, intelligence has repeatedly 
underestimated weapons capabilities of a variety of important 
major countries. We've had numerous gaps of 2, 4, 6, 8, and, in 
some cases, double-digit years between when a country of real 
concern to us began a development program and when we finally 
found out about it that many years later.
    We do know that the Iraqi regime has chemical and 
biological weapons of mass destruction, that they're pursuing 
nuclear weapons, that they've a proven willingness to use those 
weapons, and that they've a proven aspiration to seize 
territory of their neighbors and to threaten their neighbors, 
that they cooperate with terrorists networks, and that they 
have a proven record of declared hostility and venomous 
rhetoric against the United States. Those threats should be 
clear to all.
    The committees of Congress today are currently asking 
hundreds of question and poring over tens of thousands of 
documents trying to figure out what happened, why September 11 
occurred. Indeed, they're asking who knew what and when did 
they know it and why didn't somebody prevent that tragedy.
    Well, if one were to compare the scraps of information that 
the Government had before September 11 to the volumes of 
information the Government has today about Iraq's pursuit of 
weapons of mass destruction, his use of those weapons, his 
record of aggression, and his consistent hostility toward the 
United States, and then factor in our country's demonstrated 
vulnerability after September 11, the case that the President 
made in the United Nations, it seems to me, should be clear.
    If more time passes, and the attack we're concerned about 
were to come to pass, I would not want to have ignored all the 
warning signs and then be required to explain why our country 
failed to protect our fellow citizens from that threat.
    We do know that Saddam Hussein has been actively and 
persistently pursuing nuclear weapons for more than 20 years, 
but we should be just as concerned about the immediate threat 
from biological weapons. Iraq has these weapons. They are much 
simpler to deliver than nuclear weapons and even more readily 
transferred to terrorist networks who could allow Iraq to 
deliver them without Iraq's fingerprints on the attack.
    If you want an idea of the devastation Iraq could wreak on 
our country with a biological attack, consider the recent Dark 
Winter exercise conducted by Johns Hopkins University. It 
simulated a biological weapons attack in which terrorists 
released smallpox in three separate locations in the United 
States. Within 2 months, the worst-case estimate indicated that 
1 million Americans could be dead and another 2 million 
infected. It's not a pretty picture. Cut it in half. Cut it by 
three-quarters. It's still a disaster.
    Some have argued that Iraq is unlikely to use weapons of 
mass destruction against us, because, unlike terrorist 
networks, Saddam Hussein has a return address. Mr. Chairman, 
there's no reason to have confidence that if Iraq launched a 
WMD attack against the United States, it would necessarily have 
a return address. There are ways Iraq could easily conceal 
responsibility for a WMD attack. They could give biological 
weapons to a terrorist network to attack us from within. 
Suicide bombers are not deterrable. They end up dead, and, 
therefore, the problem of being deterred is not something they 
worry about.
    We still do not know with certainty who was behind the 1996 
bombing of Khobar Towers in Saudi Arabia, for example. We don't 
know who was responsible for last year's anthrax attack. 
Indeed, our consistent failure over the past two decades to 
trace terrorist attacks to their ultimate source gives 
terrorist states the lesson that using terrorist networks is an 
effective way of attacking the United States with impunity.
    Some ask, ``Why does he have to be overthrown? Can't we 
just take out the capabilities that he has to threaten us?'' 
Well, the President has not made a decision. The problem with 
doing that piecemeal is this. First, we simply do not know 
where all or even a large portion of Iraq's WMD facilities are. 
We do know where a fraction of them are. Second, of the 
facilities that we do know, not all are vulnerable to attack 
from the air. A good many are underground and deeply buried. 
Others are purposely located near population centers--schools, 
hospitals, mosques--where an air strike could kill a large 
number of innocent people. The Iraq problem cannot be solved by 
air strikes alone.
    Some have asked whether military intervention in Iraq means 
that the U.S. would have to go to war with every terrorist 
state that's pursuing WMD. The answer is no. For one thing, 
preventive action in one situation may very well produce a 
deterrent effect in other states. After driving the Taliban 
from power in Afghanistan, we've already seen a change in the 
behavior of several states. Moreover, dealing with some states 
may not require military action. Indeed, I think they would 
not. In some cases, we see states where there is a good deal of 
unrest within the country. Take Iran, where their women and the 
young people are putting pressure on the small clique of 
clerics who are running that country. In my view, it's 
possible, at some point, that it could flip, just like it 
flipped from the Shah to the ayatollahs. No one can promise 
that, but it is at least impressive to see the stirrings that 
are taking place in that country.
    There is a place in this world for inspections, and they 
tend to be effective if the target nation is actually willing 
to disarm and they want to prove to the world that they are 
doing so. They tend not to be as effective in uncovering 
deceptions and violations when the target is determined not to 
be disarmed. Iraq's record of the past decade shows that they 
want weapons of mass destruction and that they are determined 
to develop them.
    Some people have suggested that if the U.S. were to act, it 
might provoke Saddam Hussein's use of weapons of mass 
destruction. That's a valuable point. There are ways to 
mitigate the risk of a chem-bio attack, but they cannot be 
entirely eliminated. It's true that there could be that risk in 
a military action. But if Iraq is that dangerous, then it only 
makes the case stronger; the longer one waits, the more deadly 
his capabilities will be every month and every year.
    Moreover, consider the consequences if the world were to 
allow that risk to deter us from acting. We would then have 
sent a message to the world about the value of weapons of mass 
destruction that we would deeply regret having sent to other 
countries.
    The message the world should want to send is exactly the 
opposite, that Iraq's pursuit of WMD has made it not more 
secure, but less secure, that by pursuing those weapons they 
have attracted undesired attention to themselves from the world 
community. Saddam Hussein might not have anything to lose 
personally, but those other people beneath him in the chain of 
command would most certainly have a great deal to lose. Wise 
Iraqis will not obey orders to use weapons of mass destruction.
    Some have asked, ``Well, what's changed to warrant the 
action now?'' Well, what has changed is our experience on 
September 11. What's changed is our appreciation of our 
vulnerability and the risk that the United States faces from 
terrorist networks and terrorist states armed with weapons of 
mass destruction. What's not changed is his drive to acquire 
those weapons and the fact that every single approach that the 
world community and the United Nations have taken has failed.
    Mr. Chairman, as the President has made clear, this is a 
critical moment for our country and for our world, indeed. Our 
resolve is being put to the test. It's a test that, 
unfortunately, the world's free nations have failed before in 
recent history with terrible consequences. Long before the 
Second World War, Hitler wrote in Mein Kampf indicating what he 
intended to do, but the hope was that maybe he would not do 
what he said. Between 35 and 60 million people died because of 
a series of calculated mistakes. He might have been stopped 
early at a minimal cost of lives had the vast majority of the 
world's leaders not decided at the time that the risks of 
acting were greater than the risks of not acting.
    Today we must decide whether the risks of acting are 
greater than the risks of not acting. Saddam Hussein has made 
his intentions clear. He has used weapons of mass destruction 
against his own people and his neighbors. He has stockpiles of 
chemical and biological weapons, and he is aggressively 
pursuing nuclear weapons. If he demonstrates the capability to 
deliver them to our shores, the world would be changed.
    We need to decide as a people how we feel about that. Do 
the risks of taking action to stop that threat outweigh the 
risks of living in the world as we see it evolving, or is the 
risk of doing nothing greater than the risk of acting?
    The question comes down to this: How will the history of 
this era be recorded? When we look back on previous periods of 
our history, we see that there have been many books written 
about threats and attacks that were not anticipated. At Dawn We 
Slept, The Untold Story of Pearl Harbor, Pearl Harbor, Final 
Judgment, Why England Slept--the list of such books is endless. 
Unfortunately, in the past year, historians have already 
started to add to that body of literature, and there are books 
out on the September 11 attacks asking why they weren't 
prevented. Each is an attempt by the authors to connect the 
dots to determine what happened and why it was not possible to 
figure out what was going to happen in the future.
    Our job today--the President's, Congress, and the United 
Nations, and, indeed, the free people of the world--is to try 
to connect the dots before the fact, to try to anticipate 
vastly more lethal attacks before they happen and to try to 
make the right decisions as to whether we should take 
anticipatory self-defense actions or preventive actions before 
such an attack occurs.
    Mr. Chairman, we're on notice, each of us. Each of us has a 
responsibility to do everything in our power to ensure that 
when the history of this period is written, the books won't ask 
why we slept. We must ensure that history will instead record 
that on September 11 the American people were awakened to the 
impending dangers and that those entrusted with the safety of 
the American people made the right decisions and saved our 
Nation and the world from the 21st century threats.
    Mr. Chairman, that concludes my statement. I would like to 
just say that it's a pleasure to see Senator Thurmond here and 
to have an opportunity to have him participate. This may very 
well be my last hearing before you, given your decision to 
retire. So it's a pleasure to see you, sir.
    Thank you.
    [The prepared statement of Secretary Rumsfeld follows:]
             Prepared Statement by Hon. Donald H. Rumsfeld
    Mr. Chairman, members of the committee, thank you for the 
opportunity to meet with you today.
    Last week, we commemorated the 1 year anniversary of the most 
devastating attack our Nation has ever experienced--more than 3,000 
innocent people killed in a single day.
    Today, I want to discuss the task of preventing even more 
devastating attacks--attacks that could kill not thousands, but 
potentially tens of thousands of our fellow citizens.
    As we meet, state sponsors of terror across the world are working 
to develop and acquire weapons of mass destruction. As we speak, 
chemists, biologists, and nuclear scientists are toiling in weapons 
labs and underground bunkers, working to give the world's most 
dangerous dictators weapons of unprecedented power and lethality.
    The threat posed by those regimes is real. It is dangerous. It is 
growing with each passing day. We cannot wish it away.
    We have entered a new security environment, one that is 
dramatically different than the one we grew accustomed to over the past 
half-century. We have entered a world in which terrorist movements and 
terrorists states are developing the capacity to cause unprecedented 
destruction.
    Today, our margin of error is notably different. In the 20th 
century, we were dealing, for the most part, with conventional 
weapons--weapons that could kill hundreds or thousands of people, 
generally combatants. In the 21st century, we are dealing with weapons 
of mass destruction that can kill potentially tens of thousands of 
people--innocent men, women, and children.
    Further, because of the nature of these new threats, we are in an 
age of little or no warning, when threats can emerge suddenly--at any 
place or time--to surprise us. Terrorist states have enormous appetite 
for these powerful weapons--and active programs to develop them. They 
are finding ways to gain access to these capabilities. This is not a 
possibility--it is a certainty. In word and deed, they have 
demonstrated a willingness to use those capabilities.
    Moreover, after September 11, they have discovered a new means of 
delivering these weapons--terrorist networks. To the extent that they 
might transfer WMD to terrorist groups, they could conceal their 
responsibility for attacks. If they believe they can conceal their 
responsibility for an attack, then they would likely not be deterred.
    We are on notice; let there be no doubt that an attack will be 
attempted. The only question is when and by what technique. It could be 
months, a year, or several years. But it will happen. It is in our 
future. Each of us needs to pause and think about that for a moment--
about what it would mean for our country, for our families--and indeed 
for the world.
    If the worst were to happen, not one of us here today will be able 
to honestly say it was a surprise. Because it will not be a surprise. 
We have connected the dots as much as it is humanly possible--before 
the fact. Only by waiting until after the event could we have proof 
positive. The dots are there for all to see. The dots are there for all 
to connect. If they aren't good enough, rest assured they will only be 
good enough after another disaster--a disaster of still greater 
proportions. By then it will be too late.
    The question facing us is this: what is the responsible course of 
action for our country? Do you believe it is our responsibility to wait 
for a nuclear, chemical or biological September 11? Or is it the 
responsibility of free people to do something now--to take steps to 
deal with the threat before we are attacked?
    The President has made his position clear: the one thing that is 
not an option is doing nothing.
    There are a number of terrorist states pursuing weapons of mass 
destruction--Iran, Libya, North Korea, Syria, to name but a few. But no 
terrorist state poses a greater and more immediate threat to the 
security of our people, and the stability of the world, than the regime 
of Saddam Hussein in Iraq.
    No living dictator has shown the murderous combination of intent 
and capability--of aggression against his neighbors; oppression of his 
own people; genocide; support of terrorism; pursuit of weapons of mass 
destruction; the use of weapons of mass destruction; and the most 
threatening, hostility to its neighbors and to the United States--than 
Saddam Hussein and his regime.
    Mr. Chairman, these facts about Saddam Hussein's regime should be 
part of this record and of our country's considerations:

        <bullet> Saddam Hussein has openly praised the attacks of 
        September 11.

                <bullet> Last week, on the anniversary of September 11, 
                his state-run press called the attacks ``God's 
                punishment.''
                <bullet> He has repeatedly threatened the U.S. and its 
                allies with terror--once declaring that ``every Iraqi 
                (can) become a missile.''

        <bullet> He has ordered the use of chemical weapons--Sarin, 
        Tabun, VX, and mustard agents--against his own people, in one 
        case killing 5,000 innocent civilians in a single day.
        <bullet> His regime has invaded two of its neighbors, and 
        threatened others.

                <bullet> In 1980, they invaded Iran, and used chemical 
                weapons against Iranian forces.
                <bullet> In 1990, they invaded Kuwait and are 
                responsible for thousands of documented cases of 
                torture, rape and murder of Kuwaiti civilians during 
                their occupation.
                <bullet> In 1991, they were poised to march on and 
                occupy other nations--and would have done so, had they 
                not been stopped by the U.S. led coalition forces.

        <bullet> His regime has launched ballistic missiles at four of 
        their neighbors--Israel, Iran, Saudi Arabia and Bahrain.
        <bullet> His regime plays host to terrorist networks and has 
        directly ordered acts of terror on foreign soil.
        <bullet> His regime assassinates its opponents, both in Iraq 
        and abroad, and has attempted to assassinate the former Israeli 
        Ambassador to Great Britain, and a former U.S. President.
        <bullet> He has executed members of their cabinet, including 
        the Minister of Health, whom he personally shot and killed.
        <bullet> His regime has committed genocide and ethnic cleansing 
        in Northern Iraq, ordering the extermination of between 50,000 
        and 100,000 people and the destruction of over 4,000 villages.
        <bullet> His attacks on the Kurds drove 2 million refugees into 
        Turkey, Syria and Iran.
        <bullet> His regime has brought the Marsh Arabs in Southern 
        Iraq to the point of extinction, drying up the Iraqi marsh 
        lands in order to move against their villages--one of the worst 
        environmental crimes ever committed.
        <bullet> His regime is responsible for catastrophic 
        environmental damage, setting fire to over 1,100 Kuwaiti oil 
        wells.
        <bullet> His regime beat and tortured American POWs during the 
        1991 Persian Gulf War, and used them as ``human shields.''
        <bullet> His regime has still failed to account for hundreds of 
        POWs, including Kuwaiti, Saudi, Indian, Syrian, Lebanese, 
        Iranian, Egyptian, Bahraini and Omani nationals--and an 
        American pilot shot down over Iraq during the Gulf War.
        <bullet> His regime on almost a daily basis continues to fire 
        missiles and artillery at U.S. and coalition aircraft 
        patrolling the no-fly zones in Northern and Southern Iraq, and 
        has made clear its objective of shooting down coalition pilots 
        enforcing U.N. resolutions--it is the only place in the world 
        where U.S. forces are shot at with impunity.
        <bullet> His regime has subjected tens of thousands of 
        political prisoners and ordinary Iraqis to arbitrary arrest and 
        imprisonment, summary execution, torture, beatings, burnings, 
        electric shocks, starvation and mutilation.
        <bullet> He has ordered doctors to surgically remove the ears 
        of military deserters, and the gang rape of Iraqi women, 
        including political prisoners, the wives and daughters of their 
        opposition and members of the regime suspected of disloyalty.
        <bullet> His regime is actively pursuing weapons of mass 
        destruction, and willing to pay a high price to get them--
        giving up tens of billions in oil revenue under economic 
        sanctions by refusing inspections to preserve his WMD programs.
        <bullet> His regime has amassed large, clandestine stockpiles 
        of biological weapons--including anthrax and botulism toxin, 
        and possibly smallpox.
        <bullet> His regime has amassed large, clandestine stockpiles 
        of chemical weapons--including VX, sarin, cyclosarin, and 
        mustard gas.
        <bullet> His regime has an active program to acquire and 
        develop nuclear weapons.

                <bullet> They have the knowledge of how to produce 
                nuclear weapons, and designs for at least two different 
                nuclear devices.
                <bullet> They have a team of scientists, technicians 
                and engineers in place, as well as the infrastructure 
                needed to build a weapon.
                <bullet> Very likely all they need to complete a weapon 
                is fissile material--and they are, at this moment, 
                seeking that material--both from foreign sources and 
                the capability to produce it indigenously.

        <bullet> His regime has dozens of ballistic missiles, and is 
        working to extend their range in violation of U.N. 
        restrictions.
        <bullet> His regime is pursuing pilotless aircraft as a means 
        of delivering chemical and biological weapons.
        <bullet> His regime agreed after the Gulf War to give up 
        weapons of mass destruction and submit to international 
        inspections--then lied, cheated and hid their WMD programs for 
        more than a decade.
        <bullet> His regime has in place an elaborate, organized system 
        of denial and deception to frustrate both inspectors and 
        outside intelligence efforts.
        <bullet> His regime has violated U.N. economic sanctions, using 
        illicit oil revenues to fuel their WMD aspirations.
        <bullet> His regime has diverted funds from the U.N.'s ``oil 
        for food'' program--funds intended to help feed starving Iraqi 
        civilians--to fund WMD programs.
        <bullet> His regime violated 16 U.N. resolutions, repeatedly 
        defying the will of the international community without cost or 
        consequence.
        <bullet> His regime is determined to acquire the means to 
        strike the U.S., its friends and allies with weapons of mass 
        destruction, acquire the territory of their neighbors, and 
        impose their control over the Persian Gulf region.

    As the President warned the United Nations last week, ``Saddam 
Hussein's regime is a grave and gathering danger.'' It is a danger to 
its neighbors, to the United States, to the Middle East, and to 
international peace and stability. It is a danger we do not have the 
option to ignore.
    The world has acquiesced in Saddam Hussein's aggression, abuses and 
defiance for more than a decade.
    In his U.N. address, the President explained why we should not 
allow the Iraqi regime to acquire weapons of mass destruction and 
issued a challenge to the international community: to enforce the 
numerous resolutions the U.N. has passed and Saddam Hussein has defied; 
to show that Security Council's decisions will not be cast aside 
without cost or consequence; to show that the U.N. is up to the 
challenge of dealing with a dictator like Saddam Hussein; and to show 
that the U.N. is determined not to become irrelevant.
    President Bush has made clear that the United States wants to work 
with the U.N. Security Council to deal with the threat posed by the 
Iraqi regime. But he made clear the consequences of Iraq's continued 
defiance: `` The purposes of the United States should not be doubted. 
The Security Council resolutions will be enforced . . . or action will 
be unavoidable. A regime that has lost its legitimacy will also lose 
its power.''
    The President has asked the Members of the House and the Senate to 
support the actions that may be necessary to deliver on that pledge. He 
urged that Congress act before the congressional recess. He asked that 
you send a clear signal--to the world community and the Iraqi regime--
that our country is united in purpose and ready to act. Only certainty 
of U.S. and U.N. purposefulness can have even the prospect of affecting 
the Iraqi regime.
    It is important that Congress send that message as soon as 
possible--before the U.N. Security Council votes. The Security Council 
must act soon, and it is important that the U.S. Congress signal the 
world where the U.S. stands before the U.N. vote takes place. Delaying 
a vote in Congress would send a message that the U.S. may be unprepared 
to take a stand, just as we are asking the international community to 
take a stand, and as Iraq will be considering its options.
    Delay would signal the Iraqi regime that they can continue their 
violations of the U.N. resolutions. It serves no U.S. or U.N. purpose 
to give Saddam Hussein excuses for further delay. His regime should 
recognize that the U.S. and the U.N. are purposeful.
    It was Congress that changed the objective of U.S. policy from 
containment to regime change by the passage of the Iraq Liberation Act 
in 1998. The President is now asking Congress to support that policy.
    A decision to use military force is never easy. No one with any 
sense considers war a first choice--it is the last thing that any 
rational person wants to do. It is important that the issues 
surrounding this decision be discussed and debated.
    In recent weeks, a number of questions have been surfaced by 
Senators, Members of Congress, and former Government officials. Some of 
the arguments raised are important. Just as there are risks in acting, 
so too there are risks in not acting.
    Those risks need to be balanced; to do so, it is critical to 
address a number of the issues that have been raised:
Some have asked whether an attack on Iraq would disrupt and distract 
        the U.S. from the global war on terror.
    The answer to that is: Iraq is a part of the global war on terror--
stopping terrorist regimes from acquiring weapons of mass destruction 
is a key objective of that war. We can fight all elements of this war 
simultaneously.
    Our principal goal in the war on terror is to stop another 
September 11--or a WMD attack that could make September 11 seem modest 
by comparison--before it happens. Whether that threat comes from a 
terrorist regime or a terrorist network is beside the point. Our 
objective is to stop them, regardless of the source.
    In his State of the Union address last January, President Bush made 
our objectives clear. He said: ``by seeking weapons of mass 
destruction, these regimes pose a grave and growing danger. They could 
provide these arms to terrorists, giving them the means to match their 
hatred. They could attack our allies or attempt to blackmail the United 
States. In any of these cases the price of indifference would be 
catastrophic.'' Ultimately, history will judge us all by what we do now 
to deal with this danger.
Another question that has been asked is this: The administration argues 
        Saddam Hussein poses a grave and growing danger. Where is the 
        ``smoking gun?''
    Mr. Chairman, the last thing we want is a smoking gun. A gun smokes 
after it has been fired. The goal must be to stop Saddam Hussein before 
he fires a weapon of mass destruction against our people. As the 
President told the United Nations last week, ``The first time we may be 
completely certain he has nuclear weapons is when, God forbid, he uses 
one. We owe it to . . . our citizens to do everything in our power to 
prevent that day from coming.'' If Congress or the world waits for a 
so-called ``smoking gun,'' it is certain that we will have waited too 
long.
    But the question raises an issue that it is useful to discuss--
about the kind of evidence we consider to be appropriate to act in the 
21st century.
    In our country, it has been customary to seek evidence that would 
prove guilt `` beyond a reasonable doubt'' in a court of law. That 
approach is appropriate when the objective is to protect the rights of 
the accused. But in the age of WMD, the objective is not to protect the 
``rights'' of dictators like Saddam Hussein--it is to protect the lives 
of our citizens. When there is that risk, and we are trying to defend 
against the closed societies and shadowy networks that threaten us in 
the 21st century, expecting to find that standard of evidence, from 
thousands of miles away, and to do so before such a weapon has been 
used, is not realistic. After such weapons have been used it is too 
late.
    I suggest that any who insist on perfect evidence are back in the 
20th century and still thinking in pre-September 11 terms. On September 
11, we were awakened to the fact that America is now vulnerable to 
unprecedented destruction. That awareness ought to be sufficient to 
change the way we think about our security, how we defend our country--
and the type of certainty and evidence we consider appropriate.
    In the 20th century, when we were dealing largely with conventional 
weapons, we could wait for perfect evidence. If we miscalculated, we 
could absorb an attack, recover, take a breath, mobilize, and go out 
and defeat our attackers. In the 21st century, that is no longer the 
case, unless we are willing and comfortable accepting the loss not of 
thousands of lives, but potentially tens of thousands of lives--a high 
price indeed.
    We have not, will not, and cannot know everything that is going on 
in the world. Over the years, even our best efforts, intelligence has 
repeatedly underestimated the weapons capabilities of a variety of 
countries of major concern to us. We have had numerous gaps of 2, 4, 6, 
or 8 years between the time a country of concern first developed a WMD 
capability and the time we finally learned about it.
    We do know: that the Iraqi regime has chemical and biological 
weapons of mass destruction and is pursuing nuclear weapons; that they 
have a proven willingness to use the weapons at their disposal; that 
they have proven aspirations to seize the territory of, and threaten, 
their neighbors; that they have proven support for and cooperation with 
terrorist networks; and that they have proven record of declared 
hostility and venomous rhetoric against the United States. Those 
threats should be clear to all.
    In his U.N. address, the President said ``we know that Saddam 
Hussein pursued weapons of mass murder even when inspectors were in his 
country. Are we to assume that he stopped when they left?'' To the 
contrary, knowing what we know about Iraq's history, no conclusion is 
possible except that they have and are accelerating their WMD programs.
    Now, do we have perfect evidence that can tell us precisely the 
date Iraq will have a deliverable nuclear device, or when and where he 
might try to use it? That is not knowable. But it is strange that some 
seem to want to put the burden of proof on us--the burden of proof 
ought to be on him--to prove he has disarmed; to prove he no longer 
poses a threat to peace and security. That he cannot do.
    Committees of Congress currently are asking hundreds of questions 
about what happened on September 11--pouring over thousands of pages of 
documents, and asking who knew what, when, and why they didn't prevent 
that tragedy. I suspect, that in retrospect, most of those 
investigating September 11 would have supported preventive action to 
pre-empt that threat, if it had been possible to see it coming.
    Well, if one were to compare the scraps of information the 
government had before September 11, to the volumes of information the 
government has today about Iraq's pursuit of WMD, his use of those 
weapons, his record of aggression and his consistent hostility toward 
the United States--and then factor in our country's demonstrated 
vulnerability after September 11--the case the President made should be 
clear.
    As the President said, time is not on our side. If more time 
passes, and the attacks we are concerned about come to pass, I would 
not want to have ignored all the warning signs and then be required to 
explain why our country failed to protect our fellow citizens.
    We cannot go back in time to stop the September 11 attack. But we 
can take actions now to prevent some future threats.
Some have argued that the nuclear threat from Iraq is not imminent--
        that Saddam is at least 5-7 years away from having nuclear 
        weapons.
    I would not be so certain. Before Operation Desert Storm in 1991, 
the best intelligence estimates were that Iraq was at least 5-7 years 
away from having nuclear weapons. The experts were flat wrong. When the 
U.S. got on the ground, it found the Iraqi's were probably 6 months to 
a year away from having a nuclear weapon--not 5 to 7 years.
    We do not know today precisely how close he is to having a 
deliverable nuclear weapon. What we do know is that he has a sizable 
appetite for them, that he has been actively and persistently pursuing 
them for more than 20 years, and that we allow him to get them at our 
peril. Moreover, let's say he is 5-7 years from a deliverable nuclear 
weapon. That raises the question: 5-7 years from when? From today? From 
1998, when he kicked out the inspectors? Or from earlier, when 
inspectors were still in country? There is no way of knowing except 
from the ground, unless one believes what Saddam Hussein says.
    But those who raise questions about the nuclear threat need to 
focus on the immediate threat from biological weapons. From 1991 to 
1995, Iraq repeatedly insisted it did not have biological weapons. 
Then, in 1995, Saddam's son-in-law defected and told the inspectors 
some of the details of Iraq's biological weapons program. Only then did 
Iraq admit it had produced tens of thousands of liters of anthrax and 
other biological weapons. But even then, they did not come clean. U.N. 
inspectors believe Iraq had in fact produced two to four-times the 
amount of biological agents it had declared. Those biological agents 
were never found. Iraq also refused to account for some three tons of 
materials that could be used to produce biological weapons.
    Iraq has these weapons. They are much simpler to deliver than 
nuclear weapons, and even more readily transferred to terrorist 
networks, who could allow Iraq to deliver them without fingerprints.
    If you want an idea of the devastation Iraq could wreak on our 
country with a biological attack, consider the recent ``Dark Winter'' 
exercise conducted by Johns Hopkins University. It simulated a 
biological WMD attack in which terrorists released smallpox in three 
separate locations in the U.S. Within 22 days, it is estimated it would 
have spread to 26 states, with an estimated 6000 new infections 
occurring daily. Within 2 months, the worst-case estimate indicated 1 
million people could be dead and another 2 million infected. Not a nice 
picture.
    The point is this: we know Iraq possesses biological weapons, and 
chemical weapons, and is expanding and improving their capabilities to 
produce them. That should be of every bit as much concern as Iraq's 
potential nuclear capability.
Some have argued that even if Iraq has these weapons, Saddam Hussein 
        does not intend to use WMD against the U.S. because he is a 
        survivor, not a suicide bomber--that he would be unlikely to 
        take actions that could lead to his own destruction.
    Then why is Iraq pursuing WMD so aggressively? Why are they willing 
to pay such a high price for them--to suffer a decade of economic 
sanctions that have cost them tens of billions in oil revenues--
sanctions they could get lifted simply by an agreement to disarm?
    One answer is that, as some critics have conceded, ``he seeks 
weapons of mass destruction . . . to deter us from intervening to block 
his aggressive designs.'' This is no doubt a motivation. But consider 
the consequences if they were allowed to succeed.
    Imagine for a moment that Iraq demonstrated the capacity to attack 
U.S. or European population centers with nuclear, chemical or 
biological weapons. Then imagine you are the President of the United 
States, trying to put together an international coalition to stop their 
aggression, after Iraq had demonstrated that capability. It would be a 
daunting task. His regime believes that simply by possessing the 
capacity to deliver WMD to Western capitals, he will be able to 
prevent--terrorize--the free world from projecting force to stop his 
aggression--driving the West into a policy of forced isolationism.
    That said, it is far from clear that he would not necessarily 
restrain from taking actions that could result in his destruction. For 
example, that logic did not stop the Taliban from supporting and 
harboring al Qaeda as they planned and executed repeated attacks on the 
U.S. Their miscalculation resulted in the destruction of their regime. 
Regimes without checks and balances are prone to grave miscalculations. 
Saddam Hussein has no checks whatsoever on his decision-making 
authority. Who among us really believes it would be wise or prudent for 
us to base our security on the hope that Saddam Hussein, or his sons 
who might succeed him, could not make the same fatal miscalculations as 
Mullah Omar and the Taliban?
    It is my view that we would be ill advised to stake our people's 
lives on Saddam Hussein's supposed ``survival instinct.''
Some have argued Iraq is unlikely to use WMD against us because, unlike 
        terrorist networks, Saddam has a ``return address.''
    Mr. Chairman, there is no reason for confidence that if Iraq 
launched a WMD attack on the U.S., it would necessarily have an obvious 
``return address.'' There are ways Iraq could easily conceal 
responsibility for a WMD attack. They could deploy ``sleeper cells'' 
armed with biological weapons to attack us from within--and then deny 
any knowledge or connection to the attacks. Or they could put a WMD-
tipped missile on a ``commercial'' shipping vessel, sail it within 
range of our coast, fire it, and then melt back into the commercial 
shipping traffic before we knew what hit us. Finding that ship would be 
like searching for a needle in a haystack--a bit like locating a single 
terrorist. Or they could recruit and utilize a terrorist network with 
similar views and objectives, and pass on weapons of mass destruction 
to them. It is this nexus between a terrorist state like Iraq with WMD 
and terrorist networks that has so significantly changed the U.S. 
security environment.
    We still do not know with certainty who was behind the 1996 bombing 
of the Khobar Towers in Saudi Arabia--an attack that killed 19 American 
service members. We still do not know who is responsible for last 
year's anthrax attacks. The nature of terrorist attacks is that it is 
often very difficult to identify who is ultimately responsible. Indeed, 
our consistent failure over the past 2 decades to trace terrorist 
attacks to their ultimate source gives terrorist states the lesson that 
using terrorist networks as proxies is an effective way of attacking 
the U.S. with impunity.
Some have opined there is scant evidence of Iraq's ties to terrorists, 
        and he has little incentive to make common cause with them.
    That is not correct. Iraq's ties to terrorist networks are long-
standing. It is no coincidence that Abu Nidal was in Baghdad when he 
died under mysterious circumstances. Iraq has also reportedly provided 
safe haven to Abdul Rahman Yasin, one of the FBI's most wanted 
terrorists, who was a key participant in the first World Trade Center 
bombing. We know that al Qaeda is operating in Iraq today, and that 
little happens in Iraq without the knowledge of the Saddam Hussein 
regime. We also know that there have been a number of contacts between 
Iraq and al Qaeda over the years. We know Saddam has ordered acts of 
terror himself, including the attempted assassination of a former U.S. 
President.
    He has incentives to make common cause with terrorists. He shares 
many common objectives with groups like al Qaeda, including an 
antipathy for the Saudi royal family and a desire to drive the U.S. out 
of the Persian Gulf region. Moreover, if he decided it was in his 
interest to conceal his responsibility for an attack on the U.S., 
providing WMD to terrorists would be an effective way of doing so.
Some have said that they would support action to remove Saddam if the 
        U.S. could prove a connection to the attacks of September 11--
        but there is no such proof.
    The question implies that the U.S. should have to prove that Iraq 
has already attacked us in order to deal with that threat. The 
objective is to stop him before he attacks us and kills thousands of 
our citizens.
    The case against Iraq does not depend on an Iraqi link to September 
11. The issue for the U.S. is not vengeance, retribution or 
retaliation--it is whether the Iraqi regime poses a growing danger to 
the safety and security of our people, and of the world. There is no 
question but that it does.
Some argue that North Korea and Iran are more immediate threats than 
        Iraq. North Korea almost certainly has nuclear weapons, and is 
        developing missiles that will be able to reach most of the 
        continental United States. Iran has stockpiles of chemical 
        weapons, is developing ballistic missiles of increasing range, 
        and is aggressively pursuing nuclear weapons. The question is 
        asked: why not deal with them first?
    Iran and North Korea are indeed threats--problems we take 
seriously. That is why President Bush named them specifically, when he 
spoke about an ``Axis of Evil.'' We have policies to address both.
    But Iraq is unique. No other living dictator matches Saddam 
Hussein's record of: waging aggressive war against his neighbors; 
pursuing weapons of mass destruction; using WMD against his own people 
and other nations; launching ballistic missiles at his neighbors; 
brutalizing and torturing his own citizens; harboring terrorist 
networks; engaging in terrorist acts, including the attempted 
assassination of foreign officials; violating his international 
commitments; lying, cheating and hiding his WMD programs; deceiving and 
defying the express will of the United Nations over and over again.
    As the President told the U.N., ``in one place--in one regime--we 
find all these dangers in their most lethal and aggressive forms.''
Some respond by saying, OK, Iraq poses a threat we will eventually have 
        to deal with--but now is not the time to do so.
    To that, I would ask: when? Will it be a better time when his 
regime is stronger? When its WMD programs are still further advanced? 
After he further builds his forces, which are stronger and deadlier 
with each passing day? Yes, there are risks in acting. The President 
understands those risks. But there are also risks in further delay. As 
the President has said: ``I will not wait on events, while dangers 
gather. I will not stand by as peril draws closer and closer. The 
United States of America will not permit the world's most dangerous 
regimes to threaten us with the world's most destructive weapons.''
Others say that overthrowing the regime should be the last step, not 
        the first.
    I would respond that for more than a decade now, the international 
community has tried every other step. They have tried diplomacy; they 
have tried sanctions and embargoes; they have tried positive 
inducements, such as the ``oil for food'' program; they have tried 
inspections; they have tried limited military strikes. Together, all 
these approaches have failed to accomplish the U.N. goals.
    If the President were to decide to take military action to 
overthrow the regime, it would be not the first step, it would be the 
last step, after a decade of failed diplomatic and economic steps to 
stop his drive for WMD.
Some have asked: why not just contain him? The West lived for 40 years 
        with the Soviet threat, and never felt the need to take pre-
        emptive action. If containment worked on the Soviet Union, why 
        not Iraq?
    First, it's clear from the Iraqi regime's 11 years of defiance that 
containment has not led to their compliance. To the contrary, 
containment is breaking down--the regime continues to receive funds 
from illegal oil sales and procure military hardware necessary to 
develop weapons of mass murder. So not only has containment failed to 
reduce the threat, it has allowed the threat to grow.
    Second, with the Soviet Union we faced an adversary that already 
possessed nuclear weapons--thousands of them. Our goal with Iraq is to 
prevent them from getting nuclear weapons. We are not interested in 
establishing a balance of terror with the likes of Iraq, like the one 
that existed with the Soviet Union. We are interested in stopping a 
balance of terror from forming.
    Third, with the Soviet Union, we believed that time was on our 
side--and we were correct. With Iraq, the opposite is true--time is not 
on our side. Every month that goes by, his WMD programs are progressing 
and he moves closer to his goal of possessing the capability to strike 
our population, and our allies, and hold them hostage to blackmail.
    Finally, while containment worked in the long run, the Soviet 
Union's nuclear arsenal prevented the West from responding when they 
invaded their neighbor, Afghanistan. Does anyone really want Saddam to 
have that same deterrent, so he can invade his neighbors with impunity?
Some ask: Why does he have to be overthrown? Can't we just take out the 
        capabilities he has that threaten us?
    While the President has not made that decision, the problem with 
doing it piecemeal is this: First, we do not know where all of Iraq's 
WMD facilities are. We do know where a fraction of them are. Second, of 
the facilities we do know, not all are vulnerable to attack from the 
air. Some are underground. Some are mobile. Others are purposely 
located near population centers--schools, mosques, hospitals, etc.--
where an air strike could kill large numbers of innocent people. The 
Iraq problem cannot be solved with air strikes alone.
Some have argued that, if we do have to go to war, the U.S. should 
        first layout details of a truly comprehensive inspections 
        regime, which, if Iraq failed to comply, would provide a casus 
        belli.
    I would respond this way: if failure to comply with WMD inspections 
is a casus belli, the U.N. already has it--Iraq's non-compliance with 
U.N. inspection regimes has been going on for more than a decade. What 
else can one ask for?
    The U.S. is not closed to inspections as an element of an effective 
response. But the goal is not inspections--it is disarmament. Any 
inspections would have to be notably different from the past. Given the 
history of this regime, the world community has every right to be 
skeptical that it would be. That is why, in 1998, the U.S. began to 
speak of regime change.
    Our goal is disarmament. The only purpose of any inspections would 
be to prove that Iraq has disarmed, which would require Iraq to reverse 
its decades-long policy of pursuing these weapons. Something they are 
unlikely to do.
    There are serious concerns about whether an inspections regime 
could be effective. Even the most intrusive inspection regime would 
have difficultly getting at all his weapons of mass destruction. Many 
of his WMD capabilities are mobile and can be hidden to evade 
inspectors. He has vast underground networks and facilities to hide 
WMD, and sophisticated denial and deception techniques. It is simply 
impossible to ``spot check'' a country the size of Iraq. Unless we have 
people inside the Iraqi program who are willing to tell us what they 
have and where they have it--as we did in 1995 with the defection of 
Saddam's son in law, Hussein Kamel--it is easy for the Iraqi regime to 
hide its capabilities from us.
    Indeed, Hans Blix, the chief U.N. Weapons inspector, said as much 
in an interview with the New York Times last week. According to the 
Times, ``[Mr. Blix] acknowledged that there were some limitations to 
what his team could accomplish even if it was allowed to return. Mr. 
Blix said his inspectors might not be able to detect mobile 
laboratories for producing biological weapons materials, or underground 
storehouses for weapons substances, if the inspectors did not have 
information about such sites from the last time they were in Iraq or 
have not seen traces of them in satellite surveillance photography.''
    When UNSCOM inspectors were on the ground, they did an admirable 
job of uncovering many of Iraq's violations--which is undoubtedly why 
Iraq had them expelled. But despite the U.N.'s best efforts, from 1991-
1995 Saddam was able to conceal some of his nuclear program and his 
biological weapons program. Some aspects were uncovered after his son-
in-law defected and provided information that allowed inspectors to 
find them. Even then, Iraq was able to hide many of those activities 
from inspectors--capabilities he most likely still has today, in 
addition to what he has developed in recent years.
    There is a place in this world for inspections. They tend to be 
effective if the target nation is cooperating--if they are actually 
willing to disarm and want to prove to the world that they are doing 
so. They tend not be as effective in uncovering deceptions and 
violations when the target is determined not to disarm. Iraq's record 
of the past decade shows the regime is not interested in disarming or 
cooperating. Their behavior demonstrates they want weapons of mass 
destruction and are determined to continue developing them.
Some ask: now that Iraq has agreed to ``unconditional inspections,'' 
        why does Congress need to act?
    Iraq has demonstrated great skill at playing the international 
community. When it's the right moment to lean forward, they lean 
forward. When it's a time to lean back, they lean back. It's a dance. 
They can go on for months or years jerking the U.N. around. When they 
find that things are not going their way, they throw out a proposal 
like this. Hopeful people say: ``There's our opportunity. They are 
finally being reasonable. Seize the moment. Let's give them another 
chance.'' Then we repeatedly find, at the last moment, that Iraq 
withdraws that carrot and goes back into their mode of rejecting the 
international community. The dance starts all over again.
    The issue is not inspections. The issue is disarmament. The issue 
is compliance. As the President made clear in his U.N. address, we 
require Iraq's compliance with all 16 U.N. resolutions that they have 
defied over the past decade. As the President said, the U.N. Security 
Council--not the Iraqi regime--needs to decide how to enforce its own 
resolutions. Congress's support for the President is what is needed to 
further generate international support.
Some have asked whether military intervention in Iraq means the U.S. 
        would have to go to war with every terrorist state that is 
        pursuing WMD?
    The answer is: no. Taking military action in Iraq does not mean 
that it would be necessary or appropriate to take military action 
against other states that possess or are pursuing WMD. For one thing, 
preventive action in one situation may very well produce a deterrent 
effect on other states. After driving the Taliban from power in 
Afghanistan, we have already seen a change in behavior in certain 
regimes.
    Moreover, dealing with some states may not require military action. 
In some cases, such as Iran, change could conceivably come from within. 
The young people and the women in Iran are increasingly fed up with the 
tight clique of Mullahs--they want change, and may well rise up to 
change their leadership at some point.
Some say that there is no international consensus behind ousting 
        Saddam--and most of our key allies are opposed.
    First, the fact is that there are a number of countries that want 
Saddam Hussein gone. Some are reluctant to say publicly just yet. But, 
if the U.S. waited for a consensus before acting, we would never do 
anything. Obviously, one's first choice in life is to have everyone 
agree with you at the outset. In reality, that is seldom the case. It 
takes time, leadership and persuasion. Leadership is about deciding 
what is right, and then going out and persuading others.
    The coalition we have fashioned in the global war on terror today 
includes some 90 nations--literally half the world. It is the greatest 
coalition ever assembled in the annals of human history. It was not 
there on September 11. It was built, one country at a time, over a long 
period of time. If we had waited for consensus, the Taliban would still 
be in power in Afghanistan today. The worldwide coalition was formed by 
leadership.
    During the Persian Gulf War, the coalition eventually included 36 
nations. But they were not there on August 2, 1990, when Saddam invaded 
Kuwait. They were not there on August 5, when the President George H.W. 
Bush announced to the world that Saddam's aggression ``will not 
stand.'' That coalition was built over a period of many months.
    With his U.N. speech, President George W. Bush began the process of 
building international support for dealing with Iraq. The reaction has 
been positive. We will continue to state our case, as the President is 
doing, and I suspect that as he does so, you will find that other 
countries in increasing numbers will cooperate and participate. Will it 
be unanimous? No. Does anyone expect it to be unanimous? No. Does it 
matter that it will not be unanimous? No. But does the U.S. want all 
the support possible--you bet. Just as we have in the coalition 
supporting the global war on terrorism.
    The point is: if our Nation's leaders do the right thing, others 
will follow and support the just cause--just they have in the global 
war against terror.
Some say that our European allies may reluctantly go along in the end, 
        but that U.S. intervention in Iraq would spark concern in the 
        Arab world--that not one country in that regions supports us, 
        and many are vocally opposed.
    That is not so. Saddam's neighbors are deathly afraid of him--and 
understandably so. He has invaded his neighbors, used weapons of mass 
destruction against them, and launched ballistic missiles at them. He 
aspires to dominate the region. The nations of the region would be 
greatly relieved to have him gone, and that if Saddam Hussein is 
removed from power, the reaction in the region will be not outrage, but 
great relief. The reaction of the Iraqi people will most certainly be 
jubilation.
Some ask, but will they help us? Will they give us access to bases and 
        territory and airspace we need to conduct a military operation?
    The answer is that the President has not decided to take military 
action, but, if he does, we will have all the support we need to get 
the job done. You can be certain of it.
Another argument is that military action in Iraq will be expensive, and 
        will have high costs for the global economy.
    That may be true. But there are also dollar costs to not acting--
and those costs could well be far greater. Consider: the New York City 
Comptroller estimates that the economic costs of the September 11 
attacks to New York alone were between $83 and $95 billion. He further 
estimated that New York lost 83,000 existing jobs and some 63,000 jobs 
the city estimates would have been created had the attacks not 
happened. One institute puts the cost to the national economy at $191 
billion--including 1.64 million jobs lost as a direct result of the 
September 11 attacks. Other estimates are higher--as much as $250 
billion in lost productivity, sales, jobs, advertising, airline revenue 
and the like. That is not to mention the cost in human lives, and the 
suffering of those who lost fathers and mothers, sons and daughters, 
sisters and brothers that day.
    We must not forget that the costs of a nuclear, chemical, or 
biological weapons attack would be far worse. The price in lives would 
be not thousands, but tens of thousands. The economic costs could make 
September 11 pale by comparison. Those are the costs that also must be 
weighed carefully. This is not mention the cost to one's conscience of 
being wrong.
Some have suggested that if the U.S. were to act it might provoke 
        Saddam Hussein's use of WMD. Last time, the argument goes, he 
        didn't use chemical weapons on U.S. troops and allies because 
        he saw our goal was not to oust him, but to push back his 
        aggression. This time, the argument goes, the opposite would be 
        true, and he would have nothing to lose by using WMD.
    That is an important point. The President made clear on March 13, 
2002 the consequences of such an attack. He said: ``We've got all 
options on the table because we want to make it very clear to nations 
that you will not threaten the United States or use weapons of mass 
destruction against us, our allies, or our friends.''
    There are ways to mitigate the risk of a chem-bio attack, but it 
cannot be entirely eliminated--it is true that could be a risk of 
military action. But consider the consequences if the world were to 
allow that risk to deter us from acting. We would then have sent a 
message to the world about the value of weapons of mass destruction 
that we would deeply regret having sent. A country thinking about 
acquiring WMD would conclude that the U.S. had been deterred by Iraq's 
chemical and biological weapons capabilities, and they could then 
resolve to pursue those weapons to assure their impunity. The message 
the world should want to send is the exact opposite. The message should 
be that Iraq's pursuit of WMD has not only not made it more secure, it 
has made it less secure--that by pursuing those weapons, they have 
attracted undesired attention to themselves.
    But if he is that dangerous, then that only makes the case for 
action stronger--because the longer we wait, the more deadly his regime 
becomes. If the world community were to be deterred from acting today 
by the threat that Iraq might use chemical or biological weapons, how 
will the U.N. feel when one day, Iraq demonstrates it has a deliverable 
nuclear weapon? The risks will only grow worse. If we are deterred 
today, we could be deterred forever--and Iraq will have achieved its 
objective. Will the world community be deterred until Iraq uses a 
weapon of mass destruction? Only then decide it is time to act.
    But I would suggest that even if Saddam Hussein were to issue an 
order for the use chemical or biological weapons, that does not mean 
his orders would necessarily be carried out. Saddam Hussein might not 
have anything to lose, but those beneath him in the chain of command 
most certainly would have a great deal to lose--let there be no doubt. 
He has maintained power by instilling fear in his subordinates. If he 
is on the verge of losing power, he may also lose his ability to impose 
that fear--and, thus, the blind obedience of those around him. Wise 
Iraqis will not obey orders to use WMD.
    If President Bush were to decide to take military action, the U.S. 
will execute his order and finish the job professionally--Saddam 
Hussein and his regime would be removed from power. Therefore, with 
that certain knowledge, those in the Iraqi military will need to think 
hard about whether it would be in their interest to follow his 
instructions to commit war crimes by using WMD--and then pay a severe 
price for that action. The United States will make clear at the outset 
that those who are not guilty of atrocities can play a role in the new 
Iraq. But if WMD is used all bets are off.
    I believe many in the Iraqi Armed Forces despise Saddam Hussein, 
and want to see him go as much as the rest of the world does. Those who 
may not despise him, but decide they would prefer to survive, may 
desert and try to blend into the civilian population or escape the 
country. This is what happened in Panama, when it became clear that 
Noriega was certain to be on his way out.
Some say that Saddam might succeed in provoking an Israeli response 
        this time--possibly a nuclear response--and that this would set 
        the Middle East aflame.
    We are concerned about the Iraqi regime attacking a number of its 
neighbors, and with good reason: Saddam Hussein has a history of doing 
so. Iraq has attacked Bahrain, Iran, Israel, Jordan, Kuwait, and Saudi 
Arabia. Iraq is a threat to its neighbors. We will consult with all of 
our allies and friends in the region on how to deal with this threat.
    But the fact that they have blackmailed their neighbors makes the 
case for action stronger. If we do nothing, that blackmail will 
eventually become blackmail with weapons of mass destruction--with 
significantly new consequences for the world.
Some have said the U.S. could get bogged down in a long-term military 
        occupation, and want to know what the plan is for a post-Saddam 
        Iraq?
    That is a fair question. It is likely that international forces 
would have to be in Iraq for a period of time, to help a new 
transitional Iraqi government get on its feet and create conditions 
where the Iraqi people would be able to choose a new government and 
achieve self-determination. But that burden is a small one, when 
balanced against the risks of not acting.
    In Afghanistan, our approach was that Afghanistan belongs to the 
Afghans--we did not and do not aspire to own it or run it. The same 
would be true of Iraq.
    In Afghanistan, the U.S. and coalition countries helped create 
conditions so that the Afghan people could exercise their right of 
self-government. Throughout the Bonn process and the Loya Jirga 
process, a new president was chosen, a new cabinet sworn in, and a 
transitional government, representative of the Afghan people, was 
established to lead the nation.
    If the President were to make the decision to liberate Iraq, with 
coalition partners, it would help the Iraqi people establish a 
government that would be a single country, that did not threaten its 
neighbors, the United States, or the world with aggression and weapons 
of mass destruction, and that would respect the rights of its diverse 
population.
    Iraq has an educated population that has been brutally and 
viciously repressed by Saddam Hussein's regime. He has kept power not 
by building loyalty, but by instilling fear--in his people, his 
military and the government bureaucracy. I suspect that there would be 
substantial defections once it became clear that Saddam Hussein was 
finished. Moreover, there are numerous free Iraqi leaders--both inside 
Iraq and abroad--who would play a role in establishing that new free 
Iraqi government. So there is no shortage of talent available to lead 
and rehabilitate a free Iraq.
    In terms of economic rehabilitation, Iraq has an advantage over 
Afghanistan. A free Iraq would be less dependent on international 
assistance, and could conceivably get back on its feet faster, because 
Iraq has a marketable commodity--oil.
Some have raised concerns that other countries elsewhere in the world 
        might take advantage of the fact that the U.S. is tied up in 
        Iraq, and use that as an opportunity to invade neighbors or 
        cause other mischief.
    There is certainly a risk that some countries might underestimate 
our capability to handle Iraq and stop their aggression at the same 
time. But let there be no doubt: we have that capability.
    Last year, we fashioned a new defense strategy, which established 
that we will and do have the capability to near simultaneously:

        <bullet> Defend the U.S. homeland;
        <bullet> Undertake a major regional conflict and win 
        decisively--including occupying a country and changing their 
        regime;
        <bullet> If necessary, swiftly defeat another aggressor in 
        another theater; and
        <bullet> Simultaneously conduct a number of lesser 
        contingencies--such as Bosnia, Kosovo, and Afghanistan.

    The United States can do the above, if called upon to do so.
Another argument is that acting without provocation by Iraq would 
        violate international law.
    That is untrue. The right to self-defense is a part of the U.N. 
Charter. Customary international law has long provided for the right of 
anticipatory self-defense--to stop an attack before it happens. In 
addition, he is in violation of multiple U.N. Security Council 
resolutions. Those concerned about the integrity of international law 
should focus on their attention his brazen defiance of the U.N.
Some ask: What has changed to warrant action now?
    What has changed is our experience on September 11. What has 
changed is our appreciation of our vulnerability--and the risks the 
U.S. faces from terrorist networks and terrorist states armed with 
weapons of mass destruction.
    What has not changed is Saddam Hussein's drive to acquire these 
weapons. Every approach the U.N. has taken to stop Iraq's drive for WMD 
has failed. In 1998, after Iraq had again kicked out U.N. inspectors, 
President Clinton came to the Pentagon and said:

        ``If [Saddam] fails to comply, and we fail to act, or we take 
        some ambiguous third route which gives him yet more 
        opportunities to develop his weapons of mass destruction . . . 
        and continue to ignore the solemn commitment he made. . . . he 
        will conclude that the international community has lost its 
        will. He will conclude that he can go right on and do more to 
        rebuild an arsenal of devastating destruction. . . . The stakes 
        could not be higher. Some day, some way, I guarantee you, he'll 
        use that arsenal.''

    At the time, the U.S. massed forces in the Persian Gulf, ready to 
strike. At the last minute, Iraq relented and allowed U.N. inspectors 
to return. But predictably, they kicked them out again 10 months later. 
They have not been allowed to return since. He has not only paid a 
price for that defiance, he has been rewarded for his defiance of the 
U.N. by increased trade from a large group of U.N. member nations.
    If, in 1998, Saddam Hussein posed the grave threat that President 
Clinton correctly described, then he most certainly poses a vastly 
greater danger today, after 4 years without inspectors on the ground to 
challenge his WMD procurement and development efforts. To those who 
still ask--that is what has changed!
Some have asked what are the incentives for Iraq to comply--is there 
        anything the Iraqi regime could do to forestall military 
        action? Or is he finished either way?
    Our objective is gaining Iraq's compliance. Our objective is an 
Iraq that does not menace its neighbors, does not pursue WMD, does not 
oppress its people or threaten the United States. The President set 
forth in his speech what an Iraqi regime that wanted peace would do. 
Everything we know about the character and record of the current Iraqi 
regime indicates that it is highly unlikely to do the things the 
President has said it must do. So long as Saddam Hussein is leading 
that country, to expect otherwise is, as the President put it, to 
``hope against the evidence.'' If Saddam Hussein is in a corner, it is 
because he has put himself there. One choice he has is to take his 
family and key leaders and seek asylum elsewhere. Surely one of the one 
hundred and eighty plus counties would take his regime--possibly 
Belarus.
Some ask does the U.S. needs U.N. support?
    The President has asked the U.N. Security Council to act because it 
is the U.N. Security Council that is being defied, disobeyed and made 
less relevant by the Iraqi regime's defiance. There have already been 
16 U.N. resolutions, every one of which Saddam Hussein has ignored. 
There is no shortage of U.N. resolutions. What there is is a shortage 
of consequences for Saddam's ongoing defiance of those 16 U.N. 
resolutions. The President has made the case that it is dangerous for 
the United Nations to be made irrelevant by the Iraqi regime.
    As the President put it in his address last week, ``All the world 
now faces a test, and the United Nations a difficult and defining 
moment. Are Security Council resolutions to be honored and enforced, or 
cast aside without consequence? Will the United Nations serve the 
purpose of its founding, or will it be irrelevant?''
    But the President has also been clear that all options are on the 
table. The only option President Bush has ruled out is to do nothing.
    Mr. Chairman, as the President has made clear, this is a critical 
moment for our country and for the world. Our resolve is being put to 
the test. It is a test that, unfortunately, the world's free nations 
have failed before in recent history--with terrible consequences.
    Long before the Second World War, Hitler wrote in Mein Kampf 
indicating what he intended to do. But the hope was that maybe he would 
not do what he said. Between 35 and 60 million people died because of a 
series of fatal miscalculations. He might have been stopped early--at a 
minimal cost of lives--had the vast majority of the world's leaders not 
decided at the time that the risks of acting were greater than the 
risks of not acting.
    Today, we must decide whether the risks of acting are greater than 
the risks of not acting. Saddam Hussein has made his intentions clear. 
He has used weapons of mass destruction against his own people and his 
neighbors. He has demonstrated an intention to take the territory of 
his neighbors. He has launched ballistic missiles against U.S. allies 
and others in the region. He plays host to terrorist networks. He pays 
rewards to the families of suicide bombers in Israel--like those who 
killed five Americans at the Hebrew University earlier this year. He is 
hostile to the United States, because we have denied him the ability he 
has sought to impose his will on his neighbors. He has said, in no 
uncertain terms, that he would use weapons of mass destruction against 
the United States. He has, at this moment, stockpiles chemical and 
biological weapons, and is pursuing nuclear weapons. If he demonstrates 
the capability to deliver them to our shores, the world would be 
changed. Our people would be at great risk. Our willingness to be 
engaged in the world, our willingness to project power to stop 
aggression, our ability to forge coalitions for multilateral action, 
could all be under question. Many lives could be lost.
    We need to decide as a people how we feel about that. Do the risks 
of taking action to stop that threat outweigh these risks of living in 
the world we see? Or is the risk of doing nothing greater than the risk 
of acting? That is the question President Bush has posed to Congress, 
to the American people, and to the world community.
    The question comes down to this: how will the history of this era 
be recorded? When we look back on previous periods of our history, we 
see there have been many books written about threats and attacks that 
were not anticipated:

        <bullet> At Dawn We Slept: The Untold Story of Pearl Harbor
        <bullet> December 7, 1941: The Day the Admirals Slept Late
        <bullet> Pearl Harbor: Final Judgment
        <bullet> From Munich to Pearl Harbor
        <bullet> While England Slept
        <bullet> The Cost of Failure

    The list of such books is endless. Unfortunately, in the past year, 
historians have added to that body of literature--there are already 
books out on the September 11 attacks and why they were not prevented. 
As we meet today, congressional committees are trying to determine why 
that tragic event was not prevented.
    Each is an attempt by the authors to ``connect the dots''--to 
determine what happened, and why it was not possible to figure out that 
it was going to happen.
    Our job today--the President's, Congress' and the U.N.'s--is to 
connect the dots before the fact, to anticipate vastly more lethal 
attacks before they happen, and to make the right decision as to 
whether we should take preventive action before it is too late.
    We are on notice--each of us. Each has a solemn responsibility to 
do everything in our power to ensure that, when the history of this 
period is written, the books won't ask why we slept--to ensure that 
history will instead record that on September 11, the American people 
were awakened to the impending dangers--and that those entrusted with 
the safety of the American people made the right decisions and saved 
our Nation, and the world, from 21st century threats.
    President Bush is determined to do just that.

    Chairman Levin. We are delighted to have Senator Thurmond 
with us, too. We join in your comments. It probably won't be 
the last time that you'll be testifying before Senator Thurmond 
retires, but, nonetheless, your sentiments are surely echoed by 
all of us.
    General Myers.

   STATEMENT OF GEN. RICHARD B. MYERS, USAF, CHAIRMAN, JOINT 
                        CHIEFS OF STAFF

    General Myers. Chairman Levin, Senator Warner, 
distinguished members of the committee, thank you for the 
opportunity to appear before you today.
    I would also like to take a minute to recognize Senator 
Thurmond for his 48 years of service to our Nation as a Member 
of Congress. He's been a champion for our Service men and women 
now for five decades. I think we also ought to recognize his 
service in the United States Army during World War II. That 
service is legendary, and he's an example for all the men and 
women in uniform today. Senator Thurmond, your departure will 
mark not just the retirement of a great Senator, but it will 
also mark the retirement of a prominent member of the greatest 
generation, and we wish you, Senator, and your family, all the 
best.
    Mr. Chairman, I request that my prepared statement be 
submitted for the record.
    Chairman Levin. It will be made part of the record.
    General Myers. I will make some short introductory remarks 
and then answer any questions you might have.
    I don't think I can add anything to what Secretary Rumsfeld 
has said on the threat that Iraq represents to America, our 
interests, or our allies. So let me tell you that our Nation's 
military forces are ready and able to do whatever the President 
asks of them.
    As a result of the support of Congress and the American 
public, your Armed Forces have made dramatic strides in the 
past decade, and I'll just cover three key areas. First, our 
intelligence, surveillance, and reconnaissance forces together 
with our enhanced command and control networks have given our 
joint war fighters a faster, more agile decision cycle than the 
one we had a decade ago. For our war fighters, this means that 
they have updated tactical information that is minutes to hours 
old, vice days old.
    Second, we have a much better power-projection capability. 
The strong congressional support for programs such as the C-17 
and the large medium-speed roll-on/roll-off ships has meant 
that we can deploy and sustain the force much better.
    Finally, our Nation's combat power has increased 
dramatically over the past decade. For example, the Joint 
Direct Attack Munition provides all of our bomber aircraft and 
the majority of our fighter aircraft with a day-night all-
weather precision-attack capability. Our ground forces have 
better and more accurate long-range weapons with the improved 
Army tactical missile system and a faster multiple-launch 
rocket system. Today we have sufficient forces to continue our 
ongoing operations, meet our international commitments, and 
continue to protect the American homeland.
    At the same time, some key units are in high demand. The 
mobilization of the Guard and Reserve have helped reduce the 
stress on some of these key units. Any major combat operation 
will, of course, require us to prioritize the task given to 
such units.
    While our military capabilities have improved over the past 
decade, the foundation of our success remains our soldier, 
sailors, airmen, marines, and coast guardsmen--and when I say 
that, I also include our civilians and the Reserve component, 
obviously, are all wrapped up in there. It's their superior 
training, leadership, and discipline that are the core of our 
effectiveness. In my view, these qualities are the reason that 
our men and women in uniform enjoy respect and high regard of 
other professional militaries around the world. It's also for 
these reasons that our military forces are such effective 
partners in coalition operations.
    Once again, Mr. Chairman, I welcome the opportunity to be 
here today to tell you that our Nation's joint forces can 
accomplish whatever mission the Nation needs them to do.
    [The prepared statement of General Myers follows:]
           Prepared Statement by Gen. Richard B. Myers, USAF
    I welcome the opportunity to share with you the nature of the 
threat that the Iraqi regime presents to the United States, our forces 
and our allies. I also welcome this chance to share with you what you 
the improved capabilities our Armed Forces possess today.
                               iraq today
    As it has for the past decade, the Iraqi regime remains a 
significant threat to our interests and those of our allies. Despite 
the presence of U.N. sanctions, Iraq has repaired and sustained key 
elements of its offensive, conventional forces. Iraqi armed forces 
maintain over 2,000 main battle tanks, more than 3,500 armored 
personnel carriers, and more than 2,000 pieces of artillery. Today, 
Iraqi ground forces have 23 divisions, to include 6 Republican Guard 
divisions. Its Air Force operates over 50 key air defense radars and 
has about 300 jet aircraft, to include a limited number of Mirage F-1s 
and MiG-29 Fulcrum aircraft.
    Since 2000, Iraq's air defense forces have engaged coalition forces 
enforcing the U.N. mandated No-Fly Zones over Northern and Southern 
Iraq more than 2,300 times. Since August of 2001, Iraqi hostile actions 
have downed 3 Predator Unmanned Aerial Vehicles. In the last 2 weeks, 
over 25 coalition aircraft enforcing the No-Fly Zones have been engaged 
by Iraqi anti-aircraft and surface-to-air missiles.
    Despite these hostile actions, in the aggregate, the regime's 
military forces are down by roughly 50 to 60 percent, compared to 1990. 
Poor morale is reportedly widespread in many units and the quality of 
training is low. Iraqi forces employ aging weapon systems. Nonetheless, 
Iraq continues to invest heavily in rebuilding its military, including 
air defense systems and command and control networks. The Iraqi army 
also has preserved some limited country-wide mobility for its armored 
forces. The nature and type of these military forces are similar to the 
offensive capability Iraq used to invade Iran, to invade Kuwait, to 
attack the Kurds, and to crush popular uprisings against Saddam's 
regime.
    At the same time, Iraq's weapons of mass destruction (WMD) program 
represents a greater threat to American lives, our interests and those 
of our allies and friends. When U.N. inspection teams were forced to 
leave Iraq in 1998, they documented that Iraq had failed to fulfill 
U.N. disarmament mandates and to accurately account for its most 
dangerous weapons. In response to ejecting those inspectors, the U.S. 
and our coalition partners conducted Operation Desert Fox in December 
1998. In 70 hours, the coalition dealt a limited blow to Iraq's WMD and 
missile programs. At the time, we estimated that we set back its 
programs by 6 months to a year. In the 4 years since, Iraq has 
continued to develop chemical weapons, primarily mustard agent, the 
nerve agent Sarin, and VX--an extremely potent nerve agent. Prior to 
1991, Iraq produced at least 28,000 filled chemical munitions and 
almost certainly many more.
    Iraq has also invested heavily into developing biological agents. 
After years of denying it had any offensive biological weapons, in 
1995, the Iraqi regime admitted to the U.N. that it had produced more 
than 30,000 liters of concentrated biological warfare agents. To put in 
comparison, a year ago, trace amounts of anthrax infected 22 persons in 
the U.S. and killed 5 Americans. UNSCOM estimated that Iraqi officials 
were misleading and that Baghdad could have produced 2-4 times more 
agents. Moreover, the U.N. was unable to account for nearly 200 
biological bombs and missile warheads Iraq claims it destroyed in 1991.
    Iraq retains the ability to deliver these chemical and biological 
weapons with aircraft, artillery shells, or missiles. Two years ago, it 
displayed an array of new missiles and has begun fielding them with its 
military forces this year. These weapons, known as the Al Samoud and 
Ababil-100 missiles, violate U.N. resolutions because they are capable 
of reaching beyond the 150-kilometer range limit imposed on Iraqi 
missiles and rockets.
    With regards to nuclear weapons, Iraq continues to vigorously 
pursue this capability. In 2000, the International Atomic Energy Agency 
estimated that Iraq could have a nuclear weapon within 2 years. We do 
not know definitively how long it will be until it creates an 
operational nuclear capability. With foreign assistance, Iraq could 
have such a weapon in a few years or much sooner if it is able to 
obtain sufficient fissile materials from a foreign source.
    But, we know, without any doubt, that Iraq values these clandestine 
programs. Iraq has developed elaborate deception and dispersal efforts 
aimed at preventing us and the rest of the world from learning about 
its WMD capabilities. As a result, we do not know the exact location of 
many of Iraq's WMD resources.
    We also know that Iraq has demonstrated a willingness to use such 
indiscriminate weapons. The regime has used WMD against the citizens of 
Iraq and Iran. It has used Scud missiles against cities in Israel, 
Saudi Arabia, Iran, and tried to hit Bahrain. In fact, Iraq has used 
weapons of mass destruction more against civilians than against 
military forces.
    The Iraqi regime has also allowed its country to be a haven for 
terrorists. Since the 1970s, organizations such as the Abu Nidal 
Organization, Palestinian Liberation Front and Mujahadeen-e-Khalq have 
found sanctuary within Iraq's borders. Over the past few months, with 
the demise of their safe haven in Afghanistan, some al Qaida operatives 
have relocated to Iraq. Baghdad's support for international terrorist 
organizations ranges from explicit and overt support to implicit and 
passive acquiescence.
    Iraq is governed by a terrorist regime. From a military 
perspective, Iraq's conventional forces and WMD programs represent a 
threat to the region, our allies and U.S. interests.
                    u.s. military capabilities today
    Our Nation's military forces enjoy the respect of the vast majority 
of countries and their armed forces. This respect stems from our 
forces' professional skills, superior intelligence assets, agile power 
projection capability, unique C\2\ networks and the lethal combat power 
that our Joint Team brings to the fight. As we have done in Operation 
Desert Storm, in Bosnia, in Kosovo and most recently in Afghanistan, 
our Armed Forces are always ready to integrate the military 
capabilities of our allies and partners into a decidedly superior, 
coalition force.
    In a contest between Iraq's military forces and our Nation's Armed 
Forces, the outcome is clear. Our joint warfighting team, in concert 
with our partners, can and will decisively defeat Iraqi military 
forces.
    Many will remember the results of the last encounter between our 
coalition forces and Iraq 11 years ago. Since then, U.S. combat power 
has improved. Today, our Nation's joint warfighting team enjoys 
improved intelligence, command and control, is more deployable and 
possesses greater combat power. Let me briefly address each of these 
areas.
    In terms of intelligence, surveillance, and reconnaissance 
capability, our operations over Afghanistan demonstrated our improved 
ability to observe the enemy. Our network of sensors, combined with the 
improved flow of tactical information to commanders and warfighters at 
all levels, have allowed us to react faster to a fluid battlefield 
environment. In Operation Desert Storm, our only unmanned aerial 
vehicle, the Pioneer, was limited to a 5-hour sortie and restricted to 
line-of-sight from its command center. Today, Predator and Global Hawk 
provide our forces day and night surveillance capability for extended 
periods of time far over the horizon.
    In a similar manner, our warfighters have more updated intelligence 
for their mission. In Operation Desert Storm, pilots used target photos 
that were often 2-3 days old. Determining accurate coordinates often 
required 24 hours and was done exclusively in the rear echelon in the 
United States. This process was good, but not as responsive as it 
needed to be. Today, our aircrews have photos that are often only hours 
old and can determine coordinates for precision engagement in just 20 
minutes.
    A critical component of the information needed by our warfighting 
commanders is to monitor and detect the presence of chemical and 
biological agents in the tactical environment. Today, our forces have 
an improved ability to detect suspected Iraqi chemical and biological 
agents.
    Our command and control systems have also improved. Today, U.S. 
Army ground commanders have vastly improved capabilities for tracking 
the real-time locations of their tactical units. Our air operations 
have undergone an improved ability to track key enemy forces, friendly 
units, and to obtain faster assessment of the effects of our attacks. 
The Joint Force Air Component Commander in Operation Enduring Freedom 
repeatedly demonstrated the ability to re-task all aircraft while 
airborne and strike emerging targets quickly, in some cases in as 
little as 2 hours. Also, our Maritime Component Commanders can now plan 
a Tomahawk Land Attack Missile mission in a matter of a few hours, when 
a decade ago it required at least 2 days.
    The Nation's ability to get to a crisis, with the right forces, to 
execute operations on our timeline has improved over the past decade. 
With the strong support of Congress, we invested in our deployment 
infrastructure and equipment to allow operational units to deploy 
faster and arrive better configured to fight. Since 1991, congressional 
support of strategic power projection capabilities such as the C-17 
aircraft, Large-Medium Speed Roll-On/Roll-Off (LMSR) ship program and 
both afloat and ground based, pre-positioned combat unit sets, 
contribute significantly to our combat capability.
    Additionally, we continue to work with the Nation's medical experts 
at the Health and Human Services Department to ensure every member of 
our Armed Forces will be fully prepared medically with immunizations 
against potential biological threats. This September, we resumed 
immunizations against anthrax for military personnel in select units.
    These improvements allow our Nation's military to gather 
intelligence, plan operations, deploy, and execute combat missions much 
faster than 11 years ago. These improvements ensure that we have a 
faster decision cycle than our opponent. These enhancements equate to 
flexibility and agility in combat, which directly translates into a 
superior force.
    Equally dramatic has been our improvement in the combat power of 
our forces. In Operation Desert Storm, only 18 percent of our force had 
the ability to employ laser guided bombs (LGBs). Of the more than 
200,000 bombs employed, only 4 percent were LGBs. Today, all of our 
fixed-wing combat aircraft have a range of precision attack capability. 
In addition, all of our bombers and 5 of our 7 primary air-to-ground 
fighter weapon systems have all-weather precision attack capability 
with the Joint Direct Attack Munition.
    The results of these enhancements are measured in numerous ways. 
For example, on the first night of our combat operations in 
Afghanistan, we employed 38 fighter and bomber aircraft to attack 159 
separate targets. All aircraft employed precision weapons. Had we 
relied on a Operation Desert Storm equipped force, we would have needed 
roughly 450 aircraft to gain the same level of destruction. In 
Operation Desert Storm, we could not have afforded this size force 
against so few targets. So in 1991, we used selected precision weapons 
from F-111s, F-117s, and A-6s on key targets that had to be destroyed. 
On the rest of the targets, we accepted a lower degree of damage. In 
1991, our attacks required good weather between the aircraft and its 
target. In Afghanistan, weather was often not a major factor.
    The combat power of our Army and Marine forces has improved as 
well. We have significantly improved the quality and quantity of Army 
Tactical Missile System (ATACMS) with wide-area and GPS aided missiles. 
Our Multiple Launch Rocket System (MLRS) has significantly improved its 
fire rate. Our M-1 tanks continue to have the ability to identify and 
destroy an Iraqi T-72 tank at twice the range that it can identify and 
fire at our tanks. Our Bradley Fighting Vehicles, equipped with 
upgraded fire control systems, now have the ability to fire accurately 
while on the move. The addition of the Longbow to Apache helicopter 
units has given those forces the ability to destroy twice as many enemy 
vehicles in roughly half the time--with improved survivability. 
Finally, some of our soldiers and marines now have the Javelin fire-
and-forget anti-tank system that adds a dramatic new weapon to their 
fight.
    Today, we have made similar improvements to virtually all aspects 
of our joint team. Through tough, realistic training, our soldiers, 
sailors, airmen, marines, and coast guardsmen are a ready, capable 
fighting force. Individually, these improvements are significant. 
Combined, they reflect an improved joint warfighting team. We still 
have much to do in regards to fully transforming our forces for the 
21st century, but there should be no doubt that, if called upon, our 
Armed Forces will prevail in any conflict.
    Our Armed Forces are capable of carrying out our defense strategy. 
We do have sufficient capability to conduct effective operations 
against Iraq while maintaining other aspects of the war on terrorism, 
protecting the U.S. homeland, and keeping our commitments in other 
regions of the world. Our on-going operations require approximately 15 
to 20 percent of our major combat units, such as carriers, fighter and 
bomber aircraft, and heavy and light Army divisions. The chart below 
reflects the major combat forces currently deployed to operations or 
committed overseas.

------------------------------------------------------------------------
                     Force                         Total      Committed
------------------------------------------------------------------------
AF Fighters...................................         1597          360
Bombers.......................................          115           10
Carriers......................................           12            2
ARG/MEU.......................................           12            3
Heavy Divisions...............................           13            2
Light Divisions...............................            5            1
Armored Cav Rgt...............................            3            0
SF Groups.....................................            7            2
------------------------------------------------------------------------

    There are some unique units that are in high demand. Such 
capabilities mainly involve command and control assets, intelligence 
platforms, Special Operations Forces, Combat Rescue Forces, and similar 
select units. Mobilization of Guard and Reserve forces has been key to 
mitigating the current stress on some of these units. If our operations 
on the war on terrorism are expanded, we will be required to prioritize 
the employment of these enabling units. In this regard, our coalition 
partners may facilitate our combined operations by having similar units 
or forces. Where possible, we will leverage the best available 
capability to the mission required.
    We also have sufficient resources to logistically support our 
combat operations. For example, our current stockpile of precision 
weapons has been increased in recent months due to the solid support of 
Congress and the tremendous potential of our Nation's industrial base. 
Along with the significant improvements in deployability I mentioned 
earlier, we continue to exploit the best of logistics information 
technologies to ensure we know what the combat commander in the field 
needs, where those supplies are located world-wide, and to track those 
supplies from the factory or depot to the troops at the front.
    Our military planning will include operations to facilitate 
humanitarian assistance and civil affairs. Our efforts in Afghanistan 
have demonstrated that these efforts can be as important as 
conventional operations on the battlefield.
    Our ability to accomplish our current missions is predicated on the 
availability of funds for current operations. To continue Operation 
Noble Eagle and to prosecute the War on Terrorism into fiscal year 
2003, it is imperative that our Armed Forces have access to the full 
$10 billion War Operational Contingency Reserve Fund that is part of 
the fiscal year 2003 Defense Budget Request. Moreover, it is vital that 
these funds be made available strictly for warfighting as requested, so 
that our forces will have the maximum flexibility to react to dynamic 
operational requirements and to address emerging needs, as they arise.
                               conclusion
    For these reasons, the Joint Chiefs and I are confident that we can 
accomplish whatever mission the President asks of our Armed Forces. We 
are prepared to operate with our coalition partners. As before, we will 
be prepared to operate in a chemical or biological environment. Every 
day, our soldiers, sailors, airmen, marines, and coast guardsmen have 
dedicated their lives and their professional skill to protect American 
lives and our interests worldwide. The men and women wearing the 
uniform of our Nation have translated the technologies I described into 
combat power that will allow us to protect our Nation and interests. 
With the support of the American public and Congress, we will prevail 
in any conflict.

    Chairman Levin. Thank you, General Myers. As I indicated, 
we'll have a round of 6 minutes, on the early-bird rule.
    Secretary Rumsfeld, you said in June that because we have 
underfunded and overused our forces, we find: we're short a 
division; we're short aircraft; we've been underfunding aging 
infrastructure facilities; we're short on high-demand, low-
density assets; the aircraft fleet is aging at a considerable 
and growing cost to maintain; the Navy is declining in numbers; 
and we are steadily falling below accepted readiness standards. 
It's been pointed out by a number of people regularly, and 
General Myers today, who testified that if our operations on 
the war on terrorism are expanded, we'll be required to 
prioritize the employment of enabling units.
    Both of you have testified that we are stretched mighty 
thin already, and I'd like you to explain, if you can, how we 
can carry out this significant additional commitment with the 
forces that we now have that are already stretched thin?
    Secretary Rumsfeld. I'd make four points. One is that the 
executive branch and the legislative branch have, in the past 
two periods, increased the budget of the Department of Defense 
in a considerable amount.
    Second, under the emergency authority of the President, 
we've called up something in excess of 70,000 Reserves and some 
20,000 stop losses of people who would normally have gotten out 
who have not gotten out.
    Third, we have been in the process of trying to move more 
and more people in uniform out of activities that don't require 
a person in uniform and back into things that do require people 
in uniform.
    Fourth, we have been drawing down our forces. For example, 
in Bosnia, Kosovo, and in other parts of the globe where we 
felt it was a static situation, we began moving them out in 
ways in cooperation with our allies and our friends.
    Chairman Levin. Thank you.
    General Myers, some have suggested that the U.S. military 
invasion of Iraq would be a ``cakewalk.'' Give us your 
characterization, if you would, of what we can expect.
    General Myers. The senior leadership, civilian or military, 
does not think that any combat operation is a cakewalk. 
Certainly if the President were to ask us to conduct combat 
operations in Iraq, that's certainly not how I would 
characterize it. Anytime you put the lives of our sons and 
daughters at risk, calling it a cakewalk is doing a disservice 
to them and to the country.
    What we do know--and it's in my written statement--that the 
Iraqi forces over the past decade, for the most part, are less 
effective than they probably were 10 years ago. That is in all 
sectors like their command and control. They've done a lot of 
work in fiber optics, so they're probably a little bit better 
there along with their air defenses. Clearly in their weapons 
of mass destruction, they have improved. They've had since 1998 
to continue and increase their production of weapons of mass 
destruction, and that would be one of the things you'd be 
concerned about in a potential conflict.
    On the other hand, as I mentioned in my opening statement, 
the United States forces are much better, as well.
    Chairman Levin. Thank you.
    Mr. Secretary, in your judgment, is there any chance at all 
that Saddam Hussein would open Iraq to full inspections and 
disarmament if the alternative that he knew he faced was to be 
destroyed and removed from power?
    Secretary Rumsfeld. I suspect that anyone's guess on that 
is as good as anyone else's. There certainly have been leaders 
in the world--dictators particularly--who have seen their run 
end and the game play out; they've taken their families and 
some of their close supporters and gone and lived in another 
country in some sort of asylum. That's, I supposed, a 
calculation.
    The other calculation would be to admit to the world that 
for the last period of years he had been lying and he does, in 
fact, have these capabilities, but say, ``That's all right, the 
world can come in now.'' It would have to come in such large 
numbers and so intrusively just to find the weapons of mass 
destruction. They're so well buried, they're so well dispersed, 
and they're in so many different locations that it would take a 
massive intrusion into his country and his way of life. I just 
don't know which choice he might take as an alternative.
    Chairman Levin. Do you agree with the intelligence 
community that the retention of power is Saddam Hussein's 
number one goal?
    Secretary Rumsfeld. He certainly is a survivor. I mean, he 
killed people to get into the job in a coup, and he's managed 
to kill off a lot of people to stay in there. I suspect that 
one of the first things he thinks about when he gets up in the 
morning is retaining power.
    Chairman Levin. Is it the last thing he thinks about when 
he goes to bed at night?
    Secretary Rumsfeld. He seems to go to bed at night in a 
different bed every night.
    Chairman Levin. Wherever he goes to bed, do you believe, 
with the intelligence community, that that is the first and 
last thing he thinks about during the day?
    Secretary Rumsfeld. Well, I guess I'm not part of the 
intelligence community. But there's no question, he's survived.
    Chairman Levin. Given that you believe and testified that 
agreeing to inspections is a dance or a ruse, is there any 
purpose in a return of U.N. weapons inspectors?
    Secretary Rumsfeld. Well, I think that's really a question 
for the President and Secretary Powell. Colin is working on 
that with his U.N. colleagues, and the President, needless to 
say, is addressing it with him and with the National Security 
Council. The U.N. inspection program was much stricter in the 
first period when it was called UNSCOM than it was more 
recently when it was called UNMOVIC, and there have been a lot 
of instances where they've walked back and weakened the 
inspection program that existed in that earlier period.
    There's no doubt in my mind that the inspection program 
that currently is on the books wouldn't work, because it's so 
much weaker than the earlier one. We know the earlier one had 
some real successes and did end up destroying a good deal of 
material. But we know that there were enormous quantities of 
things that were unaccounted for.
    One of the problems is that you get information from 
defectors and people who are willing to tell you something. 
Unless their families are outside of Iraq, they're not going to 
tell you, because they're going to be killed and their families 
are going to be killed. So it's a very complicated problem; I'm 
not an expert on it, so the Department of State's working on it 
with our U.N. colleagues.
    Chairman Levin. Thank you. My time has expired.
    Senator Warner.
    Senator Warner. Mr. Chairman, thank you.
    Mr. Secretary, General Myers very forthrightly just said 
that the conventional forces possessed by Saddam Hussein today 
are somewhat less than he had in the 1990/1991 period--I think 
we all agree with that--but that his inventory of weapons of 
mass destruction has risen appreciably to a level far greater 
than any he'd ever require for defensive actions to protect the 
sovereignty of his country. So he's using them, or amassing 
these weapons, in all likelihood, for offensive action and 
possibly export. But as the calculus is made, should force be 
needed--but I repeat, our President has said he didn't declare 
war when he spoke out the U.N.; he's only seeking action by 
them despite the loose talk about war. The point I wish to make 
is if Saddam's conventional is down, is he more likely then to 
have to resort to the use of weapons of mass destruction should 
military action be taken? What are the increased risks to those 
in uniform who undertake that action? Are we prepared?
    Secretary Rumsfeld. I'll let General Myers comment on the 
precautions that are taken so that men and women in uniform can 
function in the event of such an attack.
    To go the first part of your question, he can't do it 
himself. He can't use weapons of mass destruction by himself. 
He's running, he's moving around, and he's constantly looking 
out for his own life. He would have to persuade other people. 
It would be our task to do everything humanly possible to 
explain to the Iraqi people that we recognize that the bulk of 
the Iraqi people are hostages to a very vicious regime. If you 
think back to Operation Desert Storm, the Gulf War, something 
like 70,000 to 80,000 Iraqi soldiers surrendered in the first 
three and a half days. Several hundred tried to surrender to a 
newsman who didn't even have a weapon.
    There are an awful lot of people who aren't very pleased 
with the Saddam Hussein regime, and he has to use some of those 
people to use weapons of mass destruction. We would have to 
make very clear to them that what we're concerned about in Iraq 
is the Saddam Hussein regime, and the regime is not all the 
soldiers and it's not all the people, and that they ought to be 
very careful about functioning in that chain of command for 
weapons of mass destruction.
    Senator Warner. Do we read in that there's a presumption 
that he has delegated the authority to initiate the use of 
those weapons, in all probability, to a level below him 
involving one or more persons?
    Secretary Rumsfeld. I don't want to get into that question 
of command and control in that country. I will say this, that 
you cannot physically do it yourself, just like the President 
of the United States can't physically fly an airplane, make a 
ship go from one place to another, launch a rocket, or drop a 
bomb. You need other people. Those people I don't believe think 
very highly of that regime.
    Senator Warner. General Myers, as to the military analysis, 
as the conventional forces come down, he has to rely on weapons 
other than conventional to a greater degree, correct?
    General Myers. Senator Warner, I think the answer is that 
it's really unknowable how the regime would use weapons of mass 
destruction, but you'd have to plan on worst case. You'd have 
to assume they would be used.
    We are somewhat better off than we were a decade ago. The 
protective equipment has improved over time. It's still 
cumbersome, more cumbersome than it should be, but it's much 
better than it was a decade ago, and much better than when I 
was wearing it out in the field.
    We have better early warning and netting of our sensors 
today, so better detection capability and to tell what kind of 
attack we're under. Of course, one of the things you'd think 
about doing would be attacking his delivery means or his 
weapons of mass destruction. As the Secretary said, we don't 
know where all of that is, so that would be problematic. But as 
it develops, that would be one of the things that General 
Franks would pay a lot of attention to. If he ever has do this, 
he would pay attention to them getting ready with their weapons 
of mass destruction.
    Senator Warner. I think what you are saying is reassuring 
and important to have as a part of this record.
    I'd like to go to a second point. Of recent, there are 
individuals who have expressed a knowledge that within the 
Pentagon today there's considerable dissent, or whatever 
quantum they said, among senior officers as to the advisability 
of initiating the use of force in Iraq, should that become 
necessary. I'd like to explore that.
    I go back again to the Goldwater-Nichols Act, which this 
committee wrote and we carefully put in there many years ago, 
that the views of senior officers can be shared with Congress. 
Now, I remember 12 years ago, on September 11, 1990, in a 
situation remarkably similar to the hearing we're having today, 
I then asked Chairman of the Joint Chiefs of Staff, Colin 
Powell, this question, quote, ``The law now provides for 
individual members of the Joint Chiefs to express their views 
if they have views inconsistent with those of the Secretary and 
the Chairman.''
    In this instance, I presume there is full consultation 
among all members of the Joint Chiefs of Staff. Now, I can 
understand, from my experience in the Pentagon during Vietnam, 
the seniors were asked to give their different views. As a 
matter of fact, it's some of those views that were given to 
Secretary Laird, Secretary Schlesinger and others that resulted 
in our policies in those days. I remember those meetings very 
well. I think that's proper.
    But I guess I'm probing to determine whether or not there's 
any significant level of dissent which causes you trouble in 
coming forward today and saying, ``We are prepared to undertake 
such missions as may be directed by the President.''
    General Myers. Senator Warner, I'll just keep it real 
short. Absolutely not.
    Senator Warner. Thank you.
    Secretary Rumsfeld.
    Secretary Rumsfeld. Yes, anyone with any sense has concerns 
about the use of force, because you simply do not put people's 
lives at risk without have a darn good reason and having 
thought it through. General Myers, General Pace, and I spend a 
good deal of time looking at the things that can go wrong--the 
down sides like what could be a problem, what could be a 
difficulty, what is the worst case here, and the worst case 
there. I don't know a single civilian or military person who's 
involved in thinking about these problems in the Department of 
Defense who doesn't have concerns. One would be a fool not to.
    Senator Warner. Yes.
    Secretary Rumsfeld. I read what you read in the paper. I 
think it's inaccurate. I meet with the Chiefs. I meet with the 
Vice Chiefs. I meet with the combatant commanders. I hear what 
they say and I know what they think. I meet with civilian 
leadership. My impression is that there are people across the 
spectrum, both in the uniform and outside the uniform, and I 
urge the committee to call up anyone you want and ask them 
anything you want. Let's hear what they have to say.
    Senator Warner. I think that's clear.
    My time is up, Mr. Chairman.
    Chairman Levin. Thank you very much.
    Senator Kennedy.
    Senator Kennedy. Thank you.
    Mr. Secretary, in response to the earlier question, you 
indicated that Saddam Hussein can't use these weapons of mass 
destruction himself. He has to persuade other people and he 
needs other people. Is it your intelligence now that he has 
persuaded other people and that they are in a go mode, or 
hasn't he done that at this time?
    Secretary Rumsfeld. We have no way to know. My impression 
is that if you asked any of those high level people today, they 
would say they're totally loyal to their leader, and one will 
not know until one gets to that moment.
    Senator Kennedy. Well, I guess your answer then is, if he 
says go, they'll go. Is what I'm just hearing back from you?
    Secretary Rumsfeld. No, you're misunderstanding me. What I 
am saying is, if he says go, those people better think very 
carefully about whether that's how they want to handle their 
lives.
    Senator Kennedy. Well, I want to join with those that 
recognize the great danger of Saddam Hussein and commend the 
President for going to the United Nations to try and find out a 
way of dealing with these weapons of mass destructions. Clearly 
there are risks if we take no action. We know that Saddam has 
used the weapons before, but many analysts believe that 
Saddam's on notice now and that he'll use these weapons only if 
his regime is about to fall. In that case, he will use 
everything at his disposal.
    My question is, what is the basis of your judgment that 
there's a higher risk if we don't go to war than if we do, 
since many believe that Saddam will use the weapons of mass 
destruction if his back is against the wall and his regime is 
about to fall?
    Secretary Rumsfeld. Well, let me reverse it. If the 
argument goes ``one must not do anything because he has weapons 
of sufficient power that they could impose destruction on us 
that would be at an unacceptable level,'' then the next step 
would be that, if that's the conclusion, then in 1 year, 2 
years, 3 years, and he has even more powerful weapons, a 
nuclear weapon, and longer-range capabilities, then he is able 
to use those weapons of terror to terrorize the rest of the 
world, including the United States. It's kind of like feeding 
an alligator hoping it eats you last.
    Senator Kennedy. Well, I'm asking the question. This might 
not be 1 year, 2 year, 3 years; this may be in 1 month, 2 
months, 3 months. It's, as I understand, a very real 
possibility. Many of the analysts believe, that when his back 
is up against the wall, he'll throw everything at us, including 
weapons of mass destruction.
    Secretary Rumsfeld. It's possible.
    Senator Kennedy. It's very possible, you recognize. So it 
is possible; we'll leave it at that. It is possible that he'll 
use them.
    Now, there's certainly a possibility that he'll use them 
against Israel, as well. There is a possibility that Israel 
would respond with nuclear weapons, as well. This isn't the 
best nor the worst-case scenario, but all those are real 
possibilities. What kind of situation do you see then, in terms 
of Arab countries that may not have joined us in the war but 
are joining us now in the war on terrorism? What's going to 
happen, and how do you want to see this play out in terms of 
the situation both in Iraq and what we're going to be left 
with?
    Secretary Rumsfeld. Those are all considerations that have 
to be very carefully thought through by the President, the 
Secretary of State, and others. We already do know that Saddam 
Hussein is willing to use weapons of mass destruction, because 
he's used chemicals on his own people and on the Iranians. This 
is a man who isn't shy about using those things.
    Senator Kennedy. So we shouldn't be shy to think that he 
wouldn't use them if his back is against the wall, and we 
wouldn't go in there not to win as you pointed out. We'd go in 
there hard and fast to remove Saddam Hussein. Is that correct? 
Or his regime.
    Secretary Rumsfeld. That's right, if that decision is made.
    Senator Kennedy. Whatever decision is made, those that are 
going to be able to be in command and control of those weapons 
of mass destruction will use them. That's why we'd be going in 
there, to minimize the dangers of weapons of mass destruction.
    As you pointed out, the weapons against his own people and 
against the Iranians.
    Secretary Rumsfeld. Exactly.
    Senator Kennedy. So what makes you believe that he wouldn't 
use them if he knows that he's going down?
    Secretary Rumsfeld. I didn't indicate that I believed he 
would not use them. I said I did not know, and it would be a 
function of how successful we were in persuading the Iraqi 
people, who I am convinced large fractions want to be 
liberated. That is a terrible life they have, and they're 
frightened of this man.
    Senator Kennedy. They've been unsuccessful.
    Secretary Rumsfeld. That's right.
    Senator Kennedy. It's just fear they've got. They've been 
unsuccessful in doing it. Let me ask this question.
    Secretary Rumsfeld. Could I answer on Israel?
    Senator Kennedy. Good, go ahead.
    Secretary Rumsfeld. It is possible. He has fired missiles 
at four of his neighbors. We know what he did to Israel in the 
Gulf War. In my view, it was in Israel's interest to stay out 
of the Gulf War. In my view, it would be overwhelmingly in 
Israel's interest to stay out in the event that a conflict were 
to occur prospectively.
    With respect to the Arab countries you asked about, they 
know what Saddam Hussein is. There isn't one of his neighbors 
who doesn't want him gone. You've talked to them. We know that. 
They live in the neighborhood, and he's about several times 
stronger than they are, so they're careful about what they say 
publicly. I don't blame them, but they have to know that he 
threatens their regimes. He tries to occupy their countries. So 
they would be enormously relieved if that clique running Iraq 
were gone.
    Senator Kennedy. Do you think there's more of a chance or 
less of a chance for Saddam Hussein to make his weapons of mass 
destruction more available to terrorist organizations or to al 
Qaeda if we were to become involved in a war? Does that 
increase the dangers of proliferation of these weapons or not? 
How does this fit into your calculations?
    Secretary Rumsfeld. In my view, the only way you can 
prevent Saddam Hussein from providing weapons of mass 
destruction to terrorist networks is to disarm Iraq and not 
have them have those weapons while he's leading the country.
    Senator Kennedy. Just one last point since my time is up. 
If there were to be an attack on Israel, the Israelis have the 
Arrow and the Patriot missiles to try to shoot those down. 
However, those weapons may very well have bio-terrorism 
material, so it isn't like shooting an explosive. The products 
could very land in Israel, and I would imagine that that would 
cause a serious kind of reaction, which would have been 
different from the previous war, would it not?
    Secretary Rumsfeld. What you have stated is a possibility.
    Chairman Levin. Thank you, Senator Kennedy.
    Senator Hutchinson.
    Senator Hutchinson. Thank you, Mr. Chairman.
    Mr. Secretary, General Myers, welcome. As I read the White 
House discussion draft on a joint resolution that was sent 
over, it just struck me that there is absolutely no more 
serious or sober decision that Congress ever makes than voting 
on a resolution like this that would authorize and stamp 
approval upon the use of force. I appreciate that it was in 
that spirit that General Myers spoke a moment ago that is a 
very serious and sober discussion that we're having.
    I appreciate the President's very forceful and convincing 
case that he made before the United Nations that we must deal 
sooner rather than inevitably later with Saddam Hussein and the 
threat that he poses. I applaud his leadership in reminding the 
world community about Saddam's long record of support for 
terrorism, the pursuit of the use of weapons of mass 
destruction, and the repression of his own people.
    I believe that Saddam Hussein, in fact, does present a 
clear and present danger, not only to the security of the 
United States, but to his region and to the security of other 
nations in that part of the world. You have made a very clear 
case that he not only possesses weapons of mass destruction, 
but continues to accumulate and grow those weapons. I think 
that the doctrine of preemptive defense, as the President 
outlined it, when the risk is high and the evidence is 
overwhelming, becomes a moral imperative.
    My constituents want to know--as Senator Kennedy pointed 
out, as the Chairman has pointed out, and others--that there is 
an enormous risk in going in when this dictator, this brutal 
international outlaw, has weapons of mass destruction--I think 
they want to know that by going in and taking that risk that 
this world's going to be safer and that their children and 
their grandchildren are going to have a safer and more secure 
country and world to live in--the idea of inspectors, where 
we're waiting 5 months or a year, and then we'll only not 
really deal with the issue at hand, which is the destruction of 
those weapons of mass destruction.
    He has always sought to cause us to delay, to cause us to 
dawdle. Mr. Secretary and General Myers, if we do nothing, and 
5 years passes, what kind of arsenal, what kind of threat would 
Saddam Hussein, at that point, pose for the world in which we 
live?
    General Myers. Five years hence--a lot of this is 
hypothetical.
    Senator Hutchinson. A lot of the questions have been 
hypothetical today.
    General Myers. Right.
    Senator Hutchinson. Let's hypothesize that if we do 
nothing.
    General Myers. We're a long way out, though, and I think 
you had the benefit of Mr. Tenet's testimony, as I mentioned, 
and Admiral Jacoby.
    Clearly, 5 years from now, where Iraq's interest in nuclear 
weapons might finally materialize into a weapon, would create 
considerably more strategic concern. There's already strategic 
concern; it would just make a bad situation much, much worse if 
he had that. We know he's continuing to produce chemical and 
biological weapons. We have some idea of what they have, and I 
think you were briefed on what kinds we think the regime has. 
There are other ones out there that he doesn't have that in 5 
years possibly he could find. Then you have to worry about the 
delivery means. Right now, they think they have some missile 
delivery means, interest in other ways to deliver them. By 
then, who knows? There would be other, more easily obtainable 
delivery means, cruise missiles and so forth, that could make 
it a lot more problematic.
    Senator Hutchinson. Mr. Secretary, do you have anything you 
could add to that?
    Secretary Rumsfeld. Yes. If one looks at their capabilities 
over the last decade, they declined for a period when the no-
fly zones were robust, when the economic sanctions had some 
traction, and when inspectors were on the ground. In the last 4 
years, there have been no inspectors on the ground, the 
northern and southern no-fly zones have been less robust, and 
the sanctions have dissipated. Their borders are porous. There 
is no question but that they went down for a period in the 
first part of the decade to the middle. By 1998, they were 
starting to come back up. Their conventional and their weapons 
of mass destruction capabilities are improving, and they're 
improving every day, every month.
    A great deal of this dual-use capability that's moving into 
the country--massive numbers of dump trucks--they take the tops 
off the dump trucks, and they put artillery on the back of it. 
As General Myers mentioned, they're doing lots of things that 
are not in the WMD category, like fiber optics.
    General Myers. The last point I would make on Iraq's 
capability 5 years from now is that there's a great danger 
there that the nexus between those states that produce and 
conduct research and development on weapons of mass destruction 
and terrorist organizations will become a greater threat in the 
future. We're dealing with a terrorist organization today, al 
Qaeda, and there are other terrorist organizations that by then 
could be just that much worse. I think it'll be easier to 
conceal things and move things around.
    Senator Hutchinson. So with great risk now, waiting could 
be a much greater risk for our security and the world.
    General Myers. I think that's certainly the potential.
    Senator Hutchinson. Mr. Secretary, we have had discussions 
before about protection against chemical and biological 
weapons, and I wondered if you could comment on necessary 
counter measures should Saddam utilize a weapon of mass 
destruction--should military action by the United States be 
required at some point.
    Secretary Rumsfeld. Well, I think General Myers commented 
on the capabilities of our forces to deal with a WMD attack 
that affected our forces or neighboring countries or staging 
areas.
    Senator Hutchinson. General Myers.
    General Myers. The only thing I'd add to my previous 
comments is that we are better off than we were 10 years ago, 
both in warning and in our protection. I think we're better 
able to handle emerging targets that might be related to WMD 
delivery systems or movement of material. We've also just 
started inoculations again for anthrax 3 days ago. I think the 
steps that can be taken to protect our forces, no matter where 
they are stationed, are much better than they have been and are 
fairly robust.
    Senator Hutchinson. Thank you.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you, Senator Hutchinson.
    Secretary Rumsfeld. Mr. Chairman, may I clean up one item 
in my comment to Senator Kennedy? I just ran through my head 
that he mentioned the possibility that Israel might engage in a 
nuclear response were they attacked. I would not want to leave 
that hanging out there with the implication that I agree with 
that.
    Chairman Levin. Senator Byrd.
    Senator Byrd. Thank you, Mr. Chairman, for holding these 
hearings.
    Mr. Secretary, to your knowledge, did the United States 
help Iraq to acquire the building blocks of biological weapons 
during the Iran-Iraq war? Are we, in fact, now facing the 
possibility of reaping what we have sown?
    Secretary Rumsfeld. Well, certainly not to my knowledge. I 
have no knowledge of United States companies or Government 
being involved in assisting Iraq develop chemical, biological, 
or nuclear weapons.
    Senator Byrd. Mr. Secretary, let me read to you from the 
September 23, 2002, Newsweek story. I read excerpts because my 
time is limited.
    ``Some Reagan officials even saw Saddam as another Anwar 
Sadat capable of making Iraq into a modern secular state just 
as Sadat had tried to lift up Egypt before his assassination in 
1981.
    ``But Saddam had to be rescued first. The war against Iran 
was going badly by 1982. Iran's human wave attacks threatened 
to overrun Saddam's armies. Washington decided to give Iraq a 
helping hand. After Rumsfeld's visit to Baghdad in 1983, U.S. 
intelligence began supplying the Iraqi dictator with satellite 
photos showing Iranian deployments. Official documents suggest 
that America may also have secretly arranged for tanks and 
other military hardware to be shipped to Iraq in a swap deal--
American tanks to Egypt, Egyptian tanks to Iraq. Over the 
protests of some Pentagon skeptics, the Reagan administration 
began allowing the Iraqis to buy a wide variety of ``dual-use'' 
equipment and materials from American suppliers. According to 
confidential Commerce Department export-control documents 
obtained by Newsweek, the shopping list included a computerized 
database for Saddam's interior ministry, presumably to help 
keep track of political opponents, helicopters to transport 
Iraqi officials, television cameras for video-surveillance 
application, chemical-analysis equipment for the Iraq Atomic 
Energy Commission, IAEC, and, most unsettling, numerous 
shipments of bacteria, fungi and protozoa to the IAEC. 
According to former officials, the bacteria cultures could be 
used to make biological weapons, including anthrax. The State 
Department also approved the shipment of 1.5 million atropine 
injectors for use against the effects of chemical weapons, but 
the Pentagon blocked the sale. Yet, the helicopters, some 
American officials later surmised, were used to spray poison 
gas on the Kurds.
    ``The United States almost certainly knew, from its own 
satellite imagery, that Saddam was using chemical weapons 
against Iranian troops. When Saddam bombed Kurdish rebels and 
civilians with a lethal cocktail of mustard gas, sarin, tabin, 
and VX in 1988, the Reagan administration first blamed Iran 
before acknowledging, under pressure from congressional 
Democrats, that the culprits were Saddam's own forces. There 
was only token official protest at the time. Saddam's men were 
unfazed, and Iraqi audiotape later captured by the Kurds 
records Saddam's cousin, Ali Hassan al-Mujid, known as Ali 
Chemical, talking to his fellow officers about gassing the 
Kurds. `Who is going to say anything,' he asked, `the 
international community? F-blank them!' ''
    Now, can this possibly be true? We already knew that Saddam 
was a dangerous man at the time. I realize that you were not in 
public office at the time, but you were dispatched to Iraq by 
President Reagan to talk about the need to improve relations 
between Iraq and the U.S.
    Let me ask you again. To your knowledge, did the United 
States help Iraq to acquire the building blocks of biological 
weapons during the Iran-Iraq war? Are we, in fact, now facing 
the possibility of reaping what we have sown?
    The Washington Post reported this morning that the United 
States is stepping away from efforts to strengthen the 
biological weapons convention. I'll have a question on that 
later.
    Let me ask you again. Did the United States help Iraq to 
acquire the building blocks of biological weapons during the 
Iran-Iraq war? Are we, in fact, now facing the possibility of 
reaping what we have sown?
    Secretary Rumsfeld. I have not read the article. As you 
suggest, I was, for a period in late 1983 and early 1984, asked 
by President Reagan to serve as Middle East envoy after the 241 
Marines were killed in Beirut. As part of my responsibilities, 
I did visit Baghdad. I did meet with Mr. Tariq Aziz, and I did 
meet with Saddam Hussein and spent some time visiting with them 
about the war they were engaged in with Iran. At the time, our 
concern, of course, was Syria and Syria's role in Lebanon, 
Lebanon's role in the Middle East, and the terrorist acts that 
were taking place. As a private citizen, I was assisting only 
for a period of months. I have never heard anything like what 
you've read. I have no knowledge of it whatsoever, and I doubt 
it.
    Senator Byrd. You doubt what?
    Secretary Rumsfeld. The questions you've posed as to 
whether the United States of America assisted Iraq with the 
elements that you listed in your reading of Newsweek and that 
we could conceivably now be reaping what we've sown. I doubt 
both.
    Senator Byrd. Are you surprised at what I've said? Are you 
surprised at this story in Newsweek?
    Secretary Rumsfeld. I guess I'm at an age and circumstance 
in life where I'm no longer surprised about what I hear in the 
newspapers and the magazines.
    Senator Byrd. No, that's not the question. I'm of that age, 
too, somewhat older than you.
    Secretary Rumsfeld. Not much.
    Senator Byrd. How about that story I've read?
    Secretary Rumsfeld. I see stories all the time that are 
flat wrong. I just don't know.
    Senator Byrd. What about this story? This story 
specifically.
    Secretary Rumsfeld. I have not read it. I listened 
carefully to what you said, and I doubt it.
    Senator Byrd. All right. Now, The Washington Post reported 
this morning that the United States is stepping away from 
efforts to strengthen the Biological Weapons Convention. Are we 
not sending exactly the wrong signal to the world at exactly 
the wrong time? Doesn't this damage our credibility in the 
international community at the very time that we are seeking 
their support to neutralize the threat of Iraq's biological 
weapons program?
    If we supplied, as the Newsweek article said, the building 
blocks for germ and chemical warfare to this madman, this 
psychopath, in the first place, how do we look to the world to 
be backing away from this effort to control it at this point?
    Secretary Rumsfeld. Well, Senator, I think it would be a 
shame to leave this committee and the people listening with the 
impression that the United States assisted Iraq with chemical 
or biological weapons in the 1980s. I just do not believe 
that's the case.
    Senator Byrd. Well, are you saying that the Newsweek 
article is inaccurate?
    Secretary Rumsfeld. I am saying precisely what I said, that 
I didn't read the Newsweek article, but that I doubt its 
accuracy.
    Senator Byrd. I'll be glad to send you up a copy.
    Secretary Rumsfeld. I was not in Government at that time, 
except as a special envoy for a period of months, so one ought 
not to rely on me as the best source as to what happened in 
that mid-1980s period that you were describing.
    I will say one other thing. On two occasions, when you read 
that article, you mentioned the IAEC, which, as I recall, is 
the International Atomic Energy Commission, and some of the 
things that you were talking about were provided to them, which 
I found quite confusing, to be honest.
    With respect to the biological weapons convention, I was 
not aware that the United States Government had taken a 
position with respect to it. It's not surprising, because it's 
a matter for the Department of State, not the Department of 
Defense. If, in fact, they have indicated, as The Washington 
Post reports, that they are not going to move forward with an 
enforcement regime, it's not my place to discuss the 
administration's position when I don't know what it is. But I 
can tell you from a personal standpoint, my recollection is 
that the biological convention never was anticipated that there 
would even be thought of to have an enforcement regime, that an 
enforcement regime where there are a lot of countries involved 
who were on the terrorist lists who were participants in that 
convention, that the United States has, over a period of 
administrations, believed that it would not be a good idea, 
because the United States would be a net loser from an 
enforcement regime. But that is not the administration's 
position. I just don't know what the administration's position 
is.
    Chairman Levin. We're going to have to leave it there, 
because you are over time.
    Senator Byrd. This is a very important question.
    Chairman Levin. It is, indeed, but you're over time. I 
agree with you on the importance, but you're over time, 
Senator.
    Senator Byrd. I know I'm over time, but are we going to 
leave this question out there dangling?
    Chairman Levin. Well, just one last question.
    Senator Byrd. I ask unanimous consent that I may have an 
additional 5 minutes.
    Chairman Levin. No, I'm afraid we can't do that. Well, wait 
a minute. Ask unanimous consent, I can't stop you from doing 
that.
    Senator Inhofe. I object. [Laughter.]
    Senator Byrd. Mr. Chairman.
    Chairman Levin. Just one last question. Would that be all 
right? Senator Byrd, if you could just take one additional 
question.
    Senator Byrd. Now, I've been in this Congress 50 years. 
I've never objected to another Senator having a few additional 
minutes.
    Now, Mr. Chairman, I think that the Secretary should have a 
copy of this story from Newsweek that I've been querying him 
about. I think he has a right to look at that. [Laughter.]
    Chairman Levin. Could somebody take that out to the 
Secretary?
    Senator Byrd. Very well.
    Now, while that's being given to the Secretary, Mr. 
Secretary, I think we're put into an extremely bad position 
before the world today if we're going to walk away from an 
international effort to strengthen the biological weapons 
convention against germ warfare, advising our allies that the 
U.S. wants to delay further discussions until 2006, especially 
in the light of the Newsweek story. I think we bear some 
responsibility.
    Senator Inhofe. Mr. Chairman, point of order.
    Chairman Levin. Could we just have this be the last 
question? If you would just go along with us, please, Senator 
Inhofe.
    Senator Inhofe. I would only say, though, in all respect to 
the Senator from West Virginia, we have a number of Senators 
here, we have a limited time of 6 minutes each, and we're 
entitled to have our 6 minutes. This should be a short question 
if it's the last question.
    Chairman Levin. If we could just make that the last 
question and answer, I would appreciate it. The Chair would 
appreciate the cooperation of all Senators.
    Secretary Rumsfeld, could you answer that question, please?
    Secretary Rumsfeld. I'll do my best. Senator, I just am 
glancing at this, and I hesitate to do this because I have not 
read it carefully, but it says here that, ``According to 
confidential Commerce Department export control documents 
obtained by Newsweek, the shopping list included.'' It did not 
say that there were deliveries of these things. It said that 
Iraq asked for these things. It talks about a shopping list.
    Second, in listing these things, it says that they wanted 
``television cameras for video-surveillance applications, 
chemical-analysis equipment for the Iraq Atomic Energy 
Commission, the IAEC,'' and that may very well be the Iraqi 
Atomic Energy Commission, which would mean that my earlier 
comment would not be correct, because I thought it was the 
International Atomic Energy Commission. This seems to indicate 
it's the Iraq Atomic Energy Commission.
    Senator Byrd. Mr. Chairman, may I say to my friend from 
Oklahoma, I'm amazed that he himself wouldn't yield me time for 
this important question. I would do the same for him.
    Mr. Chairman, I would like to ask----
    Senator Cleland. I yield my 5 minutes, Senator.
    Senator Byrd. I thank the distinguished Senator.
    Mr. Chairman, I ask the Secretary to review Pentagon 
records to see if the Newsweek article is true or not. Will the 
Secretary do that?
    Secretary Rumsfeld. It appears that they are Department of 
Commerce records, as opposed to Pentagon, but I can certainly 
ask that the Department of Commerce and, to the extent it's 
relevant, the Department of State look into it and see if we 
can't determine the accuracy or inaccuracy of some aspects of 
this, yes, sir.
    Chairman Levin. We'll go one step further than that. I 
think the request is that the Defense Department search its 
records. Will you do that?
    Secretary Rumsfeld. We'll be happy to search ours, but this 
refers to the Commerce Department.
    Chairman Levin. We will ask the State Department and the 
Commerce Department to do the same thing.
    Secretary Rumsfeld. Fine. We'd be happy to.
    [The information referred to follows:]
                          How Saddam Happened
                      newsweek--september 23, 2002

By Christopher Dickey and Evan Thomas; With Mark Hosenball, Roy Gutman 
                             and John Barry

    The last time Donald Rumsfeld saw Saddam Hussein, he gave him a 
cordial handshake. The date was almost 20 years ago, December 20, 1983; 
an official Iraqi television crew recorded the historic moment. The 
once and future Defense secretary, at the time a private citizen, had 
been sent by President Ronald Reagan to Baghdad as a special envoy. 
Saddam Hussein, armed with a pistol on his hip, seemed ``vigorous and 
confident,'' according to a now declassified State Department cable 
obtained by Newsweek. Rumsfeld ``conveyed the President's greetings and 
expressed his pleasure at being in Baghdad,'' wrote the notetaker. Then 
the two men got down to business, talking about the need to improve 
relations between their two countries. Like most foreign-policy 
insiders, Rumsfeld was aware that Saddam was a murderous thug who 
supported terrorists and was trying to build a nuclear weapon. (The 
Israelis had already bombed Iraq's nuclear reactor at Osirak.) But at 
the time, America's big worry was Iran, not Iraq. The Reagan 
administration feared that the Iranian revolutionaries who had 
overthrown the shah (and taken hostage American diplomats for 444 days 
in 1979-81) would overrun the Middle East and its vital oilfields. On 
the theory that the enemy of my enemy is my friend, the Reaganites were 
seeking to support Iraq in a long and bloody war against Iran. The 
meeting between Rumsfeld and Saddam was consequential: for the next 5 
years, until Iran finally capitulated, the United States backed 
Saddam's armies with military intelligence, economic aid and covert 
supplies of munitions.
    Rumsfeld is not the first American diplomat to wish for the demise 
of a former ally. After all, before the cold war, the Soviet Union was 
America's partner against Hitler in World War ll. In the real world, as 
the saying goes, nations have no permanent friends, just permanent 
interests. Nonetheless, Rumsfeld's long-ago interlude with Saddam is a 
reminder that today's friend can be tomorrow's mortal threat. As 
President George W. Bush and his war cabinet ponder Saddam's 
successor's regime, they would do well to contemplate how and why the 
last three presidents allowed the Butcher of Baghdad to stay in power 
so long.
    The history of America's relations with Saddam is one of the 
sorrier tales in American foreign policy. Time and again, America 
turned a blind eye to Saddam's predations, saw him as the lesser evil 
or flinched at the chance to unseat him. No single policymaker or 
administration deserves blame for creating, or at least tolerating, a 
monster; many of their decisions seemed reasonable at the time. Even 
so, there are moments in this clumsy dance with the Devil that make one 
cringe. It is hard to believe that, during most of the 1980s, America 
knowingly permitted the Iraq Atomic Energy Commission to import 
bacterial cultures that might be used to build biological weapons. But 
it happened.
    America's past stumbles, while embarrassing, are not an argument 
for inaction in the future. Saddam probably is the ``grave and 
gathering danger'' described by President Bush in his speech to the 
United Nations last week. It may also be true that ``whoever replaces 
Saddam is not going to be worse,'' as a senior administration official 
put it to Newsweek. But the story of how America helped create a 
Frankenstein monster it now wishes to strangle is sobering. It 
illustrates the power of wishful thinking, as well as the iron law of 
unintended consequences.
    America did not put Saddam in power. He emerged after two decades 
of turmoil in the 1960s and 1970s, as various strongmen tried to gain 
control of a nation that had been concocted by British imperialists in 
the 1920s out of three distinct and rival factions, the Sunnis, Shiites 
and the Kurds. But during the cold war, America competed with the 
Soviets for Saddam's attention and welcomed his war with the religious 
fanatics of Iran. Having cozied up to Saddam, Washington found it hard 
to break away--even after going to war with him in 1991. Through years 
of both tacit and overt support, the West helped create the Saddam of 
today, giving him time to build deadly arsenals and dominate his 
people. Successive administrations always worried that if Saddam fell, 
chaos would follow, rippling through the region and possibly igniting 
another Middle East war. At times it seemed that Washington was 
transfixed by Saddam.
    The Bush administration wants to finally break the spell. If the 
administration's true believers are right, Baghdad after Saddam falls 
will look something like Paris after the Germans fled in August 1944. 
American troops will be cheered as liberators, and democracy will 
spread forth and push Middle Eastern despotism back into the shadows. 
Yet if the gloomy predictions of the administration's many critics come 
true, the Arab street, inflamed by Yankee imperialism, will rise up and 
replace the shaky but friendly autocrats in the region with Islamic 
fanatics.
    While the Middle East is unlikely to become a democratic nirvana, 
the worst-case scenarios, always a staple of the press, are probably 
also wrong or exaggerated. Assuming that a cornered and doomed Saddam 
does not kill thousands of Americans in some kind of horrific 
Gotterdmmerung--a scary possibility, one that deeply worries 
administration officials--the greatest risk of his fall is that one 
strongman may simply be replaced by another. Saddam's successor may not 
be a paranoid sadist. But there is: no assurance that he will be 
America's friend or forswear the development of weapons of mass 
destruction.
    American officials have known that Saddam was a psychopath ever 
since he became the country's de facto ruler in the early 1970s. One of 
Saddam's early acts after he took the title of president in 1979 was to 
videotape a session of his party's congress, during which he personally 
ordered several members executed on the spot. The message, carefully 
conveyed to the Arab press, was not that these men were executed for 
plotting against Saddam, but rather for thinking about plotting against 
him. From the beginning, U.S. officials worried about Saddam's taste 
for nasty weaponry; indeed, at their meeting in 1983, Rumsfeld warned 
that Saddam's use of chemical weapons might ``inhibit'' American 
assistance. But top officials in the Reagan administration saw Saddam 
as a useful surrogate. By going to war with Iran, he could bleed the 
radical mullahs who had seized control of Iran from the pro-American 
shah. Some Reagan officials even saw Saddam as another Anwar Sadat, 
capable of making Iraq into a modem secular state, just as Sadat had 
tried to lift up Egypt before his assassination in 1981.
    But Saddam had to be rescued first. The war against Iran was going 
badly by 1982. Iran's ``human wave attacks'' threatened to overrun 
Saddam's armies. Washington decided to give Iraq a helping hand. After 
Rumsfeld's visit to Baghdad in 1983, U.S. intelligence began supplying 
the Iraqi dictator with satellite photos showing Iranian deployments. 
Official documents suggest that America may also have secretly arranged 
for tanks and other military hardware to be shipped to Iraq in a swap 
deal--American tanks to Egypt, Egyptian tanks to Iraq. Over the protest 
of some Pentagon skeptics, the Reagan administration began allowing the 
Iraqis to buy a wide variety of ``dual use'' equipment and materials 
from American suppliers. According to confidential Commerce Department 
export-control documents obtained by Newsweek, the shopping list 
included a computerized database for Saddam's Interior Ministry 
(presumably to help keep track of political opponents); helicopters to 
transport Iraqi officials; television cameras for ``video surveillance 
applications;'' chemical-analysis equipment for the Iraq Atomic Energy 
Commission (IAEC), and, most unsettling, numerous shipments of 
``bacteria/fungi/protozoa'' to the IAEC. According to former officials, 
the bacteria cultures could be used to make biological weapons, 
including anthrax. The State Department also approved the shipment of 
1.5 million atropine injectors, for use against the effects of chemical 
weapons, but the Pentagon blocked the sale. The helicopters, some 
American officials later surmised, were used to spray poison gas on the 
Kurds.
    The United States almost certainly knew from its own satellite 
imagery that Saddam was using chemical weapons against Iranian troops. 
When Saddam bombed Kurdish rebels and civilians with a lethal cocktail 
of mustard gas, sarin, tabun and VX in 1988, the Reagan administration 
first blamed Iran, before acknowledging, under pressure from 
congressional Democrats, that the culprits were Saddam's own forces. 
There was only token official protest at the time. Saddam's men were 
unfazed. An Iraqi audiotape, later captured by the Kurds, records 
Saddam's cousin Ali Hassan al-Majid (known as Ali Chemical) talking to 
his fellow officers about gassing the Kurds. ``Who is going to say 
anything?'' he asks. ``The international community? F--them!''
    The United States was much more concerned with protecting Iraqi oil 
from attacks by Iran as it was shipped through the Persian Gulf. In 
1987, an Iraqi Exocet missile hit an American destroyer, the U.S.S. 
Stark, in the Persian Gulf, killing 37 crewmen. Incredibly, the United 
States excused Iraq for making an unintentional mistake and instead 
used the incident to accuse Iran of escalating the war in the gulf. The 
American tilt to Iraq became more pronounced. U.S. commandos began 
blowing up Iranian oil platforms and attacking Iranian patrol boats. In 
1988, an American warship in the gulf accidentally shot down an Iranian 
Airbus, killing 290 civilians. Within a few weeks, Iran, exhausted and 
fearing American intervention, gave up its war with Iraq.
    Saddam was feeling cocky. With the support of the West, he had 
defeated the Islamic revolutionaries in Iran. America favored him as a 
regional pillar; European and American corporations were vying for 
contracts with Iraq. He was visited by congressional delegations led by 
Sens. Bob Dole of Kansas and Alan Simpson of Wyoming, who were eager to 
promote American farm and business interests. But Saddam's megalomania 
was on the rise, and he overplayed his hand. In 1990, a U.S. Customs 
sting operation snared several Iraqi agents who were trying to buy 
electronic equipment used to make triggers for nuclear bombs. Not long 
after, Saddam gained the world's attention by threatening ``to bum 
Israel to the ground.'' At the Pentagon, analysts began to warn that 
Saddam was a growing menace, especially after he tried to buy some 
American-made high-tech furnaces useful for making nuclear-bomb parts. 
Yet other officials in Congress and in the Bush administration 
continued to see him as a useful, if distasteful, regional strongman. 
The State Department was equivocating with Saddam right up to the 
moment he invaded Kuwait in August 1990.
    Some American diplomats suggest that Saddam might have gotten away 
with invading Kuwait if he had not been quite so greedy. ``If he had 
pulled back to the Mutla Ridge [overlooking Kuwait City], he'd still be 
there today,'' one ex-ambassador told Newsweek. Even though President 
George H. W. Bush compared Saddam to Hitler and sent a half-million-man 
Army to drive him from Kuwait, Washington remained ambivalent about 
Saddam's fate. It was widely assumed by policymakers that Saddam would 
collapse after his defeat in Operation Desert Storm, done in by his 
humiliated officer corps or overthrown by the revolt of a restive 
minority population. But Washington did not want to push very hard to 
topple Saddam. The gulf war, Bush I administration officials pointed 
out, had been fought to liberate Kuwait, not oust Saddam. ``I am 
certain that had we taken all of Iraq, we would have been like the 
dinosaur in the tar pit--we would still be there,'' wrote the American 
commander in Operation Desert Storm, Gen. Norman Schwarzkopf, in his 
memoirs. America's allies in the region, most prominently Saudi Arabia, 
feared that a post-Saddam Iraq would splinter and destabilize the 
region. The Shiites in the south might bond with their fellow 
religionists in Iran, strengthening the Shiite mullahs, and threatening 
the Saudi border. In the north, the Kurds were agitating to break off 
parts of Iraq and Turkey to create a Kurdistan. So Saddam was allowed 
to keep his tanks and helicopters--which he used to crush both Shiite 
and Kurdish rebellions.
    The Bush administration played down Saddam's darkness after the 
gulf war. Pentagon bureaucrats compiled dossiers to support a war-
crimes prosecution of Saddam, especially for his sordid treatment of 
POWs. They documented police stations and ``sports facilities'' where 
Saddam's henchmen used acid baths and electric drills on their victims. 
One document suggested that torture should be ``artistic.'' But top 
Defense Department officials stamped the report secret. One Bush 
administration official subsequently told The Washington Post, ``Some 
people were concerned that if we released it during the [1992 
presidential] campaign, people would say, Why don't you bring this guy 
to justice?' '' (Defense Department aides say politics played no part 
in the report.)
    The Clinton administration was no more aggressive toward Saddam. In 
1993, Saddam apparently hired some Kuwaiti liquor smugglers to try to 
assassinate former president Bush as he took a victory lap through the 
region. According to one former U.S. ambassador, the new administration 
was less than eager to see an open-and-shut case against Saddam, for 
fear that it would demand aggressive retaliation. When American 
intelligence continued to point to Saddam's role, the Clintonites 
lobbed a few cruise missiles into Baghdad. The attack reportedly killed 
one of Saddam's mistresses, but left the dictator defiant.
    The American intelligence community, under orders from President 
Bill Clinton, did mount covert actions aimed at toppling Saddam in the 
1990s, but by most accounts they were badly organized and halfhearted. 
In the north, CIA operatives supported a Kurdish rebellion against 
Saddam in 1995. According to the CIA's man on the scene, former case 
officer Robert Baer, Clinton administration officials back in 
Washington ``pulled the plug'' on the operation just as it was 
gathering momentum. The reasons have long remained murky, but according 
to Baer, Washington was never sure that Saddam's successor would be an 
improvement, or that Iraq wouldn't simply collapse into chaos. ``The 
question we could never answer,'' Baer told Newsweek, ``was, `After 
Saddam goes, then what?' '' A coup attempt by Iraqi Army officers 
fizzled the next year. Saddam brutally rolled up the plotters. The CIA 
operatives pulled out, rescuing everyone they could, and sending them 
to Guam.
    Meanwhile, Saddam was playing cat-and-mouse with weapons of mass 
destruction. As part of the settlement imposed by America and its 
allies at the end of the gulf war, Saddam was supposed to get rid of 
his existing stockpiles of chem-bio weapons, and to allow in inspectors 
to make sure none were being hidden or secretly manufactured. The U.N. 
inspectors did shut down his efforts to build a nuclear weapon. But 
Saddam continued to secretly work on his germ- and chemical-warfare 
program. When the inspectors first suspected what Saddam was trying to 
hide in 1995, Saddam's son-in-law, Hussein Kamel, suddenly fled Iraq to 
Jordan. Kamel had overseen Saddam's chem-bio program, and his defection 
forced the revelation of some of the secret locations of Saddam's 
deadly labs. That evidence is the heart of the ``white paper'' used 
last week by President Bush to support his argument that Iraq has been 
defying U.N. resolutions for the past decade. (Kamel had the bad 
judgment to return to Iraq, where he was promptly executed, along with 
various family members.)
    By now aware of the scale of Saddam's efforts to deceive, the U.N. 
arms inspectors were unable to certify that Saddam was no longer making 
weapons of mass destruction. Without this guarantee, the United Nations 
was unwilling to lift the economic sanctions imposed after the gulf 
war. Saddam continued to play ``cheat and retreat'' with--the 
inspectors, forcing a showdown in December 1998. The United Nations 
pulled out its inspectors, and the United States and Britain launched 
Operation Desert Fox, four days of bombing that was supposed to teach 
Saddam a lesson and force his compliance.
    Saddam thumbed his nose. The United States and its allies, in 
effect, shrugged and walked away. While the U.N. sanctions regime 
gradually eroded, allowing Saddam to trade easily on the black market, 
he was free to brew all the chem-bio weapons he wanted. Making a 
nuclear weapon is harder, and intelligence officials still believe he 
is a few years away from even regaining the capacity to manufacture 
enriched uranium to build his own bomb. If he can steal or buy ready-
made fissile material, say from the Russian mafia, he could probably 
make a nuclear weapon in a matter of months, though it would be so 
large that delivery would pose a challenge.
    As the Bush administration prepares to oust Saddam, one way or 
another, senior administration officials are very worried that Saddam 
will try to use his WMD arsenal. Intelligence experts have warned that 
Saddam may be ``flushing'' his small, easy-to-conceal biological 
agents, trying to get them out of the country before an American 
invasion. A vial of bugs or toxins that could kill thousands could fit 
in a suitcase--or a diplomatic pouch. There are any number of grim end-
game scenarios. Saddam could try blackmail, threatening to unleash 
smallpox or some other grotesque virus in an American city if U.S. 
forces invaded. Or, like a cornered dog, he could lash out in a final 
spasm of violence, raining chemical weapons down on U.S. troops, 
handing out is bioweapons to terrorists. ``That's the single biggest 
worry in all this,'' says a senior administration official. ``We are 
spending a lot of time on this," said another top official.
    Some administration critics have said, in effect, let sleeping dogs 
lie. Don't provoke Saddam by threatening his life; there is no evidence 
that he has the capability to deliver weapons of mass destruction. 
Countered White House national security adviser Condoleezza Rice, ``Do 
we wait until he's better at it?'' Several administration officials 
indicated that an intense effort is underway, covert as well as overt, 
to warn Saddam's lieutenants to save themselves by breaking from the 
dictator before it's too late. ``Don't be the fool who follows the last 
order'' is the way one senior administration official puts it.
    The risk is that some will choose to go down with Saddam, knowing 
that they stand to be hanged by an angry mob after the dictator falls. 
It is unclear what kind of justice would follow his fall, aside from 
summary hangings from the nearest lamppost.
    The Bush administration is determined not to ``overthrow one 
strongman only to install another,'' a senior administration official 
told Newsweek. This official said that the president has made clear 
that he wants to press for democratic institutions, government 
accountability and the rule of law in post-Saddam Iraq. But no one 
really knows how that can be achieved. Bush's advisers are counting on 
the Iraqis themselves to resist a return to despotism. ``People subject 
to horrible tyranny have strong antibodies to anyone who wants to put 
them back under tyranny,'' says a senior administration official. But 
as another official acknowledged, ``a substantial American commitment'' 
to Iraq is inevitable.
    At what cost? Who pays? Will other nations chip in money and men? 
It is not clear how many occupation troops will be required to maintain 
order, or for how long. Much depends on the manner of Saddam's exit: 
whether the Iraqis drive him out themselves, or rely heavily on U.S. 
power. Administration officials shy away from timetables and specifics 
but say they have to be prepared for all contingencies. ``As General 
Eisenhower said, Every plan gets thrown out on the first day of battle. 
Plans are useless. Planning is everything,' '' said Vice President 
Cheney's chief of staff, I. Lewis (Scooter) Libby.
    It is far from clear that America will be able to control the next 
leader of Iraq, even if he is not as diabolical as Saddam. Any leader 
of Iraq will look around him and see that Israel and Pakistan have 
nuclear weapons and that Iran may soon. Just as England and France 
opted to build their own bombs in the cold war, and not depend on the 
U.S. nuclear umbrella, the next president of Iraq may want to have his 
own bomb. ``He may want to, but he can't be allowed to,'' says a Bush 
official. But what is to guarantee that a newly rich Iraqi strongman 
won't buy one with his nation's vast oil wealth? In some ways, Iraq is 
to the Middle East as Germany was to Europe in the 20th century, too 
large, too militaristic and too competent to coexist peaceably with 
neighbors. It took two world wars and millions of lives to solve ``the 
German problem.'' Getting rid of Saddam may be essential to creating a 
stable, democratic Iraq. But it may be only a first step on a long and 
dangerous march.

    Chairman Levin. We will also ask the Intelligence Committee 
to stage a briefing for all of us on that issue so that Senator 
Byrd has broached.
    Senator Byrd. I thank the Chairman.
    Chairman Levin. Thank you very much, Senator.
    Senator Byrd. I thank the Secretary.
    Secretary Rumsfeld. Thank you.
    Chairman Levin. Senator Byrd, we will ask Senator Graham 
and Senator Shelby to hold a briefing on that subject, because 
it is a very important subject.
    Senator Byrd. I thank the Chairman.
    [The information referred to follows:]
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    Chairman Levin. Senator Sessions.
    Senator Sessions. Thank you, Mr. Chairman.
    Mr. Secretary and General Myers, thank you for your 
leadership. The American people have been comforted with your 
wisdom and judgment, your honesty and directness as we've moved 
for months now since September 11. You've had a consistent 
message about the danger of Iraq in recent months. There's been 
no mystery about it. You've been open with the world, the 
American people, and Congress of the United States. So it's 
getting time for Congress to act. I appreciate the fact you are 
asking for that, and I hope, as Senator Warner has noted, that 
we take as many hearings as we need, that we debate it fully, 
but we need to assert whether or not we're going to develop 
support for the policies that have been articulated by the 
President of the United States.
    Mr. Secretary, I noticed that in the letter that Saddam 
Hussein wrote that he would acquiesce on inspections, and he 
said he would do it unconditionally. He also notes explicitly 
that he subjects that openness to the territorial integrity and 
sovereignty of the Nation of Iraq.
    Now, I don't know precisely how legal historians would 
account for it, but in 1991 it seemed to me that Saddam Hussein 
basically sued for peace. He gave up his sovereign rights in 
order to preserve his regime from destruction, and it was on 
the eve of destruction. He said that he would renounce and stop 
weapons of mass destruction, destroy those weapons, and we 
could allow inspections to prove that he was telling the truth. 
He did that because he virtually had no other choice. The U.N. 
backed up his claim with resolutions, the United States 
cooperated, and so forth.
    But do you see, with the very document itself, this letter 
in which he offers in one paragraph ``unconditional 
inspections,'' and later on he says it's subject to his 
territorial integrity and his sovereignty, that there is an 
internal contradiction there?
    Secretary Rumsfeld. Senator, this is a matter that the 
Department of State and Secretary Powell are dealing with, and, 
therefore, I am not as current as I should be. I do see several 
things that at least need exploration, and it may very well be 
that one could characterize them as inconsistent. One is the 
point you made; within the very four corners of the letter, 
there seemed to be inconsistencies. It's a matter for Secretary 
Powell to worry through with the Iraqis and the U.N.
    Second, the speech that was made today by, according to my 
materials, the Iraqi foreign minister contained at least the 
conditions and qualifications.
    Third, if Iraq has decided to be in a mode of allowing 
inspections, there are two types. There are ground inspections 
and air inspections. As I indicated in my opening statement in 
the last three days since the letter you're referring to was 
delivered, the Iraqis have fired on coalition air forces 
somewhere between 15 and 20 times, at U.S. and British pilots, 
who are enforcing U.N. resolutions and flying in the northern 
and southern so-called no-fly zones.
    Senator Sessions. I would agree that many indicators tell 
us that this is, I believe as the Chairman indicated, more 
likely a ruse than a sincere offer of inspections. That puts 
the United Nations ultimately in a very important position. 
They have a moral responsibility, in my view, not to dodge this 
question. They have a moral and, really, legal responsibility 
to confront what would appear to any fair observer a consistent 
violation of the resolutions they passed and they approved for 
the salvation of the Saddam Hussein regime.
    So I feel strongly about that. I think the President 
correctly, giving a decent respect to the opinions of mankind, 
made his speech to the U.N. and stated his case, but I do 
believe that ultimately one veto in the U.N. Security Council 
shouldn't obstruct us from doing what we may have to do, 
unfortunately, before it's over.
    General Myers, are you satisfied with where we are in terms 
of our military capabilities and our weaponry, such as our 
smart weapons, to conduct this war effectively, if it so comes?
    General Myers. Senator Sessions, from about a year ago from 
last October until the end of this August--we have 
approximately 10,000 more precision munitions than we had a 
year ago, and we've--thanks to Congress' help--facilitized 
industry to essentially produce at the highest rate they're 
capable of. That rate will continue to increase, and I think we 
don't get their highest rate for about another year yet. But we 
watch that inventory very, very carefully. We watch where they 
are. As I said earlier in my remarks, I think we have the right 
equipment and, especially, the people to do the job.
    Senator Sessions. Well, I thank you for that positive 
report about the willingness and capability of our military 
forces. They are the world's best people. Many Americans still 
envision war as it has been in the past, soldiers charging 
machine gun nests with hand grenades. I know your doctrine is 
to avoid those kind of things as much as possible, to maximize 
the military capability of our soldiers while minimizing their 
risk. Thank you for what you do.
    Thank you, Mr. Secretary, for pushing to transform our 
military to make it even more capable in this new, modern world 
of warfare.
    Thank you very much.
    Chairman Levin. Thank you, Senator Sessions.
    Senator Cleland.
    Senator Cleland. Mr. Secretary, reflecting on his two tours 
in Vietnam, Secretary of State Colin Powell wrote in his 1995 
memoirs, ``Many of my generation, the career captains, majors, 
and lieutenant colonels seasoned in that war vowed that when 
our turn came to call the shots, we would not quietly acquiesce 
in half-hearted warfare for half-baked reasons that the 
American people could not understand or support.''
    Mr. Secretary, as one of the young captains in that war, I 
also cannot acquiesce in half-hearted warfare for half-baked 
reasons that the American people cannot understand or support.
    In his excellent book on the Vietnam War, Colonel Harry 
Summers wrote, ``The first principle of war is the principle of 
the objective. It's the first principle because all else flows 
from it.'' He said, ``Prior to any future commitment of U.S. 
military forces, our military leaders must insist that the 
civilian leadership provide tangible, obtainable goals. The 
objective cannot merely be a platitude, but must be stated in 
concrete terms.''
    Mr. Secretary, it does seem to me that in the wake of 
September 11, our mission in this country, and certainly the 
number-one mission of the United States military, is to go 
after those who came after us September 11. That's been my 
concern all along. As someone who grew up in a household where 
my father had served at Pearl Harbor after the attack, I'm well 
aware of this country's great response to that attack that day 
of infamy, and it took us 3 years to ultimately shoot down the 
man who planned that attack, Admiral Yamamoto. But we 
ultimately found him, and we ultimately killed him.
    It does seem to me our objective, our number one objective, 
is to kill or capture Osama bin Laden and his terrorist cadre, 
and that is what we ought to be about in our number one 
objective in the use of American military force. My concern is 
that the last time you testified before this committee, you 
said you didn't know where Osama bin Laden was. It's painfully 
obvious we have not captured or killed his terrorist cadre and 
that they are still at large. We're still trying to roll up 
their cells around the world, including in America today.
    My concern, Mr. Secretary, is that we're shifting the 
objective here. The President came to Congress last year and 
got Congress unanimously to support--and I supported--going 
after those who came after us. In his inimitable phrase I 
remember, he said, ``We will bring them to justice, or justice 
will come to them.'' Since that time, we've brought justice, in 
many ways, to Afghanistan but we haven't nailed our number one 
objective.
    Mr. Secretary, is that still your number one objective in 
terms of this war on terrorism?
    Secretary Rumsfeld. Senator, it seems to me that the number 
one objective was not to find a person and kill a person. It's 
not about retribution or retaliation. The task that the 
President set out for the global war on terrorism was to put 
pressure on terrorist networks and countries that provide a 
safe haven for terrorist networks. That is what he has been 
doing. With 90 countries cooperating, we have put a substantial 
amount of pressure on al Qaeda. They are having much more 
difficulty recruiting, retaining their people, planning, moving 
between countries, and raising money.
    Now, you're quite right, we don't know if Osama bin Laden 
is dead or alive. We do know he's not active. We haven't heard 
hide nor hair of him since December. That is not a surprise. 
Finding one person is a needle in a haystack, and it's a big 
world, and he may very well be alive. He may be incapacitated. 
He may be dead.
    But the truth is that regardless of what he is, his network 
is in duress. It's difficult. It could commit a terrorist act 
in some country--this country or another country--tomorrow, but 
it is under pressure, let there be no doubt. That was what the 
global war on terrorism was about.
    The President described it as an iceberg, that much will be 
happening below the surface of the sea. We've got wonderful 
people, in uniform and out of uniform, in the Department of 
Defense, Central Intelligence Agency, Department of State, 
Department of Treasury, and in 90 countries working on this 
problem. As you properly said, in the one case where there was 
heavy kinetic activity, there's been substantial success. The 
Taliban are gone. They're not training thousands of more 
terrorists in Afghanistan to the great benefit of the world.
    Therefore, I guess I would just say my number one priority 
was to do what we're doing. The fact that Osama bin Laden may 
or may not be alive does not mean that that is a failure at 
all. Indeed, it's being quite successful in my view.
    Senator Cleland. The military people that I talk to, both 
on active duty and who have been on active duty, people that 
are respected, are very concerned that if we have a major 
military engagement in Iraq, it will only take away from what I 
consider our number one military objective. How do you respond 
to that?
    Secretary Rumsfeld. Yes, sir. As I said earlier, I think 
you can find military people who feel that, and I think you can 
find a lot of military people who don't feel that way. Partly, 
it's whether or not you think dealing with the problems of 
weapons of mass destruction potentially in the hands of 
terrorist networks is part of the global war on terrorism.
    I can't imagine suggesting that dealing with Saddam 
Hussein's weapons of mass destruction, as the President's 
attempting to do, is a distraction from the global war on 
terrorism. It's part of the global war on terrorism. That's my 
view.
    Senator Cleland. In terms of the objective in Iraq, is that 
the objective from which all else falls or flows? Is the 
objective the dismantlement, the dismembering, or the 
elimination of his weapons of mass destruction manufacturing 
sites? Then if we accomplish that, has the objective been 
reached?
    Secretary Rumsfeld. There is no question that that nexus is 
worrisome and would be a critical element. If you did that, if 
you were on the ground and--in whatever way, peacefully or not 
peacefully--you were able to find all of the manufacturing, 
storage, and weaponized capabilities involving chemical, 
biological, or nuclear weapons, and you still had that regime, 
Saddam Hussein's regime, which we know intends to have those 
weapons, is determined to have those weapons, you would have 
accomplished the immediate problem. However, you would have 
left in place a regime that would go right back, in my view, to 
developing additional weapons and threatening its neighbors and 
repressing its people.
    So it seems to me if one were to, out of necessity, have to 
get the weapons of mass destruction in the most difficult 
possible way and the least desirable way, through force, 
obviously, and you had done that, one would think that you 
would care about--at least I would hope our country would 
decide to care sufficiently about--the Iraqi people and the 
neighbors there, that the government that replaced that regime 
would be a government that would have a single country and 
would not threaten its neighbors, would not have weapons of 
mass destruction, and would provide reasonable opportunities 
for the ethnic minorities that exist in that country, not 
repress them.
    Senator Cleland. My time is up, Mr. Chairman.
    Chairman Levin. Thank you, Senator Cleland.
    Senator Collins.
    Senator Collins. Thank you, Mr. Chairman.
    Mr. Secretary, in the first 5 years of the weapons 
inspections in the 1990s, UNSCOM had considerable success in 
detecting and dismantling Iraq's weapons of mass destruction 
programs, including numerous sites. For example, there were 
three clandestine uranium enrichment programs and a biological 
weapons facility south of Baghdad. Obviously, later in the 
decade, the inspections became increasingly ineffective and 
eventually ceased. But at one point, over a number of years, 
the inspectors did make considerable progress.
    Your testimony today seems to dismiss altogether the use of 
inspections. While all of us are understandably skeptical, 
given Iraq's history, the knowledge that he will otherwise be 
obliterated gives Saddam a powerful incentive to comply. 
Shouldn't we at least pursue unfettered rigorous inspections 
before resorting to military force?
    Secretary Rumsfeld. Senator, I don't read my testimony to 
be dismissive of the use of inspections. I think I said that 
there is a place for inspections in our world. Unless there's a 
government that is willing to allow unfettered inspections, has 
made a decision to disarm, and offers assistance to that 
process because their goal is to tell the world that they have, 
in fact, done that, then inspections are very difficult.
    Now, you're quite right. In the early period of UNSCOM, 
there were significant successes in a number of instances 
because of defectors helping them and cuing them as to where to 
go to look. However, UNSCOM also announced--I believe it was 
UNSCOM, before UNMOVIC--that they could not account for 
enormous volumes of chemical and biological weapons. In their 
report, as they demonstrated their successes, they 
simultaneously demonstrated their failures and said, ``We can't 
find them. We don't know where they are. We can't find 
defectors to tell us where they are, and there's no way on the 
earth that the Iraqi regime is going to be able to demonstrate 
where they are.'' So it was a mixed picture.
    I quite agree there's a role for inspections in our world, 
but it seem to me that we've gone through 11 years, and one has 
to approach it, as you suggest, with a good deal of caution. I 
should add that the Iraqis have not offered unfettered 
inspections.
    Senator Collins. You have stated previously that there are 
al Qaeda terrorists hiding in Iraq. I have two questions to 
follow up on those statements. One, is there evidence that 
Saddam Hussein or other high Iraqi officials are actually 
sheltering members of al Qaeda? Second, is there evidence, any 
evidence, that Saddam has conspired or is conspiring with 
members of al Qaeda?
    Secretary Rumsfeld. I'd be happy to give you that 
information in the closed session, which is supposed to follow 
this one, but there is no question that there are al Qaeda in 
Iraq in more than one location--there have been for a good long 
period--and the implication or suggestion that a vicious, 
repressive dictatorship that watches almost everything that 
happens in this country could not be unaware of al Qaeda 
operatives functioning in their country.
    Senator Collins. The State Department, just last year, 
issued a report listing the nations that are supporting 
terrorism. The State Department said that, once again, Iran 
remained the most active state sponsor of terrorism in 2001. 
What differentiates the activities of the regime in Iraq from 
those in Iran, given that the State Department has placed Iran 
ahead of Iraq as far as its support of terrorism and, in 
addition, we know that Iran also is pursuing weapons of mass 
destruction?
    Secretary Rumsfeld. You're quite right, Senator, that both 
countries have active chemical, biological, and nuclear 
programs. There's also no question that the State Department 
report is correct; the Iranians are currently harboring 
reasonably large numbers of al Qaeda, and they're trying to 
keep that information from the bulk of their population. The al 
Qaeda are functioning in that country, both transiting and 
located and operating.
    Second, Iran is, without question, sending money and 
weapons and people down to Damascus, Syria, down to Beirut, 
Lebanon to engage in terrorist acts in that region, including 
against Israel.
    What's the difference? One difference is that there are 16 
resolutions of the United Nations that Iraq has violated. The 
international community has been told by Iraq that it's 
irrelevant.
    A second thing that's different is that as much as I would 
like to see it, I do not believe that it's likely that in Iraq 
you would have the people able to overthrow the government. In 
the case of Iran, that country spun on a dime and went from the 
Shah of Iran to the ayatollahs some years back.
    If one looks at what's taking place there today, 
particularly since President Bush's speech, ``The Axis of 
Evil,'' where he spoke to the Iranian people and demonstrated 
the world's concern about how they're being treated, they're 
being ruled by a small clique of clerics, which the women and 
the young people in that country don't like, and they have an 
awareness of what's taking place in the rest of the world.
    I do worry about their weapon programs. I do worry about 
their proliferation. I also think there is at least a chance 
that that country could change its regime from inside, and it 
would be a wonderful thing for the Iranian people and the world 
if it did.
    Senator Collins. Thank you, Mr. Chairman.
    Chairman Levin. Thank you, Senator Collins.
    Senator Reed.
    Senator Reed. Thank you, Mr. Chairman. Thank you, Mr. 
Secretary.
    We have been in conflict and confrontation with Iraq for 
over 10 years. It's been a process of thrust and parry. As you 
point out in your testimony, they have been quite adroit 
maneuvering, particularly diplomatically. It seems to me that 
their strategy, today, is to invite, as quickly as possible, 
inspectors into Iraq, to cooperate, although I would concede--
and I think you would agree--that the cooperation would be 
self-serving, cynical, and transient. But that poses a real 
problem to anyone contemplating operations against Iraq, that 
such operations might be in the context of the presence of U.N. 
inspectors in Iraq, who might even concede or admit or perceive 
cooperation.
    I want to ask two questions. First, are you familiar with 
the authorization language that was sent up to us this 
afternoon by the White House?
    Secretary Rumsfeld. No, I'm not. Someone handed it to me 
when I walked up here.
    Senator Reed. Let me read it.
    Secretary Rumsfeld. You mean the resolution?
    Senator Reed. I'll read it to you. ``The President is 
authorized to use all means that he determines to be 
appropriate, including force, in order to enforce the United 
Nations Security Council Resolutions referenced above, defend 
the national security interests of the United States against 
the threat posed by Iraq, and restore international peace and 
security in the region.''
    [The information referred to follows:]
      
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    Would you read that, Mr. Secretary, to empower you to 
conduct offensive operations, even if there are U.N. inspectors 
in-country maintaining to the world that they are carrying out 
the resolutions of the U.N.?
    Secretary Rumsfeld. Senator, the last thing I'm going to do 
as Secretary of Defense is to try to interpret a resolution 
that I've not read. I'm not a lawyer. It's a matter for the 
Department of State and the White House that undoubtedly 
drafted this. What it might or might not authorize is not for 
me to say.
    Senator Reed. Well, let me ask simply, do you have any 
comments on the wisdom of such a potential scenario where we 
would be attacking while the U.N. was in-country? Again, I 
raise this issue, because I don't think it's that farfetched.
    Secretary Rumsfeld. Yes.
    Senator Reed. It seems to me what the Iraqis are trying to 
do. U.N. inspectors in the country say they're getting 
cooperation. We all understand it would take months in simply 
administrative work in which the Iraqis could be quite, 
``cooperative.'' What is the wisdom of an attack in that 
situation?
    Secretary Rumsfeld. Well, clearly, I can't read the Iraqis 
minds, I have to admit that, but their ploy consistently has 
been to delay, to pretend, and then to change their mind and 
then to alter their position.
    Now, you're right, that takes time, and time is to their 
advantage. The longer the time is, the less likely there's 
something going to happen. The more inspectors that are in 
there, the less likely something's going to happen. The longer 
nothing happens, the more advanced their weapon programs go 
along. The longer things are delayed, the greater the 
likelihood that world attention will turn elsewhere, and the 
U.N. will once again go back into the mode that we've been in 
for the last 11 years of being inattentive to those violations.
    So I guess I agree with you with respect to the reason for 
their offering the inspections, supposedly.
    Senator Reed. Mr. Secretary, I would suggest that that 
might be a very likely scenario in which we would be 
contemplating military action. I think it bears great study by 
the administration.
    General Myers, let me turn to a more operational question. 
Throughout the afternoon, we've talked about the use of CBR--
chemical/biological/radiological weapons. Many times, the 
response--and not just in this hearing, but others--is to point 
to the facility of our military units to deal with these 
weapons, and I acknowledge that. When we're buttoned up in 
tanks, when we have protective suits on, we can mitigate the 
threat dramatically. But it seems to me, based upon the 
experience in the Gulf War--and you are a more astute observer 
than I am--that our biggest vulnerability will be in the ports 
of disembarkation, where it will take up to 30 to 60 days to 
inflow the armor and the troops to marry up with armor to move 
out in a ground attack. The one lesson that is compelling from 
the Gulf War, at least I would suggest to the Iraqis, is, ``If 
you let the United States build up, you'll lose every time, and 
you'll lose decisively.'' This suggests the strong possibility 
that they will use chemical and biological weapons against the 
port of disembarkation in the region before we conduct ground 
operations. Can you comment upon the probability of that and 
the likelihood of that and to the extent that would disrupt our 
operations?
    General Myers. Well, absolutely, Senator Reed. It's very 
hard to calculate the probability, so we assume worst case. 
Without getting into a lot of the operational details, again, 
the first thing you would do is try to attack whatever 
infrastructure associated with WMD you could. That would be the 
first thing you would do. We have already talked about some of 
the passive defenses.
    You would also have active defenses, in terms of PAC-3. The 
PAC-3 missile was specifically designed for the slower missile-
delivery systems. Any other delivery systems, aircraft, 
whatever, you'd work air defenses very hard to ensure they 
wouldn't be a factor. Then you'd try to--and, again, I don't 
want to tread too far into the operational details--make sure 
that you don't have a single point of failure. You would take 
steps to plan ahead so you could work around these issues.
    There is no doubt--and I don't want to paint too rosy a 
picture here--that weapons of mass destruction would be a 
horrible thing to have on the battlefield. They could panic a 
civilian population for sure, which would cause you problems 
alone. It would slow down the fight. It can cause us problems 
in logistics, as you mentioned. So, at least in this hearing, 
if we were asked to do that, we would plan for worst-case and 
then we would plan around that.
    Senator Reed. My time is expired, and I don't require a 
response, but I would assume there is significant collateral 
damage to the civilian populations and others if these weapons 
are deployed, and I assume that's correct.
    General Myers. Well, it depends on how they're employed. 
But, like I said, one of the things you'd worry about is panic 
among the civilian population and then you'd have to try to 
mitigate that some way, and it certainly would be a planning 
factor.
    Senator Reed. Thank you.
    Chairman Levin. Thank you, Senator Reed.
    Senator Roberts.
    Senator Roberts. Well, thank you, Mr. Chairman.
    I would ask the Chairman if it is his wish that the 
Intelligence Committee, which is meeting as we speak, and in 
the midst of the ongoing September 11 investigation and in the 
midst of being investigated by itself by the FBI, have a 
hearing on a recent magazine article about something that 
happened, allegedly, 20 years ago in regards to the U.S. 
supplying materials to Iraq in reference to their capability 
with weapons of mass destruction.
    We might also ask them to have additional questions in 
regards to the Oil for Food Program, which Saddam has used 
billions, I think, to build up his weapons of mass destruction, 
sanctions violations on the part of the French and the Russians 
and, for that matter, China, which has also aided and abetted 
that ability. I would hope that that hearing would include that 
as well as speculation on something that happened 20 years ago.
    I have a real quick question for General Myers. On page 8 
of your testimony, you indicated we have made similar 
improvements virtually to all aspects of our joint team. I 
think we all know that this will be a an improved joint war 
fighting team. The Secretary has also indicated that, as well. 
I don't remember what page it was on, but he certainly made 
reference to that.
    During the recent challenge that we called the Millennium 
Challenge 2002--I'm summing up here--there has been some 
speculation that the Red Team effectively used what we call 
asymmetric warfare to seriously impede the ability of the Blue 
forces, which were our forces, to put forces ashore or to get 
to the fight--i.e., the sunken fleet was resurrected and the 
experiment simply continued.
    My concern is that the techniques used by the Red force 
under the command of Lieutenant General Van Ryper, a former 
marine, might represent similar tactics used by Iraq in the war 
against our forces. My question is, how prepared are we for an 
enemy using techniques to defeat and circumvent our technology, 
which we have, and all of the advantages that you have cited, 
General, which I believe we have, and also the will of the 
American fighting force, which I believe that we have, against 
classic asymmetical warfare?
    Let me just say the reason I'm asking this is that on the 
authorizing committee here, and we're the appropriators, we 
pushed awfully hard for the money for this exercise. A lot of 
the services didn't want to do this. But General Van Ryper 
succeeded in using cruise missiles in unique ways to overwhelm 
the Navy's Aegis radar and sink the entire simulated Blue 
armada of 16 ships. The Red team simply stood them up again. 
Basically, despite a disparity in the technology sophistication 
between the two sides, the U.S. forces proved susceptible to 
the Somalis basic warfighting tools, which included the use of 
smoke pots to disorient the American troops and the 
communication via word of mouth and drum beating. That sort of 
harkens back to Somalia.
    Basically, the general said, ``I am warning against mirror 
imaging the thinking of Iraqi leaders, Saddam Hussein, and his 
lieutenants.'' Somehow you've got to get out of the Western 
mind-set and, as much as you can, recognize you're dealing with 
different cultures, different ways of thinking, different 
warfare, i.e., asymmetrical warfare.
    The Joint Forces Command has done no analysis on why the 
Red Team has had such a great success. I know they will. I know 
they'll report it to the Secretary, but I'm concerned about 
this in regards to the American war fighter. Where are we in 
this?
    General Myers. Well, Senator Roberts, I have a great deal 
of respect for General Van Ryper. I happened to go to a joint 
war fighting course with him, matter of fact, a few years back.
    Senator Roberts. Yeah, he spoke very highly of you when he 
came into my office.
    General Myers. So I hold him in high respect. Not to dwell 
on the Millennium Challenge piece of this, but it was an 
experiment where sometimes things had to be reset to try to 
figure out and achieve the objectives we wanted to do.
    Senator Roberts. But the war in Iraq, General, is not going 
to be an experiment, and it's not going to be an exercise.
    General Myers. I understand. I'm going to get to that. 
Senator, I think the worst thing we can do is think we're 
better than we are, and that's a big danger. I know that, in 
this case, the Middle East, is clearly in General Frank's mind 
all the time. We try to get Red Teams, people like General Van 
Ryper, that look at various scenarios and try to think 
differently than we think. We know it's a different culture. We 
understand those sorts of things.
    But I would say this, that I visited every location except 
Camp Lejeune on Millennium Challenge, and I spent time at 
Coronado, Nellis Air Force Base, and Norfolk, and I suspect you 
probably did, too. I don't know for sure.
    The thing that makes the difference--and that is not at the 
tactical level but at the strategic level of what we were 
trying to look at--was our decision cycle, not the specific 
weapons. This was a scenario, of course, that was in the 
future, so there were a lot of hypothetical weapons introduced. 
But the thing we were really trying to investigate is, can we 
make our decision cycle, our ability to think inside the enemy, 
faster than any potential adversary? I think that was one of 
the greatest outcomes, that we think we have ways to do that 
and to be even better.
    We're pretty good today. We found out we were pretty good 
in Afghanistan. We still need improvement. We still need to 
improve our joint war fighting. I'm not here to say that it's 
perfect by any stretch of the imagination. But that was one of 
the big outcomes of the Millennium Challenge that I think we 
can all be very proud of that would probably translate very 
well into future conflict.
    Now, as you get down to specific weapons systems and 
tactics and techniques, there are different issues there, but 
it's the decision making, it's the planning ability, and the 
ability to take information, and turn it very quickly and use 
it again. These are things that we looked at very hard in 
Millennium Challenge. Again, one of the things we have to guard 
against is thinking we're better than we are, and I can 
guarantee you General Tommy Franks doesn't think that, and I 
certainly don't.
    Senator Roberts. But if we think faster and we disrupt his 
command and control, then that certainly would disrupt Saddam's 
ability to launch the weapons of mass destruction, to draw 
Israel into the race, or going to the scorched-earth policy, et 
cetera, et cetera. If we think faster and disrupt his command 
and control, then that is--in part--the answer, if not the 
answer.
    General Myers. Yes, sir. Yes, Senator, that's absolutely 
right.
    Senator Roberts. Okay, thank you.
    My time is expired. Thank you, Mr. Chairman.
    Chairman Levin. Thank you, Senator Roberts.
    I would say to you and all the members of the committee 
that if there are additional subjects that you would like to be 
briefed on by the intelligence community--I use the word 
``brief,'' not a ``hearing'' when I made reference to Senator 
Byrd----
    Senator Roberts. Right.
    Chairman Levin. --that if there are subjects that are 
relevant to your consideration of this issue, to you and all 
members of the committee, please give me those subjects. I will 
make the same request on your behalf as I did on Senator 
Byrd's.
    Senator Roberts. Yes, I had understood that you said a 
``hearing,'' and that's why I said what I said. I'm sure every 
member can go to the Intel Committee and get briefed on 
precisely the question that the Senator brought up. I 
appreciate the Chairman's answer.
    Chairman Levin. Thank you very much.
    Senator Bill Nelson.
    Senator Bill Nelson. Thank you, Mr. Chairman.
    Mr. Secretary, if our objective is regime change in Iraq, 
and if, as Senator Reed just read the resolution that was just 
sent up here today, that it is also to promote the peace and 
stability in the region, could you share with the committee 
what is the plan that, once you've taken out Saddam, we will 
have a military presence there for quite awhile in order to 
make sure that there is peace and stability in the region and 
that there's not another Saddam that rises up that gives us the 
same problem in the first place that we have?
    Secretary Rumsfeld. Senator Nelson, I think what I would 
say is that the immediate objective is disarmament. I think a 
case can be made that the policy of the United States 
Government, including Congress, is regime change. But I think 
the reason Congress came to that conclusion and the President 
talks of regime change as a policy of the United States is 
because it's, at this stage, so difficult to imagine 
disarmament without regime change.
    With respect to what might follow, the Department of State 
has given thought to that. It's hard to know precisely. The 
things that I sense broad agreement on in the international 
community is that it would be enormously unhelpful if Iraq 
would split up into multiple states, that it should be a single 
country, that that's best for the region, that it be a 
government that does not have weapons of mass destruction, does 
not threaten its neighbors, and provides through some 
mechanisms of elections and representation to assures that the 
ethnic minorities in that country are treated properly and that 
they're not repressed or disadvantaged.
    Again, the President has not made a decision, but if one 
assumes, as your hypothetical question does, that force is 
used, disarmament takes some period of time. One would think 
there would have to be a military presence, undoubtedly a 
coalition presence or a U.N. presence for a period of time, and 
it will take some time to find all of these locations because 
there are so many and they're so well hidden.
    Iraq's economic circumstance is quite different from 
Afghanistan's in the sense that they do have substantial oil 
revenues. Therefore, from a reconstruction standpoint and from 
a recovery standpoint, one would think that during that period 
where the disarming is taking place and by, presumably, an 
international or coalition force of some sort, and, presumably, 
Iraqis from inside the country and from outside the country 
would have some sort of a mechanism whereby they would decide 
what kind of a government or template would make sense. It was 
the Afghan people that decided that, and I would think it would 
be the same to Iraqi people. They will be liberated people and 
they will have choices they haven't had for many, many years.
    I would think that during that period, the economic 
circumstance of not just that country but the neighboring 
countries would be enormously benefitted. It has not been a 
happy part of the world under his leadership.
    Beyond that, I think part of it would be left to the 
Department of State, part of it would be left to the Iraqi 
people, and part of it would be left to some sort of an 
international coalition that would be participating.
    Senator Bill Nelson. Mr. Secretary, you really have stirred 
up MacDill and the Tampa area. I'm quoting from the Tampa 
Tribune of a couple of days ago.
    ``Defense Secretary Donald Rumsfeld on Monday ridiculed the 
location of U.S. Central Command in Tampa while asserting that 
a certain logic points toward a move closer to potential battle 
zones near the Persian Gulf. General Tommy Franks, . . . 
headquarters for war operations in Asia and the Middle East, 
has been pressing for a move, Rumsfeld said. `Tom Franks has 
been after me to do that ever since I arrived in the 
department,' Rumsfeld said. `There's a certain logic to it.' ''
    [The information referred to follows:]
      
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    Can you help unstir what's going on down there?
    Secretary Rumsfeld. Well, you will not find a quote 
anywhere that even begins to approximate ``Rumsfeld 
ridiculing,'' notwithstanding what that, I'm sure, outstanding 
newspaper had to say.
    It is true that before I arrived back in the Pentagon in 
January of last year, the Central Command has had a concern 
about its location. This did not arrive with Tom Franks talking 
to me; it preceded me. Is that correct, General?
    General Myers. That's correct.
    Secretary Rumsfeld. Part of the reason why I mentioned it 
was due to the time zones. If you've got a command center that 
is about six time zones away, it makes everything a little 
harder. Our European Command is in Europe. Our Pacific Command 
is in the Pacific, and our Central Command for that whole 
region--Afghanistan and the Middle East and that whole portion 
of the world--is in Tampa, Florida. That does not say anything 
against Tampa, Florida, except that Tampa, Florida, happens not 
to be located in the Central Command, just by happenstance, 
well before I arrived. Tom Franks has, ever since I arrived, 
raised this issue with me, and he is in the process of moving 
some pieces so that he and some of his key people will be 
capable of functioning in that part of the world.
    Is that pretty close?
    General Myers. Yes, sir. I think the intention is a forward 
element. Senator Nelson, there was a lot of debate during the 
high tempo combat in Afghanistan about where General Franks 
should be, and I think this is part of that argument. But we're 
talking about a forward element that General Franks could fall 
in on from time to time.
    Senator Bill Nelson. Is that what you're speaking of, a 
forward element, or are you talking about a complete relocation 
of the Central Command?
    General Myers. Senator, I think now what is being discussed 
is an element--the capability, the equipment, the 
infrastructure--to fall in on from time to time. I think that's 
the discussion now.
    Senator Bill Nelson. Well, I'm obviously going to have to 
visit with you on this. The political sensitivities is one 
reason that it's not been located over in that area, which is 
why we didn't have it, for example, in the Gulf War. General 
Schwartzkopf had moved an element over there for the conduct of 
that war, similar, General Myers, to what you're saying that is 
being done here.
    General Myers. I believe that's correct. I think it's still 
being decided how permanent a forward element you would have, 
how large it would be. From a military point of view, you'd 
want to have some infrastructure there that people could use, 
where you'd have the communications and so forth rather than 
have to lay that in every time. It's terribly expensive to do 
it that way.
    Secretary Rumsfeld. I will say Florida, of course, is host 
to the Special Operations Command. It's host to the Naval 
Aviation Training Command. I lived in Florida and was a pilot 
in the Navy in the Southern Command. It is a state that's 
hospitable to the military, and that's why there's a great deal 
of military activity in the state, because they are so well 
treated.
    Senator Bill Nelson. Mr. Chairman, just in closing, I'd 
like to thank both of these gentlemen, because I'm sure they 
had the input into the President's speech at the United Nations 
in which he drew attention to the downed American pilot, Scott 
Speicher, and of which I have visited with both of these 
gentlemen ad infinitum, and of which is just going to be 
another element that we're going to have to consider when we go 
into Iraq.
    Chairman Levin. Thank you, Senator Nelson.
    Senator Bill Nelson. Thank you, Mr. Chairman.
    Chairman Levin. Senator Inhofe.
    Senator Inhofe. Thank you, Mr. Chairman. I have four things 
I'm going to try to cover real quickly.
    First of all, Mr. Secretary, I don't want people to 
misinterpret at a future time the answer that you gave to the 
initial question. That was a very good question by our 
Chairman; how can we carry out the war with the readiness 
problems that we have? Having chaired the Senate Armed Services 
Subcommittee on Readiness, we have very serious problems, and I 
wouldn't want your response to be interpreted in some way that 
our Guard and Reserve are going to be able to take care of the 
end-strength problems and all the others that we have.
    I think I've heard you say in previous hearings that 
historically in the 20th century during peacetime that the 
average percentage of Gross Domestic Product has been some 5.7 
percent to go to Defense. During wartime, it goes to 13.3 
percent. It has been, in the last few years, less than 3 
percent, only in this more optimistic budget we're in right now 
it's 3.11 percent. So I'd just like to have you make a 
statement that we need to do something about our overall 
defense spending. You can no longer go after modernization at 
the expense of readiness or RPM accounts at the expense of 
National Missile Defense.
    Secretary Rumsfeld. Senator, you're exactly right. There's 
no question but that the Chairman and I and others have 
testified before this committee and before the House discussing 
the fact that our aircraft fleet is aging, that our 
shipbuilding numbers are not at the levels they should be, and 
that the housing situation for many of the men and women in 
uniform is substandard.
    Senator Inhofe. Thank you.
    Secretary Rumsfeld. You're exactly right. On the other 
hand, my answer was correct to the Chairman that we are capable 
of performing the kinds of tasks we're discussing here.
    Senator Inhofe. I agree with both your answers.
    Senator Reed brought up this new document that I had not 
seen until the course of this particular committee hearing. But 
I think it's important that we go back a bit. As Senator Nelson 
said, that it was an excellent speech that the President made 
before the United Nations. In that speech, he talked about 
things that would have to happen to preclude his effort for a 
preemptive strike. He said such things as, ``It will 
immediately and unconditionally foreswear disclosure and 
removal and destroy all weapons of mass destruction, long-range 
missiles and all related material.'' He said, ``It will 
immediately end all support of terrorism and act to suppress 
it.'' All these were conditions that the President outlined.
    In this document that I just read, he talks about other 
things that have to take place. Somehow there seems to be some 
percentage of our population, maybe at this table and 
elsewhere, that if all of a sudden we decided that Saddam 
Hussein was going to allow inspectors to come in, it would be 
``unfettered,'' which he's already reneging on that. He has a 
long history of lying about this, and he's never allowed this 
to happen before. I see this as nothing more than a stall 
tactic, a delay. This could delay it for maybe a month or 2 
months or 6 months. Time is not our friend in this case, so 
this has concerned me.
    But even if he had some kind of a revelation and we 
believed that what he said was true, there are still other 
conditions that are listed here to which they would have to 
comply. So I assume it's not just the weapons inspectors that 
would keep us from wanting to do the preemptive strike. There 
are other conditions that must be met.
    Secretary Rumsfeld. Senator, I'm really at a disadvantage. 
I have not had a chance to read the resolution. My 
understanding is that this resolution was being worked on at 
the White House with congressional leadership, number one. 
Number two, it's my understanding that the resolution was being 
fashioned in a way that it was as close as possible to a prior 
resolution that existed in Congress.
    Senator Inhofe. Well, let's forget about the resolution and 
just say there are things that have to be done other than 
weapons inspectors in order to satisfy us, such as the 
President outlined in the report. This includes: 
``unconditional,'' ``foreswear,'' ``disclosures,'' and ``remove 
all.''
    Secretary Rumsfeld. Clearly, the President's speech is the 
driving document.
    Senator Inhofe. Okay.
    Secretary Rumsfeld. You're exactly right.
    Senator Inhofe. Very good. Very good.
    I would ask both of you to at least express a concern and 
repeat something that you've stated before. I see us going into 
another round of hand-wringing. This has disturbed me all 
during the 1990s when things were happening with Osama bin 
Laden--we remember the 1992 threat to some hundred servicemen 
in Yemen, the 1993 Somalia incident that he took credit for, 
and their initial attack on the World Trade Centers in 1993--we 
sat around wringing our hands. Then Khobar Towers happened, 
then Kenya and Tanzania, then the U.S.S. Cole, and we kept on 
wringing our hands.
    I want to read to you something that was stated by 
President Clinton--in this case, I agreed with him--and that is 
the risk and consequences of inaction. This was President 
Clinton on August 20, 1998. He said, ``Countries that 
persistently host terrorists have no right to be safeguards. It 
will require strength, courage, and endurance. We will not 
yield to this threat. We will meet it, no matter how long it 
will take. This will be a long ongoing struggle between freedom 
and fanaticism, between the rule of law and terrorism. We must 
be prepared to do all we can do, as long as it takes.''
    Later, he says, `` The risk from inaction to America and 
the world would be far greater than action, for that would 
embolden the enemies, leaving their ability and their 
willingness to strike us intact.'' Do you think that applies 
today?
    Secretary Rumsfeld. I think it's very well stated. I had 
not heard the quotation, but he raises the very important point 
that it is understandable that we talk about the risks of 
action, because they're very real. But it is critically 
important that we look at the risks of inaction.
    Senator Inhofe. Thank you very much, Mr. Chairman. If my 
time is not expired, I do have a couple of further questions.
    Chairman Levin. Well, it is now. [Laughter.]
    You were very gracious before, so I can't deny you one more 
question.
    Senator Inhofe. Okay.
    Chairman Levin. I'd like to, but I can't.
    Senator Inhofe. I'm sorry?
    Chairman Levin. I'd like to, but I can't. I don't have the 
heart to do it. [Laughter.]
    Senator Inhofe. Senator Kennedy talked about how the people 
of Iraq have been unsuccessful in overturning Saddam Hussein. 
In 1996, there was a real effort by all the opposition groups 
--not just the Kurds of the north, as some have said--and it 
was their understanding at that time that the United States 
would be joining them. So that was a mission that never did 
take place.
    As a result of our turning our backs and walking away, 
thousands and thousands of Kurds in the north were killed, 
along with others. Do you think, at that time, if we had had 
the united front that was talked about, that we might not be 
sitting here today worrying about Saddam Hussein?
    Secretary Rumsfeld. Well, with the benefit of 20-20 
hindsight, I'm sure we can look back over the years at any 
number of incidences where, if things had been done 
differently, the outcomes would have been better. Certainly 
that was not a happy situation.
    Senator Inhofe. Thank you. I appreciate your service, both 
of you, to our country.
    Secretary Rumsfeld. Thank you.
    General Myers. Thank you.
    Chairman Levin. Thank you, Senator Inhofe.
    Senator Carnahan.
    Senator Carnahan. Thank you, Mr. Chairman. Thank you, too, 
Mr. Secretary and General Myers, for your service and for your 
patience today.
    Last week at the United Nations, President Bush laid out a 
scathing indictment of Saddam Hussein. He reminded us that 
Saddam has ignored the world's command to disclose and destroy 
all weapons of mass destruction, and he challenged the United 
Nations to assert its authority and enforce its will.
    Well, I agree with the President that Saddam Hussein cannot 
be allowed to ignore these requirements and continue to develop 
weapons of mass destruction. Some of our allies, however, 
around the world say that the threat is not imminent or that 
Saddam will not likely share his weapons with other terrorist 
groups. Well, I think that is an unrealistic and risky 
assumption.
    After the attacks on our country last year and knowing that 
al Qaeda is very actively seeking biological, chemical, and 
nuclear weapons, we, in the United States, simply do not have 
the luxury of waiting or hoping or leaving the future to 
chance. We have a duty, not only to America, but to mankind to 
make an affirmative response.
    Earlier this year, 60 scholars, including former Senator 
Moynihan, wrote a statement in response to the September 11 
attacks, and he entitled it, ``What We're Fighting For, A 
Letter From America,'' and this is part of what he had in 
there: ``Reason and careful moral reflection teach us that 
there are times when the first and most important reply to evil 
is to stop it, and that is precisely what we must do.''
    I ask that the full statement that I've made be made part 
of the record, and I have a few questions.
    Chairman Levin. It will be made part of the record.
    [The prepared statement of Senator Carnahan follows:]
              Prepared Statement by Senator Jean Carnahan
    Thank you Mr. Chairman, and thank you Secretary Rumsfeld and 
General Myers for your continued service and commitment when our 
country needs you most.
    Last week at the United Nations, President Bush laid out a scathing 
indictment against Saddam Hussein. He reminded us that Saddam has 
ignored the world's command to disclose and destroy all of his weapons 
of mass destruction. He challenged the United Nations to assert its 
authority and enforce its will. I agree with the President that Saddam 
Hussein cannot be allowed to ignore requirements and continue to 
develop weapons of mass destruction.
    For me, the primary question that we all have to answer is: ``How 
great a risk would it be to our national security if Saddam Hussein 
acquired a nuclear weapon?''
    When you consider, in totality . . .

        <bullet> the intelligence that has been gathered,
        <bullet> Saddam's actions prior to and during the Gulf War,
        <bullet> Saddam's ouster of weapons inspectors in 1998,
        <bullet> the accessibility of terrorist groups in the Arab 
        world that could ally with Saddam, and
        <bullet> the horror and evil that terrorists are both willing 
        and eager to inflict on our people . . .

    I come to the conclusion that the United States cannot accept the 
risk of Iraq obtaining a nuclear weapon.
    We have tried to disarm Saddam through weapon inspections. But when 
he threw out the weapons inspectors, the world was unwilling to stand 
up to him. We have tried to contain Saddam with sanctions. But the 
world has been unwilling to enforce them. When presented with the 
threat that Iraq's weapons of mass destruction what do some friends and 
allies say?

        ``He is not an imminent threat.''
        ``He doesn't have the means to deliver the weapons beyond his 
        borders.''
        ``He won't give these weapons to terrorists.''

    These are unrealistic and risky assumptions.
    But after 3,000 of our citizens perished just over a year ago and 
after we uncovered evidence that al Qaeda was actively seeking 
biological, chemical, and nuclear capabilities we do not have the 
luxury of . . .

        <bullet> waiting
        <bullet> or hoping
        <bullet> or leaving the future to chance.

    We have a duty not only to America, but to mankind to make an 
affirmative response.
    For we are living in a different world than we did just over a year 
ago.
    We are fighting a different kind of war . . .

        <bullet> with no boundaries, no rules, no clear measure of 
        victory or defeat,
        <bullet> against an undefined enemy, that operates in the 
        shadows, and
        <bullet> will not be known to us until, perhaps, it is too 
        late.

    We know that Saddam presents a clear threat to our security. We 
have a duty to take action to remove that threat. Merely allowing 
inspectors to re-enter Iraq will not do. We know that Saddam will 
continue to hide the ball.
    The danger is that we could find ourselves years from now in the 
same situation as in 1998 . . .

        <bullet> with a broken down inspections system
        <bullet> and Saddam much further down the road toward obtaining 
        a nuclear weapon.

    To meet his obligations, Saddam must do far more. He must admit 
that he has weapons. . .

        <bullet> tell us where they are, and
        <bullet> destroy them under international supervision.

    He must comply with all his other obligations under United Nations' 
resolutions. I believe the case against Saddam is clear and strong. As 
the President and the administration make their position known to the 
rest of the world, I believe that we will gain many allies in this 
effort. That eventually, we will take action to protect our citizens 
and the rest of the world from unspeakable horrors.
    Earlier this year, 60 scholars, including former Senator Moynihan, 
wrote a statement in response to the September 11 attacks entitled 
``What We're Fighting For: A Letter from America.'' In it, they stated:

        ``Reason and careful moral reflection . . . teach us that there 
        are times when the first and most important reply to evil is to 
        stop it.''

    That is what we need to do.

    Senator Carnahan. Mr. Secretary, before the United Nations 
inspectors left Iraq in 1998, Iraq frequently played hide and 
seek when it came to their weapons. They placed them in 
presidential palaces or underground bunkers. The U.S. military 
has far greater tools at its disposal than the inspectors, in 
terms of being able to track down these weapons. Would you 
comment on your concerns about the ability of the inspectors to 
find all of the stockpiled chemical and biological weapons?
    Secretary Rumsfeld. Yes, Senator. The inspectors can be 
very good--very good--at what they do. But if the Government of 
Iraq is not going to cooperate, then it is just an enormously 
complex and difficult job. There isn't any way to know how well 
you've done, of certain knowledge, unless you get people 
talking to you. In Saddam Hussein's Iraq, anyone who talks to 
an inspector runs the risk of being killed, along with his or 
her family and their relatives. You'd almost have to get 
everybody out of the country that had any knowledge and 
interrogate them outside and have them tell you. But then if 
they ever wanted to go home, they'd be faced with the same 
problem.
    So the connection between disarming the weapons of mass 
destruction and regime change is, to me, awfully tight. It's 
very difficult to accomplish it without it.
    Senator Carnahan. Yes, if Saddam Hussein does not have 
access to weapons of mass destruction, how can we make sure he 
doesn't have access to them if he remains in power?
    Secretary Rumsfeld. Well, you'd have to have continuing 
inspections, I suppose, and that would be just as difficult, as 
long as he is resistant to the inspectors as he has over the 
past decade rather than cooperative.
    The model for successful inspectors is one where the 
government is caught doing something, they're penalized, and 
they decide that their life, their circumstance, and their 
future is better not being penalized and being willing to give 
up those weapons. But if the government isn't cooperative, 
their ability to frustrate and to deny and deceive is 
extensive.
    Senator Carnahan. General Myers, it took several months to 
mobilize a force that was ready to initiate Operate Desert 
Storm. I understand that our current airlift and sealift 
capabilities allow for us to deploy forces much more rapidly. 
Could you describe the differences between our capabilities now 
and those that we had during the Gulf War, and how the changes 
might impact the speed with which we are able to position our 
troops in the area?
    General Myers. You bet. First of all, we have the C-17, and 
it's gotten great support here in Congress. We don't have 
enough of them yet, but we start to buy the correct number in 
the 2003 budget. Its reliability, its cargo-carrying 
capability, and, particularly, its ability to go into 
relatively short airfields really enhances our airlift piece of 
this equation.
    The second part that I would mention is the shipping. As I 
recall from Operation Desert Storm, we had to activate ships. 
We had mechanical difficulties. It frustrated our ability to 
move cargo, equipment, and personnel to the Gulf. Today, as I 
mentioned in my opening statement, we have 17 of the 20 medium-
speed roll-on/roll-off ships already delivered. They were 
delivered as of last year. My view is that this will make a big 
difference in our ability to move supplies and equipment into 
any region where the United States military might be asked to 
go.
    So I think we are much better postured in that respect than 
we were a decade ago.
    Senator Carnahan. In your prepared testimony, you mentioned 
the use of immunizations and new detection equipment as part of 
our effort to manage the threat of chemical and biological 
attacks. Could you elaborate a little bit more on how our 
troops are equipped to defend themselves against such 
biological attacks?
    General Myers. Absolutely. Any armed forces that we think 
are going to be under the threat of weapons of mass destruction 
will have their personal protective gear, which, as I said 
earlier, has improved over time. The protective suits today 
that they wear are lighter than they were previously. We have 
good masks today that can protect against chemical and 
biological elements. We also have decontamination sets today 
that are new since a decade ago. Then we have warning systems 
that are much better than we've had in the past for, not just a 
local area, but wider area networks that we can put together.
    None of this is going to help us counter weapons of mass 
destruction. That would be, obviously, a terrible event if it 
were to occur, for the reasons that I think I talked about 
earlier, but we're reasonably well prepared.
    Now, the other part of that is that if you think an 
adversary is going to employ weapons of mass destruction, there 
are lots of things that you can employ to discourage that. The 
Secretary has talked about part of that. I think you can 
communicate to those folks that have to carry out those acts 
that this would not be in their best interests--that, after any 
conflict, people that had been involved in the use of weapons 
of mass destruction, employing them on civilian populations or 
other people's armed forces, would be held under very high 
scrutiny, and life would probably be pretty miserable for them 
when the course of justice got through with them. So there's 
that aspect of it.
    There's also the aspect of defense. Before, I mentioned the 
Patriot 3, which has recently been fielded. We know during 
Operation Desert Storm that the Patriot had about a 50-percent 
chance of hitting the incoming warhead, much improved now with 
the Patriot 3 designed specifically for that type of threat. I 
don't want to go into the classified numbers, but Patriot 3 has 
very good capability today against Scud-type missiles and other 
short-range missiles.
    So I think if you put all that together, does it mean that 
this is still not going to be a horrific event that we're going 
to fight our way through? Is it going to slow us down? 
Probably. Will it cause us to maybe change our plans in a 
localized area? It could possibly. Any plan that we make 
against any adversary takes that into account as best we can, 
and we'll plan for the worst-case and protect our troops.
    You mentioned immunizations. We have started to get into 
the anthrax immunizations this week, and we'll continue those.
    Senator Carnahan. Thank you. My time is up.
    Chairman Levin. Thank you, Senator Carnahan.
    Senator Dayton.
    Senator Dayton. I have the benefits of my colleagues' 
questioning this afternoon, so I have a statement that I would 
like to introduce into the hearing record. There is a question 
at the conclusion of it, Mr. Secretary, and I want to preface 
my remarks by just saying to both of you what enormous respect 
I have for both of you, your professionalism, and your 
dedication to our country. What you wake up every morning 
having to think about, and think about during the day, night, 
and just before you go to bed is an awesome responsibility and 
one whose gravity and enormity you share with just a few others 
in the administration, the President, the Vice President, and 
others. I think your country is enormously in both your debt 
for what you've undertaken, and I thank you and want to 
acknowledge that.
    Secretary Rumsfeld. Thank you very much.
    General Myers. Thank you, sir.
    Senator Dayton. I have enormous respect for the convictions 
you bring, for the inevitable difficulty of the assessments 
that you're making and that we are also, here in Congress, 
being asked to make now during these times.
    Based on what I have been able to learn, what I've been 
told in these last really few days of information, it seems 
clear to me that the menace of Saddam Hussein is real and 
serious and that there's important elements that we cannot know 
because of a lack of U.N. inspection that makes this even more 
conjectural. So I take what you're facing and this Nation is 
facing with enormous gravity, but I also think it has enormous 
implications. It's not clear to me what is right at this time. 
Mr. Secretary, yesterday before the House Armed Services 
Committee, you said, ``The United States must act quickly to 
save the potentially tens of thousands of citizens''--that's 
the paraphrasing in the article.
    What concerns me is your insistence and the 
administration's insistence that the Senate rush to judgment on 
these critical decisions, and that it's imperative that we do 
so very quickly. We've already heard from others that if we 
don't make those decisions, take those necessary actions that 
are being requested, that we are unpatriotic, blind, cowardly 
and/or irresponsible if we don't provide the blank check that's 
requested in this resolution now to use by the President by 
whatever means he determines is necessary and appropriate to 
remove Saddam Hussein from power, which is a goal and objective 
that I believe we all share.
    I'm not a historian or a scholar, and it's maybe the 
subject of some debate, but according to Congressional Research 
Service analysis, the United States has never in its history 
launched a preemptive attack against another country. I'll 
quote from a report, and, Mr. Chairman, I'd like to ask that it 
be introduced at the conclusion as part of the record. It says, 
``The historical record indicates the United States has never 
to date engaged in a preemptive military attack against another 
nation, nor has the United States ever attacked another nation 
militarily prior to its first having been attacked or prior to 
U.S. citizens or interests first having been attacked, with the 
singular exception of the Spanish-American War.''
    The last 50 years, we've had our leaders confronting 
dangerous leaders in other countries who possess the weapons of 
mass destruction, ones that, in fact, we knew could bring 
devastation to this country and to the world. Republican 
presidents and congresses and Democratic presidents and 
congresses approached these situations fraught with peril not 
by starting a war, not by launching a preemptive attack or 
initiating an invasion of another country, but by protecting 
the country and preserving the planet by preventing war.
    [The information referred to follows:]
      
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    Senator Dayton. This attack that's being contemplated would 
most likely destroy Saddam Hussein. I don't doubt the enormous 
military capabilities of our country and the courage of our 
fighting men and women, as we've seen most recently in 
Operation Enduring Freedom. But it would also, if the 
historical record is as I've stated, destroy a 213-year 
consistent foreign policy of this country and a 50-year or more 
military principle of this Nation which has served us well. It 
has not only protected our country and its people, it has 
elevated our moral leadership around the world and contributed 
enormously to the international stability and security of the 
planet and the saving of the human race from the terrible 
devastation of a nuclear holocaust.
    This attack, if we undertook it, would be a shock to that 
world order of enormous magnitude. It would have, I believe, 
profound consequences for the future. There are other 
countries, as you are well aware, around the world who are 
developing weapons of mass destruction, including nuclear 
capabilities, and some of whom have governments who are 
unfriendly, even hostile, to the United States, countries who 
will inevitably experience leadership changes in the years 
ahead, which may produce leaders even more ominous to the 
United States' national security than we face today. If 
preemptive attacks on those growing future threats are viewed 
as our policy by other governments and nations around the 
world, and if this becomes an actual precedent, I, again, think 
we risk a dangerous destabilization of the international order 
and a serious damage to the national security of the United 
States.
    So given the near-term and long-term consequences of these 
decisions, as enormous as they are, again, I have difficulty 
with the rush to judgment that we are told we must make or, 
again, we are told we are unpatriotic or blind or cowardly or 
irresponsible if we don't make this rush to judgment.
    I have just a couple of more minutes, Mr. Chairman. Bear 
with me, please.
    Last September 2001, after the dastardly attack against the 
United States, Congress acted swiftly, decisively and, in the 
Senate, unanimously to support the President. We passed a 
resolution that the President signed into law one week after 
September 11 that gave the President the broad, sweeping 
authority that he has used so well on behalf of this Nation. 
However, I look back--and I was not here then--in 1998, there 
was a very different timetable. In January that year, Iraq 
refused an inspection of presidential sites by the U.N. Special 
Commission to oversee the destruction of Iraq's weapons of mass 
destruction. President Clinton, then, requested a congressional 
resolution, and on February 2, the Republican majority leader 
responded. I'll just read some excerpts, and again, I ask that 
it be put in the record, Mr. Chairman.
    Chairman Levin. It will be made part of the record.
    Senator Dayton. He stated, ``I had hoped that we could get 
to the point where we could pass a resolution this week on 
Iraq. But we have really developed some physical problems, if 
nothing else''--skipping here--``So we have decided the most 
important thing is not to move so quickly but to make sure that 
we have had all the right questions asked and answered and that 
we have available to us the latest information about what is 
expected or what is going to be happening with our allies 
around the world.''
    It goes on: The Senate is known for its deliberate actions, 
and the longer I stay in the Senate, the more I have learned to 
appreciate it. It does help to give us time to think about the 
potential problems and the risks and the ramification and to, 
frankly, press the administration.
    Despite our areas of agreement--Senator Daschle and I have 
been working together making sure every word is sanitized in 
the potential resolution--it is obvious we cannot get it done 
this week, for physical reasons as much as anything else. I 
remind my colleagues and the American people that it was 5 
months after Saddam Hussein invaded Kuwait, 5 months before 
Congress passed a resolution authorizing the use of force to 
expel him. In this case, we have a bipartisan effort, trying to 
make sure that the right thing is going to be done and that the 
right language is developed. Unlike what we had in the early 
1990s when the Speaker and Majority Leader were working to 
defeat the administration's policy, we now have a Speaker and a 
Majority Leader and the Democratic leader and the minority 
leader in the House all working together with the 
administration to make sure that the language is right and that 
the actions are right.
    ``Yes, more time may be needed for diplomacy and more time 
to think about the long-term plans, but a point will come when 
time will run out and action must go forward.'' Skipping ahead 
again: ``But I just want to make that point clear today.''
    ``Nobody should interpret the fact that we don't vote on a 
resolution today as meaning that we are not united in the 
fundamental principles. We are. But we want to make sure that 
when we do take military action, we have thought about all the 
ramifications, and the resolution we come up with will have the 
involvement of 100 Senators, with 100 Senators being present 
and voting, and that every word is the appropriate word that 
reflects the best interests of the American people.''
    [The information referred to follows:]

                                  Iraq
                      (senate--february 12, 1998)
    Mr. Lott. Mr. President, I believe that Senator Daschle will join 
me on the floor shortly because he and I would like to, in effect, have 
a joint statement with regard to Iraq because we want the message to be 
unambiguous, very clear to America and to our allies around the world, 
and to Iraq about our attitude and what our intentions are with regard 
to this very important matter.
    I just had a call from Senator John Warner, who is in Russia today 
along with Senator Carl Levin. They are escorting Secretary of Defense 
Bill Cohen. They have already been to six countries since they were in 
Germany. I believe perhaps even the Senator from Arizona, the Presiding 
Officer, was there. They have gone throughout the Arab world, and now 
they are in Russia.
    He tells me that he believes that when they return, Secretary Cohen 
and the two Senators will bring a great deal of helpful information to 
the Senate and to the American people about what they have heard in the 
Arab world and what they have heard from our allies in those areas' 
meetings. They believe that they will be able to answer some of the 
very important questions that Senators have been asking. So we will 
look forward to their return.
    I had hoped that we could get to the point where we could pass a 
resolution this week on Iraq. But we really developed some physical 
problems, if nothing else. Senator Warner and Senator Levin would like 
very much to be a part of the discussion about what the situation will 
be and how we should proceed on Iraq. They would like to be here. Other 
Senators are necessarily not going to be able to be here beyond this 
afternoon.
    So we have decided that the most important thing is not to move so 
quickly but to make sure that we have had all the right questions asked 
and answered and that we have available to us the latest information 
about what is expected or what is going to be happening with our allies 
in the world.
    I was noting, I say to Senator Daschle, that I just talked to 
Senator Warner in Russia, and he was telling me that Secretary Cohen 
and Senator Warner and Senator Levin are looking forward to coming back 
and giving us a full report on their trip to the Arab world. Now they 
are in Russia today.
    Mr. President, I have no doubt that the entire world is watching 
the current crisis between Iraq and the international community unfold. 
This is another showdown caused by Saddam Hussein.
    The Iraqi dictator has decided that his weapons of mass destruction 
program is more important than the welfare of his own people. At a time 
when we have been getting reports--in fact, we have seen children 
suffering from malnutrition--this dictator has been building $1.5 
billion in additional palaces. He has already endured 7 years of 
sanctions so that he can develop biological, chemical, and nuclear 
weapons--and the means to deliver them.
    This is a very serious matter. For some time we--and I mean America 
and our allies--have been working to develop a resolution on Iraq that 
has broad bipartisan support and also one that would bring the 
situation under control there by diplomatic efforts hoping to avoid 
military action. But that has not happened yet.
    I believe we are moving toward a consensus in the Senate on a 
number of the key issues that must be addressed as we look to the 
future. Here they are.
    First of all, Saddam Hussein does pose a real threat to the region 
and to the entire world. I believe the Senate recognizes that. I hope 
that the American people recognize that. This is not a hypothetical 
danger that has been dreamed up by some armchair strategists. There is 
a long track record in this area of actions by Saddam Hussein. He poses 
a clear and present danger without equal in the post-cold-war-world. He 
is dangerous. He is a threat to his neighbors. He is a destabilizing 
force in the whole region. Yes, he is actually a threat all over the 
world including the United States. This is a man who has already 
invaded two of his neighbors. Iraq has used chemical weapons inside and 
outside its borders. It has launched missiles against Saudi Arabia and 
against Israel. Hussein tried to murder former President George Bush in 
1993.
    Now, we should not make any mistake and think that a military 
action, if it comes to that, is going to rehabilitate Saddam Hussein or 
even eliminate him. He does not have any desire to join the civilized 
world, apparently, and he has shown that he can survive even when the 
whole world has concerns with his conduct and has taken unified action 
to stop his aggression.
    Second, I think there is a consensus in the Senate that military 
force is justified if diplomatic actions fail in responding to the 
threat that Saddam Hussein poses. The threat is serious and our 
response must be serious.
    Now, any military force that is used does entail risks, to our 
military, to our allies and even to our country if there is an attempt 
at retaliation. The American people need to understand that, and we 
need to think about it carefully. We need to talk about the risks that 
are involved. That is one reason why, when we bring up a resolution, if 
it is necessary--and I assume it will be--we must make sure that every 
Senator who wants to be heard can be heard.
    I remember when we had a similar debate back in the early 1990s. I 
think some 80 Senators spoke. Now, this time we won't have 500,000 
troops amassed on the ground ready to go in, but it is still a very 
serious matter, and I want to make sure that we don't try to restrict 
Senators. In fact, we could not. Senator Daschle knows if we asked 
unanimous consent to bring this resolution up today and vote on it in 4 
hours, we would not get it; the Senate is known for its deliberate 
actions. The longer I stay in the Senate, the more I have learned to 
appreciate it. It does help to give us time to think about the 
potential problems and the risks and the ramifications and to, frankly, 
press the administration. I feel better this week than I did last week 
because of the responses we are getting about how this is being thought 
out and what would be the military action and what will be the long-
term plans to deal with Saddam Hussein. We are beginning to get some 
answers now. I believe the administration is thinking harder about what 
those answers should be because the Senate, Republicans and Democrats, 
has raised these questions, not in a critical way, not in a threatening 
way, but in an honest way of saying, have you thought about this? What 
about this approach? Can we do more? I think that has served a very 
positive purpose.
    Some people have said to me, even back in my own State, `This is 
not a threat to us. Let them deal with that over there.' Who? Who is 
going to deal with it? If America does not lead, who is going to lead? 
Nobody else.
    Now, our allies can, should, and, I believe, will join us if action 
is necessary. But we are going to have to lead the way. We are going to 
have to make the tough decisions. People need to understand that this 
threat could even apply to us. While it may be a direct threat of a 
Scud missile in the region with a chemical warhead even, it could very 
easily be a threat to Paris or some city in the U.S. involving anthrax 
that's been produced by Saddam Hussein.
    These are terrible things to even think about, but you are dealing 
with a person who has already used terrible actions against his own 
people. So he is not so far removed. We are the ones who have to 
provide the direction. We have to make sure people understand it is a 
threat to the whole world.
    In my view, the decisive use of force against Iraq coupled with the 
long-term strategy to eliminate the threat entails less risks in the 
long run than allowing Saddam Hussein's actions and ambitions to go 
unchecked. You cannot do it when you are dealing with a situation like 
this. In the words of former Secretary of State Jim Baker, `The only 
thing we shouldn't do is do nothing.' We cannot allow that to be the 
result or what we do is nothing.
    The administration has agreed with us that funding for the 
operations in and around Iraq require supplemental appropriations. We 
had very grave concerns by the Senator from Alaska, Mr. Stevens, and 
Senator Domenici about how much will this cost? How is it going to be 
paid for? We cannot continue to say `just take it out of your hide' to 
the Pentagon; it is having an effect on morale, quality of life, on 
readiness and modernization. We already have a very high tempo for our 
military men and women in the Navy and Air Force. We are satisfied that 
they now have made a commitment that they are going to come up and ask 
for funding for both these purposes, in Bosnia and, if necessary, in 
Iraq. These will be emergency requests so it will not come out of 
necessary improvements in barracks or spare parts for aircraft, which 
are very important.
    There is a consensus on seriously examining now I believe long-term 
policy options to increase the pressure on Saddam Hussein. The 
administration and Congress and our allies all look forward to dealing 
with a post-Saddam regime. But the question is how to get there.
    That is intended not to be a threat or say we should violate the 
law; it is intended to start the discussion, start the thinking about 
how can we increase these pressures. We have to have a strategy to deal 
with whatever comes after the military option. Many things have been 
suggested. Toughen sanctions--not loosen sanctions, toughen sanctions. 
What about an embargo, what about expanding no-fly, no-drive zones? 
What about the support of opposition forces?
    There is a long list of suggestions, some that I will not even put 
in the record here, but they are worth thinking about. Our model should 
be the Reagan doctrine of rollback, not the Truman doctrine of 
containment in this instance. I don't mean that as critically as it 
sounds. It is just that there are two different doctrines, and the 
doctrine here should be rollback, not containment.
    Despite our areas of agreement that we have clearly reached--
Senator Daschle and I have been working together making sure every word 
is sanitized in the potential resolution--it is obvious we cannot get 
it done this week for physical reasons as much as anything else. I 
remind my colleagues and the American people it was 5 months after 
Saddam Hussein invaded Kuwait, 5 months before Congress passed a 
resolution authorizing the use of force to expel him. In this case, we 
have a bipartisan effort, trying to make sure that the right thing is 
going to be done and that the right language is developed. Unlike what 
we had in the early 1990s when the Speaker and majority leader were 
working to defeat the administration's policy, you now have a Speaker 
and a majority leader and the Democratic leader and the minority leader 
in the House all working together with the administration to make sure 
that the language is right and that the actions are right.
    Yes, more time may be needed for diplomacy and more time to think 
about the long-term plans, but a point will come when time will run out 
and action must go forward. When that comes, when U.S. Armed Forces are 
sent into harm's way, by the President of the United States, they will 
have the backing of the Senate and the American people. If the 
President makes the decision to deploy military force against the 
threat posed by Iraq, America will be united, united and praying for 
the safety of our men and women in uniform, united in hoping casualties 
are kept to a minimum, and united in hoping for and supporting a 
successful effort.
    I just want to make that point clear today. Nobody should interpret 
the fact that we don't vote on a resolution today as meaning that we 
are not united in the fundamental principles. We are. But we want to 
make sure that when we do take military action, we have thought about 
all the ramifications and the resolution that we come up with will have 
the involvement of 100 Senators, with 100 Senators being present and 
voting, and that every word is the appropriate word that reflects the 
best interests of the American people.
    So I am pleased to stand here this afternoon and make this 
statement and to assure my colleagues that I will continue to work with 
every Senator on both sides of the aisle to make sure we take the 
appropriate action, if it is necessary, when we return week after next.
    Mr. President, I yield the floor and I am looking forward to 
hearing Senator Daschle's comments on this subject.

    Senator Dayton. I would just go on to point out that it was 
not until 6 months later, August 14, 1998, that President 
Clinton signed a resolution that had been passed by Congress 
along these lines  and that it was one that did not, in fact, 
authorize the use of force against Iraq. It urged the President 
to take appropriate action. But 2 months later, on October 31, 
1998, the so-called Iraq Liberation Act of 1998 was passed, 
which stated--and references have been made to this today and 
elsewhere--that it is the policy of the United States to 
support efforts to remove the regime headed by Saddam Hussein 
from power in Iraq, but it specifically did not authorize the 
use of force to carry that aim out. In fact, the President was 
attacked and criticized harshly by members of this body in 
December of 1998 when he initiated the bombing of Iraq, which I 
don't have time to go into.
    But I just guess in light of all this the precedent in 1991 
and 1998 was that this body take the caution and the care and 
the deliberation necessary. What is it that overrides all of 
that and is compelling us now to make a precipitous decision 
and take precipitous action authorize precipitous actions?
    Secretary Rumsfeld. Senator Dayton, first, thank you for 
your generous comments.
    Second, it bothers me greatly to hear those words you've 
used in a hearing that General Myers and I are participating 
in. As you indicated, neither he nor I would ever use words 
like you've repeated twice. Nor would the President, nor do I 
believe anyone in the administration would, and I think any 
implication to the contrary would be an enormous disservice.
    I have no idea where you heard those words, but I would bet 
a dollar to a dime that no one in this administration would say 
that, and I can assure you I wouldn't, nor would I think it.
    Senator Dayton. I take that as seriously as you do, sir.
    Secretary Rumsfeld. The issues that you've raised are 
important issues. The issues that the country is seizing are 
important issues. They need to be talked about. They need to be 
debated. They need to be discussed. I have raised this issue 
repeatedly before this committee and elsewhere for over a year. 
These are complicated questions. They are breaking new ground.
    There is, in my view, nothing precipitous at all about 
what's being discussed here. President Clinton discussed it 
with a great deal of urgency. Eleven years have passed. I have 
personally discussed it here and with members of the House and 
with members of the Senate on numerous occasions.
    We have moved into a new national security environment. It 
is different. The history you cited is interesting. It is 
important. It's relevant. But the circumstance we're in is 
notably different than when that history was written.
    I'd take slight exception, although it's maybe a matter of 
semantics, but if you go back and think about the attack on 
Afghanistan. Afghanistan didn't attack us; al Qaeda did. They 
just happened to have been trained in Afghanistan, and we took 
anticipatory self-defense. We took a preventive action. We made 
a conscious decision that that country was a haven for those 
people, and they were training thousands of them and sending 
them all over the globe. They killed 3,000 of our people. So 
when one asks what's happened, what's different? What's 
different is 3,000 people were killed using admittedly unusual 
techniques, but basically conventional techniques, not weapons 
of mass destruction.
    What's new is the nexus between terrorist networks like al 
Qaeda and terrorist states like Iraq, Syria, Iran, and others, 
and the fact that there are suicide bombers, who, if they start 
using weapons of mass destruction, are going to impose damage 
on our country and our friends and our allies around the world 
that will not be 3,000 but 30,000 people dead. In answer to the 
question what's different, what's happened, what's changed, I 
would say that's changed.
    Second, go back to the Cuban Missile Crisis. The Soviet 
Union didn't stick missiles in Cuba. They didn't shoot missiles 
at the United States from Cuba. They tried to. They got 
started. President John F. Kennedy looked at it and allowed as 
how he thought that wasn't a very good idea. What did he do? He 
imposed a quarantine, a blockade, they used a euphemism for 
international law reasons and called it a ``quarantine.'' That 
was preemptive. That was not waiting to be attacked. That was a 
decision that the risk to our country was sufficiently great 
that that administration, with the support of Congress, made a 
conscious decision to interject itself into it at great risk of 
a nuclear exchange and stopped it, not after it happened, not 
after people were dead, but before people were dead. Enormously 
important.
    You have an important responsibility. Everyone here today 
has said this is a serious, critical judgment that each member 
of the House and Senate is going to be making. Each one should 
make it any way they feel best. They've got to do what they 
have to do. They have to think, search their soul, and make a 
judgment.
    There are people today, as I have said earlier, in the 
Intelligence Committee, trying to connect the dots about 
September 11. How did it happen? What did we know? What 
evidence did we have? What was the immediacy? What should 
somebody have done? If we had had evidence on September 9 or 
10, would I have favored an anticipatory self-defense? You bet.
    Senator Dayton. That's what I'm asking in the question, 
sir.
    Secretary Rumsfeld. Right.
    Senator Dayton. What evidence, because you're right and 
there are times when a decision of that magnitude has to be 
made that suddenly. As you said, President Kennedy did so with 
full expectation at that time that it might very well result in 
a nuclear holocaust. Again, I'm not a historian, but many would 
say that's as close as we ever came to such. He was certainly 
aware of the enormity of the decisions that were being forced 
upon him by the events, and I guess I'm asking again the events 
are forcing the rapidity of this decision upon us----
    Secretary Rumsfeld. I accept that.
    Senator Dayton. I accept that.
    Secretary Rumsfeld. See, I don't see it as a rush to 
judgment myself. It seems to me 11 years is a long time, 16 
resolutions violated is a long time, and 4 years since the 
inspectors were thrown out. Each year that goes by, those 
weapon programs are developing further and further, and, let 
there be no doubt, that's a fact.
    Senator Dayton. I'm not aware that we've been discussing, 
however, in the times we've been here and the like and you've 
obviously had your attention focused elsewhere. Again, I don't 
question at all the assessment of the seriousness of this.
    Secretary Rumsfeld. No, I know you don't.
    Senator Dayton. Until sometime in August, this Senator was 
not aware of this kind of military initiative being seriously 
contemplated for as soon as it was now being discussed.
    Secretary Rumsfeld. Well, if you go back to President 
Clinton's statement in 1998 or 1999----
    Senator Dayton. But in the last year and a half that----
    Secretary Rumsfeld. --it's hard to fashion a statement that 
could have reflected a greater degree of urgency than the one 
that was just read.
    Chairman Levin. I think we're going to have to end this.
    Senator Dayton. All right. I'm sorry. I guess I was over 
time.
    Secretary Rumsfeld. Could I finish my thought?
    Chairman Levin. Yes, if you could just finish the thought, 
because we want to get to Senator Akaka.
    Secretary Rumsfeld. I will.
    If someone is looking for the kind of evidence that would 
be used in a court of law to prove something beyond a 
reasonable doubt, it isn't going to happen. The only certainty 
we'll have is if, in fact, such an attack takes place, and 
that's too late.
    The task of connecting the dots before the fact is a whale 
of a lot harder than doing it after the fact, and look how hard 
it is for the Intelligence Committee to try to look at those 
scraps of information and piece it together. Someone's going to 
have to take the evidence that I've submitted, that the 
President presented at the United Nations, that Secretary 
Powell is presenting today, and think about it and ask, how do 
we feel about moving into the 21st century, a world of weapons 
of mass destruction, and moving away from where we had 
traditionally, as you said, absorbed an attack, let it happen, 
and then marshalled our forces and gone on, and knowing that we 
were going to lose thousands of people? How do we live in the 
21st century, when it isn't thousands, but potentially tens of 
thousands? That is not an easy question. I don't suggest it is. 
As far as I'm concerned, any member of the Senate or House can 
vote any way they want and I will respect them and believe, in 
my heart, that they reached down in their souls.
    Senator Dayton. Thank you for your response. I just would 
say the intent of our policy was not to absorb attacks and then 
retaliate. It was to prevent attacks. I'll leave it with that, 
but I agree with you that the world is a different place and 
will continue to be.
    Thank you both. Thank you, Mr. Chairman, for your 
indulgence. I apologize to Senator Akaka.
    Chairman Levin. Senator Akaka.
    Senator Akaka. Thank you very much, Mr. Chairman. I ask 
that my full statement be placed in the record.
    Chairman Levin. It will be made part of the record.
    [The prepared statement of Senator Akaka follows:]
             Prepared Statement by Senator Daniel K. Akaka
    Thank you Mr. Chairman for holding this series of hearings on the 
possibility of war with Iraq. There is no more important constitutional 
responsibility for Members of Congress than the decision to declare 
war. The threshold for this decision has to be high. Before the lives 
of America's youth are risked in a war against Iraq, a compelling case 
has to be made as to why the threat is immediate, why American 
interests are at stake, and whether the outcome is peace or more 
instability.
    The burden has to be on those advocating war to justify why 
America's youth need to risk their future. We do not have a draft 
today. Our sailors and soldiers are volunteers but they are not 
mercenaries. We must take extra care to ensure that we do not endanger 
unnecessarily the lives of those who serve today. This is especially 
important because we will be asking American troops to do something 
that the Iraqi people are unable or unwilling to do themselves: rid 
Iraq of Saddam Hussein.
    The need to justify such a course of action is particularly 
critical in the case of Iraq because, first, President Bush is 
advocating a pre-emptive strike against a potential threat to the 
American homeland when, traditionally, America has never sought war by 
striking first nor has America sought foreign entanglements, and, 
second, because we will be embarking on a process of democratic nation-
building in a country and region of the world with little experience in 
democracy.
    Thomas Friedman in an article entitled ``Iraq, Upside Down,'' in 
Wednesday's New York Times--and I ask unanimous consent that his 
article be published in the hearing record following my comments--
disagrees with the argument that we should go to war with Iraq to get 
rid of its weapons of mass destruction. He argues instead that 
democracy building is a more important objective if we want to end the 
cycle of hatred and poverty breeding generations of terrorists.
    I agree with Mr. Friedman that this is an important objective and 
perhaps should be our key objective, but it is an extraordinarily 
difficult one. If we are going to succeed at it, we will not be able to 
do it alone. It will require the active support and the willing 
commitment of the international community. An American force occupying 
Baghdad will not be sufficient. We have already seen in Afghanistan 
that the limited deployment of American troops to isolated areas has 
not established a permanent climate of security and stability in that 
country. Just as a lasting peace in Afghanistan will require a long and 
sustained commitment by the international community both in terms of 
soldiers and humanitarian assistance, a similar peace in Iraq will 
require an equal commitment.
    For this reason, I believe that we must work to gain multilateral 
support for our policy in Iraq. I commend the President for going to 
the United Nations for a new resolution establishing firm conditions 
and time lines for compliance by Saddam Hussein. Just as General Myers 
indicates in his submitted testimony today that our joint war fighting 
team will act ``in concert with our partners'' to defeat Iraq's 
military, if we are going to engage in a policy of nation-building in 
lands far from our shores, we are going to need as well to act in 
concert with the international community.
    I look forward to the testimony and the additional hearings that 
the committee intends to hold on this subject.

    [The information referred to follows:]

                           Iraq, Upside Down
                 the new york times--september 18, 2002

                         By Thomas L. Friedman

    Recently, I've had the chance to travel around the country and do 
some call-in radio shows, during which the question of Iraq has come up 
often. There's what I can report from a totally unscientific sample: 
Don't believe the polls that a majority of Americans favor a military 
strike against Iraq. It's just not true.
    It's also not true that the public is solidly against taking on 
Saddam Hussein. What is true is that most Americans are perplexed. The 
most oft-asked question I heard was some variation of: ``How come all 
of a sudden we have to launch a war against Saddam? I realize that he's 
thumbed his nose at the U.N., and he has dangerous weapons, but he's 
never threatened us, and, if he does, couldn't we just vaporize him? 
What worries me are Osama and the terrorists still out there.''
    That's where I think most Americans are at. Deep down they believe 
that Saddam is ``deterrable.'' That is, he does not threaten the U.S. 
and he never has, because he has been deterred the way Russia, China, 
and North Korea have been. He knows that if he even hints at 
threatening us, we will destroy him. Saddam has always been homicidal, 
not suicidal. Indeed, he has spent a lifetime perfecting the art of 
survival--because he loves life more than he hates us.
    No, what worries Americans are not the deterrables like Saddam. 
What worries them are the ``undeterrables''--the kind of young Arab-
Muslim men who hit us on September 11, and are still lurking. Americans 
would pay virtually any price to eliminate the threat from the 
undeterrables--the terrorists who hate us more than they love their own 
lives, and therefore cannot be deterred.
    I share this view, which is why I think the Iraq debate is upside 
down. Most strategists insist that the reason we must go into Iraq--and 
the only reason--is to get rid of its weapons of mass destruction, not 
regime change and democracy building. I disagree.
    I think the chances of Saddam being willing, or able, to use a 
weapon of mass destruction against us are being exaggerated. What 
terrifies me is the prospect of another September 11--in my mall, in my 
airport, in my downtown--triggered by angry young Muslims, motivated by 
some pseudo-religious radicalism cooked up in a mosque in Saudi Arabia, 
Egypt or Pakistan. I believe that the only way to begin defusing that 
threat is by changing the context in which these young men grow up--
namely all the Arab-Muslim states that are failing at modernity and 
have become an engine for producing undeterrables.
    So I am for invading Iraq only if we think that doing so can bring 
about regime change and democratization. Because what the Arab world 
desperately needs is a model that works--a progressive Arab regime that 
by its sheer existence would create pressure and inspiration for 
gradual democratization and modernization around the region.
    I have no illusions about how difficult it would be to democratize 
a fractious Iraq. It would be a huge, long, costly task--if it is 
doable at all, and I am not embarrassed to say that I don't know if it 
is. All I know is that it's the most important task worth doing and 
worth debating. Because only by helping the Arabs gradually change 
their context--a context now dominated by anti-democratic regimes and 
anti-modernist religious leaders and educators--are we going to break 
the engine that is producing one generation after another of 
undeterrables.
    These undeterrables are young men who are full of rage, because 
they are raised with a view of Islam as the most perfect form of 
monotheism, but they look around their home countries and see 
widespread poverty, ignorance and repression. They are humiliated by 
it, humiliated by the contrast with the West and how it makes them 
feel, and it is this humiliation--this poverty of dignity--that drives 
them to suicidal revenge. The quest for dignity is a powerful force in 
human relations.
    Closing that dignity gap is a decades-long project. We can help, 
but it can succeed only if people there have the will. But maybe that's 
what we're starting to see. Look at how Palestinian legislators just 
voted no confidence in Arafat; look at how some courageous Arab 
thinkers produced an Arab Human Development Report, which declared that 
the Arab-Muslim world was backward because of its deficits of freedom, 
modern education and women's empowerment.
    If we don't find some way to help these countries reverse these 
deficits now--while access to smaller and smaller nuclear weapons is 
still limited--their young, angry undeterrables will blow us up long 
before Saddam ever does.

    Senator Akaka. I want to commend Secretary Rumsfeld and 
General Myers for what they're doing in trying to get us 
through this and to come to some decision. My feeling has been 
that we need to work to gain multilateral support for our 
policy in Iraq. I want to take the time to commend the 
President for going to the United Nations for a new resolution 
establishing firm conditions and time lines for compliance by 
Saddam Hussein.
    Just as General Myers indicates in his submitted testimony 
today, that our joint warfighting team will act in concert with 
our partners to defeat Iraq's military, we are going to engage 
in a policy of nation building in lands far from our shores. We 
are going to need, as well, to act in concert with the 
international community. I think we believe this and we're 
seeking this, and we hope it will come to this before we make 
our decision, or even after that.
    Mr. Secretary, in the first Persian Gulf War, we did not 
drive our forces into Baghdad, in part because we did not want 
to get into conflict that could have been considered messy, of 
nation building in a post-Saddam Iraq. In response to Senator 
Nelson's question, you seemed, well, unclear as to what the 
administration's post-conflict strategy would be. My question 
to you is who is responsible in the administration for putting 
these plans together? To the best of your knowledge, are these 
being done?
    Secretary Rumsfeld. Senator, with all respect, I didn't 
think I was unclear at all. I thought I was quite clear. The 
answer to the question is that the President of the United 
States is ultimately responsible, and he's assigned the 
Department of State to establish a group of people to think 
that issue through. What I was able to provide is the specifics 
that have, thus far, been reasonably well thought through, and 
then to acknowledge the reality of two things, two unknowns. 
One is that the United States undoubtedly would not be doing it 
alone. They'd be doing it either with the United Nations or 
with an international coalition, and other people would have 
voice in that. Second, maybe I'm old-fashioned, but I think the 
Iraqi people ought to have a voice in it, as well.
    I'm not omniscient. I can't look down on the earth and say, 
well, this is how the U.N. would decide or this is how the 
coalition would decide, or this is how the Iraqi people would 
decide. I think that the lack of clarity reflects a respect for 
the reality that exists.
    Senator Akaka. General Myers, with the need for 
multilateral support, some have indicated that we need that 
kind of assistance. So my question is, can we defeat Iraq's 
military forces without any direct support from our allies?
    General Myers. Senator, obviously, depending on the type of 
military operation you engage in, it's usually made easier by 
support and help from allies, and we've had great support, so 
far on the war on terrorism, particularly the Afghanistan 
piece, but other pieces as well. In any potential conflict, it 
would be desirable to have certain allies and partners be with 
us, and they would all contribute, probably, in different ways.
    I'm reminded of how the Japanese are contributing right now 
to our war on terrorism by providing, at my last count, 48 
million gallons of fuel oil to our U.S. Navy ships that are 
using the Pacific to support the war on terrorism. So it might 
range from that to combat troops to overflight to basing to 
staging, anywhere we might need to prosecute this war on 
terrorism. Certainly help from our friends, allies, and 
partners is a desirable thing.
    Senator Akaka. General Myers, switching to Afghanistan, has 
an assessment been made concerning the impact on our troop 
security in Afghanistan, their ability to continue the mission 
of eliminating al Qaeda, and, on Afghanistan's stability if we 
are forced to draw troops, intelligence, assets, and weapons 
away from Afghanistan for a war in Iraq? If you can share this 
assessment, I certainly would like to have a response.
    General Myers. Sir, we've even taken a broader look than 
that. As important as Afghanistan is, we've looked at the 
defense strategy that came out of the Quadrennial Defense 
Review and applied force structure to the tasks that are 
outlined in that strategy. The conclusion was that we have 
adequate force structure properly equipped to carry out the 
defense strategy. That would certainly include our ongoing 
operations in Afghanistan.
    It's not so much an issue of the number of troops. We have, 
in fact, modest numbers inside Afghanistan. I think today the 
numbers are around 10,000, approximately. They'll probably go 
up and down over time as units rotate in, as units rotate out, 
as the need is there, as the need diminishes.
    But you're right, there are some assets that are in short 
supply, and I think I indicated that in my opening statement, 
that intelligence, surveillance, and reconnaissance assets have 
historically been in short supply. We've tried to fix this 
through our budget requests in recent years. In 2002, we've 
made some headway there. You'll see some more requests for 
those type of assets in 2003. We have to prioritize them today. 
We have to prioritize them in peacetime, for that matter. We 
have to prioritize them today when we're in the global war on 
terrorism, and we'll have to prioritize them if we're asked to 
do something else.
    But our conclusion is that we have sufficient assets to do 
whatever it is the President asks us to do.
    Senator Akaka. Thank you very much. My time has expired.
    Chairman Levin. We'll limit the next round to one question 
each, given the hour.
    Mr. Secretary, in various ways here today you've really 
signaled that you do not believe that inspections are a 
possible way to achieve disarmament. You've signaled that in so 
many different ways. You've said you don't see how it's 
possible without regime change.
    I asked you a question about whether or not there is any 
chance at all that Saddam would open Iraq to full inspections 
and disarmament if the alternative was that he knew he would be 
destroyed, and you really did not answer that. You said that's 
just sort of not your area, that the State Department and the 
President are working that question.
    Secretary Rumsfeld. Which question was that?
    Chairman Levin. When I asked you, in your judgment, if 
there is any chance at all that Saddam Hussein would open Iraq 
to full inspections and disarmament if the alternative that he 
knew he faced to doing that was that he would be destroyed and 
removed from power.
    Secretary Rumsfeld. Because he opened up to inspections?
    Chairman Levin. Any chance. Any chance.
    Secretary Rumsfeld. I'm sorry. I am still having trouble 
with the question. You say, is there any chance that Saddam 
Hussein would open up to inspections if he knew that, by 
opening up to inspections----
    Chairman Levin. No, if he knew that the alternative to 
refusing to open up and disarm was that he would be destroyed.
    Secretary Rumsfeld. Your guess is as good as mine.
    Chairman Levin. Do you have a guess?
    Secretary Rumsfeld. I really don't. I just don't know.
    Chairman Levin. But my question is, is there any chance? Is 
there any chance?
    Secretary Rumsfeld. There's always a chance of anything. 
The sky could fall.
    Chairman Levin. It's about that. It's about that level of 
chance, I gather.
    Secretary Rumsfeld. I don't know. I honestly just don't 
know. I mean, looking at it rationally, although I can't climb 
in his head. But, looking at it rationally, there have been 
plenty of dictators who have just up and left when things 
looked bleak and they've gone to live in some nice country, 
taken away all the money they've stolen, and there they are.
    Chairman Levin. Then a moment ago, you said the only 
certainty that we'll have relative to weapons is after an 
attack.
    Secretary Rumsfeld. No, I don't know.
    Chairman Levin. After he uses them against us. After he 
attacks.
    Secretary Rumsfeld. Ah, I think what I said was that you 
would gain perfect certainty as to what he would do after they 
are used.
    Chairman Levin. Not quite. You said the only certainty, the 
only way that we can have any certainty about what he has is 
after he uses them.
    Secretary Rumsfeld. Unless you have disarmed him.
    Chairman Levin. You see, you didn't add the ``unless.'' 
It's such an important point.
    Secretary Rumsfeld. Well, I apologize. Maybe it's late in 
the day and I forgot to add it.
    Chairman Levin. No, it's not a problem.
    Secretary Rumsfeld. I forgot to add it, but obviously if 
you've disarmed him, then you have perfect certainty on the 
ground. I talked about that earlier today.
    Chairman Levin. You do acknowledge that there's at least a 
possibility that he could be forced to disarm before he 
attacked?
    Secretary Rumsfeld. Of course.
    Chairman Levin. Without being attacked.
    Secretary Rumsfeld. It is possible. He could wake up 
tomorrow morning and decide he should leave and go. It's 
possible he could wake up tomorrow morning and be sincere about 
inspections and invite everybody and change an 11-year behavior 
pattern.
    Chairman Levin. So there's a lot at stake here in terms of 
whether we support a really good inspection regime and back it 
up with a threat of authorized force from the U.N.
    Secretary Rumsfeld. There is a lot at stake.
    Chairman Levin. There's understandable skepticism coming 
from you, and I think that's, again, understandable. But what 
there isn't is the support for what I thought the President 
asked at the U.N., which was, ``We want robust inspections. We 
want disarmament.'' The message I'm getting from you today is, 
``It ain't possible without regime change.'' That's the message 
I'm getting.
    Secretary Rumsfeld. Well, I hope you'll find that my 
testimony today is very much supportive of the President's 
speech in the U.N. I think if you reread it, you'll find that 
he was exactly where I am on what I've said today. He did not 
rule out inspections. He didn't even mention the word 
``inspections,'' to my knowledge. So I can't see any 
inconsistency with it.
    I think that it's important to recognize that it's the 
Department of State that works with the U.N. on inspections and 
not the Department of Defense and that I am certainly not the 
world's leading expert. All I do is look at facts. When I get 
asked a question by a member of the Senate, I answer it to the 
best of my ability. If I get asked what's the pattern over the 
last 11 years, the pattern is that the U.N. has been jerked 
around consistently for 11 years. That's just the fact pattern.
    Chairman Levin. I couldn't agree with you more. It's about 
time the U.N. ends it. We support that effort in the U.N.
    Senator Warner.
    Senator Warner. Let me see if I can clarify this line of 
questioning, Secretary Rumsfeld. I think it's been a valuable 
hearing, I'll state that here and now, by both the Secretary 
and our Chairman, a very valuable hearing. You have indicated, 
and I agree with you, that the inspection regime that is now 
written up for Hans Blix and the one which Iraq has called upon 
to be used is not likely to produce anything of value, and it 
would be ineffective.
    But I think where we need clarity is that Secretary of 
State Colin Powell, very courageously, is trying to negotiate 
with the Perm 5 and others, a blueprint of a regime for 
inspections with specific timetables, specific missions, 
specific dates, and an assumption of cooperation that could be 
effective. If that were devised, voted on affirmatively by the 
permanent members and others in the Security Council, it could 
possibly bring about a beginning toward disarmament. Am I 
correct in that?
    Secretary Rumsfeld. I do not know. The last time I talked 
to Colin on this I was aware that others were proposing a 
variety of resolutions for the United Nations, but it's not 
clear to me that you're correct by suggesting that the United 
States has that type.
    Senator Warner. I've followed this as closely as I could.
    Secretary Rumsfeld. You could be right.
    Senator Warner. But I thought we were engaging the Security 
Council in an effort to try and fashion a regime that the 
Security Council, of which we are a permanent member, would 
consider, ``All right, this should be given a try.'' Otherwise, 
what is it we're negotiating up there right now?
    Secretary Rumsfeld. The President's speech set out a 
position that he believed was the correct one.
    Senator Warner. I agree with our President.
    Secretary Rumsfeld. Colin Powell's task is to then work 
with the other members and try to achieve something that's as 
close as possible to what the President set forth in his 
remarks.
    My understanding--and again, the Secretary of State is the 
one dealing with this, not me--is that the last visibility I 
had into this--and you were there--there were others proposing 
a variety of resolutions or ideas, and it was in the discussion 
stage. Some included inspection regimes, some did not. So I 
think I answered you correctly when I said that, the last I 
knew, they may very well be being discussed, but it is not 
clear to me that it has been proposed by Secretary Powell. I 
just do not know.
    Senator Warner. All right. I don't have any information 
above yours except that I listened to him, and I made a joint 
appearance with him on Sunday. The Chairman and I appeared on 
``Late Edition'' with him. I listened very carefully. Somehow I 
got the impression we were seeking to explore the option by 
which there could be a regime fashioned with very specific 
things and the clause in it in a resolution would be that if 
Iraq failed to meet all specifics in that resolution, then 
member nations, understandably, could resort to such use of 
force as they deem necessary to protect their security 
interests.
    Secretary Rumsfeld. I think you're exactly right, that some 
countries have proposed that and that that is part of the 
discussion. It is just not clear to me that Colin did.
    Senator Warner. Well, we'll put that to one side.
    Then I ask this question as a follow-up. In the event that 
a draft resolution is put forth at the Security Council, if any 
member of the Perm 5 were to cast a veto--not abstain, but cast 
a veto-- wouldn't that have the effect of forcing the hand of 
those member nations which feel that their security interests 
are at risk? Given the current conditions of Saddam Hussein and 
his mass destruction weapon inventory, wouldn't that force 
their hand to have no other option but to use force, and that 
would, in all likelihood, be the United States and hopefully 
Great Britain?
    Secretary Rumsfeld. That would be a judgment for the 
President, not me.
    Senator Warner. Thank you.
    Chairman Levin. Last question.
    Senator Dayton.
    Senator Dayton. Mr. Secretary, in your view, what must be 
done by Iraq that would give us the necessary assurance that 
our national security is not going to be a threatened by his 
military capability? The inspections? I totally concur with 
your concerns about them, along with his dodging and weaving 
and delaying and the like. He has been duplicitous throughout 
all these years, as you've said, so is there anything that 
could be done that would give us the assurance necessary that 
that threat had been removed or brought within the constraints 
of the U.N. resolutions?
    Secretary Rumsfeld. Senator, there's no question but that 
if Iraq were to comply with the U.N. resolutions, that they 
would have disarmed. They would not have any of those programs. 
They would also not be threatening their neighbors, they would 
not be doing a host of other things that they do that are 
represented in those resolutions. That is what this is about. 
There's no question but that if, for whatever reason by 
whatever mechanism, it was clear that they had disarmed, that 
that would, I am confident, reassure the international 
community and the United States.
    Senator Dayton. Thank you.
    Thank you, Mr. Chairman.
    Chairman Levin. Senator Dayton, thank you.
    Our witnesses, we want to thank you. We promised that you 
would be out of here by 6 o'clock. I believe we have kept that 
promise. We have kept you and us sort of on schedule. We are 
very much appreciative of your presence. It's been a very 
helpful hearing to us, and we stand adjourned.
    [Questions for the record with answers supplied follow:]
               Questions Submitted by Senator Carl Levin
                       deployments and readiness
    1. Senator Levin. Secretary Rumsfeld, when you took office almost 2 
years ago, you asserted that U.S. Armed Forces were overstretched, 
negatively impacting readiness and morale. Your objective was to reduce 
the number of deployments. A year and a half later, you still find this 
problem. In June, you told this committee:

        ``Because we have underfunded and overused our forces, we find 
        we are short a division, we are short airlift, we have been 
        underfunding aging infrastructure and facilities, we are short 
        on high-demand/low density assets, the aircraft fleet is aging 
        at considerable and growing cost to maintain, the Navy is 
        declining in numbers, and we are steadily falling below 
        acceptable readiness standards.''

    According to Newsweek and The New York Times, you issued a memo in 
March to the service chiefs asserting:

        ``. . . `The entire force is facing the adverse results of the 
        high-paced optempo and perstempo' . . . We are past the point 
        where the Department can, without an unbelievably compelling 
        reason, make any additional commitments . . . It is time [to] 
        begin to aggressively reduce our current commitments.' ``(May 
        6, 2002, reported by Newsweek)

    What steps have you taken since March to remedy the operational 
tempo and readiness problem?
    Secretary Rumsfeld. This issue is one of the most pressing 
challenges facing the Department, and is receiving our close attention. 
I have challenged everyone in the Department to examine every detail, 
task, fellowship, and assignment that diverts military personnel from 
performing their operational military duties. We are analyzing the 
nature and extent of the additional requirements, and the Department's 
ability to accommodate them by reprioritizing functions, using civilian 
personnel, the Reserve components, or commercial enterprises to perform 
other less critical duties. We are examining how to meet these 
requirements from both near term and longer-range perspectives, such as 
using technology to reduce the need for manpower in certain functions, 
and reviewing our current missions and overseas presence.
    We are challenging each arrangement in which a military individual 
is working outside the Department of Defense. At the same time, we are 
aggressively pursuing the congressionally-directed reductions of the 
management headquarters activities in order to return military 
personnel to operational duties. We are also examining current missions 
and our overseas presence to determine whether there are areas in which 
we can reduce the deployment burden on the force.
    One of our recent initiatives is to relieve the stress on those 
critical, specialized assets such as our Airborne Warning and Control 
System (AWACS). We are working ways to use similar assets to meet 
mission needs. For the AWACS, these include the Navy E-2C, the U.S. 
Customs Service P-3, and the ground based Sentinel radar. We are also 
working on ensuring we deploy these assets effectively. For example, if 
we combine forward operating locations, we realize good savings in the 
overhead requirements--logistics, staffing, force protection, spare 
assets, etc. Obviously, this is dependent on the specific mission need, 
but we've already identified a few places where we think this approach 
will help.
    We are robustly funding those critical readiness enablers, such as 
spare parts and training, which underpin our combat power. We have also 
invested in new technologies and systems to transform our forces to 
meet future challenges. In summary, readiness remains a top priority of 
the Department, and we will do whatever it takes to keep our military 
forces the best in the world.

    2. Senator Levin. Secretary Rumsfeld, a war with Iraq would 
certainly further exacerbate existing strains on the military. How will 
you manage this additional commitment so it does not negatively affect 
our ability to fight the al Qaeda network of terrorists, defend our 
homeland, and conduct other overseas missions?
    Secretary Rumsfeld. A conflict with Iraq would be part of the 
global war on terrorism. Stopping regimes that support terror from 
acquiring weapons of mass destruction is a key objective of that war, 
and we can fight the various elements of the global war on terror 
simultaneously, including a conflict with Iraq if that should occur.

                      impact of operational tempo
    3. Senator Levin. General Myers, in February you warned this 
committee about the impact the war on terrorism was having on 
operational tempo and readiness. You said:

        ``The war on terrorism had provided fresh validation of 
        previous readiness assessments. Our forward deployed and first-
        to-fight forces remain capable of achieving the objectives of 
        our defense strategy. However, we remain concerned about the 
        effects of a sustained high operations tempo on the force, 
        strategic lift and sustainment shortfalls, and shortages of ISR 
        assets, as well as the challenges associated with WMD, 
        antiterrorism, and force protection. Additionally, in some 
        locations, we face operational limitations that may affect 
        mission success.''

    Two months later, in a ``NewsHour'' interview you said:

        ``We came out of the starting blocks, if you will, for 
        Afghanistan at a full sprint. We're very concerned about 
        operational tempo and the impact it has on families and for the 
        Reserve component, for their employers. We're concerned about 
        the impact it has on equipment. That's sort of normal but we're 
        in increased operational tempo right now. So the services have 
        some concerns.''

    What are the operational limitations on mission success in the 
global war on terrorism that you were referring to in February?
    General Myers. The global war on terrorism, especially operations 
in Afghanistan and Homeland Defense, continue to expose operational 
limitations. There are several assets and capabilities we have kept a 
close eye on for some time now. Our low-density/high-demand assets, 
including Airborne Warning and Control System and special-purpose C-
130s and helicopters, have been through a long period of surge 
operations. Additionally, intelligence, surveillance and reconnaissance 
platforms, communications pipelines, strategic lift assets, and air 
refueling capability (especially the KC-135s) have been stretched 
during the current campaign. I am continually impressed at how our 
military forces overcome such limitations with ingenuity and hard work.

    4. Senator Levin. General Myers, do any of these limitations apply 
to a potential war with Iraq, and, given these limitations, how would 
an operation in Iraq affect our ability to fight the war on terrorism?
    General Myers. The United States military is fully capable of 
fighting the war on terrorism and addressing the threat from Iraq. 
Certainly the shortfalls that affect operational readiness and 
sustainability to this point will make a conflict in Iraq that much 
more challenging. However, these limitations do not impact our 
expectations for success in a potential Iraqi conflict. Contingency 
planning staffs at United States Central Command and in the Pentagon 
have been working tirelessly to maximize our military effectiveness, 
with the assets and capabilities available.
    As for operations in Iraq affecting the global war on terrorism, I 
find it difficult to separate the two. Removing the Iraqi regime 
contributes to the war on terrorism and contributes significantly to 
the near- and long-term security of the Nation and the world.

    5. Senator Levin. General Myers, you mention in your testimony that 
``if our operations on the war on terrorism are expanded, we will be 
required to prioritize the employment of . . . enabling units.'' How 
would you do this? Which is a higher priority--fighting a war against 
Iraq or fighting the war on terrorism?
    General Myers. The United States military is fully capable of 
fighting the war on terrorism and addressing the threat from Iraq.
    If the question is, ``How does Iraq fit into the war on 
terrorism?'' The answer is, removing the Iraqi regime contributes to 
the war on terrorism. Iraq has been named by the State Department as a 
state sponsor of terrorism. In fact, Iraq is a ``Charter Member'' of 
the State Department's list, having been on that list since 1984. Iraq 
has weapons of mass destruction and a proven willingness to use them. 
They are also aggressively seeking to acquire nuclear weapons. If Iraq 
were to give such weapons to terrorists, the attacks we suffered on 
September 11 might be as President Bush said, ``merely a prelude to far 
greater horrors.''
    ``Enabling Units'' consist of low-density/high-demand assets such 
as special operations forces, some intelligence collection platforms, 
and other unique capabilities. Prioritizing enabling units is a task 
performed on a daily basis, in peacetime or times of conflict. If we 
were to conduct military operations against Iraq, enabling units would 
be employed based on priorities established by the Secretary of 
Defense, just as they are now.

            impact of attack on iraq on the war on terrorism
    6. Senator Levin. Secretary Rumsfeld, you pose a question in your 
testimony about whether an attack on Iraq will disrupt and distract the 
U.S. from the war on terrorism. You answer your own question by stating 
that Iraq is a part of the global war on terror. Even if this is the 
case, what impact would fighting in Iraq have on our ability to keep 
fighting al Qaeda terrorists in Afghanistan, Yemen, Southeast Asia, and 
other countries and regions?
    Secretary Rumsfeld. Today, we have sufficient forces to continue 
our ongoing operations, meet our international commitments, and 
continue to protect the American homeland. At the same time, some key 
units are in high demand. The mobilization of the Guard and Reserve has 
helped to reduce the stress on some of the key units. Any major combat 
operation will of course require us to prioritize the tasks given to 
units. The foundation of our success remains our soldiers, sailors, 
airmen, marines, and coast guardsmen. Included in these forces are our 
civilians and the Reserve component. Superior training, leadership and 
discipline are the core of our effectiveness.

          u.s. military strategy (quadrennial defense review)
    7. Senator Levin. Secretary Rumsfeld, your testimony points out 
that last year you introduced a new defense strategy that has four main 
components: defending the homeland, winning decisively in a major 
regional conflict, swiftly defeating an aggressor in another theater, 
and simultaneously conducting lesser contingencies.
    It seems to me much of the strategy is being currently performed--
homeland defense, lesser contingencies, and the global war on 
terrorism, which I would call a major contingency. Would you 
characterize the global war on terrorism as a major contingency?
    Secretary Rumsfeld. First let me be clear by saying that our 
defense strategy has four defense policy goals: assuring allies and 
friends, dissuading future military competition, deterring threats and 
coercion against U.S. interests, and, if necessary, decisively 
defeating any adversary. The four components that you mention reflect 
the new force-sizing construct that supports these four defense policy 
goals.
    Winning the war on terrorism is the top priority of our Armed 
Forces. It is the first war of a new era and our Armed Forces are 
engaged to accomplish this mission. Because this war takes many forms, 
and is being fought in many places and using different means, it is 
unlike any other challenge we have faced. Some phases of our military 
operations in this war could be considered lesser contingencies (e.g., 
our current operations in the Philippines), while others might take on 
more significant dimensions.

    8. Senator Levin. Secretary Rumsfeld, we are here today to discuss 
engaging in another major contingency, one in which we would presumably 
aim to ``swiftly defeat'' our adversaries. Meanwhile, our ongoing war-
level effort, occurring in multiple regions, is not ending quickly--
indeed, you and others in the administration have speculated that it 
might last 5 years or longer.
    Are you planning any revisions to your strategy to reconcile it 
with what we are currently doing--fighting a long war against an 
amorphous foe and the possibility of another major contingency?
    Secretary Rumsfeld. We are not planning revisions to the U.S. 
defense strategy. We are changing--indeed transforming--practically 
everything else we do to support the new strategy.
    On September 11, we learned that the way America goes to war needs 
to be assessed continuously. It is necessary to refresh our war plans 
in order to respond to the threats from terrorists that we face today. 
Last year, we fashioned a new defense strategy and force planning 
construct, which requires that we have the capability to do the 
following: defend the homeland, undertake a major regional conflict and 
win decisively--including occupying a country and changing its regime, 
if necessary--swiftly defeat another aggressor in another theater, and 
simultaneously conduct a number of lesser contingencies such as Bosnia, 
Kosovo, and Afghanistan. We are transforming our force as we fight the 
war on terrorism and examining our war plans to ensure that they 
support the strategy in the best way possible.

    9. Senator Levin. Secretary Rumsfeld, last June you testified that 
one of the reasons for revising the previous administration's strategy 
was that it was too ambitious. You said that the ``erosion in the 
capability of the force means that the risks we would face today and 
tomorrow are higher than they would have been when the two-MTW standard 
was established.''
    What has changed in the last year to make you believe that a force 
that could not accomplish a two-war strategy then can be expected to do 
so now?
    Secretary Rumsfeld. Changing conditions have led to significant 
changes to U.S. defense strategy. We have a broader set of challenges 
facing us today and, therefore, are developing broader capabilities. We 
also plan to fight wars differently. Our initial successes in 
Afghanistan, for example, were the direct result of a new style of 
warfare. Special Operations Forces leveraged long-range air power 
launched from carriers in the Arabian Sea, land bases in the region, 
and even the continental United States. These same forces used a 
combination of intelligence assets to provide persistent surveillance 
and indispensable human intelligence.
    We are examining our plans and capabilities so as to fight 
innovatively in other possible contingencies. For example, we recognize 
that today you can have overwhelming force, conceivably, with lesser 
numbers because the lethality is equal to or greater than before. It 
has been a mistake to measure the quantity of forces required for a 
mission and fail to look at the effectiveness of those forces.
                                 ______
                                 
            Questions Submitted by Senator Mary L. Landrieu
                             force strength
    10. Senator Landrieu. Secretary Rumsfeld and General Myers, it 
would seem that lessons learned from previous U.N. inspectors in Iraq 
would dictate that they will need military support to sustain their 
efforts. Do you intend to increase the number of troops in the region, 
even as the inspectors are performing their U.N. duties? If so, can you 
sustain this buildup with even more troops committed if we go to war? 
Would Iraq not see this buildup as an act of war?
    Secretary Rumsfeld and General Myers. The United Nations Security 
Council has not settled on the specific language of a new resolution on 
the situation in Iraq. The United States government's position is that 
the resolution should require immediate, unconditional and unrestricted 
access to all areas in Iraq as a precondition of any agreement to 
resume weapons inspections. As was the case with United Nations Special 
Commission in the previous inspection commission, Iraq will also be 
required to ensure the safety and security of the inspectors. A failure 
to meet those conditions would then constitute another breach of Iraq's 
obligations.
    The United States military continues to maintain a significant 
force presence in the region. That said, we do not intend to increase 
the number of troops in the region for the purpose of providing support 
to the weapons inspectors. Nonetheless, we retain the ability to change 
our force posture in the region to be ready to deal with future changes 
in the threat conditions.

    11. Senator Landrieu. General Myers, your prepared testimony states 
that the U.S. is currently using 15-20 percent of our major combat 
units to sustain current operations. If the President directs the 
military to assemble a force for an invasion, it will no doubt increase 
this number.
    If the U.S. should deploy troops with the intention of changing the 
regime in Iraq, will our forces be able to address any contingencies 
that may erupt in other parts of the world?
    General Myers. The defense strategy resulting from the Quadrennial 
Defense Review outlined missions that the military must be able to 
conduct. Our forces are structured to respond to those worldwide 
missions. We have an adequate force structure that is properly equipped 
to carry out our strategy. We have sufficient capability to conduct 
effective operations against Iraq while maintaining other aspects of 
the war on terrorism, protecting the homeland, and keeping our 
commitments in other regions of the world.
    In any potential conflict, it is desirable to have allies and 
partners contributing in different ways. Their support may be in the 
form of combat troops, supplies, overflight rights or staging rights. 
We will continue to work with our partners to execute the global war on 
terrorism. This does require prioritizing some of our critical 
resources that are in short supply. But the Joint Chiefs and I are 
confident that we can accomplish whatever mission the President asks of 
our Armed Forces.

                         deployment time-frame
    12. Senator Landrieu. General Myers, one of the lessons that we 
certainly learned during Operations Desert Shield/Desert Storm is that 
it took nearly 6 months for the United States to position its forces in 
Saudi Arabia. In that time, a still potent Iraqi army could have 
crossed the border into Saudi Arabia and inflicted great damage on the 
assembling American force. In your testimony, you made note of the fact 
that the military has made great improvements in our ability to deploy 
forces to a theater of conflict.
    If the President should give you the green light to begin 
assembling an invasion force for Iraq, how long would it take for the 
U.S. to deploy the appropriately-sized force to the region?
    General Myers. Improvements in mobility assets, deployment 
infrastructure and pre-positioned combat unit sets contribute 
significantly to our ability to deploy and execute combat missions much 
faster than during Operations Desert Shield and Desert Storm. 
Investments in strategic airlift and sealift power-projection platforms 
have greatly improved the deployment responsiveness and sustainment 
capability of our forces. Though I cannot comment on specific 
deployment timelines for operational security reasons, I can assure you 
that should the President give the authorization, our forces are 
prepared to deploy swiftly and will be combat ready. With regard to 
potential threats during the deployment phase, our planning process 
takes them into account. We are prepared to execute the mission if it 
is asked of us and are confident of victory.

                          iraqi troop movement
    13. Senator Landrieu. General Myers, without getting into anything 
classified, what sort of preparation, build-up, or troop movements are 
you seeing by the Iraqis? Would you elaborate on some of the equipment 
they received legally under sanctions, which they have modified to 
become weapons transports?
    General Myers. [Deleted.]

                           iraqi capabilities
    14. Senator Landrieu. General Myers, in your prepared testimony, 
you list the current capabilities of the Iraqi army. You stated that 
Iraq currently has 2,000 tanks, 3,500 armored personnel carriers 
(APCs), and 300 jet aircraft. There is no doubt in my mind that 10 
years of economic sanctions have had an effect on the readiness of this 
force, particularly in the inability of the Iraqi regime to acquire 
spare parts for it military.
    Do you have any estimates of what portion of the Iraqi army is 
actually combat-ready and poses a threat to any American troops who may 
be sent over there?
    General Myers. During the last several years, Iraq has focused its 
efforts in acquiring spare parts through smuggling and abuse of the oil 
for food program to preserve its combat power. Emphasis has been placed 
first on maintaining the combat capability of the Republican Guard, 
then the Army's Armor and Mechanized formations, while his less capable 
infantry units were forced to make do with less. The Iraqi Air Force 
has also suffered, with pilots averaging less than 30 hours of flight 
time per year. Many airplanes have mechanical difficulties. Where the 
readiness of Iraq's ground forces has suffered the most is in its 
combat support and combat service support sectors. Shortages of 
everything from trucks, tires, batteries and uniforms are endemic. 
These shortages are a major factor in limiting Iraq's offensive 
capability but will not be so debilitating when Iraq is defending.

                            fighting the war
    15. Senator Landrieu. Secretary Rumsfeld and General Myers, 
recently Congressman Skelton quoted Carl von Clausewitz, who said, ``In 
developing strategy, it is imperative not to take the first step 
without considering the last.'' Along these lines, we have not yet 
really concluded operations in Afghanistan and we are using our Special 
Operators in Yemen, East Africa, and other locations. Do we have the 
resources to win this war?
    Secretary Rumsfeld and General Myers. Yes, we have the resources to 
win the war. Although it is true that our Special Operations (SO) 
personnel and assets are heavily engaged worldwide, United States 
Special Operations Command (USSOCOM) carefully manages their 
employment. USSOCOM is currently able to support existing and projected 
requirements; however, we will have to very carefully manage SO 
aircraft.

    16. Senator Landrieu. Secretary Rumsfeld and General Myers, do we 
anticipate a war with Iraq as being a largely urban, ``door-to-door'' 
conflict? If so, will we be spreading our Special Operators too thin? 
If we are forced into urban warfare, do we have enough foreign language 
speakers to ensure our troops have the greatest chance of survival and 
success at helping the people of Iraq understand our mission there and 
at helping develop support for a democratic government?
    Secretary Rumsfeld and General Myers. Our conflict is with Iraq's 
brutal and corrupt regime. It is not with the innocent people of Iraq 
who have been suffering horribly under his tyrannical reign. America 
acts not to conquer, but to liberate; we seek friendship with the Iraqi 
people and offer to help them build a future of stability and self-
determination.
    The Iraqi regime has committed gross human rights violations 
against Iraq's citizens, including rape, torture, and genocide. He has 
brutalized the Iraqi people. The regime has lost its legitimacy, not 
only in our eyes but also, I believe, in the eyes of most Iraqis as 
well.
    However, should urban combat occur, the United States military is 
up to the challenge. We train for it, we have planned for it, and we 
are prepared for the possibility.
    As for spreading our special operators too thin, again, the 
President has not made a decision to use military force against Iraq. 
Until such a decision has been made, discussion of troop movements and 
dispositions would be premature.

    17. Senator Landrieu. Secretary Rumsfeld and General Myers, some of 
Afghanistan's very basic ``lessons learned'' demonstrate a need for 
better equipment, including backpacks that do not rip, more efficient 
and lighter radios that would take less time to set up and break down 
when calling in a position or an air strike, longer battery life for 
radios and computers that would enable ground troops to communicate 
longer with command centers and close air support aircraft, etc. Have 
we resolved these problems?
    Secretary Rumsfeld and General Myers. We continue to address and 
resolve problems with our equipment. First, in a general sense, we all 
are aware that the U.S. Armed Forces field the best equipment of any 
armed force in the world, however, real world operations sometimes 
uncover shortfalls in design or workmanship in our equipment that 
wasn't predicted. Our feedback process is robust and allows us to 
report material issues back to the procuring organizations to allow 
them to find solutions. Let us take the Modular Lightweight Load-
bearing Equipment (MOLLE 2) backpack as an example of which you alluded 
to. The MOLLE 2 incorporated design changes that were a direct result 
of experience with the original MOLLE. The MOLLE 2 design is considered 
a more capable backpack than its predecessor, but during its use in 
Afghanistan some issues were acknowledged. The Marine Corps Systems 
Command was quick to recognize this and issued a solicitation for an 
improved MOLLE 2 backpack that will incorporate lessons learned from 
Afghanistan.
    For more complex weapons systems the process to address 
deficiencies may require more time to resolve, but feedback mechanisms 
are in effect at all of our procuring organizations that allow for 
product shortfalls to be known. Technology insertion and spiral 
development help us to make the necessary changes in our equipment as 
we discover gaps in equipment capability.

    18. Senator Landrieu. Secretary Rumsfeld and General Myers, what is 
our specific objective in Iraq? What will it cost us to achieve that 
objective under the best and worst case scenarios?
    Secretary Rumsfeld and General Myers. We want to see an end to:

        <bullet> The threat from Iraq's weapons of mass destruction
        <bullet> The threat from Iraq to its neighbors and the region
        <bullet> The regime's sponsorship of terror
        <bullet> The oppression of the Iraqi people

    As far as the issue of costs, we must reiterate the President has 
made no decision whether to use military force against Iraq. If a 
decision is eventually made to use military force, the costs incurred, 
whatever they will be, must be weighed against the cost of not acting 
at all--for example, against the danger that a nuclear-armed Iraq would 
pose to the entire Middle East or that terrorists armed with WMD could 
pose to the United States and our friends and allies.

    19. Senator Landrieu. Secretary Rumsfeld and General Myers, Iraq 
has used chemical weapons against its own people, so it is a natural 
assumption that it would not hesitate to use them on U.S. troops.
    Why would the threat of massive retaliation, which worked well 
during the Gulf War, not elicit the same fear from Iraq now? In 
addition, anticipating their use of these weapons, our troops will be 
spending much of their time in Mission Operation Protective Posture 
(MOPP) 2 or higher, creating a difficult work environment. How do we 
plan to compensate for the loss of manpower and loss of dexterity to 
perform basic tasks while in higher MOPP levels?
    Secretary Rumsfeld and General Myers. If war occurred, we would 
seek by a variety of means to prevent or minimize Iraqi use of WMD 
against us and coalition forces, as well as against neighboring 
countries. We would seek to destroy Iraqi WMD and delivery systems and 
to employ other active and passive countermeasures. We would also, 
through our declaratory policy, make clear that any individual in the 
Iraqi chain of command involved in implementation of an order to use 
WMD would be held personally accountable. We believe that this would in 
its own way contribute to deterrence.
    As you mentioned, if our soldiers will spend a significant amount 
of time in Mission-Oriented Protective Posture their ability to operate 
will be degraded. It is imperative that we employ a strategy that 
denies Iraq the ability to effectively employ these weapons systems. In 
order to mitigate the Iraqi WMD threat and protect our forces in the 
field, we will:

        <bullet> Identify, attack, and destroy his WMD delivery systems 
        to deny his ability to employ them against us and coalition 
        forces.
        <bullet> Employ Special Operations and conventional forces to 
        isolate chemical and biological production and storage 
        facilities to deny their use by Iraqi forces.
        <bullet> Employ active and passive defensive countermeasures, 
        i.e., theater missile defense, environmental surveillance, and 
        individual protection to protect the force.
        <bullet> Through aggressive 10 operations encourage members of 
        the Iraqi military not to employ WMD if ordered to do so. 
        Military leaders will be held accountable under international 
        law if they are involved in the employment of WMD.

                 long-term commitment to stabilize iraq
    20. Senator Landrieu. Secretary Rumsfeld and General Myers, in 
planning for the inevitability of a very complex and long undertaking 
of democratization in Iraq (which would logically follow a regime 
change), how will we unite Shi'a, Sunni, and Kurd factions to ensure a 
foothold of democracy in the center of the Arab world?
    Secretary Rumsfeld and General Myers. If a decision were to be made 
to conduct military operations in Iraq, those operations would be only 
one part of a unified U.S. Government and international effort. The 
task of rebuilding Iraq would be one that the United States committed 
itself to for the long-term, much like in Afghanistan. While there are 
various factions in Iraq, as you have noted, all reports agree that 
these factions are united in their desire to see the current Iraqi 
regime go. The U.S. Government has made progress in encouraging their 
cooperation. In particular, we are encouraging them to declare their 
agreement on fundamental principles regarding Iraq's territorial 
integrity, representative government, renunciation of WMD, and 
commitment to peace with neighboring countries.

                        iraqi opposition groups
    21. Senator Landrieu. Secretary Rumsfeld and General Myers, the 
Iraqi National Congress (INC) gave us a glimmer of hope that Saddam 
Hussein would have been ousted by his people in 1992, but the coup 
failed. Afterwards, the INC basically collapsed in 1994-1995 due to in-
fighting over the diverse goals of its member factions. Some INC 
leaders feel that they could be militarily successful in the future 
with additional resources and training. Can the opposition groups 
topple Saddam with our assistance and without our mounting a full 
invasion? If so, will we be able to provide the resources needed to 
sustain democracy in Iraq by utilizing the INC, the Iraqi National 
Accord (INA), or other factions which may emerge as opposition forces?
    Secretary Rumsfeld. and General Myers. It would be presumptuous to 
speak for the opposition group leaders as to their capabilities, but 
the scenario you have laid out is not our current reality. As President 
Bush stated, we are committed to seeing Iraqi regime disarmed of WMDs, 
by one means or another. In this effort we are also committed to 
cooperating with those opposition groups who are committed to this 
goal.

                             immunizations
    22. Senator Landrieu. General Myers, your prepared testimony cites 
our improved ability to ensure that all of our forces will be medically 
prepared with the proper immunizations before deploying to a theater of 
conflict.
    What regimen of immunizations would be necessary, and how would it 
differ from the one given to troops deploying for Operations Desert 
Shield/Desert Storm? If there are new drugs being administered, have 
they been fully screened for the side effects they might have on our 
troops, such as future birth defects? If there are side effects, will 
your average private be informed of them?
    General Myers. All Service members, even those not involved in a 
deployment, are vaccinated against tetanus, diphtheria, influenza 
(given annually), hepatitis A, measles and polio. All Service members 
traveling overseas are protected by immunization against an array of 
infectious-disease threats. All deployed personnel receive typhoid 
vaccine. Personnel traveling to areas of higher risk will receive 
anthrax vaccine to protect them against that known lethal threat. In 
addition, U.S. Central Command requires personnel deploying to its area 
of responsibility (AOR) to be current in yellow fever and meningococcal 
immunizations. There are additional vaccination requirements specific 
to individual Services and to certain military occupations (e.g., 
hepatitis B, varicella, pnuemococcal and rabies). For example, medical 
personnel are required to have hepatitis B vaccination and personnel 
without a spleen are required to have pneumococcal vaccination.
    The Department of Defense is using vaccines to protect against the 
same diseases as in Operations Desert Shield and Desert Storm, although 
we are now using several different products (hepatitis A vaccine, 
inactivated polio virus vaccine, and typhoid vaccine) that are somewhat 
different from the products used during Operations Desert Shield and 
Desert Storm (immune globulin, oral polio virus vaccine, and a 
different form of the typhoid vaccine). Along with current American 
public health practice, the military has switched to using inactivated 
polio virus vaccine to prevent polio virus infections, and now uses 
hepatitis A vaccine, which is much more effective and safer than immune 
globulin in preventing hepatitis A infection. In addition, as noted 
above, the Department of Defense is now immunizing troops in designated 
higher threat areas against the threat of anthrax with the Food and 
Drug Administration (FDA)-licensed vaccine.
    The Department of Defense, along with other agencies of the Federal 
Government, is examining the need for smallpox vaccination in order to 
protect critical military capabilities.
    There are a number of biological and chemical warfare threats for 
which no FDA-licensed countermeasure has been developed thus far. In 
some cases, vaccines or drugs have been developed, but not licensed. 
When personnel deploy to theaters where the risk of exposure to 
particular biological and chemical warfare agents is high and no FDA-
licensed countermeasure exists, we prepare for use of medical 
countermeasures under what is known as an Investigational New Drug 
(IND) protocol. If the decision is made to use any IND, we will follow 
all applicable federal regulations, including only using protocols 
approved by FDA. Use of an IND requires the informed consent of the 
individual receiving the medication, unless a presidential waiver is 
granted. A key part of any IND protocol is education and health risk 
communication for those who will receive the countermeasure, even if 
informed consent were to be waived by the President.
    It is our responsibility and our practice to inform  Service 
members about the medical measures we use to protect them. It is our 
policy that all deploying personnel receive a pre-deployment health 
threat briefing that provides information on health threats and 
countermeasures, to include applicable immunizations.
                                 ______
                                 
             Questions Submitted by Senator Daniel K. Akaka
                            iraq's aftermath
    23. Senator Akaka. Secretary Rumsfeld, in the first Persian Gulf 
War, we did not drive our forces into Baghdad in part because we did 
not want to get into the messy job of nation-building in a post-Saddam 
Iraq. Now we are proposing to do exactly that. What is the 
administration's post-conflict strategy? Do you envision an Iraqi 
opposition taking control of Iraq and, if so, which group, or do you 
see Iraq being under a type of United Nations trusteeship?
    Secretary Rumsfeld. The U.S. Government is encouraging the Iraqi 
opposition groups to join together to promulgate a common set of 
principles around which the Iraqi people can rally. How quickly these 
opposition groups, joined by prominent Iraqis still residing in Iraq, 
can coalesce into an effective force that can play a role in the 
creation of a broad-based, representative government in Iraq remains to 
be seen. In any case, it would be premature for me now to speculate on 
the type of government that would exist in Iraq in the immediate 
aftermath of a conflict, should one occur.
    In any case, if regime change occurs, the U.S. will not abandon the 
Iraqi people. We would seek, together with other concerned nations, to 
assist the Iraqi people in getting back on their feet economically as 
well as in establishing a broadly representative government.

    24. Senator Akaka. Secretary Rumsfeld, in your statement before the 
House Armed Services Committee on September 18, you raise our approach 
to Afghanistan as an example of how we will bring democracy and 
stability to Iraq. The situation in Afghanistan continues to be very 
unsettled. How long are you planning to keep troops in Iraq following 
Saddam's overthrow?
    Secretary Rumsfeld. Our desire would be to remain in Iraq 
militarily for no longer than needed. The post-Saddam situation is 
unknowable, but, before departing, the U.S. would work to ensure that a 
new government is broadly representative, renounces WMD, poses no 
threat to its people or its neighbors, and does not engage in 
activities that pose a threat to international stability. Once again, 
our intention is to stay militarily as long as necessary, but not a 
minute longer.

                        gaining foreign support
    25. Senator Akaka. Secretary Rumsfeld, in your statement before the 
House Armed Services Committee on September 18, you said that there are 
a number of countries who back getting rid of Saddam but are reluctant 
to say so publicly. Are some of those countries asking or suggesting 
that they would support military action if they received something in 
return, such as substantial increases in foreign aid or some other type 
of reward?
    Secretary Rumsfeld. When friendly countries come on board to join 
this possible coalition, they will do so because they agree that the 
Iraqi regime is a threat to international peace and security. Some of 
our friends may choose not to cooperate fully; however, others will.
    The costs of a conflict--in terms of disruption of oil supplies, 
among other things--may be borne disproportionately by some of our 
friends, and we may wish to compensate them in some manner.
                                 ______
                                 
               Questions Submitted by Senator John McCain
                           iraqi capabilities
    26. Senator McCain. Secretary Rumsfeld and General Myers, how 
significantly has the Iraqi Ground and Air Order of Battle and 
capabilities changed since we faced them in 1991? Based on those 
changes, how differently will the United States need to proceed to 
bring about a regime change and the destruction of the Iraqi weapons of 
mass destruction program compared to our military tactics in 1991?
    Secretary Rumsfeld and General Myers. Compared to 1990, the Iraqi 
regime's military forces are down by roughly 50-60 percent. The Iraqi 
military also suffers from poor morale and low quality training. 
However, Iraq continues to spend a considerable sum on rebuilding its 
military, including air defense systems and command and control 
networks.
    The U.S. military, on the other hand, has improved substantially in 
the past 12 years. We have considerably improved our intelligence, 
surveillance and reconnaissance capabilities since Operation Desert 
Storm. We have also substantially improved our command and control 
capabilities. Our Nation's military can gather intelligence, plan 
operations, deploy and execute combat missions much faster today than 
12 years ago. In addition, in Desert Storm precision weapons were used 
10 percent of the time. In Afghanstan, we used precision weapons about 
60 percent of the time. Especially compared with the Iraqi military, we 
are a truly superior force in every regard.
    The tactics required for regime change and destruction of Iraqi WMD 
would be different from those employed during Operation Desert Storm.

    27. Senator McCain. Secretary Rumsfeld and General Myers, what is 
your estimate of Iraq's development of weapons of mass destruction? How 
deployable are these weapons systems and how much of a threat do you 
feel they pose to our military personnel? How much of a threat do they 
pose to civilian populations in the region?
    Secretary Rumsfeld and General Myers. Iraq possesses a credible WMD 
threat. Many of the delivery systems are mobile and pose a significant 
threat to our forces in the field and present a very real threat to the 
civilian populations in the region. It is our assessment that Iraq 
could develop a crude nuclear weapon within 1 year, if Iraq obtained 
fissile material from a foreign source. Iraq can quickly convert 
legitimate facilities for biological warfare use and is capable of 
producing a wide variety of agents including anthrax, botulinum toxin, 
ricin gas, gangrene and aflatoxin. Iraq is researching, testing, 
producing and weaponizing BW agents. Iraq possesses at least 6,000 CW 
bombs, 15,000 artillery rockets capable of holding nerve agents and 
between 100 and 500 metric tons of VX, cyclosarin, sarin and mustard 
agents. Iraq possesses a small force of Al Hussein Scud-derivative 
Medium Range Ballistic Missiles with an estimated range of 900 km, Al 
Samoud Short Range Ballistic Missiles with an estimated range of 150km 
and Ababil Short Range Ballistic Missiles with an estimated range of 
150km, all capable of delivering chemical and biological weapons.

                           preparing for war
    28. Senator McCain. Secretary Rumsfeld and General Myers, I was 
surprised to hear President Bush's top economic advisor, Lawrence 
Lindsey, estimate that the U.S. may have to spend between $100 billion 
and $200 billion to fight Iraq. He obviously must have applied some 
economic model based on the number of troops, ships, and airplanes that 
may be used. Would you please discuss your estimates as to the number 
of service members that may be required to attack and oust Saddam 
Hussein? Does adequate logistical support or a logistical train exist 
in the Persian Gulf region to support servicemen and women when we 
choose to attack Iraq?
    Secretary Rumsfeld and General Myers. While not going into the 
specific operational details, should war be necessary, we will employ 
sufficient force to win quickly and decisively. There are sufficient 
number of Service members available, both active and reserve, to 
support offensive operations in Iraq, as approved by the President. We 
also have sufficient logistic facilities, supplies and equipment to 
support our personnel who will deploy to the Persian Gulf region. Our 
long-term presence in the Persian Gulf region has enabled us to 
establish and maintain a mature logistic pipeline to support large-
scale military operations. Our en-route infrastructure is adequate to 
support the air and sea lines of communication into and out of 
Southwest Asia. As the President has noted, while the cost of a war 
would be substantial, the cost of allowing Saddam to continue his reign 
of terror and WMD buildup would ultimately be much more costly, both in 
terms of loss of life and freedom and in financial costs.

    29. Senator McCain. Secretary Rumsfeld and General Myers, there 
have been press reports that our precision-guided munitions stockpiles 
and personnel levels are inadequate with regards to strategy against 
Iraq. Please discuss.
    Secretary Rumsfeld and General Myers. Considering our worldwide 
standing ordnance stockpiles, which contain a wide array of cruise 
missiles, precision-guided munitions and more conventional ordnance, 
and industry's ability to flex production, we are confident that we 
have sufficient capacity to prosecute any potential action in southwest 
Asia, while still retaining an adequate, but reduced, reserve for 
future military engagements. However, during the period of highest use 
last year, our expenditure rates exceeded production rates for select 
precision-guided munitions such as the Joint Direct Attack Munitions 
(JDAM). However, we have received supplemental funding to increase 
munitions production rates and enhance industry's long-term production 
capacity for both JDAM and the family of laser-guided bombs. In regards 
to personnel levels, we do have adequate force structure, properly 
equipped, to carry out strategy against Iraq. Activation of Reserves 
and stop loss have increased our personnel strength to a level 
sufficient to conduct effective operations against Iraq while 
maintaining other aspects of the war on terrorism, protecting the 
homeland, and keeping our commitments in other regions of the world.

    30. Senator McCain. Secretary Rumsfeld and General Myers, it seems 
that tankers are an issue. During an April 8, 2002 DOD news briefing 
with both of you, General Myers, you said the following in response to 
a reporter's question on the requirement for more tankers and leasing:

        ``Well, first of all, you're [right]--the fact is that tankers 
        are very, very important to us in our ability to mobilize and 
        deploy long distances.
        The fleet is relatively healthy. These are older aircraft, but 
        they have lots of flying hours left on them. I'm talking about 
        the 135s now. They've been re-engined. We're putting new 
        avionics in the cockpit. There's been a lot of work done on 
        those particular aircraft to keep them modern with an ability 
        to fly in our air traffic control system both in the Pacific 
        and across the Atlantic to Europe. Having said that, there is a 
        fairly high percentage of these tankers that are in depot 
        maintenance for corrosion control; higher than you would want, 
        but that goes back to the design of the aircraft, and that's 
        just the way it is. We'll work our way through that.
        Part of the last question--the last part of the question, where 
        we're talking about lease, that is an Air Force issue. The Air 
        Force is looking at that, and they have not brought that to me 
        or to the secretary.''

    Does our military have an adequate number of aerial tankers to 
support our Navy, Marine Corps, and Air Force tactical aviation assets 
that may be utilized in an attack against Iraq while continuing other 
worldwide commitments?
    Secretary Rumsfeld and General Myers. The increased demand for 
tankers created by a post-September 11 environment, in which not only 
are we tasked to support all overseas commitments but also our homeland 
defense posture, increases the wear and tear on our existing tanker 
fleet. The backlog of required maintenance, both depot and 
organizational, is climbing rapidly for the 43-year-old KC-135, the 
backbone of our refueling fleet. The bottom line is that we are working 
our tankers very hard. As a result, the Air Force is pursuing remedies 
to meet these increased requirements. Although our active and reserve 
air refueling force will be stretched, we do have sufficient air 
refueling tankers to support potential operations against Iraq and 
sustain our most critical commitments at home and abroad.

                           russia's position
    31. Senator McCain. Secretary Rumsfeld and General Myers, President 
Putin has openly asserted Russia's right to take unilateral military 
action against terrorists operating on Georgian territory. Can you 
assure the committee that the United States will draw a red line 
against a Russian invasion of Georgia?
    Secretary Rumsfeld and General Myers. The U.S. Government has 
consistently drawn a policy redline against Russian violation of 
Georgian sovereignty and territorial integrity. When Minister of 
Defense Sergei Ivanov and Minister of Foreign Affairs Igor Ivanov 
visited Washington during the Consultative Group for Strategic Security 
dialogue in late September, they met with President Bush and talked 
extensively about this issue. It is my understanding that the President 
and National Security Advisor Rice both explicitly stressed this U.S. 
redline.
    In addition, we believe the Georgians have taken tangible steps 
toward addressing the instability in regions bordering Russia. Such 
steps include their extensive police action in the Pankisi Gorge that 
has succeeded in reinforcing governmental authority in the area. We 
have on multiple occasions reinforced the importance of Russia and 
Georgia coordinating effectively through information sharing and 
effective orchestration of border monitoring efforts on their 
respective sides of the border. We understand that Russia and Georgia 
have now agreed to a number of measures to include joint border guard 
patrols along their common border.

    32. Senator McCain. Secretary Rumsfeld and General Myers, have you 
talked to Russian Defense Minister Sergei Ivanov, with whom you met 
today, about Russia's attempts to openly subvert the Georgian state 
through force of arms?
    Secretary Rumsfeld and General Myers. We have not spoken directly 
with Minister of Defense Ivanov on this subject; however the U.S. 
Government has a redline policy against Russian violation of Georgian 
sovereignty. We have conveyed this policy to the Russian Federation in 
a very clear manner.

    33. Senator McCain. Secretary Rumsfeld and General Myers, do you 
find ironic reports suggesting America will wink at a Russian invasion 
of its sovereign neighbor in return for Russia's support for our 
military campaign in Iraq, when the military campaign against Iraq we 
waged in 1991 was the result of Iraq's invasion of its own sovereign 
neighbor Kuwait?
    Secretary Rumsfeld and General Myers. These reports are 
categorically untrue. There is no U.S.-Russian ``deal'' over Iraq and 
Georgia. The U.S. Government has gone to great lengths to stress to 
Russia that the situations in Georgia and Iraq are hugely different. 
Unlike Iraq, Georgia is an emerging democracy that has supported the 
global war on terrorism and has taken tangible steps to rid its 
territory of international terrorists. It has in good faith attempted 
to address Russia's concerns, to include information sharing and the 
development of a joint border-monitoring regime. Georgia neither 
possesses weapons of mass destruction, nor is it trying to acquire them 
for use against others. It is in no way threatening other countries in 
the region, but instead is acting constructively to address regional 
problems. Also, the instability in Georgia's Pankisi Gorge is a direct 
consequence of the fighting in Chechnya; therefore, the challenges 
created as a result of that war have in many ways been forced upon 
Georgia. We encourage the Russians and the Georgians to continue 
working together to stabilize the region.

    34. Senator McCain. Secretary Rumsfeld and General Myers, how would 
the United States respond to an armed Russian ground and air invasion 
of northern Georgia?
    Secretary Rumsfeld and General Myers. We would certainly condemn 
any such action. There is no legitimate rationale for Russian war in 
Georgia. We respectfully decline to respond in open session to the 
question of potential U.S. military responses to such an attack. Much 
would depend upon the circumstances surrounding the invasion. Suffice 
it to say that the U.S. Government has significant equities in the 
region, to include U.S. military forces training Georgian troops. At a 
minimum, there would be significant force protection issues associated 
with such a development.

                         other foreign support
    35. Senator McCain. Secretary Rumsfeld and General Myers, how would 
you rate Saudi cooperation with the United States in the war on terror?
    Secretary Rumsfeld and General Myers. Saudi Arabia has been a close 
ally in the war on terrorism. The leaders of the kingdom understand 
that the atrocities committed on September 11 were also directed 
against them and quickly pledged their help.
    To facilitate Operation Enduring Freedom, the Saudi government gave 
us all necessary overflight clearances. The Saudi government also broke 
relations with the Taliban and has offered economic assistance to the 
new Government of Afghanistan. The Saudis have supported the Pakistani 
President, Pervez Musharraf. They have also assisted in blocking 
financial assets linked to terrorism and have worked proactively to 
ensure the stability of the world oil market.

    36. Senator McCain. Secretary Rumsfeld and General Myers, do you 
believe German Chancellor Schroeder's America-bashing campaign rhetoric 
threatens our defense relationship with Germany?
    Secretary Rumsfeld and General Myers. We have had a strong and 
close defense relationship with Germany for over 50 years. That 
relationship has been based on shared interests and values that have 
been promoted and protected bilaterally and through the NATO alliance. 
There are particularly intensive and rewarding interactions between our 
men and women in uniform. Germany has been an important contributor in 
our efforts against terrorism, including in Afghanistan. While the 
statements made during the campaign have not been helpful to our 
efforts to deal with the threat posed by Saddam Hussein, the basic 
interests of our two countries have not changed.
    In terms of what we are currently hearing from the German Federal 
Armed Forces, the comments made during the recent German election 
campaign have had no impact upon the military-to-military relationship. 
Senior military leaders on both sides understand the value and depths 
of the relationship built over the past 50 years and wish to continue 
undiminished cooperation. Remarks made during the election campaign 
should not change the trust and friendship existing between both Armed 
Forces.
                                 ______
                                 
              Questions Submitted by Senator Rick Santorum
                             force strength
    37. Senator Santorum. General Myers, in your prepared testimony you 
noted that there are some unique military units (command and control, 
intelligence, Special Operations Forces, and combat rescue) that are in 
high demand and that mobilization of the Reserve component has been key 
to mitigating the current stress on these units. In conjunction with 
the ongoing conflict in Afghanistan, many reservists mobilized last 
September will likely be required to remain in service for another 
year. About 130,000 of the Nation's 1,250,000 Reserve forces have 
served at one time or another during the past year, with 76,658 
currently on active duty.
    Can we effectively balance the needs of our military commanders to 
have enough manpower to meet contingencies in Iraq and Afghanistan, and 
those of our employers who depend on these skilled reservists to 
perform duties associated with their civilian positions?
    General Myers. The Reservists have been absolutely critical to our 
success to date. They perform a wide range of missions, and bring 
specialized skills to bear on the critical needs of our Armed Forces. 
Reservists have been filling critical shortages as intelligence 
analysts, special forces and civil affairs soldiers, as well as 
providing logistic, transportation, and force protection support. We 
will continue to require this support in Afghanistan, particularly in 
the civil affairs arena. Should war occur with Iraq, we will need even 
more of all the skills and capabilities we have used in Afghanistan. We 
are currently examining all the ways we can meet these needs, not only 
by using Reservists but also through the use of coalition assets.
    Our Reservists' employers have been very supportive. While the 
Uniformed Services Employment and Reemployment Rights Act (USERRA) 
provides important protections to our Reserve soldiers, our experience 
has been that employers often go well beyond USERRA benefits. For those 
Reservists and employers who have special requirements--and I have 
expressed those needs--we have been sensitive and accommodating. In 
fact, the Chief of the Army Reserve has a policy that no Reservist will 
be involuntarily extended beyond 1 year on active duty. Despite this, 
it is our experience that most will volunteer, or come enthusiastically 
if called by the President.
    In our planning and preparation for hostilities with Iraq, we are 
carefully managing the numbers you cite above. For example, since you 
posed this question, the number of Reservists on active duty has 
decreased from 76,658 to approximately 60,000. The numbers are still 
falling. We realize that it is important that these great Americans, or 
as they are known in the Army, ``2x the Citizen,'' get back to their 
families and jobs so that if they are needed again, they will be rested 
and ready. For those who may be needed again, we are confident that 
they and their employers will gladly step forward again to serve their 
country.

    38. Senator Santorum. General Myers, do we have enough of the right 
personnel to be focusing on Iraq and Afghanistan at the same time?
    General Myers. Our Armed Forces are capable of carrying out our 
defense strategy. We have sufficient capability to conduct effective 
operations against Iraq while maintaining other aspects of the war on 
terrorism, protecting the homeland, and keeping our commitments in 
other regions of the world.
    Mobilization of Guard and Reserve forces has been key to mitigating 
the current stress on some of our selected units that are in short 
supply. If our operations on the war on terrorism are expanded, we will 
be required to prioritize the employment of these enabling units. In 
this regard, our coalition partners and allies may provide forces for 
our combined operations. Where possible, we will match the best 
available capability to the required mission.

    39. Senator Santorum. General Myers, given our perstempo and the 
demands placed on our Reserve component, have you seen any fall-off in 
the numbers of persons who want to serve America through the Reserve 
component?
    General Myers. We have seen no marked changes in Reserve component 
recruiting or retention over the past 12 months. It may be too soon to 
tell if recent personnel tempo will negatively impact retention. We are 
monitoring these trends closely.

                       urban and chemical warfare
    40. Senator Santorum. General Myers, the Iraqi Republican Guard and 
Special Republican Guard units are specially trained for urban warfare 
and security operations. The last time U.S. forces were engaged in 
urban fighting was in Somalia in 1993. Iraq may have concealed as much 
as 660 tons of chemical agents, including the nerve gases VX and Sarin, 
and mustard gas, a blister agent. At one time, Iraq had a robust 
biological weapons stockpile which included botulinum, aflatoxin, 
ricin, and anthrax.
    Assuming that the U.S. is forced to fight house-to-house in 
Baghdad, and assuming the Iraqi use of chemical weapons, are U.S. 
forces sufficiently equipped and trained to prevail under these 
conditions?
    General Myers. Yes. Improvements in chemical protective masks, 
chemical protective suits, advanced forced entry munitions, body armor 
and night vision devices have greatly enhanced our forces' ability to 
fight in urban and chemical environments. With regard to level of 
training, urban and chemical warfare is routinely integrated into field 
training and simulated exercises. I am confident that our level of 
training is superior to the Iraqi Republican Guard and Special 
Republican Guard units, and as the most highly trained and equipped 
military in the world, we are well prepared to accomplish any and all 
missions assigned.

    41. Senator Santorum. General Myers, since U.S. medical personnel 
haven't treated battlefield chemical casualties since 1917, how skilled 
are U.S. medical personnel in delivering aid to military personnel 
exposed to chemical or biological agents?
    General Myers. The Department of Defense employs the most 
technically proficient, professionally capable medical force ever 
fielded in the history of warfare. Our ability to recognize and treat 
battlefield casualties exposed to chemical or biological agents is 
unsurpassed worldwide. The sophistication of our overall medical 
capabilities in the weapons of mass destruction arena has been 
significantly enhanced by training programs specifically designed by 
our lead agents in the medical aspects of chemical and biological 
defense--the U.S. Army's Medical Research Institute of Infectious 
Disease (USAMRIID) and the Medical Research Institute of Chemical 
Defense (USAMRICD)--to improve the clinical acumen of our healthcare 
providers. These programs, offered globally through satellite feed or 
on-site, have provided our medical force with the necessary skill sets 
to effectively deal with casualty streams exposed to chemical or 
biological agents.

    42. Senator Santorum. General Myers, what advances in training and/
or technology have benefited U.S. forces in urban fighting since 1993?
    General Myers. We will avoid fighting within urban areas whenever 
possible. However, if forced to fight in urban areas, we will leverage 
advances in information operations and situational awareness that will 
enable us forces to mass overwhelming combat power against Iraqi 
forces.
    Lightweight body armor will better protect U.S. forces as they 
operate in an urban environment. This armor will allow greater freedom 
of movement and enhanced protection from direct fire, shrapnel, and 
falling debris.
    Improved command and control systems will provide greater 
situational awareness for U.S. forces at all levels. This will enable 
commanders to mass overwhelming combat power against enemies in an 
urban environment.
    Advances in night vision devices allow U.S. forces to better 
operate during limited visibility. This will allow U.S. forces to 
operate more freely at night and reduce exposure to enemy fires.
    Additionally, use of enabling technologies such as unmanned robotic 
vehicles will allow U.S. forces to minimize risk in urban areas.

                         strategy against iraq
    43. Senator Santorum. Secretary Rumsfeld, military scholars note 
that Saddam's power is built on direct control of his Armed Forces and 
on minimizing the freedom of his regional commanders to maneuver. How 
might our military operations benefit from Saddam Hussein's tight 
central control in his self-appointed role as field marshal, and where 
innovation and initiative are often discouraged?
    Secretary Rumsfeld. By not establishing a system of decentralized 
execution, the Iraqi military is susceptible to the lack of initiative 
that is necessary for effectiveness and efficiency. Decentralized 
execution is essential because no one commander can control the 
detailed actions of a large number of units.

    44. Senator Santorum. Secretary Rumsfeld, what type of U.S. 
military strategy is best to counter such a command and control 
arrangement?
    Secretary Rumsfeld. In the Gulf War, we were able to sever the 
commander's communications with the troops.

    45. Senator Santorum. Secretary Rumsfeld, if Iraqi military leaders 
fail to capitulate to U.S. forces and are destroyed, are there 
indigenous forces that could be utilized to maintain the territorial 
integrity of Iraq?
    Secretary Rumsfeld. Indigenous forces would not be able to organize 
themselves on a nation-wide basis quickly enough to maintain the 
territorial integrity of Iraq if the current Iraqi military were to be 
destroyed. Coalition forces would have to be prepared to provide this 
security until the establishment of an Iraqi Government that renounces 
WMD, poses no threat to its own people or to its neighbors, and does 
not engage in activities that pose a threat to international stability.

                     kurdish and turkish relations
    46. Senator Santorum. Secretary Rumsfeld, Turkey, a critical ally 
that recently suppressed a long and bloody independence movement by its 
own Kurdish community, has warned repeatedly that it will not tolerate 
any move toward an independent Kurdish state on its border if Saddam's 
regime falls. Turkey fears that establishment of a Kurdish state with 
oil assets on its southeastern border would incite Turkish Kurds to 
seek secession from Ankara. Turkish fears have been rekindled by the 
Kurdistan Democratic Party's (KDP) moves to adopt its own flag and 
create an independent army, courts, and ministries. How can the U.S. 
leverage the assets of Iraqi Kurds in the north, but not anger the 
Turkish Government?
    Secretary Rumsfeld. The United States and Turkey have consulted 
closely regarding events in northern Iraq. The United States remains 
very cognizant and respectful of Turkish ``redlines.'' The Turkish 
Government fully understands that the U.S. Government does not support 
Kurdish independence nor ethnic-based federalism. The U.S. will conduct 
its relations with Kurdish groups in a manner consistent with these 
principles and with the goal of a unified, democratic Iraq.

    47. Senator Santorum. Secretary Rumsfeld, can we be partners with 
both the Government of Turkey and the Iraqi Kurdish forces, or are 
these mutually exclusive groups?
    Secretary Rumsfeld. The United States has long worked with both 
Iraqi Kurdish political parties and the Turkish Government. Indeed, 
both the Patriotic Union of Kurdistan (PUK) and the KDP maintain 
offices in Turkey. The United States recognizes the security and 
political concerns of both Turkey and the PUK and KDP. Our Turkish and 
Iraqi Kurdish interests are not mutually exclusive.

    48. Senator Santorum. Secretary Rumsfeld, will Iraqi Kurdish groups 
support U.S. efforts to move against Saddam if the U.S. opposes an 
independent Kurdish state?
    Secretary Rumsfeld. Neither the PUK nor the KDP now seeks 
independence. After suffering extraordinarily at the hands of Saddam 
Hussein, Iraqi Kurds seek a democratic, parliamentary Iraq with checks 
and balances to protect Iraq's minorities and ensure that minorities 
enjoy rights the same as all Iraqis. The territorial integrity of Iraq 
is a key principle of U.S. policy.

                           indigenous forces
    49. Senator Santorum. General Myers, one of the lessons learned 
from Afghanistan is that highly-skilled U.S. Special Operations Forces 
(SOF) personnel were able to leverage indigenous fighters to increase 
military power against enemy forces. Can we apply this or other lessons 
learned in the military operations in Afghanistan to the situation in 
Iraq?
    General Myers. Yes, the use of SOF in Afghanistan was a textbook 
case of unconventional warfare. Our SOF personnel were able to quickly 
establish relationships and create alliances that focused varied ethnic 
and cultural groups on the removal of a regime that was hostile to our 
country and aided and abetted an evil force that planned and 
implemented harm against the United States. We will definitely use this 
same strategy when appropriate against all national and transnational 
elements in our global war on terrorism.

    50. Senator Santorum. General Myers, is there a viable indigenous 
force that, in concert with U.S. SOF, can be leveraged to defeat 
Saddam's military forces, control Iraq, and secure Iraq's weapons of 
mass destruction capabilities?
    General Myers. Yes, there are several indigenous groups with which 
we can work. There are enough individuals that, with protection, 
training, resourcing and other forms of support, can be organized into 
an effective opposition force. The opposition force could potentially 
assist in U.S. efforts to defeat Iraq's military forces and could form 
the basis for either an Iraqi Government in Exile or an interim 
provisional government that could be inserted to stabilize the country 
of Iraq after a regime change.

    51. Senator Santorum. General Myers, how do the political 
objectives of these indigenous forces complicate U.S. efforts to 
achieve a change in regime, while at the same time maintaining Iraq's 
territorial integrity?
    General Myers. It is our goal to maintain the territorial integrity 
of Iraq. While there are various factions in Iraq, as you have noted, 
all reports indicate that these factions are united in their desire to 
see the Iraqi regime go. We feel this is excellent common ground upon 
which indigenous forces can build consensus. The U.S. Government has 
been and will continue to be supportive of Iraqi groups who oppose the 
current Iraqi regime. It is our expectation that these groups will be 
key participants in building a representative government worthy of the 
Iraqi people.

                                  oil
    52. Senator Santorum. Secretary Rumsfeld, it is reported that the 
U.S. is going to take elaborate measures to safeguard our access to oil 
reserves in the event of a military conflict in the Middle East. The 
Strategic Petroleum Reserve, with 578 million barrels of oil, could be 
tapped in the event of a war or a national emergency. Recent news 
accounts note that oil shipments into the Reserve have reached record 
levels, about 150,000 barrels a day. With the U.S. importing 800,000 to 
1 million barrels of oil a day from Iraq, do you believe that military 
conflict with Iraq will cause a disruption in our energy consumption 
endangering our economic security?
    Secretary Rumsfeld. The Secretary of Energy and the heads of other 
relevant agencies are in a better position to answer your question. 
However, it is my understanding that with the Strategic Petroleum 
Reserve and the reserves of other nations, plus the willingness of 
foreign producers to replace any lost supply, the United States can 
weather any foreseeable disruption of supply emanating from a conflict 
with Iraq without any significant effect on our economy.

    53. Senator Santorum. Secretary Rumsfeld, would a comprehensive 
``national energy policy'' provide better insurance against a 
disruption in our importation of foreign oil?
    Secretary Rumsfeld. This question should be directed to the 
Secretary of Energy or anyone else involved in formulating U.S. energy 
policy.

    [Whereupon, at 5:50 p.m., the committee adjourned.]








          CONTINUE TO RECEIVE TESTIMONY ON U.S. POLICY ON IRAQ

                              ----------                              


                       MONDAY, SEPTEMBER 23, 2002

                                       U.S. Senate,
                                  Armed Services Committee,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 2:36 p.m. in room 
SH-216, Senate Hart Office Building, Senator Carl Levin 
(chairman) presiding.
    Committee members present: Senators Levin, Kennedy, 
Cleland, Reed, Akaka, Bill Nelson, E. Benjamin Nelson, Dayton, 
Warner, Smith, Allard, Sessions, and Bunning.
    Committee staff members present: David S. Lyles, staff 
director, and June M. Borawski, printing and documents clerk.
    Majority staff members present: Richard D. DeBobes, 
counsel; Evelyn N. Farkas, professional staff member; and 
Richard W. Fieldhouse, professional staff member.
    Minority staff members present: Judith A. Ansley, 
Republican staff director; Charles W. Alsup, professional staff 
member; Edward H. Edens IV, professional staff member; Carolyn 
M. Hanna, professional staff member; Mary Alice A. Hayward, 
professional staff member; Patricia L. Lewis, professional 
staff member; Thomas L. MacKenzie, professional staff member; 
Joseph T. Sixeas, professional staff member; Carmen Leslie 
Stone, special assistant; and Scott W. Stucky, minority 
counsel.
    Staff assistants present: Leah C. Brewer, Thomas C. Moore, 
and Nicholas W. West.
    Committee members' assistants present: Brady King, 
assistant to Senator Kennedy; Frederick M. Downey, assistant to 
Senator Lieberman; Andrew Vanlandingham, assistant to Senator 
Cleland; Elizabeth King, assistant to Senator Reed; Davelyn 
Noelani Kalipi, assistant to Senator Akaka; Richard Kessler and 
Eric Pierce, assistants to Senator Ben Nelson; Benjamin L. 
Cassidy, assistant to Senator Warner; Ryan Carey, assistant to 
Senator Smith; John A. Bonsell, assistant to Senator Inhofe; 
George M. Bernier III, assistant to Senator Santorum; Robert 
Alan McCurry, assistant to Senator Roberts; Douglas Flanders, 
assistant to Senator Allard; James P. Dohoney, Jr., assistant 
to Senator Hutchinson; Arch Galloway II, assistant to Senator 
Sessions; Kristine Fauser, assistant to Senator Collins; and 
Derek Maurer, assistant to Senator Bunning.

       OPENING STATEMENT OF SENATOR CARL LEVIN, CHAIRMAN

    Chairman Levin. Good afternoon, everybody. The Armed 
Services Committee meets this afternoon to continue our 
hearings on U.S. policy toward Iraq. Last week we received 
testimony from the Director of the Central Intelligence Agency 
(CIA), the Acting Director of the Defense Intelligence Agency 
(DIA), the Secretary of Defense, and the Chairman of the Joint 
Chiefs of Staff.
    Today we will hear from former senior military commanders, 
all of whom have significant experience planning and conducting 
military operations. Then this Wednesday we will hear from 
former national security officials.
    We welcome back to the committee this afternoon General 
John Shalikashvili, former Chairman of the Joint Chiefs of 
Staff; General Wesley Clark, former NATO Supreme Allied 
Commander, Europe; General Joseph Hoar, former Commander in 
Chief, U.S. Central Command; and Lieutenant General Thomas G. 
McInerney, former Assistant Vice Chief of Staff of the Air 
Force.
    As Chairman of the Joint Chiefs of Staff, and before that, 
Supreme Allied Commander, Europe, General Shalikashvili 
provided advice and exercised responsibility related to 
operations in the Balkans, Northern Iraq, and elsewhere. He 
also served as commander of Operation Provide Comfort in 
Northern Iraq in 1991.
    General Clark led the NATO-led Kosovo operation in 1999 as 
Supreme Allied Commander, Europe, and in his capacity as 
Commander in Chief, U.S. European Command, he oversaw Operation 
Northern Watch in Iraq.
    General Hoar, as Commander in Chief of Central Command, was 
responsible for military-to-military relationships with a range 
of states that comprise the Middle East and North Africa and 
for operations conducted in Somalia and Rwanda.
    Lieutenant General McInerney served as Assistant Vice Chief 
of Staff of the Air Force and has considerable operational 
experience planning and executing missions in the European and 
Asian theaters of operation.
    As I stated last week, we begin with the common belief that 
Saddam Hussein is a tyrant and a threat to the peace and 
stability of the Middle East. It is clear that the 
international community must act to prevent his efforts to 
build and possess weapons of mass destruction and the means of 
delivering them.
    The question before this Nation now is, what response is 
likely to be most effective in achieving the goal of bringing 
Iraq into compliance with United Nations (U.N.) mandates, 
particularly destruction of its weapons of mass destruction, 
and what response on our part is likely to entail the least 
risk to U.S. national interests?
    We look to our witnesses today to share with us their 
thoughts on the administration's policy and to offer their 
assessment of the risks associated with an attack on Iraq, 
whether we attack with a U.N. mandate and with our friends and 
allies, whether we attack alone, whether we attack now or after 
we've exhausted other avenues for dealing with Saddam, 
including inspections; if we attack, the most effective way for 
our military forces to carry out their mission; and, after the 
successful conclusion of a military mission, how long U.S. 
forces will be required to remain in Iraq to ensure stability 
in the region.
    How and under what circumstances we commit our Armed Forces 
to an attack on Iraq could have far-reaching consequences for 
future peace and stability in the Persian Gulf and the Middle 
East, for our interests throughout the world, and, indeed, for 
the international order.
    Each of our witnesses today knows well, personally, the 
awesome responsibility of committing our forces to combat, and 
so we look forward to their testimony.
    First I'll call on Senator Allard. After I call on him for 
an opening comment, we would then ask our witnesses if they 
have opening comments that they would like to make. Then after 
that I would recognize each of us in the early bird order for a 
6-minute first round of questions.
    Senator Allard.
    Senator Allard. Thank you, Mr. Chairman. I am going to give 
Senator Warner's statement on his behalf. He's not going to be 
here at the start of the hearing. My understanding is he's 
going to show up a little bit later, but I'd like to make it 
plain that I associate my thoughts very closely with what he's 
going to have to say in this opening statement.
    So I'd like to thank you, Mr. Chairman, and I join you in 
welcoming these four distinguished former military officers 
before our committee. All four of these gentlemen served our 
Nation with great distinction. I applaud all of you for your 
contributions you are making to this important Iraq debate and 
for the service you continue to provide our Nation as 
knowledgeable observers of our national security challenges and 
needs.
    Over the past several weeks, our President has courageously 
focused world attention on the defiant, illegal conduct of this 
brutal, ruthless dictator, Saddam Hussein. On April 6, 1991, 
after having been expelled from Kuwait and decisively defeated, 
Saddam Hussein accepted U.N. terms for the suspension of 
military terms and promised he would comply with all relevant 
U.N. Security Council resolutions, including disarming Iraq of 
weapons of mass destruction and submitting to intrusive 
inspections to verify this disarmament.
    Eleven-and-a-half years later, we're still waiting for 
Saddam Hussein to comply with international mandates, as 
reflected in 16 United Nations Security Council resolutions. We 
have over a decade of experience with his deceit and defiance.
    The main thing Saddam Hussain has proved to the world in 
the past 12 years is that he cannot be trusted under any 
circumstances. I think General Clark had a very similar 
experience with a dictator in Serbia who is now rightfully 
behind bars.
    Anytime the use of force is contemplated, those of us with 
a role to play in making the decision to use force must proceed 
with caution. Resorting to the use of force should be the last 
step, but it is the step we must be willing to take, if 
necessary. It is also a step those who threaten us must 
understand that we are willing to take.
    As we contemplate our vulnerabilities and those of our 
allies in the post-September 11 war, it is clear that things 
have changed. The concept of deterrence that served us well in 
the 20th century has changed. Terrorists and terrorist states 
that hide behind surrogates who are not deterred by our 
overwhelming power, those who would commit suicide in their 
assaults on the free world, are not rational and are not 
deterred by rational concepts of deterrence. We are left with 
no choice but to hunt down such threats to our national 
security and destroy them.
    The threat posed to the United States, the region, and the 
entire world by Saddam Hussein is clear. We know he has weapons 
of mass destruction. He is manufacturing and attempting to 
acquire more. We know he has used these weapons before. We know 
he will use them again. We should not wait for a future attack 
before responding to this clear and growing danger. Saddam 
Hussein has defeated the international community long enough. 
He must be stopped.
    Again, thank you for your participation in this process as 
we develop a body of fact for an informed debate in the Senate 
and for an informed public debate on U.S. policy toward Iraq.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you very much, Senator Allard.
    General Shalikashvili, let us start with you. Again, thank 
you so much, not just for being here today, but--and this 
applies to all of you--for decades of service, patriotism, 
loyalty, dedication, and contributions to this Nation.
    General Shalikashvili.

  STATEMENT OF GEN. JOHN M. SHALIKASHVILI, USA (RET.), FORMER 
                CHAIRMAN, JOINT CHIEFS OF STAFF

    General Shalikashvili. Thank you, Mr. Chairman, Senator 
Allard, and distinguished members of the committee. Thank you 
very much for the opportunity to appear here before you today 
and for the opportunity to make a few opening comments.
    First, I must say that I'm not a stranger to war, for, I 
guess, in some sense, I am a child of war. Before I was 10 
years old, I had lived through the brutal occupation of the 
country of my birth, the total destruction of my home town 
during the 1944 Warsaw uprising, and, together with my family, 
I joined the millions of refugees fleeing westward ahead of the 
advancing Soviet armies.
    Years later, like so many other young Americans, I 
participated in a very different kind of war in the rice 
paddies in the jungles of Vietnam.
    I participated again still later, when, at the end of 
Operation Desert Storm, Saddam Hussein, with unbelievable 
brutality, once again turned on his own people, the Kurds, 
killing thousands and chasing the rest into the mountains of 
Northern Iraq and Eastern Turkey. Without food, without water, 
without medication, without shelter, the very young and the 
very old were dying by the hundreds.
    To stop this misery and the dying, I was asked by General 
Powell and then-Secretary of Defense Dick Cheney to organize a 
military operation to rush emergency airdrops to the Kurds, to 
remove Iraqi forces, if by force, when necessary, from the most 
northern part of Iraq, and to establish a safe zone there so 
some 700,000 Kurds could be returned to what was left of their 
destroyed villages and homes. They had to protect them with a 
no-fly zone, which, by the way, is still doing its job today.
    Since then, as NATO Supreme Allied Commander and as 
Chairman of the Joint Chiefs of Staff, in one form or another, 
I have been involved in military operations in the Balkans, 
Haiti, Central Africa, and many other places. So I know 
something about war, and I have seen firsthand Saddam Hussein's 
brutality. That background has certainly shaped my views about 
war.
    We must be very careful about going to war, and do so only 
when all other attempts to resolve the threat to us have 
failed, and do so only with the support of the U.S. Congress 
and the American people. But if, in the end, war is the only 
way to deal with the threat, then we must to go into it united 
and with all necessary resolve.
    In the case of Iraq, there are, for me, three first-order 
questions. First, do weapons of mass destruction in the hands 
of Saddam Hussein pose a grave danger to us and to our friends 
and allies, particularly those in the Middle East, but also in 
Europe? To me, the answer is clearly yes.
    Second, if, in the end, we are unable to eliminate these 
weapons of mass destruction and any and all means to produce 
more, if we are unable to do so through tough, unfettered 
inspections or other non-military means, would use of force to 
accomplish this be the right thing to do? Again, my answer is 
yes.
    Third, in my mind, has to do with timing. Since the threat 
posed by these weapons in the hands of Saddam Hussein has 
existed for some time, what has changed to create this new 
sense of urgency? Here, I believe that Secretary Rumsfeld has 
it right. What has changed is September 11 and our new 
realization of just how vulnerable we are to terrorist attacks 
and the catastrophic damage terrorists with weapons of mass 
destruction could inflict on the United States.
    Now, since I believe that the urgency to move against Iraq 
is justified, it is essential that the United States continue 
the full-court press at the United Nations to get the kind of 
resolution that would set up proper inspections and would 
authorize the use of force to destroy Iraq's weapons of mass 
destruction and its means to produce them if inspections 
continue to be frustrated by Iraq or if they prove unsuccessful 
in leading to the disarmament of Iraq's weapons of mass 
destruction.
    While the President must always retain the right to protect 
the Nation with or without a United Nations Security Council 
resolution, we must recognize that having the U.N. with us 
would be a very powerful message to Iraq and to our friends and 
allies and would make it much easier for a good number of them 
to be able to join us. For that reason, we must continue to 
persuade the other members of the Security Council of the 
correctness of our position. We must not be too quick to take 
no for an answer.
    Now, clearly there are a number of issues and risks, large 
and small, with using force against Iraq, and you have 
discussed many of those here in previous hearings. But that is 
always the case when it comes to war. There are always issues. 
There are always risks. The question, therefore, is not whether 
we have eliminated all those--that is seldom, if ever, 
possible. Rather, the question is whether we have done the 
detailed planning, political and military, to find work-arounds 
for some, to minimize the effects of others, and to ensure that 
our plan is flexible enough to handle the unexpected that 
invariably is part of all combat operations.
    But should, in the end, the President decide that the right 
thing to do is to use force against Iraq, we must, as I said, 
go united and with all the necessary resolve. I am confident 
that our forces will be fully ready to do whatever will be 
asked of them. But to assure that, we must not try to do this 
on the cheap. We must not put our hope in some silver bullet or 
hesitate to do the politically tough things, like, for 
instance, calling up Reserves. Rather, we must be prepared for 
the unexpected, and so we must go in with sufficient combat 
power to ensure that under all circumstances, ours is the 
decisive force. Or, as former Secretary of Defense Perry used 
to say in hearings when we were debating the dispatch of 
forces, ``We must ensure that we are always the biggest dog on 
the block.'' Our troops deserve that.
    By the way, they deserve a straightforward mission, 
uncomplicated chain of command, and robust rules of engagement 
that will allow them to get the job done and to protect 
themselves at all times.
    Wth that, let me stop. Thank you, Mr. Chairman, for letting 
me make these comments. I'm ready to answer any questions you 
might have.
    Chairman Levin. Thank you so much, General. We appreciate 
your testimony.
    General Clark.

 STATEMENT OF GEN. WESLEY K. CLARK, USA (RET.), FORMER SUPREME 
                    ALLIED COMMANDER, EUROPE

    General Clark. Thank you, Mr. Chairman, Senator Allard, 
distinguished members of the committee. I'm very happy to have 
this opportunity to testify here, and I would like to associate 
myself with remarks made by General Shalikashvili.
    As NATO Supreme Allied Commander, Europe in 1998, we saw 
the beginning of a fourth war taking form in the Balkans. It 
was the repression to be waged by Slobodan Milosevic against 
his own people. We knew that, if we allowed this to go 
unchecked and unchallenged, it would create a threat to 
regional stability, it would undercut the progress we had made 
in settling the war in Bosnia, and it was liable to ignite new 
conflicts elsewhere. So we attempted to use diplomacy with 
Milosevic, as we had over a number of years previously.
    But we recognized that with Milosevic there was something 
more that was needed. It was leverage. So we began to use 
diplomacy backed by force. First there was the discussion of a 
threat. Then there was the issuance of a threat. After the 
threat was issued, Milosevic blinked, but his generals came 
back and said, ``the West, NATO, perhaps the United States, 
really doesn't have the stomach for this. Anyway, we can defeat 
American air power because our friends have told us how to do 
this.'' So after the failures at Rambouillet, we eventually did 
turn to the use of force.
    The use of force was successful. But what we found was that 
the combination of international law, diplomacy, and American 
and NATO air power gave us strategically decisive results 
without, in the end, ultimately having to use overwhelming 
military force. This was modern war.
    Saddam Hussein does constitute a danger. He's calculating. 
He's stubborn. We watched him from Europe. I watched him when I 
was working on the Joint Staff. In 1994, he brought his forces 
back to re-invade Kuwait. We blocked that. In 1997-1998, he 
resisted the actions of the U.N. arms inspectors. The United 
States was unable to muster the kind of majority and weight of 
opinion in the United Nations to change the equation on the 
ground in Iraq. Saddam Hussein has an irrational streak in 
addition to his cunning and stubbornness, and he is probably 
not ultimately deterrable, not with confidence.
    The embargo that's left against him is crumbling step by 
step. We watched it. It served well, as well as could have been 
expected during that period, but it has ultimately crumbled. So 
it's easy to see that, after September 11, there is much 
greater concern about Saddam Hussein and a desire to bring to a 
conclusion his violation of the U.N. Security Council 
resolutions and international law, which he, himself, 
accepted--namely, to give up his weapons of mass destruction.
    I think that the move toward the United Nations is the 
appropriate step. I think the President's strong statement and 
the statements of members of the administration have provided 
the leverage on which we should be able to build a coalition 
and possibly even achieve a new resolution in the United 
Nations. I think we're proceeding on a path of diplomacy backed 
by force. I think it is the appropriate path.
    But as we move ahead, I think we have to be very conscious 
of the risks as well as the opportunities that are presented at 
this point. So I think we need to be certain that we really are 
working through the United Nations in an effort to strengthen 
that institution in this process and not simply to check a 
block. I think we have to do everything we can to build the 
largest, strongest possible coalition. While we ultimately 
might have to go with only a few allies, it will be much better 
and much more effective if we have a much broader and stronger 
coalition.
    I think we need to be assured that we have done everything 
we can do for what happens after our military success before we 
begin that military operation, and that means planning for 
post-conflict Iraq and all of the ramifications of that, 
including the humanitarian assistance, the government, the 
economic development, and so forth.
    Then, with a military plan in hand, with allies, with 
unified support, if there is no other recourse, then we would 
use force as a last resort, ideally with the full blessing of 
the United Nations, ideally in conjunction with a large 
coalition. But we will have done everything we can at that 
point to solve this problem in the way that's most conducive to 
the world that we want to live in.
    So I think it's not only the ultimate action that's 
important here, it's how we get to that action.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you very much, General Clark.
    General Hoar.

STATEMENT OF GEN. JOSEPH P. HOAR, USMC (RET.), FORMER COMMANDER 
            IN CHIEF, UNITED STATES CENTRAL COMMAND

    General Hoar. Thank you, Mr. Chairman, Senator Allard, 
distinguished members, for this opportunity to address the 
committee.
    First, I should say that I'm in favor of a regime change in 
Iraq. What is at issue is the means and the timing. My view is 
that we should slow down and be cautious and be sure we get it 
right. This is not a time for hyperbole or a time to attack 
people who have honest disagreements with the manner in which 
we are going forward.
    When I was a young officer, our government attempted to 
define the nature of the upheaval that was going on in 
Southeast Asia. Our government failed to define correctly the 
nature of the Vietnam War, and we all know the result.
    Today we are faced with a new war. It has been described as 
a war on terrorism. Unfortunately, the use of that term 
obscures the underlying problems that we face going forward.
    War on terrorism is perhaps a useful slogan, but terrorism 
is not an ideology or a political movement or a sovereign 
country; it is a technique used to achieve either a political 
or military result, not unlike strategic bombing. While I am in 
no way condoning the activities of al Qaeda and the terrorist 
attacks perpetrated against Americans over the last 5 years by 
this group, it is still important to look beyond this activity 
to find what are the causative factors, because the term 
``terrorism,'' as a means of achieving political and military 
ends, is merely a tactic. Fighting terrorism is, in fact, our 
number-one priority, but it's only a portion of what needs to 
be done if we are to emerge from this experience successfully.
    The reality is that there are perhaps only 5,000 al Qaeda 
members worldwide. I have just read recently that only about 
200 are in the inner circle. Beyond that there are perhaps 
10,000 to 20,000 supporters that materially, financially, or in 
some way could be described as a support group for al Qaeda 
terrorists.
    What is at stake are the minds and hearts of the one 
billion Muslims throughout the world. We know from attitudinal 
surveys that they like Americans, American society, and 
American culture. In fact, many of them would prefer to 
emigrate to the United States.
    Their quarrel with the United States is that they do not 
trust our government. The reason for this is a pattern of 
behavior perpetrated by the U.S. Government in South Asia and 
the Middle East over the last 20 years. They believe the U.S. 
Government has acted unilaterally, sometimes as a bully, and 
has sometimes used other nations for its own interests and 
abandoned them when the objective has been achieved. Most 
importantly, they believe the U.S. has unjustly supported 
Israel over the legitimate aspirations of the Palestinian 
people.
    At the end of the day, the war on terrorism will be won 
only when we convince one billion Muslims that we are, in fact, 
a just society, that we support peace, justice, equality for 
all people, that, in fact, we really are the ``Citty-on-the-
Hille.''
    We will, in due course, defeat al Qaeda. We will do it 
through a coordinated effort of a military action supported by 
integrated intelligence, from our friends, international law-
enforcement operations, worldwide coordination to shut down 
financial support that flows to the terrorists. But, at the end 
of the day, it will be members of the worldwide Muslim 
community that drive a stake in the heart of al Qaeda so that 
it does not rise again.
    There are three interrelated crises that need to be 
addressed as we look to the future. The first is the operation 
against al Qaeda. It seems, as we came up on the anniversary of 
September 11, 2001, with ground-to-air missiles ringing the 
Capitol and uncertainty about where and when we might be 
attacked again by terrorists, that we need to continue, as our 
primary effort, to defeat al Qaeda. This will require broad 
support from our European allies and from our friends in the 
Arab world. This is not the time to risk the loss of support 
from so many countries shocked by the attacks of September 11 
last year who have offered to help us and, indeed, provide it 
on a daily basis. We have seen, recently, the results of that 
support in success against al Qaeda in Morocco, Yemen, and 
Pakistan, as well as Europe.
    Second, as a matter of justice, but also as a means of 
public diplomacy to ease the concern in the Muslim world, we 
must step up to the Israeli-Palestinian problem and put 
pressure on both sides to move to a peaceful solution.
    Finally, there is the campaign against Iraq. To my 
knowledge, and from the quotations attributed to people in and 
out of government whom I greatly respect, there has not been a 
case made to connect Iraq and al Qaeda. While we have known for 
many years about the capabilities of the Iraqi government with 
respect to chemical and biological weapons, there is still no 
proof that a weaponized nuclear device has been produced, and 
there is certainly no information, to my knowledge, that one 
has been tested.
    Last week, the President, at the United Nations, took a 
step forward in speaking about the need for a new United 
Nations Security Council resolution. This had an immediate 
positive effect around the world, notably with the French 
government and the government of Saudi Arabia. I believe that 
we must move, with the approval of the United Nations, to take 
the time to do the tough diplomatic work to gain support in the 
Security Council for disarmament, and, failing disarmament, 
then military action.
    Allow me to speak briefly about my concerns regarding the 
conduct of a military campaign against Iraq. There are people 
in this city who believe that the military campaign against 
Iraq will not be difficult, especially because of the enormous 
advances of technology and the willingness of some groups in 
Iraq to revolt once the campaign has begun. I am not as certain 
that a campaign of this nature will take that course. I 
certainly hope so.
    One thing I am certain of is that there is a nightmare 
scenario that needs to be planned for, and it's basically this. 
The absolute lesson to be learned from the 1990-1991 Gulf War 
was you do not take on the United States Armed Forces in the 
open desert and expect to win. A joint force of Army, Navy, 
Marines, Air Force, and Special Operations Forces is 
unstoppable in that environment, because of our technological 
advantages and our inherent mobility. The nightmare scenario is 
that six Iraqi Republic Guard divisions and six heavy divisions 
reinforced with several thousand anti-aircraft artillery pieces 
defend the city of Baghdad. The result would be high casualties 
on both sides, as well as in the civilian community. U.S. 
forces would certainly prevail, but at what cost, and at what 
cost as the rest of the world watches while we bomb and have 
artillery rounds exploding in densely populated Iraqi 
neighborhoods?
    The risk of a military campaign against Iraq can be 
measured in the lives of American men and women serving in 
uniform. It is imperative that adequate preparations are made 
so that regardless of what action the Iraqi government takes, 
we can amass the appropriate forces to win decisively, 
regardless of the circumstances, with minimum loss of American 
lives and to the civilian population of Iraq.
    Eleven years ago, the U.S. Government clearly defined a 
military mission against Iraq. It was to liberate the state of 
Kuwait from the occupation by Iraqi forces. What was overlooked 
was the necessity for a companion political and economic plan, 
generally described as war termination, that would have allowed 
to move forward and create a situation where the Ba'athist 
regime in Iraq would be overthrown. Failure to complete the 
political and economic portion of the coalition's strategy has 
resulted in our requirement to revisit this issue today.
    I am reminded of the statement Shimon Peres made to me 
several years ago. He said military victories do not bring 
peace. You have to work twice as hard to achieve a peaceful 
settlement.
    There has been scant discussion about what will take place 
after a successful military campaign against Iraq. The term 
``regime change'' does not adequately describe the concept of 
what we expect to achieve as a result of a military campaign in 
Iraq. One would ask the question, ``Are we willing to spend the 
time and treasure to rebuild Iraq and its institution after 
fighting if we go it alone during a military campaign? Who will 
provide the troops, the policemen, the economists, the 
politicians, the judicial advisors to start Iraq on the road to 
democracy? Or are we going to turn the country over to another 
thug who swears fealty to the United States?''
    We have heard the financial figures, that a war against 
Iraq will cost $100 to $200 billion and that oil will rise to 
something above $30 a barrel for some unknown period of time. 
These figures seem to me to have an almost certain downward-
spiraling effect on our economy. The Gulf War cost $60 billion, 
in 1991 dollars. The cost of that war was paid, for the most 
part, by our friends, notably the kingdom of Saudi Arabia, 
Kuwait, and Japan. Who will help us defray the cost of a 
military action and the nation-building in Iraq?
    In summary, I urge you to continue the dialogue, to 
encourage the administration to do the hard, diplomatic work to 
gain broad support for a just solution to the Iraqi problem. I 
urge you to examine, in open and closed session, the 
consequences of this contemplated action to be sure that the 
cost in blood and treasure is consistent with the expected 
outcomes and those unintended consequences that inevitably flow 
from an undertaking of this magnitude.
    I thank you, sir.
    Chairman Levin. Thank you, General Hoar.
    General McInerney.

STATEMENT OF LT. GEN. THOMAS G. McINERNEY, USAF (RET.), FORMER 
     ASSISTANT VICE CHIEF OF STAFF, UNITED STATES AIR FORCE

    General McInerney. Mr. Chairman and members of the Senate 
Armed Services Committee, thank you for this special 
opportunity to discuss a war of liberation to remove Saddam's 
regime from Iraq.
    I will not dwell on the reasons why he should be removed. 
Suffice it to say the President is correct, we must remove 
threats such as those posed by Saddam Hussein, al Qaeda, and 
other terrorist groups. We face an enemy that makes its 
principal strategy the targeting of civilians and non-military 
assets. We should not wait to be attacked with weapons of mass 
destruction. We have not only the right, but the obligation to 
defend ourselves by removing these threats. Iraq is part of the 
war on terrorism and should be treated as such.
    I will now focus on the way to do it very expeditiously 
with minimum loss of life to both the coalition forces and the 
Iraqi military and people themselves, and at the same time 
maintaining a relatively small footprint in the region. Access 
is an important issue, and we want to minimize the political 
impact on our allies adjacent to Iraq that are supporting the 
coalition forces.
    Our immediate objective will be the following: Help the 
Iraqi people liberate Iraq and remove Saddam Hussein and his 
regime; eliminate weapons of mass destruction and production 
facilities; complete military operations as soon as possible; 
protect economic and infrastructure targets; identify and 
terminate terrorism connections; and establish an interim 
government as soon as possible.
    Our longer-term objectives will be to bring a democratic 
government to Iraq using our post-World War II experiences with 
Germany, Japan, and Italy that will influence the region 
significantly.
    Now I would like to broadly discuss the combined campaign 
to achieve these objectives, using what I will call ``blitz 
warfare,'' to simplify the discussion. Blitz warfare is an 
intensive 24-7 precision air-centric campaign supported by 
fast-moving ground forces composed of a mixture of heavy, 
light, airborne, amphibious, special, covert operations working 
with opposition forces that will all use effect-based 
operations for their target set and correlate their timing 
forces for a devastating, violent impact.
    This precision air campaign is characterized by many 
precision weapons, over 90 percent, using our latest command 
and control, intelligence, surveillance, and reconnaissance 
assets, Joint STARS, Global Hawk, Predator, human intelligence, 
signals intelligence, et cetera, in a network-centric 
configuration to achieve less than 10 minutes for time-critical 
targeting using the global-strike task force and naval strike 
forces composed of over 1,000 land- and sea-based aircraft, 
plus a wide array of air- and sea-launched cruise missiles. 
This will be the most massive precision air campaign in 
history, achieving rapid dominance in the first 72 hours of 
combat, focused on regime-change targets. These are defined as 
targets critical to Saddam's control--for example, his command 
and control and intelligence, integrated air defense system, 
weapons of mass destruction, palaces, and locations that harbor 
his leadership, plus those military units that resist or fight 
our coalition forces.
    All the military forces will be told, through the 
opposition forces and their information operations campaign, 
that they have two choices--either help us change the regime 
leadership and build a democracy, or be destroyed.
    In addition, commanders and men in weapons of mass 
destruction units will be told that they will be tried as war 
criminals if they use their weapons against coalition forces 
and other nations.
    In a multidirectional campaign, coalition forces will seize 
Basra, Mosul, and most of the oil fields, neutralize selected 
cores of Iraqi armies, and destroy the integrated air defense 
zone, command and control, weapons of mass destruction, and 
Iraqi air forces using stealth, SAM suppression, and air 
superiority assets. This will enable coalition forces to 
achieve 24-7 air dominance quickly--I believe within 24 hours--
which is critical to our success. Expansion of our beach heads 
in the north, south, east, and west regions and the air heads 
seized with alarming speed, will allow the opposition forces to 
play a very significant role and decisively important role with 
our special covert operations and the Iraqi army air force.
    To determine the status, whether friend or foe, or if they 
disarm themselves politically, that is their decision. The 
opposition forces will communicate with the military 
intensively to neutralize them, and also the Iraqi people, 
letting them know that they are liberating them from 22 years 
of oppression, and they are now controlling large amounts of 
territory. Humanitarian missions will be accomplished 
simultaneously with leaflet drops, et cetera: ``U.S. and other 
coalition forces are helping us to liberate and change the 
regime. You, the Iraqi people, must help us to do this quickly 
with minimum loss of life.''
    This information operations campaign must be well planned 
and executed working closely with the opposition forces. This 
means that the administration must move very quickly now to 
solidify the opposition forces and set up a shadow government 
with aggressive assistance and leadership from the United 
States. I cannot overemphasize that this is about liberating 
the Iraqi people. This is not an invasion by U.S. and coalition 
forces. It is an enabling force.
    In summary, the Iraqi forces we are facing are about 30 
percent of those we saw in Operation Desert Storm, with no 
modernization. Most of the army does not want to fight for 
Saddam, and the people want a regime change. We are already 
seeing increasing desertions from the regular army as well as 
the Republican Guard. Let's help them to make this change and 
liberate Iraq from this oppressor.
    President Bush has accurately said, ``Inaction is not an 
option.'' I am in support of this position. I also support an 
international coalition to include the United Nations, if they 
will be part of the efforts to remove this regime and his 
weapons of mass destruction. However, realistically, I have no 
confidence in Iraq allowing U.N. weapons inspectors to operate 
there in a satisfactory manner.
    Time is not on our side. Consequently, I urge Congress to 
approve the President's draft resolution that was submitted 
last week as soon as possible.
    Mr. Chairman and members, again, my thanks. I await your 
questions.
    Chairman Levin. General McInerney, thank you very much.
    Let's start with a first round of 6 minutes. At least three 
of you placed high value on having a U.N. resolution to force 
inspections with a ultimatum backed up by force, authorization 
of force by member states if the ultimatum for open inspections 
is not complied with. You made reference to it at the end of 
your statement, General McInerney, but I think our other three 
witnesses placed a great emphasis on the power of a U.N. 
resolution--I believe, to use your words, General 
Shalikashvili, that it would be a powerful message.
    So I'd like to focus on the three of you who emphasize on 
that particularly. Would a U.N. mandate resolution authorizing 
force and authorizing member states to use force if inspections 
that are unconditional are not allowed, followed by 
disarmament--what specifically are the values--be more precise, 
militarily, politically, or otherwise--in such a resolution to 
be achieved? Would such a resolution not only have a better 
chance of enforcing the inspections in the disarmament without 
a war, but would it also, if it is obtainable, have less risks 
to our long-term interest than would unilateral U.S. military 
action without such a resolution?
    General Shalikashvili, let me start with you.
    General Shalikashvili. Mr. Chairman, I am convinced that 
such a resolution would, in fact, be a very powerful tool, and 
I say that for a number of reasons.
    First of all, we need to impress upon Saddam Hussein that 
he's not just facing the United States, but that he's facing 
the will of the majority of the world. We must also ensure that 
we have made it possible for as many of our friends and allies 
to join us, some of whom privately tell us they would do so, 
but that it's very difficult to do so for political, internal 
reasons, whatever, without the United Nations having spoken on 
this issue. Some of them believe deeply that unless you're 
directly attacked, that you should go to war only with the 
sanction of the United Nations. Others just have that in their 
culture.
    Finally, I think it's important from a security point of 
view, because every time we undermine the credibility of the 
United Nations, we are probably hurting ourselves more than 
anybody else. We are a global nation with global interests, and 
undermining the credibility of the United Nations does very 
little to help provide stability and security and safety to the 
rest of the world where we have to operate for economic 
reasons, political reasons, and whatnot.
    I said at the beginning of this part of my statement that 
we must, under no circumstances, ever create the impression 
that the United States is not free to go to war to protect our 
interests whenever the President so decides. But that is very 
different than not trying to achieve the kind of resolution 
that, in this case, we want, because I think it would make our 
job easier, it would help the United Nations in the future, 
and, thus, help us in the future, and it would surely have an 
impact on how Saddam Hussein reacts to the current resolutions 
that dictate that inspections and inspectors go back into Iraq.
    So I see nothing but value added for the United States to 
try our very best to get that kind of a resolution.
    Chairman Levin. Thank you very much.
    General Clark.
    General Clark. Mr. Chairman, at the end of World War II, 
when the United States had a nuclear weapons monopoly and when 
our gross domestic product was 50 percent of the world's 
production, President Roosevelt, and later President Truman, 
recognized that even with that strength, the United States, by 
itself, wasn't strong enough, wasn't capable of handling all of 
the world's problems in assuring peace and stability by itself. 
So they sought to create an institution which would be better 
than the defunct League of Nations, and they built the United 
Nations.
    President Truman said that the method of the United Nations 
should be that right makes might. We've spent the 57 years 
since then trying to develop international institutions that 
would help strengthen America and help protect our interests as 
well as the interests of people around the world, but we 
recognized that a world in which nations are only regulated and 
guided unilaterally in seeking their self interest is not a 
world that's in our best advantage.
    So, for that reason, I think it's very important, not only 
that we've gone to the United Nations, but that we do 
everything we possibly can do to strengthen the United Nations 
to stand up to this challenge to make itself an effective 
organization, to be able to cope with the challenge of Saddam 
Hussein's defiance of its resolutions.
    Beyond the issue of the United Nations and the 
international institutions we seek to live in, I think going to 
the United Nations has another very important benefit. In the 
long-run, we're going to have to live with the people in the 
Middle East. They're our neighbors. They're just like us. Many 
of them have the same hopes and dreams. The more we can do to 
diffuse the perception that America is acting alone, America is 
striking out, America is belligerent, America is acting without 
allies--the more we can do to diffuse that, the more we can do 
to put that in the context of international institutions and 
the support of the governments in the region, the greater 
chance we have of reducing the recruiting draw of al Qaeda, 
following through with a successful post-conflict operation in 
Iraq, promoting a resolution of the Arab-Israeli conflict, and 
promoting peaceful democratization in a number of moderate Arab 
governments. So I think the long-term benefits of operating 
through the United Nations are very high.
    Finally, there's an immediate short-term benefit. It'll be 
very useful to us to have allies. Many nations in that region 
want us to go through the United Nations or be empowered by a 
United Nations resolution. So I think if we can get that 
resolution, it's to our near-term military advantage, and our 
long-term advantage as a nation.
    Chairman Levin. If you could just very briefly, General 
Hoar, because I'm out of time, give us your thoughts?
    General Hoar. Yes, sir. First of all, I absolutely endorse 
the statements of my two colleagues.
    I would say, first of all, with respect to the U.N., the 
U.N. is us. It's not them. It's us. We are dues-paying members. 
When we provide the leadership, as the President did recently, 
we can see immediately what changes take place. The French 
haven't changed their idea of how this ought to be done. If you 
get a U.N. Security Council resolution, they'll be with us. 
Many of the other Europeans feel the same way.
    Since September 11, I've traveled to the Middle East five 
times. I've been directly involved with the Middle East for the 
last 15 years. While we've been paying attention, 
understandably, to the terrorist attack against the United 
States, in the Arab countries there is major consternation 
about what is going on in the West Bank and in Gaza. The Arab 
countries, while they are supporting us in private, have a 
serious problem in convincing their populations that this is 
the right thing to do. So I believe that we have to give them 
top cover, as well, and we will do that with the United 
Nations.
    On an operational level, I would just point out that, for 
example, if you can't bring Saudi Arabia into the coalition to 
be able to use, at a minimum, air space, but, ideally, air 
bases as well, the complications associated with carrying out a 
military campaign grow exponentially.
    We need them. We need a broad base. We need it for the 
political reasons as well as the military reasons that we all 
understand. It will make the whole job a great deal easier. In 
the long run, as Wes said, in our relationship with these 
countries in the future, it will expedite and ease our ability 
to do business after the military campaign is over.
    Chairman Levin. Senator Allard.
    Senator Allard. Thank you, Mr. Chairman.
    I think it's commendable that all of you are cautious about 
the use of force, and I agree with that. The use of force 
should always be as a last resort. Sometimes there is the 
first-strike argument that's made out there, and some say that 
we should never be the first strike. Some are saying, well, 
we've already been the victims of a first strike in the fact 
that our friends and allies and ourselves were attacked during 
the Persian Gulf War, then we had the attack with the Twin 
Towers and the Pentagon.
    Would you all agree that certainly one of our options 
should be to act unilaterally, if necessary?
    General Shalikashvili.
    General Shalikashvili. Yes, I clearly agree that, under 
certain circumstances, we have to act unilaterally. Otherwise, 
we give the veto power to people who do not have any veto power 
over our security.
    Senator Allard. Thank you.
    General Clark.
    General Clark. I think that the United States always has 
the option of acting unilaterally, but I'd say in this case 
it's a question of what's the sense of urgency here and how 
soon will we need to act unilaterally. So I think it's very 
important that we recognize that, so far as any of the 
information has been presented, as General Hoar has said, 
there's nothing that indicates that, in the immediate next 
hours, next days, that there's going to be nuclear-tipped 
missiles put on launch pads to go against our forces or our 
allies in the region. So I think there is, based on all of the 
evidence available, sufficient time to work through the 
diplomacy of this.
    Senator Allard. General Hoar.
    General Hoar. Yes, sir. I think Wes is spot on. I think we 
have the time. We need to concentrate on al Qaeda. We have made 
enormous strides here recently, and if we continue to do that, 
with the help of other countries, we will be successful 
quicker.
    In addition to that, I think that we have the time to step 
up to the public diplomacy requirement with respect to the 
Israeli-Arab problem, which will facilitate our friends 
supporting us when and if we go after Iraq. But I think those 
two are preliminary steps.
    Senator Allard. General McInerney.
    General McInerney. Clearly, sir, we must have and do have 
the authority to strike, unilaterally if we have to. In this 
particular case, we're going to have enough allies even if the 
U.N. doesn't come in.
    But I think the important thing, in response to General 
Clark and General Hoar, where I have a problem on time is, 
unfortunately, September 11 showed that we have great 
weaknesses in our intelligence system that we all did not 
realize. This intelligence system--and they have very talented 
people--has been focused on large nation-states. Having been 
part of that intelligence system in several occasions in my 
career, we have totally neglected the human intelligence that 
takes years to build. Because of this, we have much more 
ambiguity than we normally would. It's because of that 
ambiguity that I see a time urgency.
    Fortunately, this body and others deliberated and very 
forcefully said in 1998 that we must act, and you did it as a 
bipartisan body--a very strong signal.
    Senator Allard. Thank you.
    Now, I have a question I'd like to direct to General Clark 
and General Hoar. In this particular circumstance, what else do 
you feel can be done diplomatically or economically or 
otherwise that hasn't been done at this particular point in 
time?
    General Clark. Well, we're not on the inside. I'm certainly 
not on the inside of what's going on in New York with the 
United Nations or the consultations that are underway, but I do 
know that in terms of building a coalition and putting together 
the kind of diplomatic resolution that's required, it takes 
multiple engagements with governments. So I think it takes a 
strong commitment on the part of the President of the United 
States to assure that this problem is addressed. I think we've 
had that strong commitment. I think it takes a clear indication 
that the United States has the capacity to address it 
unilaterally, if need be. I think that indication is present.
    Then I think the third requirement is that we have the 
ingenuity and the patience to work on the coalition partners we 
need and our allies from many different directions and many 
different perspectives. We need to go to NATO. Have we gone to 
NATO? NATO came to us after September 11 and said, ``This is a 
violation of the North Atlantic Charter. This is Article V. We 
want to work with you.'' This is a great opportunity for NATO 
to come in. Have we done that? Secretary Rumsfeld's over there 
today talking to NATO ministers.
    So I think that's one indication. From NATO, you go back to 
the United Nations. I think you make your case in front of all 
of the Islamic organizations. You make it at various levels, 
from the military level on up to the head of state level, and 
you work it.
    Senator Allard. General Hoar.
    General Hoar. Let me just build on that, because I think 
that's a great answer.
    Senator Allard. Quickly, because I have one more question 
I'd like to get in.
    General Hoar. Put pressure on Russia. Russia has an 
economic interest in Iraq. We still have a lot of leverage with 
Russia. The President apparently has a very good relationship 
with Mr. Putin. We can do more there.
    China has been part of the problem with respect to movement 
of, particularly, missiles through North Korea into Iraq. We 
can put pressure on China.
    We need to bring those two countries into the tent and work 
with them and make them part of the solution, not make them 
part of the problem.
    Senator Allard. What happens if the United Nations decides 
to do nothing?
    General Clark, General Hoar, any of you?
    General Clark. The United States is going to have to move 
ahead with what it needs to do, but it's not, I think, going to 
be an all-or-nothing situation. I think it's going to be very 
important to salvage everything that can be salvaged from the 
dialogue in the United Nations, to identify those nations that 
are likely to go with us with something less than a full United 
Nations resolution, to figure out how we can meet their needs.
    In other words, I think that we're stronger, if we give 
ourselves time to work this issue. We have to make it very 
clear to Saddam Hussein, there's no doubt about what the 
ultimate outcome for him is going to be. But the process is 
all-important for the ultimate outcome for us and our interests 
in the region.
    Senator Allard. General Hoar.
    General Hoar. Sir, as I said in my opening statement, there 
are other priorities, too, that we need to continue to work on. 
But, beyond that, I think it's important that we garner as much 
support as we can over and above the United Kingdom's 
commitment to support us so that----
    Senator Allard. But what if the United Nations does 
nothing?
    General Hoar. I think then the decision has to be made 
based on intelligence, and I don't think that the intelligence 
that has been described in the open press supports that at this 
moment, but I would defer to you gentlemen, in closed session, 
to determine that. But, at this point, I think we have time.
    Senator Allard. Thank you, Mr. Chairman.
    Chairman Levin. Thank you very much.
    Senator Cleland.
    Senator Cleland. Thank you very much, gentlemen, for your 
service to our country and your service to us today. One of the 
things we have in common is that we served in Vietnam as young 
officers.
    Secretary Powell served there. In his 1995 memoirs he wrote 
this: ``Many of my generation, the career captains, majors, and 
lieutenant colonels seasoned in that war, vowed that when our 
turn came to call the shots, we would not quietly acquiesce in 
half-hearted warfare for half-baked reasons that the American 
people could not understand or support.''
    I certainly feel that way. I guess you all feel that way. 
That's one of the reasons we're all here, to make sure we don't 
go half-cocked, half-baked here, and that the American people 
understand that when we go to war, we need them, and we need to 
be successful.
    But one of the lessons I did learn out of that war is what 
the British learned fighting guerrillas and terrorists in 
Malaya, now known as Malaysia, a simple axiom of fighting 
terrorists, and that is if the terrorist doesn't lose, he wins.
    The fact that we haven't gotten Osama bin Laden and his 
terrorist cadre put us on orange alert 1 year later. So the 
terrorist still continues to win unless the terrorist loses.
    Therefore, learning that lesson in Vietnam and seeing it 
played out here in the wake of September 11, 1 year later, it 
just reinforces my view that the number-one mission for our 
Nation, for our military, is to make the terrorists lose, make 
a specific terrorist group lose, namely the al Qaeda, which has 
penetrated some 60 nations and was able to use less than 
weapons of mass destruction, aircraft, against us and come in, 
in effect, under the radar, under our intelligence scheme, and 
do a lot of damage.
    Gentlemen, does it seem to you that this is our number-one 
war? We're already in a war. We've already had a congressional 
resolution passed that authorized the President to take all 
necessary means to take this al Qaeda out. Is that our number-
one military mission at this point?
    General Shalikashvili.
    General Shalikashvili. It is my understanding, Senator, 
that the President was clear when he said that fighting this 
war against terrorism is our number-one priority. I've thought 
an awful lot about whether going after weapons of mass 
destruction in Iraq is an unnecessary detraction from that 
effort or whether it is, as the administration has claimed, 
part of the war against terrorism, an attempt to potentially 
deny terrorists those weapons of mass destruction that, 
otherwise, Saddam Hussein might make available to them. You can 
argue whether that's likely or not, but you cannot argue that 
it cannot happen.
    I concluded that it really falls under the same umbrella as 
the overall war against terrorism. The war against terrorism 
isn't just al Qaeda, it isn't just the terrorist groups in the 
Phillippines and whatnot. It is also denying terrorists the 
means of getting to weapons of mass destruction that then could 
be used against us or against our friends and allies.
    So your question to me is, for me, simple to answer. Yes, 
the war against terrorism is our number one priority. 
Considering using force to do away with the weapons of mass 
destruction in Iraq is a necessary part of that war.
    Senator Cleland. General Scowcroft has observed publicly 
that he didn't think Saddam Hussein was engaged in spreading 
his weapons of mass destruction to terrorists with a return 
address of Baghdad. I just thought I'd mention that.
    General Clark, your observations?
    General Clark. I've been concerned that the attention on 
Iraq will distract us from what we're doing with respect to al 
Qaeda. I don't know all of the particulars today of how we 
distribute our resources around the world. These are details 
that are classified. They're handled by well-understood 
processes. But it's been my experience, from commanding in 
combat, that I would like every bit of intelligence I could 
get, and we used a lot going after only that small part of 
Europe which we were attacking in 1999 inside Yugoslavia and in 
Kosovo.
    So I think, as a minimum, that when one opens up another 
campaign, there is a diversion of effort. The question is 
whether the diversion of effort is productive or 
counterproductive. There are forces operating in both 
directions at this point. You can make the argument that 
General Shalikashvili did, that you want to cut off all sources 
of supply. The problem with that argument is that Iran really 
has had closer linkages with the terrorists in the past, and 
still does today, apparently, than Iraq does. So that leads you 
to then ask, well, what will be the impact on Iran? That's 
uncertain. If you could take these weapons out quickly, then it 
would cut off that potential source of supply.
    On the other hand, by lumping the two together, al Qaeda 
and Saddam Hussein, it's also possible that we will have 
incentivized Saddam Hussein now, as a last-ditch defense, to do 
what he wouldn't have done before, which is, ``Go find me the 
nearest members of al Qaeda. Here, take this sack and do 
something with it.'' So it's not clear which way this cuts 
right now.
    But, at some point, we are going to have to deal with 
Saddam Hussein, we are going to have to work against the 
weapons of mass destruction, not only there, but also in the 
case of Iran. Whether this is the right way, the right time to 
do it depends, in large measure, on how we proceed. This is why 
I underscore again and again the importance of diplomacy first 
and going through the United Nations, because I think that 
gives us our best way of reaching out to achieve this objective 
with minimum adverse impact on the struggle against al Qaeda. 
The longer we can reasonably keep the focus on al Qaeda, the 
better that war is going to go, in my view.
    Senator Cleland. If you took out Saddam Hussein and the 
Ba'ath party, the secularist party, don't the Sunnis and the 
Shiite Muslims make up the majority of the population in Iraq? 
Wouldn't that give Iran a strong hand there, and we'd 
ultimately end up creating a Muslim state, even under 
democratic institutions?
    General Clark. Yes, sir. I think that there's a substantial 
risk in the aftermath of the operation that we could end up 
with a problem which is more intractable than we have today. 
One thing we're pretty clear on is that Saddam has a very 
effective police-state apparatus. He doesn't allow challenges 
to his authority inside that state. When we go in there with a 
transitional government and a military occupation of some 
indefinite duration, it's also very likely that if there is 
still an effective al Qaeda, and there certainly will be an 
effective organization of extremists, they will pour into that 
country, because they must compete for their Iraqi people--the 
Wahabis with the Sunnis, the Shias from Iran, working with the 
Shia population. So it's not beyond consideration that we would 
have a radicalized state, even under U.S. occupation in the 
aftermath.
    Senator Cleland. General Hugh Shelton was telling me about 
a week ago, in his great North Carolina accent, which I 
understand, that if Saddam Hussein were removed and the Ba'ath 
party ousted, that the Kurds, the Shiites, and the Sunnis would 
go at each other like banshee chickens.
    General Hoar, what's our first priority, militarily? Is it 
al Qaeda?
    General Hoar. Our first priority has to be al Qaeda, and 
the reason, Senator, is that we are dependent on our European 
friends and the Arabs and the Muslims around the world. The 
successes we've had in Morocco, Yemen, Pakistan, and Germany 
have come as a result of the integrated intelligence of police 
work. These are the kinds of things that we need. At the end of 
the day, shutting down the money, using police to find these 
independent cells around the world will make the difference. We 
are absolutely dependent on the goodwill and cooperation of 
these other countries, some of whom have large populations that 
don't agree with American policies. So I think until we have 
this under control, we should give it our number-one attention.
    With respect to Iraq and the question that you asked Wes a 
moment ago, in my time at CENTCOM, one of the major concerns 
was always the fragmentation of Iraq if there had been an 
internal breakup or it was done externally. Iraq is a creation 
of the Ottoman Empire and British colonialism. It was never a 
country of itself. As a result, it will always be susceptible 
to that problem. The borders were drawn artificially, and we 
live with that problem with Kuwait and Iraq today.
    Senator Cleland. Thank you, sir.
    General McInerney.
    General McInerney. Senator, I clearly think that al Qaeda 
is our top priority. It's not our only priority. I think that 
people who think we can only handle this small operation miss 
what the issue is.
    The issue is, does Iraq, as a terrorist state, get weapons 
of mass destruction in the hands of terrorists, just like he's 
influenced the PLO? As soon as the President had this brilliant 
speech last Thursday, what happens in Israel on Tuesday? There 
is a direct connect between Saddam and other terrorist 
connections.
    Now, it may not be as clear as we would like, because 
that's a problem of our intelligence system, and that's the 
ambiguity that I was talking about before. That is the concern 
that I have, his ability to get weapons of mass destruction. 
I'm not worried about ICBMs. I'm worried about Ryder trucks out 
here at North Capitol Street. That is the threat that is 
included with al Qaeda, Saddam, and weapons of mass 
destruction--terrorism, terrorist states, and weapons of mass 
destruction. There's a deep ambiguity there that no one can 
define accurately, and we must make some decisions, because you 
can't react after a nuclear weapon goes off in this country. 
It's too late. There are no fingerprints.
    Senator Cleland. Thank you very much, sir. Thank you, Mr. 
Chairman.
    Chairman Levin. Thank you Senator Cleland.
    Senator Smith--do you want to speak, John?
    Senator Warner. Thank you, Mr. Chairman. I'm going to wait 
until a later opportunity after my colleagues. I'll follow on. 
I appreciate the courtesy of Senator Smith.
    Thank you.
    Senator Smith. Thank you, Senator Warner. Thank you, Mr. 
Chairman. Good afternoon, generals, and thank you all for your 
service to your country.
    General Hoar, I was listening to your comments very 
carefully, and there was one chilling word that you used when 
you said you ``think'' we have the time. I think that really 
sums up the issue at hand, do we have the time or not? That's, 
of course, right on the President's desk. As President Truman 
said, ``The buck stops here,'' and it does, and it's a tough 
call.
    But I think if you go back to what General McInerney just 
said, does anybody here deny that Saddam Hussein has the 
capability to deliver some type of weapon of mass destruction 
of some type--not any type, necessarily, but of some type to 
the United States or to an ally? [No response.]
    I assume no response means nobody differs with that.
    So let me just go right to the heart of the issue, then. If 
it's trying to build a military coalition, there are some who 
say maybe a military coalition is not meaningful anymore, and I 
don't know if I'm there yet, but there are some ominous signs--
what the Saudis are doing with restrictions on our bases, what 
the Saudis are doing with funding al Qaeda, and, perhaps even 
more troubling, the last few days of the election in Germany 
where Schroeder, who just won a very close election, said, 
``Bush wants to divert attention from his domestic problems. 
It's a classic tactic. It's one that Hitler also used.'' Those 
kinds of comments coming from a supposed ally in NATO are very 
troubling.
    I guess the question is, how much hope do you have that we 
may not have to go it alone, so to speak? I realize there will 
be a few that will always be with us. Israel will be there. 
England will be there. I'm not quite sure, after that, who I 
would count on, but I think I would count on those two.
    But what is your assessment? I know you've all been there. 
I know you're looking in now, but you were there. What is your 
assessment of how deep and how bad this is this time in terms 
of whether or not we're going to have the support of allies, 
both in the Middle East as well as in Europe? I'll just go down 
the table. General Shalikashvili, go ahead.
    General Shalikashvili. There's no doubt in my mind at all 
that coalitions are extraordinarily valuable and sometimes 
essential to get the job done. In a conventional operation, 
like potential conflict against Iraq, you'd talk about 
overflight rights, you'd talk about basing rights, they were 
talking about moving supplies, you're talking about 
intelligence sharing. All of those, when you look at the 
geography, are terribly important issues. While there are some 
work-arounds to be able to do that without allies, it sure as 
heck is extraordinarily useful to have them and, in some cases, 
essential.
    Look at our war against terrorism. Please don't hold me to 
the number, but something in the back of my mind says that we 
have some 90 nations that are assisting, in one form or 
another, in our war against terrorism.
    Those people who say the days of alliances and coalitions 
are coming to an end, I think, don't look at the reality of it. 
This administration has relied very much on coalitions, much 
more so than, for instance, during Operation Desert Storm. 
During Operation Desert Storm--and General Hoar would know the 
number better--I think we had some 30 or 36 coalition partners. 
Look at the number of coalition partners we have today in the 
war against terrorism. Vastly greater.
    Senator Smith. I would agree with you that having a 
coalition would be obviously helpful and very important. I 
guess the question really is, though, can we count on it? If 
you looked at, especially, the Saudis. We know for a fact 
they're funding al Qaeda. They encouraged some of the terrorist 
acts by these martyr funds. You can't overlook that. This is 
not 1991. I guess that's really my question.
    General Clark, you probably could comment best on the 
German situation, but it just seems to me that there's a little 
piling on here. I think some have said that Schroeder won the 
election because he piled on America a little bit, and maybe he 
did.
    So, those are the concerns that I have, not that I don't 
want a coalition, but that I'm worried about whether or not 
there will be one if I could just editorialize a little bit and 
maybe just have the rest comment.
    General Shalikashvili. I agree with you, and I would tell 
you that we're going to have coalition partners in this. You 
mentioned some of them. I think there will be many more.
    How many we have depends, to a large extent, on how 
successful we are in our diplomatic efforts to bring them 
onboard and how successful we are in getting our partners on 
the United Nations Security Council to go along with a strong 
resolution that ultimately authorizes the use of force to 
remove those weapons and the means to produce them, should we 
be unable to do so through inspection or other diplomatic 
means.
    The answer is yes, we are going to have coalitions. We are 
going to have more than are apparent now, because many of them 
are probably reluctant to say anything now for internal 
political reasons, but they will be there. If we are successful 
in the United Nations, I think the number can be quite 
extensive.
    Senator Smith. I guess my time has expired. Could General 
Clark just respond?
    General Clark. I was in Germany last week, Senator. I met 
with a lot of people in Germany. There's a lot of embarrassment 
over the rhetoric in that election campaign. Nevertheless, 
domestic politics is domestic politics, I guess, and it 
certainly plays over there in a certain way based on a 
perception of the United States and its activities in the 
world.
    But I'm convinced that, the election being over, when the 
United States needs help from its European allies, it will get 
that help. I would hope that we will go through the established 
mechanisms and use the consensus engine of NATO in an effective 
way to help us get a grip on the war on terror, to an extent we 
haven't done yet, and also to help us deal with the problem of 
Iraq. If we do that, of course, whenever you work with allies, 
and they sign up to it, they want assurances from you about 
what you're going to do, what you're going to bomb, how soon 
you're going to do this. It is difficult, time consuming, and, 
in some cases, restraining. But I think, as General 
Shalikashvili made clear, the advantages are so overwhelming 
that we really need to pursue that route in this case.
    General Hoar. Sir, may I speak briefly about Saudi Arabia?
    Senator Smith. It's up to the chairman. I'd like to hear--
--
    Chairman Levin. I think not. If it's not an answer to that 
specific question, I think----
    General Hoar. Well, it is in response to the Senator's 
comments.
    Chairman Levin. Can you make them very brief?
    General Hoar. Yes, sir.
    Chairman Levin. Okay.
    General Hoar. Saudi Arabia has been a friend of this 
country for 50 years. Saudi Arabia bankrolled 50 percent of the 
war against the Soviet Union in Afghanistan. They paid $17 
billion in the Gulf War. They paid $20 million a month every 
month, month in and month out, to finance Operation Southern 
Watch. They have, on the table, a peace proposal signed by 22 
members of the Arab League, as a starter, to start the project 
of peace in the Middle East. They have problems. There is no 
question about it. They have not done everything that we want, 
but neither have our European friends, either.
    Senator Smith. Thank you, Mr. Chairman.
    Chairman Levin. Thank you.
    Senator Akaka.
    Senator Akaka. Thank you very much, Mr. Chairman. We're 
certainly honored to have witnesses such as you who are 
regarded as heroes of our country, militarily.
    In the Persian Gulf, we had strong allied support, 
including bases in several Arab states and participation by 
their troops. Today, the degree of participation and the amount 
of access to bases in the region seems to be in question, and 
you've indicated that. I agree with the witnesses that we need 
adequate preparation to reduce American casualties and that we 
should not act in haste.
    A study by the Army's Center of Military History suggests 
that we might need to keep 100,000 troops in Iraq and 300,000 
in Afghanistan if we're going to stabilize these countries. 
General McNeil is quoted today saying that there are as many as 
1,000 al Qaeda fighters still active in Afghanistan. I am 
concerned that in focusing on an invasion of Iraq we may reduce 
critical assets, including intelligence, that we need to 
stabilize Afghanistan.
    My question to you is, do you think there will be some 
degradation of our military capabilities in Afghanistan if we 
do attack Iraq in the next few months?
    General Shalikashvili.
    General Shalikashvili. It's very difficult for me to answer 
that with any degree of specificity, because I have not asked 
for and I have not been given a briefing on the operational 
concepts that we intend to use in Iraq, if we were to go there. 
Either way, it would not be very appropriate to discuss that in 
open session.
    But that said, all information I have is that our military 
today is structured to be able to engage in one regional 
contingency, to be engaged in one or more smaller types of 
contingencies like we now have in Afghanistan. In my very 
informal discussions with my colleagues still on active duty, 
they are of the view that they have sufficient forces, and the 
forces are ready enough to do so without any degradation of our 
effort in Afghanistan, with perhaps the exception of some 
enabling forces that would have to be brought in from the 
Reserves, but it's too early to tell to what degree.
    So they don't seem to express to me the concern that I had, 
as well, and that you mention now, to what degree this will be 
a detraction from our ability to handle our responsibilities in 
Afghanistan.
    Senator Akaka. General Clark, would you have a comment on 
that?
    General Clark. I think that there will be some spread of 
command attention in terms of planning for one operation while 
you're running another, but there are different headquarters to 
handle it. There is a possibility that you'll lose access to 
some intelligence collection means, depending on the numbers of 
platforms available, and so forth, but I don't have that 
information. There may be enough to meet everybody's minimum 
needs here in these two theaters.
    I think the real issue is whether there's synergy between 
the two operations or not. There are arguments to be made on 
both sides. There are those who say that if we go in to Iraq, 
it will send a very strong message to those nations that are 
playing both sides--countries like, for example, Yemen, where 
we've had some difficulty gaining access--and it may send the 
kind of message to Yemen that says, ``We're going to get rid of 
al Qaeda right now. Turn 'em all over. Invite the Americans 
in.''
    On the other hand, if we go in unilaterally or without the 
full weight of the international organizations behind us, if we 
go in with a very sparse number of allies, if we go in without 
an effective information operation that takes this through and 
explains the motives and purposes and very clear aims and the 
ability to deal with the humanitarian and post-conflict 
situation, we're liable to super-charge recruiting for al 
Qaeda.
    So I think it's indeterminate at this point how much 
synergy there is. It's not a given that there's synergy, but 
there is a possibility of synergy between the two operations. 
There's also a possibility of some fatal conflict between the 
two operations.
    Senator Akaka. General Hoar.
    General Hoar. Yes, sir. When I was at Central Command, 
there was always the question of priorities of certain 
platforms and so forth. I think it's unavoidable that there 
would be some deficiencies, but I'd prefer not to discuss that 
in an open forum, and I'm sure the active-duty people could 
give you a much better indication of the current status.
    Senator Akaka. In the Persian Gulf War, we did not go all 
the way to Baghdad and replace Saddam Hussein. If we are 
planning to do so this time, most of you suggest that we should 
be planning also for what we will do in Iraq afterwards.
    General McInerney has suggested we need a shadow 
government. Do you have any thoughts you can share with us 
about what we should be doing now and who should be responsible 
for developing a post-Saddam occupation strategy? Is there one 
being designed at the present time?
    General Shalikashvili.
    General Shalikashvili. One of my colleagues mentioned that 
perhaps a more difficult and equally important part of our 
thinking should be devoted to what will happen after we go in, 
as it is about how we get in and so on, and I fully agree with 
that. Yet this is the most difficult thing to do, and it's most 
difficult to pin the tail on a donkey as to who it is that is 
responsible for it.
    Surprisingly enough, in the open press, in the open 
discussion that's all that I've access to, there's been very 
little of that discussion. There's been very little about what 
opposition forces there are, what political elements there are 
to tie together these disparate groups between the north and 
the center and the south. We've already talked about the 
potential of them splintering, and none of us are really sure 
whether that will happen or not. But there needs to be someone 
worrying about it, and a blueprint needs to exist as to who 
will do what.
    I think we were very fortunate in Afghanistan that, in 
fact, an interim government emerged that seemed to have a 
modicum of support from its people, although we continually 
worry about the independence of warlords. We should not count 
on being lucky twice.
    I wish I could tell you that I have heard somewhere on the 
West Coast, where I now live, that this is all under control. I 
do not have that confidence at all. But that doesn't mean that 
something isn't ongoing. It surely is not the task of the 
Defense Department. Yet, from Haiti to Bosnia and other places 
where we went, invariably that part that should fall on the 
civilian institutions to do fell back on the Defense 
Department, because it's a kind of entity that you get your 
hands around and you can order them to do something, and they 
generally have the means to do something.
    But to establish a government to ensure that the government 
has the political support, that the security structures are 
there, that the police forces are there, and all of the things 
that we saw as very negative aspects of our previous operations 
in the previous administration, someone needs to be taking care 
of it. It must not be put on the hands of the Defense 
Department.
    Senator Akaka. General Clark.
    General Clark. I just want to underscore everything General 
Shalikashvili had to say on that. I think that it's a very 
difficult task. I think it's really the critical task, in terms 
of winning. I think it's the most difficult part of this 
operation. It has not received adequate attention in public 
discussion. Whether there have been decisions made on this or 
not, I don't know. The track record in Afghanistan is that 
we're more lucky than we are good there. There are still 
enormous problems to be dealt with, particularly on the 
reconstruction side. We know the military is not the right 
institution to do this. We know from our experiences in Bosnia, 
Haiti, and Kosovo that you can't just dump this on the United 
Nations, that there has to be a support organization 
established.
    I go back to Vietnam, and we did have an organization in 
Vietnam that did this. It was called Civil Operations 
Revolutionary Development Support. It did some other things 
that caused it to be discredited. But in terms of actually 
covering a country and providing district-by-district, 
province-by-province resources that could help in the 
transformation of that country, this was an organization that 
was very effective. It had a chain of command. It had 
resources. It had transportation. It had communications. It had 
a military cadre that was part of it, but it also had primarily 
a civilian cadre. So if you needed an agricultural extension 
element, you could get the Department of Agriculture to do it. 
So it's the United States Government that has to take the lead 
in planning this.
    In the mid 1990s, we created an organization, a framework, 
for this, Presidential Decision Directive--PDD-56, I think it 
was--in which there was a mechanism for tasking each of the 
agencies of government. Whether that's in place or not, I don't 
know, but it is the most challenging part of this operation, 
and the United States Government needs to take the lead before 
it hands it off to the United Nations.
    Senator Akaka. General Hoar.
    General Hoar. Yes, sir. I think, as my colleagues have 
said, this is the part of this operation that has received very 
little attention. Given the failure in 1991 to have a war 
termination plan that would allow us to have a set of 
circumstances existent in Iraq that would be favorable to us, 
it seems to me that we should not go down this road again.
    What to do after we get to Baghdad seems to me a little 
like what happens to the dog when he finally catches the car--
what are we going to do now? I would suggest to you that it's a 
National Security Council issue, and it needs to be developed. 
I hope that this committee and other committees would ask the 
administration what their plans are after they get to Baghdad 
and catch the car.
    Senator Akaka. General McInerney.
    General McInerney. Sir, I brought it up in my opening 
comments, because I think it is extremely important. I think we 
have great experience from World War II. I lived there as a 
youth and watched how the U.S. military did that. I think 
General Clark had a much tougher problem, or equally as tough, 
in Bosnia and Kosovo. We've had experience. It is not one that 
is above our skill level, and particularly because Iraq 
probably has the best middle class, the most educated people--
they have over 2 million Iraqis that are in the United States 
today that could go back, could help. Afghanistan, to me, is 
much harder. But it clearly is one of the important questions 
we must work on because it's that success that will determine 
the whole success, I believe, on this war against terrorism.
    Senator Akaka. Thank you very much for your responses.
    Chairman Levin. Thank you, Senator Akaka.
    Senator Bunning.
    Senator Bunning. Thank you, Mr. Chairman. I'd like to put 
an opening statement in the record.
    Chairman Levin. It will be made part of the record.
    Senator Bunning. Thank you.
    [The prepared statement of Senator Bunning follows:]
               Prepared Statement by Senator Jim Bunning
    We are here today to deal with an issue of the utmost importance. 
As elected representatives of this Nation, we have a responsibility to 
protect our citizens from all threats. The President had laid out the 
threat posed by Iraq. We must now decide what to do about it. It would 
be best if we can act in concert with our allies, but the possible lack 
of their support must never stop us from protecting our citizens. If we 
knew about the plot before September 11, would we have waited until we 
could get international agreement, or would we have done whatever was 
necessary to prevent over 3,000 of our citizens from being murdered? 
The answer is obvious. We must be forward thinking in admitting what 
the threats are, and bold in ensuring that they are dealt with 
permanently.
    Saddam Hussein must know that there is no opportunity for 
compromise. He must comply with every U.N. Security Council resolution, 
or he will be destroyed. Anything less than that will only lead to more 
delay and obstruction. Congress must stand behind the President, to 
show the world that America is firm in its commitment to remove the 
threat of the Iraqi regime to the world. I urge my colleagues to 
support the President.

    Senator Bunning. I thank all of the four generals for being 
here and for their past service to our country. Thank you.
    I'd like to ask a question of all four of you. Has anyone 
here had a top secret classified briefing on the situation on 
the ground in Iraq in the last 3 months?
    General Shalikashvili. I have not.
    General Clark. I have not.
    General Hoar. I am unencumbered, sir.
    General McInerney. No, sir, I have not.
    Senator Bunning. Okay. I just wanted to make sure that the 
opinions we are hearing are from your past experience. Is that 
pretty accurate?
    General Clark. Well, they're from the past experience, plus 
everything we can get out of the day-to-day----
    Senator Bunning. Reading in the newspaper.
    General Clark.--information we're getting here and in----
    Senator Bunning. Just like The New York Times and the plan 
for what we had for Iraq? Okay, that's what----
    General McInerney. I have, in fact, been in touch with 
Iraqi dissidents, seen a war room here in Washington and a 
number of other things, but that's not----
    Senator Bunning. I just wanted to make sure of where we 
were in relation to your background and your briefing on this 
situation.
    General Shalikashvili, tell me what you think is a ``proper 
inspection''--you mention it in an earlier statement--for the 
U.N. What is a proper inspection?
    General Shalikashvili. I think it is an inspection that is 
devoid of any interference by the Iraqi government, as all 
previous inspections have been, one that has the best possible 
chance of getting at the truth, how much and where their 
equipment is.
    But that, in itself, is not enough, because, as I think 
we're all aware, finding out the truth is only the first step. 
The second equally important step is being able to do away with 
those weapons of mass destruction and all the means to produce 
further weapons. That's the total package that I mean by 
``proper inspection.''
    Senator Bunning. Okay. Do you think there's any chance in 
the immediate future of that type of an inspection being agreed 
to by Iraq and the leader of Iraq, presently?
    General Shalikashvili. There are two parts to my answer to 
your question. The first part is that it's very difficult for 
me to imagine that Saddam Hussein will have a change of mind 
and somehow agree to that. But it is too early to be certain 
that that is so.
    The second part of my answer will be that in trying to get 
that and trying to get that kind of an inspection system and 
trying to encode that in a resolution that also allows the use 
of force, should those such inspections not occur or be 
unsuccessful, it is terribly important for us politically and, 
in effect, operationally, because it brings with it, then, the 
weight of the rest of the United Nations and our friends and 
allies to our effort.
    Senator Bunning. Thank you very much.
    General Hoar, you mentioned the Gulf War and the amount of 
casualties that might be expected in a war with Iraq in your 
statement. Wasn't the same thing said by the military when we 
were fighting the Gulf War prior to our successful completion 
of that war?
    General Hoar. I can tell you that during the Gulf War, I 
had just left Central Command. I had been the Chief of Staff to 
General Schwarzkopf and came back to Washington to be the 
Operations Deputy for the Marine Corps. One Saturday, just 
before the ground attack went down, General Al Gray and I went 
down to Quantico to look at a simulation of casualties, and it 
was determined that if the Iraqis used chemical weapons against 
the two marine divisions as they penetrated that fortified 
line, we could expect to have as many as 10,000 casualties. 
There were very high estimates of casualties if weapons of mass 
destruction were used.
    But as we got closer to the day that the ground forces 
kicked off, those operations that were conducted beyond the 
wire to see what the Iraqis were doing led us to believe that 
it was not going to be as difficult as was originally thought, 
mainly because those divisions that were up against the wire 
along the border had very poor morale and had been severely 
degraded by the air attacks.
    Senator Bunning. Yes, sir. Okay. You also mentioned that 
there has been scant discussion on post-war Iraq.
    General Hoar. Yes, sir.
    Senator Bunning. Where do you get that information?
    General Hoar. I read three newspapers a day and watch what 
I see on the Internet. If it's out there, it certainly isn't in 
the open press. It would seem to me, with all of the discussion 
about military operations--inside-out, outside-in, who's going 
to be involved--that we would hear something about post-
hostility activities.
    Senator Bunning. Well, I hope that our military and our 
State Department and those that are making contingency plans if 
we do this would not give us a forward pass, so that everybody 
in the United States would know exactly what we were going to 
do after we liberated Iraq.
    General Hoar. I would agree, sir, but I think there's a 
good opportunity for closed session hearings so that this body 
would be well aware.
    Senator Bunning. Yes, I agree 100 percent on that.
    General Clark, you said something about public discussion 
on the war termination. What did you mean by ``public 
discussion''? Do you mean between the military and the State 
Department in top secret briefings, or--what are you talking 
about?
    General Clark. I think I'm talking about the same thing you 
just asked General Hoar about, Senator, which is that, from 
listening to everything, including the hearing that was held 
last week with the Secretary of Defense, we're getting the 
impression that the war planning is proceeding chronologically. 
That is to say, how do you get the troops there? What do they 
do when they cross the line of departure? How do they respond 
when they move toward Baghdad? What about Baghdad? What we know 
is that, to be successful, we have to do backward planning. In 
this case, from the weapons of mass destruction----
    Senator Bunning. Did you do that in Kosovo?
    General Clark. Absolutely. We had a peace plan in place. We 
knew the sectors--we knew who was going to participate before 
we ever dropped the first bomb, and that was a big factor in 
providing nations the assurance that they could join in with 
us. That's why you not only----
    Senator Bunning. Did that also have the contingency plan 
that we would have on-the-ground troops stationed there for 
whatever amount of years it takes?
    General Clark. Well, we never specified how many years it 
would take, and we haven't in this case, either. But we did 
have the brigade sectors. We defined the American commitment 
and the other national commitments. Yes, sir, we did.
    Senator Bunning. Lastly--and I know my time is up--I have 
an awful lot of confidence in General Colin Powell, our 
Secretary of State, that he will be successful with our many 
coalition partners, as our Secretary of State was during the 
Gulf War in putting together a very large contingency. 
Presently he had been very successful in the war on terrorism, 
to get about 90 countries in a coalition. I agree with you 100 
percent, we should do everything we can possibly do with the 
United Nations. But then the buck stops on the President's 
desk.
    Thank you.
    Chairman Levin. Thank you very much, Senator Bunning.
    Senator Reed.
    Senator Reed. Thank you very much, Mr. Chairman. Thank you, 
gentlemen, for your very insightful testimony and for your 
extensive service to the Nation. I was calculating, I think 
there's over 100 years of experience in uniform at the table. I 
don't want to make you feel old, but you represent quite a 
distinguished group of witnesses.
    General Hoar mentioned that the casualty estimates he saw 
early on at Quantico, if CBR--chemical, biological, and 
radiological weapons--were used, were in the thousands. In 
1991, Saddam and the Iraqi military refrained from using those 
weapons. Some people posit that was because he was assured, 
directly and indirectly, that he would survive, Baghdad would 
not be assaulted if he did not use them. That situation is 
completely reversed.
    So let me ask you, what is the likelihood in your 
estimation that chemical and biological weapons would be used 
against us in the buildup phase or the assault on Baghdad? What 
would be the likely casualties that Americans would encounter, 
and also the civilian collateral damage that would ensue?
    General Shalikashvili.
    General Shalikashvili. I certainly don't have any 
intelligence information that would answer this issue. I would 
tell you that any intelligence information on this issue, I 
would hold very suspect anyway, because we're talking of 
intentions, and intelligence isn't very good on that. But we 
certainly cannot exclude the possibility that chemical weapons 
would be used against our troops in that conflict. While you 
can argue, and correctly so, that our defensive capabilities 
are better than they were in 2001, that our detection systems 
are better, that we now understand better, that to deal with 
chemical attacks, you have passive defense, but also active 
defense, and all the things that you're well aware of.
    Nevertheless, if he were to use chemical weapons against 
us, and that is a possibility, the casualties, in my judgment, 
could be very high. Beyond that, I wouldn't trust anyone 
assigning any numerical number.
    Senator Reed. General Clark.
    General Clark. I think that there's a possibility he will 
attempt to use weapons of mass destruction. I think there's a 
possibility he would attempt to use them before we would launch 
our attack, when we stage our forces. I think there's also a 
possibility he will use them against his own population, and, 
in particular, against the Shia population in the south, in 
order to create the kind of humanitarian catastrophe that could 
be blamed on the United States and could degrade our ability to 
act against him.
    What the probabilities are is anybody's guess. My guess is 
that it's under 50 percent, and perhaps well under that. Not 
only will we be taking every action we can to prevent him from 
doing that, but he will have to have a chain of command that's 
willing to take those kinds of measures. I think, as we build a 
coalition, as we make it very clear we're coming and what the 
consequences of that entry will be, we'll be undercutting 
pretty severely the morale of his armed forces and its ability 
to execute its orders.
    Senator Reed. Can I infer from your response that one of 
the benefits of a U.N., at least, related coalition would be 
that we would raise the threshold, in terms of his use of these 
types of weapons?
    General Clark. I think that's correct.
    Senator Reed. That would be a significant advantage to our 
troops and to the reconstruction.
    General Clark. Absolutely.
    Senator Reed. General Hoar.
    Chairman Levin. Excuse me. Apparently General Shalikashvili 
was nodding, and I think it's an important question. Did you 
agree with that?
    General Shalikashvili. Yes, I did.
    Chairman Levin. Okay, thank you. Just for the record. Thank 
you.
    Senator Reed. General Hoar.
    General Hoar. Yes, sir. I believe that one of the reasons 
that Saddam Hussein didn't use chemical weapons during the Gulf 
War was that Secretary of State Jim Baker met with the Iraqis 
before the war began. While I'm not privy to what was said, I 
am told that he threatened the Iraqis with catastrophe, not 
further defined, should they use weapons of mass destruction.
    We are now saying that, regardless of what happens on the 
weapons, we're in favor of a regime change. We've all said that 
here today. It seems to me that that reduces the possibility 
that Saddam Hussein could not use the weapons in order to save 
his skin. We've already told him that he's out of there once we 
conduct this campaign. The Vice President has said that.
    So I am not sure. I think that there is the possibility, 
because there's little for him to lose.
    Senator Reed. General McInerney.
    General McInerney. I think, sir, that we have to plan that 
he will. None of us know what the percentage is, so how do we 
plan? Number one, in our intelligence operations (IO) campaign, 
which I mentioned, as others have, we send the word, and we 
have daily people coming out with communications, we know the 
numbers of all their division commanders, who these people are, 
that in that IO campaign, they are told that they will be tried 
as war criminals by Iraqi justice, not ours--ours is too 
loose--and the finality of the Iraqi justice system.
    Number two, we want to preempt where these systems could 
come from, as targets, and that's why this massive campaign is 
focused on weapons of mass destruction with precision weapons.
    Number three, that's why I don't favor a huge buildup. I 
want small, fast-moving units that move through this--and in 
their CVR outfits and they're moving fast.
    I commanded a unit that delivered--had chemical weapons in 
the days before we terminated their use. I can assure you, 
trying to marshal that, plan for it, and the difficulties that 
you get in trying to use it is not an easy task. If they 
haven't been practicing a lot, I assure you, their readiness to 
do it is poor--but we should still plan for the worst and hope 
for the best.
    Senator Reed. My time is expired. But there seems to be a 
divergence, at least in my mind, between the testimony of our 
Army generals and perhaps our Marine general. They're talking 
about a heavy assault for any contingency that they face. 
General McInerney is talking about light forces sweeping 
quickly out----
    General McInerney. I'm talking heavy, medium, light, 
covert, airborne, all of them. It's not the size. Speed is more 
important than size in this new warfare with this massive air 
precision campaign simultaneously working. That is the 
difference that we are talking about, and it's a good debate, 
Senator.
    Senator Reed. Thank you, General. Gentlemen. Mr. Chairman.
    Chairman Levin. Thank you, Senator Reed.
    Senator Sessions.
    Senator Sessions. Thank you, Mr. Chairman. It's very good 
that we have these kind of hearings and we have it all out on 
the table and talk about these issues, some of which we can't 
talk about in public because of security reasons.
    General McInerney, in this last attack by Saddam Hussein on 
his own people--one quick question--during which he reportedly 
killed as many as 5,000 Kurds with poison gas. Was that 
delivered by aircraft, or do you know?
    General McInerney. I think it was aircraft. General 
Shalikashvili, do you remember? It was either aircraft or 
artillery. I just can't remember, sir.
    General Shalikashvili. To the best of my knowledge, it was 
done by artillery, but this happened in the 1980s, and my 
involvement with the Kurds was in 1991.
    Senator Sessions. I am wrestling with the overall picture. 
I know several----
    General McInerney. But that was a village, as I recall. 
That was not troops moving through rapidly, et cetera.
    Senator Sessions. Right. I am wrestling, in general, with 
where we are as a Nation and where we are as a world at this 
point. I don't think you three gentlemen, who are heavily into 
the multilateral mode, mean to be uncritical of the U.N. and 
our European allies and other world allies for their behavior 
so far with regard to enforcing or lack of enforcement of 
resolutions that they have lawfully implemented and that Saddam 
Hussein solemnly agreed to. That is a big problem.
    Let me just refer, since I think it's a very august 
publication and taking the issue very seriously, to The 
Economist, the British publication. They note that, ``Iraq is 
actually the best example there is of America following 
multilateral procedures which an arrogant unilateralist called 
Saddam Hussein proceeded to flout. The question then is what do 
you do when international deals and procedures are broken? Sit 
back and pretend it didn't happen?'' They go on to say that, 
``At every stage, the multilateral approach has failed,'' after 
itemizing these things, ``blocked by Iraq or by permanent 
members of the U.N. Security Council, chiefly France and 
Russia, those countries, China, and others have been 
circumventing the sanctions.''
    So let me ask, first, would anyone disagree that members of 
the Security Council and/or other members of the U.N.--who 
swear so much fealty to that organization--are, indeed, 
undermining the very resolutions that we're concerned with 
here?
    General Shalikashvili. I would certainly not disagree with 
you at all. I think all of us are guilty of that. The United 
States, too, in the past, as a member of the Security Council, 
has perhaps not been as strong and as vigorous in trying to 
push for resolution of this issue.
    Senator Sessions. General Clark, we're flying missions, and 
have been for years, enforcing a no-fly zone in Iraq, which is 
part of the conditions Saddam Hussein agreed to. He fires 
surface-to-air weapons at us, and we drop bombs on him on a 
regular basis. This has been going on for many years. Isn't 
that a cause for concern here?
    General Shalikashvili. Absolutely, but I will remind you 
that the British are flying with us, the Turks are flying with 
us, and, for--I don't know if today, still, but for the 
majority of my time when I was still involved, the French flew 
with us.
    Senator Sessions. Well, the British and the Turks and the 
United States are ready to do something, it appears.
    General Clark, I'll just ask you to comment on it. This is 
something you've been dealing with. You dealt with it in Kosovo 
and in Europe, and we need to talk about it. ``Thus, the limit 
to a purely multilateral approach''--I'm quoting from The 
Economist here--``under the advent of the 1945 U.N. Charter, is 
exposed. Beyond economic sanctions, which have already failed 
or been scuppered by U.N. members, there is no enforcement 
mechanism except American leadership.'' That is what is likely 
to happen. There will be a multilateral process along the lines 
described here. It will fail, and then America will invade.
    Isn't that what we're doing? We're challenging the U.N. to 
maintain its own credibility as we have to maintain our own 
credibility here. The President has taken his case to the U.N. 
He's lobbying nations individually, bringing them to Texas, 
doing everything he can do. But ultimately, aren't we at a 
point where we're going to have to either quit and go home or 
take action?
    General Clark. Well, I don't know that we're at that point 
right now, Senator. I think it's----
    Senator Sessions. Well, how much longer do you think----
    General Clark. --clear that you have to----
    Senator Sessions.--we need to wait?
    General Clark. --look ahead and see. I think you need to 
work through all options. When you're talking about American 
men and women going and facing the risks we've been talking 
about this afternoon, and if you're talking to the mothers and 
the loved ones of those who die in that operation, you want to 
be sure that you're using force and expending American blood 
and lives and treasure as the ultimate last resort, not because 
of a sense of impatience with the arcane ways of international 
institutions or frustration from the domestic political 
processes of allies.
    So I'm not on the inside of those negotiations. I can't 
tell you how much further they are. But I do know, from my 
experience in working in Europe and inside NATO, that it takes 
a lot of different twists sometimes, diplomatically, to get the 
outcome you want.
    Senator Sessions. What we have already is 16 resolutions. I 
guess we can go for 1 more, but there's 16 U.N. resolutions out 
there that Iraq is in violation of.
    General Clark. I think we have two----
    Senator Sessions. I will just say to you--my time is up--
that at some point I do believe the United States is justified 
in acting. As I think Kissinger once said, ``Nothing clears the 
mind so well as the absence of alternatives.'' The President's 
basically put it out to the U.N., ``Either you act, or we are. 
We will not concede this.'' Yes, we could lose troops. We lost 
3,000 in New York last September. Hopefully, we haven't 
forgotten that.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you, Senator Sessions.
    Senator Kennedy.
    Senator Kennedy. Generals, I want to thank you all for 
being here. This has been a long afternoon, but the breadth of 
your experience and involvement in similar kinds of 
circumstances is of great value and help to all of us, so I 
want to thank all of you for your response. Obviously, you've 
given these issues a great deal of thought, and it's extremely 
valuable to us.
    I share the feeling of those that have expressed that al 
Qaeda is really where it's at right now. Saddam Hussein is 
dangerous. He is a threat, but the questions come in to how 
much of an immediate threat, where as we know al Qaeda 
continues to be a threat.
    I don't happen to be as sanguine as some about the 
conditions in Afghanistan. There are a lot of reports that the 
warlords are back and the tenuousness of that situation is very 
real. I'm very concerned about where Pakistan is. Musharraf has 
been courageous. But how much stability is there in a hornets' 
nest filled with al Qaeda? The list goes on around the country.
    I know that there are thoughtful, well-trained military 
leaders who indicate that we can do it all. We can do it all. 
But it seems to me, right now, unless the intelligence has 
changed, that the intelligence that all of us have received is 
that he doesn't have the nuclear weapon. He'd like to have it, 
and if he is able to gain fissionable material, he can move 
along with it in less than a year. But if not, it's going to 
take him a few years to do it. That's basically what we've all 
heard. So he doesn't have that. He has weapons of mass 
destruction. So do the Iranians, as has been pointed out here.
    We have to ask ourselves, as has been mentioned by the 
members here, with this kind of activity, of military 
intervention--and I want to come back to the manpower that you 
all think is going to be there and, second, whether you do 
believe that there's going to be a guerilla war. We've had many 
of those that have testified that this will be different, and 
that the Republican Guard would fight in the cities, because, 
although they felt that his right to go into Kuwait was rather 
tenuous, they feel now that we're after him. So I'll be 
interested in what you thought about this.
    But we have to balance the dangers of these weapons of mass 
destruction. If you're talking about biological and chemical, 
we ought to be scared to death about the dangers of 
proliferation of nuclear material out of the Soviet Union. 
We're about to spend $150 billion to do something--with loss of 
life--over in Iraq, and we've spent less than a billion dollars 
in trying to keep fissionable material away from the 
terrorists. There's something wrong with our priorities here.
    You talk about creating a climate and an atmosphere which 
will provide enormous recruitment for al Qaeda. What's going to 
happen if they do use them? The general said there is somewhat 
less than 50 percent probability. That's still a pretty high 
possibility of using some kind of weapon of mass destruction 
against the Israelis. Prime Minister Sharon said they'll 
retaliate. Are we going to be sanguine about the dangers of 
even nuclear weapons in this? What is that going to mean? How 
much of a danger is that in that region? Will the terrorist 
groups that are in Iran start pumping out the weapons of mass 
destruction to all these terrorist groups?
    I think you've mentioned so many of these points which we 
ought to be thinking about when we're looking at this, both 
from a military perspective and from the real security 
interests that we have.
    In the short time that I have, I'm interested, just quickly 
from all of you, in what you think is going to be necessary in 
terms of the force levels. Second, what assessment you'd give, 
that if this does turn out to be an urban battle--I'm glad Jim 
Baker was able to talk Saddam Hussein out of using it. Why in 
the world aren't we using him now to talk him out of it? He was 
able to go over and have a conversation about it. The reason 
Saddam Hussein listened to him is because of deterrence. That 
was deterrence that dominated the whole relationship between 
nuclear powers for 50 years.
    We know what we would do with our backs against the wall. 
We almost did it in the Cuban Missile Crisis. We know what the 
United States would do. Why should we believe Saddam Hussein is 
going to be different if he's pinned against the wall in Iraq 
and using weapons of mass destruction? If there is going to be 
a battle, in terms of urban warfare, where are we going? What 
do you think will happen on that? If the panel could give their 
answers to that, and then I think my time will be up.
    Thank you.
    General Shalikashvili. I think it's impossible, Senator 
Kennedy, to give you a number of our forces that will be 
necessary to get the job done without knowing exactly what job 
they are going to be asked to do and understanding the concept 
of operation. Any number that you can get probably has the same 
validity as I remember before we went into Bosnia. We had this 
discussion that it would take 400,000 people, because the 
Germans needed that many.
    So I will tell you, I am of the view that Saddam Hussein's 
forces today are about half the strength that they were during 
Operation Desert Storm and that they're probably less than half 
as ready as they were during Operation Desert Storm. We are 
certainly much smaller also, but we are--and I hope I'm not 
overstating it--vastly more capable than we were at Operation 
Desert Storm. So it would tell you that we probably should get 
by with about half the forces we used in Operation Desert 
Storm. But I wouldn't take it to the bank anywhere until you 
know what the tasks are and you do what the military calls a 
troop-to-task analysis and then add them all up and see how 
many troops you need. Until you know the concept of operation, 
you can't do that. So that's the best I can do for you.
    Senator Kennedy. I think it's regime change. I won't--would 
be the task, I expect. That's what we've been----
    General Shalikashvili. But I supposed that an awful lot of 
tasks--whether you do it with the hypothetical method that 
General McInerney described or whether you do it in a more 
conventional method, or whether you do this with special 
operating forces or whatever. There are many different ways 
that you could want to do that. Until you decide you cannot 
compute how many troops it will take you.
    I think if it gets to urban warfare, and the likelihood is 
certainly great that it could, just like the likelihood is that 
he could use weapons of mass destruction, it could get very 
messy. The collateral damage could be very great, and our own 
casualties could increase significantly.
    Senator Kennedy. General Clark, my time is up. Maybe you 
each would give just a brief comment.
    General Clark. I think you need a large-sized force, 
because I think you have to prepare for the worst-case 
contingencies in this case. I don't think all those forces have 
to be there necessarily at the outset. I think you want to move 
for a very rapid campaign. I think you want to plan on urban 
fighting, which means you want to try to attack the forces that 
are in the urban area first, you want to try to prevent other 
forces from reinforcing them, second, and then you want to get 
your own forces in there to prevent the emergence of some kind 
of a fortress Baghdad as rapidly as possible.
    General Hoar. Sir, I hope that Tom McInerney's view of this 
works. But if it doesn't, we have to be prepared to fight block 
by block in Baghdad. As Wes says, I hope we can take the steps 
early on to make sure that it doesn't happen. But you can't 
have those people hanging out in North Carolina or in Georgia 
waiting to go. They have to be in the theater ready to go so 
you don't lose your momentum.
    In urban warfare, you could run through battalions a day at 
a time, one battalion, that are just combat-ineffective because 
of casualties. This is very slow going. All our advantages of 
command and control, technology, mobility, all of those things 
are, in part, given up, and you are working with corporals and 
sergeants and young men fighting street to street. It looks 
like the last 15 minutes of ``Saving Private Ryan''. That's 
what we're up against.
    General McInerney. Sir, obviously I give a different 
viewpoint. The way I look at it, number one, it'll take 30,000 
to 50,000 U.S. ground forces, maybe not all there at the start, 
and if you need more, you add. It'll be over 100,000, counting 
the coalition forces, the Brits, opposition, different people.
    Now, here is why I think this is important, where I'm 
different. People must understand what a war of liberation is. 
I just got an e-mail today from a Republican Guard general that 
defected. The fact is, is the Republican Guards are not allowed 
in Baghdad now, only the special Republican Guards. On February 
14, Saddam killed 10 Republican Guard generals led by a three-
star. On the first of June, he arrested 85 officers. He's not 
arresting lieutenants and captains. So he has a major problem, 
and that's why this information operations campaign that 
appeals to the army and the people that, ``We want to give you 
a new nation''--and the fact is, that's why I think there will 
not be urban fighting. Now, I could be wrong, but he won't let 
the army in the cities now. When they do go in, it's only to 
keep the cities quiet.
    So that is why the view I give, versus others, is 
different. One's a war of liberation, one's an invasion against 
a well-entrenched foe that does not want to do that, and I 
don't think there are many people in Iraq, as the Iraqis told 
me, that want to die for Saddam.
    Chairman Levin. Thank you, Senator Kennedy.
    Senator Warner.
    Senator Warner. Thank you, Mr. Chairman. Gentlemen, what a 
pleasure it is to join together again. One of the great 
privileges of serving on the Armed Services Committee is to 
work with the men and women of the Armed Forces of all ranks. I 
look back on memories shared with you on visits to your various 
forward locations throughout the world in years past.
    General Clark, I'm going to pick up on a wonderful theme 
that you used. As soldiers, sailors, airmen, and marines, you 
know full well you're ready to fight, you're trained to fight, 
from your own experience that that's the last resort. All else 
has to fail. We have in process now those steps, led by the 
President. The world would not be in this posture today 
focusing on this situation had not this President and his 
Cabinet focused the attention on the danger, yes, to the United 
States, but, indeed, the danger to the world.
    But back to the steps he's taken. We've had a good 
discussion here this morning about the United Nations. Now, in 
some respects this shifts to the halls of Congress, and I 
operate on the following basic premise. I was very much 
involved in 1991. I happen to have had the privilege of being 
the principal author of the 1991 resolution which went to the 
floor and was debated for 3 days and 3 nights, and then, by a 
mere five votes, carried by the Senate. We worked together in a 
bipartisan way. Senator Lieberman, of this committee, was my 
principal cosponsor.
    We're now in the process of working a resolution that 
Congress hopefully will pass here in a very short period of 
time before we depart for our home states. I believe that, to 
the extent that resolution is strong, it's unambiguous, and 
there's no, should we say, daylight between the position of 
Congress and the position of the President, the more likely we 
can avoid use of military force, because it sends the strongest 
possible signal to the entire world. Most specifically, Saddam 
Hussein will read that resolution and see that the coequal 
branches of government--the Executive and the Legislative--are 
arm-in-arm determined, first to avoid conflict, and, if 
necessary, only as a last resort, to utilize it.
    Now, I asked you to take a look at the resolution, and I 
will also insert it for the record.
    [The information referred to follows:]

                                           The White House,
                                    Washington, September 19, 2002.
    Dear Speaker Hastert, Leader Daschle, Leader Lott, and Leader 
Gephardt, as a follow-up to your discussion yesterday morning with the 
President, we enclose a suggested form of resolution with respect to 
Iraq. We stand ready to meet with you or your staffs to discuss our 
proposal.
    As the President indicated to you, it is our hope that we can reach 
early agreement on the proposal at the leadership level to allow you to 
proceed to consider the resolution in your respective chambers as soon 
as possible.
            Sincerely,
                                 Nicholas E. Calio,
                             Assistant to the President for
                                               Legislative Affairs.
                               Alberto R. Gonzales,
                                  Counsel to the President.
The Honorable J. Dennis Hastert,
Speaker of the House of Representatives,
Washington, DC.

The Honorable Thomas A. Daschle,
Majority Leader,
United States Senate,
Washington, DC.

The Honorable Trent Lott
Minority Leader,
United States Senate,
Washington, DC.

The Honorable Richard A. Gephardt,
Minority Leader,
House of Representatives.
Washington, DC.
                            Joint Resolution
    to authorize the use of united states armed forces against iraq.
    Whereas Congress in 1998 concluded that Iraq was then in material 
and unacceptable breach of its international obligations and thereby 
threatened the vital interests of the United States and international 
peace and security, stated the reasons for that conclusion, and urged 
the President to take appropriate action to bring Iraq into compliance 
with its international obligations (Public Law 105-235);
    Whereas Iraq remains in material and unacceptable breach of its 
international obligations by, among other things, continuing to possess 
and develop a significant chemical and biological weapons capability, 
actively seeking a nuclear weapons capability, and supporting and 
harboring terrorist organizations, thereby continuing to threaten the 
national security interests of the United States and international 
peace and security;
    Whereas Iraq persists in violating resolutions of the United 
Nations Security Council by continuing to engage in brutal repression 
of its civilian population, including the Kurdish peoples, thereby 
threatening international peace and security in the region, by refusing 
to release, repatriate, or account for non-Iraqi citizens wrongfully 
detained by Iraq, and by failing to return property wrongfully seized 
by Iraq from Kuwait;
    Whereas the current Iraqi regime has demonstrated its capability 
and willingness to use weapons of mass destruction against other 
nations and its own people;
    Whereas the current Iraqi regime has demonstrated its continuing 
hostility toward, and willingness to attack, the United States, 
including by attempting in 1993 to assassinate former President Bush 
and by firing on many thousands of occasions on United States and 
Coalition Armed Forces engaged in enforcing the resolutions of the 
United Nations Security Council;
    Whereas members of al Qaida, an organization bearing responsibility 
for attacks on the United States, its citizens, and interests, 
including the attacks that occurred on September 11, 2001, are known to 
be in Iraq;
    Whereas Iraq continues to aid and harbor other international 
terrorist organizations, including organization that threaten the lives 
and safety of American citizens;
    Whereas the attacks on the United States of September 11, 2001 
underscored the gravity of the threat that Iraq will transfer weapons 
of mass destruction to international terrorist organizations;
    Whereas the United States has the inherent right, as acknowledged 
in the United Nations Charter, to use force in order to defend itself;
    Whereas Iraq's demonstrated capability and willingness to use 
weapons of mass destruction, the high risk that the current Iraqi 
regime will either employ those weapons to launch a surprise attack 
against the United States or its Armed Forces or provide them to 
international terrorists who would do so, and the extreme magnitude of 
harm that would result to the United States and its citizens from such 
an attack, combine to justify the use of force by the United States in 
order to defend itself;
    Whereas Iraq is in material breach of its disarmament and other 
obligations under United Nations Security Council Resolution 687, to 
cease repression of its civilian population that threatens 
international peace and security under United Nations Security Council 
Resolution 688, and to cease threatening its neighbors or United 
Nations operations in Iraq under United Nations Security Council 
Resolution 949, and United Nations Security Council Resolution 678 
authorizes use of all necessary means to compel Iraq to comply with 
these ``subsequent relevant resolutions;''
    Whereas Congress in the Authorization for Usc of Military Force 
Against Iraq Resolution (Public Law 102-1) has authorized the President 
to use the Armed Forces of the United States to achieve full 
implementation of Security Council Resolutions 660, 661, 662, 664, 665, 
666, 667, 669, 670, 674, and 677, pursuant to Security Council 
Resolution 678;
    Whereas Congress in section 1095 of Public Law 102-190 has stated 
that it ``supports the use of all necessary means to achieve the goals 
of Security Council Resolution 681 as being consistent with the 
Authorization for Use of Military Force Against Iraq (public Law 102-
1),'' that Iraq's repression of its civilian population violates United 
Nations Security Council Resolution 688 and ``constitutes a continuing 
threat to the peace, security, and stability of the Persian Gulf 
region,'' and that Congress ``supports the use of all necessary means 
to achieve the goals of Resolution 688'';
    Whereas Congress in the Iraq Liberation Act (Public Law 105-338) 
has expressed its sense that it should be the policy of the United 
States to support efforts to remove from power the current Iraqi regime 
and promote the emergence of a democratic government to replace that 
regime;
    Whereas the President has authority under the Constitution to take 
action in order to deter and prevent acts of international terrorism 
against the United States, as Congress recognized in the joint 
resolution on Authorization for Use of Military Force (Public Law 107-
40); and
    Whereas the President has authority under the Constitution to use 
force in order to defend the national security interests of the United 
States;
    Now, therefore, be it
    Resolved by the Senate and House of Representatives of the United 
States of America in Congress assembled,
SECTION 1. SHORT TITLE.
    This joint resolution may be cited as the ``Further Resolution on 
Iraq.''
SEC. 2. AUTHORIZATION FOR USE OF UNITED STATES ARMED FORCES.
    The President is authorized to use all means that he determines to 
be appropriate, including force, in order to enforce the United Nations 
Security Council Resolutions referenced above, defend the national 
security interests of the United States against the threat posed by 
Iraq, and restore international peace and security in the region.

    Senator Warner. I sent copies there to you--just that last 
paragraph. But I read, first, from the Constitution of the 
United States. Each of you raised your arm more than once and 
swore allegiance to defend the Constitution of the United 
States. We do so here in the Senate. Article II states very 
explicitly, ``The President shall be the Commander in Chief of 
the Army and the Navy and of the militia of the several states 
when called in to actual service of the United States.'' Very 
clear. No one else. One man.
    Then Section III of Article II, ``He, the President, shall, 
from time to time, give Congress information of the state of 
the union and recommend to their consideration such measures as 
he shall judge necessary and expedient.'' Here it is. This is 
what he is now recommending to Congress, and it will be the 
central focus of Congress for these next few days.
    I do not find anything in this clear, declarative 
expression that exceeds any authority that the Constitution 
gives him. It is, in my judgment, a recitation of the authority 
given in the Constitution, authority that each of you in your 
roles, particularly as combat commanders, have exercised in the 
past.
    A simple question to you. You're citizens of this Nation. 
Do you read this as going beyond the authority given to the 
President in the Constitution in any way?
    General McInerney.
    General McInerney. Not at all, Senator.
    Senator Warner. Who would like to go next? General Hoar.
    General Hoar. Sir, I have just scanned this. I would prefer 
a more limited view of time and place than what I read here as 
an essentially open-ended commitment, sir.
    Senator Warner. Thank you.
    General Clark, is this within the confines of the 
Constitution, or does it go beyond it?
    General Clark. I think that the last phrase in there is a 
very, very sweeping phraseology, because it's not only 
international peace and security in Iraq; it's the region. I 
realize why that's in there, but I think that we will gain 
power with this resolution and will gain effectiveness in our 
military operation and in our public diplomacy the more tightly 
we focus our efforts on the specific objectives that we seek.
    So ``region'' is one of those terms--are we going to 
restore international peace and security between the 
Palestinians and the Israelis by this phraseology? What exactly 
does it mean? So, therefore, what I would prefer to see--
    Senator Warner. If I could come back to you later--my time 
is running along. If Congress passes this in October, they go 
home, they scatter to 50 States and parts of the world. If some 
situation arose beyond a limitation such as some of you are 
thinking about, what is the President to do? Bring us back? Is 
there time to do it? He has to employ troops to take care of 
that contingency. That's my concern.
    General Shalikashvili.
    General Shalikashvili. I am of the view that a resolution 
from Congress is very important now to energize the United 
Nations and tell them that we stand together, to energize our 
allies that we are serious about it, we stand together, and to 
send a strong message, as you said, to Saddam Hussein.
    The wording of this is probably a matter for lawyers and 
senators to pour over, and I'm not competent enough to tell you 
whether it is too broad or not. On the surface of it, I align 
myself with General Clark, because I think there needs to be a 
clear understanding of what is meant by those words, 
particularly that last sentence.
    Senator Warner. Let me go back to that second subject 
General Clark touched on, and that is NATO's role. We're about 
to come up on another summit meeting. At the last, they 
expanded their role. Frankly, I wasn't altogether pleased at 
their decision to go beyond the parameters of that original 
charter. But, nevertheless, they did.
    I think they've done superb work in Kosovo and Bosnia--
they've turned their eyes away from this conflict between the 
Palestinians and the people of Israel, and that concerns me. I 
think there's a connection between that problem and the 
planning of any operation, should force be necessary, in Iraq. 
I have, of recent, written the President a letter suggesting 
that we should ask the North Atlantic Council to consider 
whether or not, given this expanded charter of NATO, NATO 
peacekeepers should be used to help ease tensions between 
Israel and the Palestinians. This will help ease overall 
tensions in the region, and is in the interests of NATO and the 
U.S. I have not yet received a response.
    Now, before he departed, I gave the Secretary of Defense a 
copy of the letter, and I'll share the letter with you, should 
you be interested--suggesting that Europe is perceived as more 
likened to the causes of the Palestinians; the U.S., more 
likened, compassionate, for the cause of the people of Israel. 
If we were brought in, in a peacekeeping role, the United 
States and Europe, under the NATO banner, and only if the 
Nation of Israel and the people of Palestine invited them in, 
and we performed some peacekeeping functions, it seems to me 
that might contain this situation during that period when the 
operations in Iraq were to take place, if force is necessary.
    Also, I must share a personal experience. I was in Tel Aviv 
with three other Senators. We were there--Senators Stevens, 
Inouye, Nunn, and myself--working on urging them to stay out of 
the 1991 conflict. It was February 18, 1991--I remember the 
date, because it happened to be my birthday--when the last scud 
came into Tel Aviv. Indeed, the meeting adjourned very swiftly 
when the scud fell, and the meeting resumed equally swiftly 
after we received the ``all clear.'' But the point being, they 
have indicated that that might not be the solution. As 
complicated as the planning is with Iraq, that is a factor that 
has to be taken into consideration. Were NATO there, there 
might be a less likelihood that somehow the Israel-Palestinian 
conflict would be touched by such conflict as we may find 
coalition forces, hopefully, engaged in in Iraq.
    So my question is, do you have any views on NATO 
involvement, first, in possibly the role of peacekeeping at the 
invitation of both nations in the current crisis that we're 
watching unfolding, and to the extent that NATO should be 
invited in consultation with regard to the planning, 
particularly at the U.N., as it relates to Iraq?
    General Clark.
    General Clark. With respect to the second part of your 
question, Senator, I would certainly favor bringing NATO in to 
do planning for the Iraq operation. I think the NATO 
organization is a good one. It's a consensus engine. Of course, 
it means when you bring allies in, you have to listen to their 
concerns, and that's difficult, and it's time consuming, and it 
creates friction in operations. But I think, in this case, as 
in Kosovo, the overwhelming results or the balance of the 
results is that you need to listen to the allies, you need them 
onboard. So I would strongly encourage that we bring NATO into 
this operation.
    With respect to the situation with the Israelis and the 
Palestinians, as I've looked at this situation in the past, we 
really need, as we have seen in other engagements--some kind of 
a framework political agreement before you attempt to use 
forces to impose a cease-fire, because----
    Senator Warner. I carefully said not to impose a cease-
fire. The two factions would have to agree on some time of 
cease-fire and invite NATO in, but that's the only force that 
can move in 48 hours, the force that's constituted 
internationally, the only force that's had the experience of 
peacekeeping in the Balkans.
    General Clark. I think you'd want to have the kind of an 
agreement where you've taken the incentive away from the 
Palestinian side to use terror, because if they still use 
suicide bombers, NATO forces are going to be no more effective, 
and probably less effective, than the Israelis in stopping 
that, and they'll be held accountable for it. So I think we'd 
want to avoid putting our forces, and our own American forces 
into a situation where they can't win.
    Senator Warner. If they were there, would it lessen the 
likelihood that somehow Israel would get drawn into the 
conflict, should force be used in the Iraq situation?
    General Clark. It might, but I think we'll have forces 
there in any case, with respect to the anti-missile defense 
that we want to put in place in Israel. I would suspect we 
would have that.
    Senator Warner. General, do you have a view on first, the 
Palestinian situation and then the Iraqi situation as it 
relates to NATO?
    General Shalikashvili. Some years before General Clark 
served as Supreme Allied Commander, I had that job. One of the 
lessons that I learned was that NATO essentially needs American 
leadership to take actions, particularly those unusual actions 
that you suggest. It needs more than just our leadership. It 
needs our active participation. We have learned from the 
Balkans that this notion that Europeans do something on the 
ground and we fly overhead doesn't fly.
    So that said, I think NATO should certainly be approached 
on the Iraq issue. I think it will be extraordinarily useful if 
a resolution were passed by the council ministers and to give 
support to the operation in Iraq. I think it should be doable 
if the United States wants to invest the political capital in 
it.
    As far as the Palestinian-Israeli issue is concerned, the 
Europeans, in a way, are involved through the European Union, 
but, in my judgment, not very constructively. So if, in fact, a 
way can be found to bring this into NATO, where both the United 
States and the European allies are involved, it might be 
helpful.
    But I'm afraid that General Clark is right, it would be 
very difficult to bring NATO into this debate unless there were 
already some political agreement.
    Senator Warner. Well, my question was very carefully 
phrased--they have to be invited in.
    General Shalikashvili. That's right, that both sides would 
like NATO to help----
    Senator Warner. That's correct.
    General Shalikashvili.--implement.
    Senator Warner. Stop the fighting.
    General Shalikashvili. Right.
    Senator Warner. Maintain the peace so that then the 
agreement could be worked through.
    General McInerney, would you wish to make a comment?
    General McInerney. I think, Senator, that the issue with 
Palestine and Israel--we have different views on this. I don't 
think that will be solved until Iraq comes down and that regime 
is changed, because Iraq is fueling, with gasoline, the 
Palestinian problem. I think it's directly related. It hasn't 
been for years. But, in the last few years, it has been. NATO 
is extremely important to us, I happen to believe, and most 
generals are virtually internationalists, because we spend a 
lot of time there. But the fact is, I don't think the NATO 
process is fast enough and decisive enough, and all it does is 
convolute the problem.
    Clearly, I think, European members will be involved with 
action against Iraq. I don't think it will be NATO. But 
European nations, in the final analysis, will be involved with 
us, in addition to the United Kingdom--I believe others will.
    Senator Warner. Thank you, Mr. Chairman.
    Chairman Levin. Senator Dayton.
    Senator Dayton. Thank you, Mr. Chairman.
    I wanted to ask a question regarding the resolution that's 
been sent to us and contrasting that with the resolution that 
was passed by Congress authorizing what became the Gulf War. I 
was not aware until just a few moments ago that the author of 
that resolution is present here, but it fits the basis of my 
question, because I'm struck by what I consider to be the 
wisdom of that resolution and its difference from the one that 
we received last week. The President is requesting, in this 
instance, very broad authority, which--I guess you have the 
copy in front of you, and I have that for the record--and I'll 
just say, parenthetically, Mr. Chairman, I'm not a historian, 
but I've been surprised to discover that in the last 50 years, 
Congress has stopped declaring war, that we now pre-approve 
these resolutions authorizing use of military force on some 
restrained or unrestrained basis and sort of e-mail them down 
to the Executive Branch. I don't quite understand what the 
basis of that is, because the Constitution very clearly gives 
Congress, and Congress alone, the responsibility and the 
authority to declare war. But I'll leave that aside.
    But it does, I think, give special weight to these 
resolutions, because that's really become what Congress does, 
and then the Executive Branch is tasked with making the very 
momentous decisions of how to exercise that authority.
    But in the case of the Gulf War, the resolution required 
that the President, when he made a determination that military 
force is necessary, before exercising that authority, should 
provide to the Speaker of the House, the President pro tempore 
of the Senate--in other words, Congress--his determination that 
the United States has used all appropriate diplomatic and other 
peaceful means to obtain compliance by Iraq with the United 
Nations Security Council resolutions cited in Subsection A, 
and, two, that those efforts have not been and would not be 
successful in obtaining such compliance.
    I guess my question, gentlemen, is, in terms--the President 
understandably wants to be unrestrained in terms of preparing 
for military action if and when he determines that that is 
necessary. This resolution will clearly give him that 
authority. Are these kinds of conditions applied? How do they 
impact the military planning, the buildup, the preparedness? 
Are the kind of conditions that the 1991 resolution attached--
do those constraint, or do those prevent the military planning 
and preparedness and buildup, or not?
    I'd give each a you a turn and ask----
    General Shalikashvili. Very briefly. I feel very 
uncomfortable making judgments on this resolution having 
glanced at it for 5 minutes. These are issues that need to be 
debated by lawyers, by senators, by your staffs----
    Senator Dayton. I'm really asking more in terms of the 1991 
resolution.
    General Shalikashvili. To the best of my understanding, I 
do not see how a difference between that resolution in 1991 and 
this one here, that somehow that resolution in 1991 unduly 
constrained the military planning or that this one is necessary 
to do the necessary planning to be able to do military 
operations against Iraq.
    I think the issue here is--and, again, I apologize to you, 
because I ought to know better than comment on as important a 
document as this after two glances at it. What seems to be the 
issue is not whether you can plan against Iraq, but whether it 
gives the President authority to go much beyond Iraq, should 
circumstances arise. Again, constitutional lawyers have to 
answer whether the President has that authority anyway, once 
he's involved in military operations in the region and 
something unexpected arises. But I'm way beyond my competence 
on this issue.
    Senator Dayton. Thank you.
    General Clark and others?
    General Clark. It is a matter for Congress to determine. I 
would hope that before we would use force, as authorized here, 
we would have exhausted all other means. If there's a way of 
incorporating that in the resolution, I think it makes the 
resolution stronger, not weaker.
    Senator Dayton. Does it impair the military planning and 
preparedness?
    General Clark. Not in the language that you just read. I do 
think that, of course, the President, as the Commander in 
Chief, always has the right to self defense from whatever that 
threat may come from. But the more the planning is narrowed and 
the more the focus of the operation is made clear and 
circumscribed, the greater the ability of the United States 
Government to win support for that operation and to offset the 
countervailing propaganda that will come out against our aims 
and purposes in the region. So I think it's in our own self 
interest to have a very tightly focused, tightly worded 
resolution authorizing the operation.
    Senator Dayton. Thank you.
    General Hoar.
    General Hoar. Yes, sir. As I said a moment ago, I'm not in 
favor of one that is quite so broad. I would be much more 
comfortable with the 1991 resolution, for all the reasons that 
my colleagues point out. I would point out to you that the 
military is not encumbered now in planning for this operation. 
It's in the open press all the time. They're going apace to 
make sure that when the President has the authority and he 
tells them to execute, they'll be able to do it.
    Senator Dayton. Thank you.
    General McInerney. Sir, I had read it, because, as a FOX 
news military analyst, I was prepared to comment on the news on 
it, so that's why I had a little advantage over General 
Shalikashvili, but not over General Clark, of course. 
[Laughter.]
    The reason I feel it's important is--in its broadness--we 
want to send a signal that there is trust between this august 
body and this administration, and everybody knows it. You have 
many ways to prevent an administration from moving out and 
doing things. There's no doubt about it. But if you water this 
down, you are going to send a signal out to al Qaeda--you may 
not want to, but you're going to send it--you're going to send 
it to Saddam and say, ``Well, we don't quite trust him. There's 
a little waffling. We're not serious.'' Okay? I mean, he puts 
us into the club that I call----
    Senator Dayton. Wait, wait, General, let me ask--without 
having it in front of you, but would the language I recited in 
the 1991 resolution, would you consider that watering it down?
    General McInerney. Since I didn't read that in great 
detail--I heard what you said, but I read this in detail, 
because, as I said, I was going to be quizzed on it on the air. 
So I'm very comfortable with this broad language. I would have 
been more comfortable if the language that you put out a year 
ago against Afghanistan would have been broader. The President 
and any administration's people always come back to you. You 
control the purse strings.
    The signal you want to send, Senator, is, ``This nation is 
united.'' You want to send that to the U.N., because I happen 
to believe--which is different than General Clark--this strong 
signal, Mr. Chairman, will ensure that we have a better chance 
of getting it through the U.N.
    Senator Dayton. Thank you, Mr. Chairman. My time is 
expired. Thank you, gentlemen.
    Chairman Levin. Thank you.
    Senator Nelson.
    Senator Bill Nelson. Thank you, Mr. Chairman. Thank you to 
each of you for your service to our Nation, in uniform and as 
you continue to perform service to our Nation. Thank you very 
much.
    The way that our Armed Forces are currently structured and 
as we approach the task of defeating Iraq in the near term, are 
we going to be, at the same time, able to sustain the global 
war against terrorism? What's your opinion on that? General 
Hoar?
    General Hoar. My view, of course, is that the global war on 
terrorism will only be won through the close coordination with 
our friends in Europe and, indeed, in the whole Muslim world, 
because integrated intelligence from all sources, police work 
as a cooperative effort, law enforcement working with other 
friendly countries, and certainly the ability to shut down 
finances are critical to our success at the end of the day. But 
we have to have that kind of support for the some 90 countries 
that are working actively with us today. I should point out to 
you that the recent successes in Pakistan and Morocco and 
Yemen, as well as Europe, are a good example of that 
cooperation.
    Senator Bill Nelson. So when the moms and dads come up to 
me at home and say, ``How can we do a war in Iraq and, at the 
same time, go against all the other bad guys?'' you don't have 
any heartburn on this?
    General Hoar. I do indeed, sir. I think that the war 
against al Qaeda is the first priority. My colleague says we 
can have more than one priority, and I agree with that, but 
when it's your first priority, you don't do anything that 
impairs your ability to execute the first priority.
    We have a lot of people around the world in those 90 
countries that don't agree with the way the United States 
conducts foreign policy or their military policy, and those 
countries have constituencies they must respond to. In my 
judgment, we need to do the al Qaeda thing first.
    General McInerney. Senator, here is my difference, and I 
want to make it clear. I believe in this coalition. I believe 
in the 90, but I don't want 5 or 10 or 20 to determine what we 
do. We are the target. Let's go back. We are the target, and 
they are coming after us, and there must be a sense of urgency. 
So that's why I can assure you on the air side, the B-2s aren't 
flying against al Qaeda right now, the B-52s aren't, the B-1s 
aren't. It's a small effort with ground forces. The Third 
Armored Division is not committed. The third corps is not 
committed. There are a lot of forces that aren't. I think 
there's an important role for the simultaneous nature to be 
working on these fronts.
    We can handle more. The campaign against al Qaeda has now 
been moved mostly back into very good police and special 
operations work. So that's why when we're talking about this 
force and the signal we send, the rapidity of this campaign is 
extremely crucial, because I think it will cut down the number 
of recruits that go to al Qaeda. When Rome is strong, the 
provinces are quiet.
    Senator Bill Nelson. General Clark, you were about to say 
something?
    General Clark. I was going to say that I think it depends 
on how we do it. I think it is clear already that we have 
engaged this issue. This issue is on the table. Now, if we go 
in with a strong coalition, if we go in with a U.N. resolution 
behind us, if we go in with the fullest possible weight of 
international law and international opinion, then I think it 
can reinforce what we're doing against al Qaeda, even though 
there will be some distraction on the part of the commanders 
and the national leadership who are involved in the campaign. 
But, on balance, you might get a reinforcement.
    I think if it had gone the other way, if we had not gone to 
the United Nations, if we had decided to iron horse this and go 
in unilaterally at the outset, I think it would have distracted 
us from our campaign. How it eventually turns out, I think, is 
still up in the air right now.
    General Shalikashvili. I think that militarily it should be 
doable to engage both in a war against terrorism and to fight 
the al Qaeda issue and to go into Iraq, as least that's what I 
think the thinking of the military leaders in the Pentagon is, 
to the point that I understand it. I agree with that, although 
there might be some particular enabling capabilities that would 
be stretched more than we would like.
    But politically, it's different. Politically, how much it 
would detract from our effort against al Qaeda in the war 
against terrorism in the broader sense depends very much on how 
successful we are in building a strong, large coalition, and 
that, in turn, would be based on how successful we are in 
getting a United Nations Security Council resolution 
authorizing the use of force, should inspections prove 
fruitless.
    Senator Bill Nelson. Thank you for that.
    General Hoar, you're a former commander of Central Command. 
Last Thursday in front of this committee Secretary Rumsfeld 
stirred up a hornets' nest when, in essence, he said--this is 
the essence of his message; I'm not quoting him directly--that 
he wants to move Central Command into the Central Command AOR. 
We've had it outside of the area of the Central Command for 
some period of time, even going back to the Gulf War, for a 
specific reason. I would be very curious to hear your comments, 
please.
    General Hoar. Yes, sir. I've been directly associated with 
Central Command since 1988 when I went down, first, as Norman 
Schwarzkopf's chief of staff, and this has been a subject that 
has been discussed perenially. I think that Norm Schwarzkopf 
amply demonstrated the ability to go forward and set up and 
operate on relatively short notice, if there was a requirement.
    The truth of the matter is that the availability of 
information is such that you could do it from Tampa. But any 
commander that is worth his salt wants to be out on the ground 
talking to the sergeants, corporals, lieutenants, and captains 
that are flying the airplanes and doing the work out on the 
ground and going out to the ships to see what's happening out 
there. So if there is going to be a campaign, the theater 
commander ought to be in the theater, and it appears to me that 
the first steps have been taken for that. The ability to put a 
couple of thousand people with their families, cars, cats, and 
dogs, and all of the other things that it would take to make 
that a permanent headquarters someplace in the region, is 
another issue. While I'm not absolutely familiar with this 
issue today, I would say that I would go very slowly on that 
one. But clearly it can be done on very short notice if the 
Secretary of Defense and the Commander in Chief decide that's 
the best way to do it.
    Senator Bill Nelson. Your colleague, General Zinni, agrees 
with you. Here's a quote from General Zinni: ``It would be a 
magnet for people who want to kill Americans overseas,'' with 
regard to a large permanent headquarters. The temporary 
headquarters--which is already underway, by the way--they've 
moved 600 folks over to Qatar right now.
    Mr. Chairman, I have one further question, but the blue 
slip came.
    Chairman Levin. Is it a brief question to one of our 
witnesses, or a long question to all four of them?
    Senator Bill Nelson. It's a brief question, but I'm 
entirely happy to wait, if you'd like.
    Chairman Levin. Everyone's been going over a little bit. No 
reason why you shouldn't if you have one quick question. Try to 
limit it to one of our witnesses, if you could.
    Senator Bill Nelson. The Scott Speicher family is from 
Jacksonville, and I have been in the middle of this. Now we 
have a defector that said that he drove him to the hospital. 
Even the Defense Department has said that they've moved his 
position from killed in action to missing in action. There's 
even some that are talking about changing his status to 
prisoner of war.
    You can't plan a war around a prisoner of war, but what 
advice would you give to the senator who represents the family, 
as we approach this Iraq campaign? It's a tough one.
    General Shalikashvili. Since none of my colleagues are 
volunteering, let me give it a stab, because certainly the 
Speicher case was something that was very much on the table 
when I was chairman.
    We started out, at the time, when the Department of the 
Navy had declared him as killed in action, and the first 
thoughts were surfacing that maybe that was not the correct 
step. So lots of discussion occurred whether we should send a 
mission in to verify or not.
    I come down at it, at this point, very simply. If there is 
the slightest question whether one of our people could possibly 
still be alive, then we need to do everything we can to verify 
that and, if at all possible, obviously, gain his release.
    I do not think that this is in conflict at all with perhaps 
having to conduct combat operations against Iraq. We have found 
ourselves very often in the past having prisoners of war in the 
hands of our potential enemy when we entered into combat 
operations, but there are an awful lot of channels, from the 
international Red Cross to friends, that could help. Certainly 
the Russians, with their relationship now with Iraq, all of 
that ought to be put--if it isn't already--on full-court press 
to try to resolve that issue. After all, there's a family 
involved and a wife involved and children involved and parents 
and so on. So we owe it to one of our own now that there is a 
suspicion that he might be alive.
    Senator Bill Nelson. Thank you.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you. Let's just take 2 minutes each 
on this next round. We're going to have a 2-minute round, if 
that's agreeable with my ranking member, just for the second 
round here.
    If we put a major effort, as a number of you have 
suggested, at the U.N. to get a resolution which sets out an 
ultimatum, deadlines for unconditional inspections and 
disarmament backed up by an authorization by the U.N. to its 
member nations to use force to implement that resolution if 
that is not complied with, assuming that major effort is made 
and we get that kind of a resolution, is it your judgment that 
that would provide the best chance, although it may not be a 
great chance, but the best chance of obtaining Saddam's 
capitulation or compliance with unconditional inspections? 
Better than our going in unilaterally, for instance, with the 
military mission of regime change?
    Let me start with General Clark or General Shalikashvili.
    General Clark. I think if we put that major effort in at 
the United Nations, that's the important next step. We still 
have the option of going in unilaterally after that for some 
reason. But I think what we want to create is an all around 
pressure on Saddam Hussein so he knows he has no alternative.
    I would follow up that kind of a U.N. resolution with an 
intrusive inspection process with a force that was stationed 
there ready to intervene with specific redlines and so forth to 
be able to put the complete pressure on. Ultimately it may take 
a U.S. force going in, but how we do it is as important as the 
fact of our doing it.
    General Shalikashvili. I feel very strongly that a properly 
worded United Nations Security Council resolution would be a 
powerful tool to help us do what we want to do, which is to 
disarm Iraq of its weapons of mass destruction. So I think, 
yes, I do also believe that a properly worded resolution coming 
from this body is a very important tool to help us get the job 
done at the United Nations.
    Chairman Levin. Thank you. My time is up. I'm not going to 
ask the other two. We're going to stick to the 2-minute rule. 
We have a vote coming in a few minutes.
    Senator Sessions.
    Senator Sessions. Thank you, Mr. Chairman.
    I do think that the resolution that we passed needs to be 
strong and give the President substantial power to 
comprehensively deal with this problem. If we constrain the 
resolution, that will constrain his ability to negotiate with 
the U.N., who are going to also negotiate a resolution, 
wouldn't you say, General Clark?
    General Clark. I would say that if you constrain it the 
wrong way, you undercut the President and our purpose there, 
yes. I think you need a strong resolution. I think you need a 
prompt resolution. I think you need a resolution that gets the 
very highest number of votes from this body.
    That having been said, I think you want a resolution also 
that makes it unambiguous what our purpose is and that doesn't 
invite other objections that are extraneous to our purpose. So 
I think you have to get the balance right.
    Senator Sessions. Well, I agree. I think this resolution 
would do that. I'm willing to listen to debate on it and see if 
we can improve it, but I am not unhappy with the resolution, as 
it's presently being proposed.
    I would agree with you--all of you--on your concern about a 
new Iraq. General McInerney, I think a liberation of Iraq is 
exactly what we're doing. The French helped us liberate against 
Great Britain--England at the time. So I think it's a 
legitimate moral thing for us to do, and we do have an 
obligation to try to do what we can to help put together a 
government, which it seems we have been really very successful 
in doing in Afghanistan. It's an extraordinarily difficult 
country, would you not agree?
    There has been some discussion about this, I know, with the 
Defense Department. Assistant Secretary Wolfowitz was quoted in 
The New York Times magazine this weekend in a feature on him, 
on how important he thought it was.
    I see great potential for good, not just for the children 
of Iraq who will no longer be facing an embargo that makes life 
difficult for them, but for the entire region. Would you 
comment on the positives that could come out of a liberated 
Iraq?
    General McInerney. I think they're enormous. I think it is 
the linchpin of our whole strategy in the Middle East. A year 
after that, Iran will get rid of the mullahs. They're trying to 
do that now. This signal that we send, and the jubilation that 
you see in Baghdad, similar to Kabul, will change the whole 
tenor of the world. The sum of all your fears will disappear. I 
assure you. I get this from the Iraqi people that I'm talking 
to.
    Now, there are some that will say, well, some are good, 
some are bad. The fact is, at least there's a communication. 
I'm tremendously impressed with the Iraqi people. I have not 
seen any country that doesn't flourish in a democracy. There's 
something about freedom, when they know that they flourish. I 
think that, as difficult as Bosnia was, the positives of that 
are there. So I'm very optimistic, and then I think that the 
signal goes out very clearly that this Nation is going to 
combat terrorists wherever they are. I think you'll see things 
in Palestine change very quickly.
    Senator Sessions. Well, I hope the U.N. will get with us. 
Thank you, Mr. Chairman.
    Chairman Levin. Thank you so much.
    Senator Cleland.
    Senator Cleland. Thank you very much. May I just say that 
one of the people that I have learned a great deal from--he's 
now deceased--is Colonel Harry Summers, who was the leading 
analyst of the Vietnam War. He wrote an excellent book on 
strategy of the Vietnam War in context. He looked at all the 
basic principles of war that Clausewitz articulated in the 19th 
century. Colonel Summers said, ``The first principle of war is 
the principle of the objective. It is the first principle 
because all else flows from it.''
    That's my question of you. What is the objective? Is the 
objective a regime of inspections that leads to disarmament, at 
which point we probably have a chance to get more of our allies 
onboard, probably have a good chance to get a Security Council 
resolution that stiffens our hand in that objective? Or is the 
objective regime change against a regime defender, a regime 
survivor that possesses biological and chemical weapons, and, 
when his regime is threatened, may, indeed, use them on us, 
may, indeed, fire a SCUD or two on Israel, and now we know 
Israel will attack? Does that unleash the dogs of war in the 
Middle East? Who knows? What is the objective here?
    We know today that the Third Infantry Division down at Fort 
Stewart, Georgia, with thousands of young families, is going to 
be the point coming out of Kuwait into Southern Iraq in terms 
of the attack. What am I going to tell those young families is 
the objective of the use of force in Iraq?
    General Shalikashvili.
    General Shalikashvili. Well, the fact that you ask the 
question, I think, is an indication that, at least to your 
satisfaction, the administration has not been clear on that. 
Whether that, in their own minds, is clear or not, I don't 
know.
    To me, almost from the beginning the objective has been to 
eliminate weapons of mass destruction in Iraq and the ability 
of Iraq to produce more of those. Unfortunately, we've had as 
many people talk on Iraq and what our objective is and what it 
isn't as there are people who like to talk. So the issue became 
confused.
    But I say this in all due respect to the administration. 
The administration doesn't control all the voices that speak on 
that. So it is very likely that those administration officials 
who come and testify before you are very clear on what the 
objective is. I can only tell you what I believe the objective 
ought to be and what I think, from the very beginning, it was.
    Senator Cleland. Thank you, sir.
    General Clark.
    General Clark. I think the objective is the enforcement of 
the U.N. resolutions and the disarmament, or at least his 
giving up the weapons and the capabilities for mass 
destruction.
    On the other hand, I think there is a problem that the 
administration and some of its proponents bring up, and that is 
as long as he attempts to acquire weapons of mass destruction--
even if the inspections showed he had none--he would still be a 
threat of acquiring them.
    So I think we're put in a difficult position. So it's not 
going to be possible to cut a deal and say, ``If you pass an 
inspection, we'll forget about you as a problem.'' So I think 
what we're committing ourselves to by going after the weapons 
of mass destruction and by saying that we want intrusive 
inspections to do this, is an indefinite regime of intrusive 
inspections, with the burden of proof on Saddam Hussein to 
prove a change of intent, rather than a simple, ``We'll check. 
If we don't see anything, okay, you're free to continue on.''
    So I think it's a very high standard, but I think it is 
ultimately a disarmament.
    Senator Cleland. Thank you, General Clark.
    General Hoar.
    General Hoar. Yes, sir. I think that the Secretary of State 
had it right when he described disarmament as the objective. 
However, unless I've misunderstood, I believe that the Vice 
President of the United States said regime change. So I think 
that there is disconnect.
    But I would say that in my experience, when I was on active 
duty and immediately thereafter, since the Gulf War, regime 
change has always been the objective. In my judgment, we were 
always prepared to move the goal posts if we had to. When some 
colleagues and I, working with the Israeli government, were 
looking for a way to bring Iraq into the multinational track on 
the peace process, we were given a wave-off by people in the 
government and told to stop.
    Senator Cleland. Do you have any idea why President Bush, 
in 1991, didn't pursue a regime change?
    General Hoar. I'd rather not speculate on that. I would say 
that adequate plans were not developed to make sure that it 
happened.
    General McInerney. Sir, I think the objectives are regime 
change and to liberate the people of Iraq and eliminate the 
weapons of mass destruction.
    Senator Cleland. Thank you all.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you.
    Senator Warner.
    Senator Warner. I say to my good friend from Georgia, if 
you would look at the 1991 resolution, it gives authorization 
to use United States Armed Forces pursuant to the United 
Nations Security Council resolution. That resolution wasn't 
explicit in the authority. That's why I do not want to see the 
resolution that's before Congress by the President today 
weakened.
    General Clark, you and I are good friends. We can always 
debate a little bit. When you said, ``I'd want as many votes as 
possible,'' with all due respect, sir, I don't want to see us 
reach the lowest common denominator and present a resolution 
that doesn't have all the teeth that are in this one. I'd 
rather have, again, a five-vote margin with a strong resolution 
that this Congress will fall in behind as we march forward to 
the U.N. under the McInerney doctrine. That was fairly clear.
    My question is as follows to each of you. I sit here and 
listen to this, ``Well, let's get the U.N. to have an intrusive 
inspection regime.'' I don't know what scrap of evidence is 
before us that Saddam Hussein is going to accept it, and, 
indeed, he made pronouncements to the contrary of recent. But 
then ``backed up by force.'' Question, specifically, what is 
the composition of that force? Who puts it together? Who leads 
it? Is NATO a candidate, General Clark?
    Second, when they start kicking down doors and finding the 
very evidence which confirms the indictment of the world 
against him, is Saddam Hussein going to sit there twiddling his 
thumbs, and the Republican Guards with their hand in their 
pocket while this force roams around and finds the hidden 
weapons of mass destruction?
    What's the composition of the force? What nations are 
represented? Who leads it?
    General Shalikashvili, would you lead off on this?
    General Shalikashvili. You put me in a tough spot, because 
I never advocated----
    Senator Warner. That's the second time today I've done it.
    General Shalikashvili. Yes. Because I never advocated that 
step that you are now addressing about being ``backed up by 
force.''
    Senator Warner. Well, it's talked about in all of the--
you've read about it a good deal.
    General Shalikashvili. My view is we need to have a strong 
resolution that permits unfettered inspections. If those 
inspections do not produce the results that we want, which most 
likely they will not, it has to authorize the use of force to 
achieve the aim, which, in my judgment, is the disarmament of 
Iraq.
    Senator Warner. General Clark.
    General Clark. The purpose of going through the inspections 
up front is to build legitimacy that way for what you want to 
do. The force that would enforce it is the same force that's 
going to go in there and disarm him and do worse. I would hope 
that NATO would be involved in that.
    But, we've been talking all afternoon about how to muster 
the diplomatic leverage to be able to get the job done with the 
greatest power and the greatest coalition and reduce the 
ancillary risks, and so I think that there is a step beyond 
simply sending Hans Blix back in there with a hundred 
inspectors to drive around that the United Nations could 
authorize up front that would give us greater coercive leverage 
against Saddam Hussein.
    The closer we get to the use of force, the greater the 
likelihood that we're going to see movement on the part of 
Iraq, even though it's a very small likelihood. The more we 
build up the inspections idea, the greater the legitimacy of 
the United States' effort in the eyes of the world. So unless 
there's information that we're not being presented that says we 
have to take this action right now to go in and disrupt Saddam 
Hussein--we can't wait a week, we can't wait four weeks, or 
whatever--then it seems to me that we should use the time 
available to build up our legitimacy. That's why I'm advocating 
intrusive inspections.
    Senator Warner. Thank you.
    General Hoar.
    General Hoar. Sir, I agree with my colleagues. I would just 
point out that your questions about who's going to lead this 
force and how big they are and what they're going to do, I 
think, has an obvious answer. When you think through that, with 
a country that may not have the greatest armed forces in the 
world, but they're certainly capable of dealing a difficult 
blow to a relatively small force, I think the purpose of the 
coalition, of going through the U.N., going through the steps, 
is that, at the end of the day, we will have a coalition that 
agrees that we have exhausted all possibilities and it's time 
to take action.
    Senator Warner. Nothing in my question suggested that we 
should do other than what we're doing now--the President has 
gone to the U.N., followed up by the Secretary of State trying 
to get it--but that there's this fabrication out there that 
we're going to go in there with a new type of inspection regime 
with teeth in it. Well, who are the teeth? I'm not sure that 
there's a clear distinction between the teeth that they would 
have to exercise and the follow-on, which could only take place 
after there's a failure of the inspections, when the member 
nations may use such force as they deem necessary to protect 
their security rights.
    General McInerney.
    General McInerney. Senator, I would like to do all those 
things that General Clark said. But the fact is, Saddam has 
already responded. Saddam has already sent us back a letter 
that he will not let us do anything that violates sovereignty. 
Well, kicking someone's door down going in violates 
sovereignty. Now we can go through that process.
    The point is, in the final analysis, he's not going to do 
it. Maybe I've gotten too pragmatic about it, but we've watched 
him for a long time, and the only thing he understands and will 
take action on is force. That, again, is why it's so important 
that this body come forward with a very strong resolution--and 
I agree with you, we're better to have a strong resolution with 
four votes on it, on a majority, rather than a weak resolution, 
because we send the wrong signal to the world.
    Senator Warner. I agree. Cooperation is the key to any 
inspection regime. I haven't seen a fragment of that 
cooperation yet.
    Chairman Levin. Thank you, Senator Warner.
    Senator Dayton.
    Senator Dayton. Thank you, Mr. Chairman.
    In June of this year, at West Point, the President 
articulated what some view as a new doctrine on the right to 
preemptive warfare. For some of you, this situation is perhaps 
the first instance of that. Some advocates would say that in 
the post-September 11 environment, that's an unavoidable 
military option, and others say it would be an unprecedented 
step with seismic consequences, in terms of future situations 
of this type in the future.
    Could you try to pierce the veil of the future and the 
world situation? Do you think of this as a specific instance 
that would not have a broader consequence? Or do you think that 
this would be an instance, if it's viewed as a preemptive 
attack, where it would be destabilizing in future 
confrontations?
    Any or all of you.
    General Shalikashvili. I think words matter. In this 
particular case, I think it is advantageous to build your case 
on the fact that Saddam Hussein has violated a series of United 
Nations resolutions and that he has particularly not allowed 
the inspection regime that would lead to a disarmament of Iraq. 
I say that because to take it the other way sets up a precedent 
that we might not wish to have out there on the street unless 
it's absolutely necessary. I'm not sure that, in this case, 
it's absolutely necessary to build our case on this.
    I clearly am concerned about this becoming a precedent-
setting event, and what do we then say to Pakistan or India, 
who feel threatened, one by the other, long in advance of that 
other country, in fact, having taken an action? There are other 
cases where this could come and so destabilize the system that 
we want to keep stable.
    I recognize that, in some cases, it might be unavoidable to 
use that as the cause for our actions. I think, so far, in our 
discussion in the United Nations and in this resolution before 
you, that kind of rationale has not been used, and I'm actually 
happy that that rationale has not been used in that kind of 
context.
    Senator Dayton. Mr. Chairman, my time has expired, but 
could the other three have a chance to respond, if time 
permits?
    Chairman Levin. Yes, take one quick minute, if you would.
    General Clark. I'd prefer to go after Saddam Hussein as 
we're proceeding with the facts at hand. I am concerned about 
enunciating a doctrine of preemption, especially the 
pronouncement that it replaces deterrence and what the 
implications will be for that. I think it's far better to work 
through on the English case-law basis for changes in law than 
by trying to make sweeping pronouncements like this.
    In fact, we're proceeding pretty well on the basis of what 
we had without calling this an instance of preemption. In all 
of the other discussions we've had within the government, over 
my experience--and there have been many of them where we've 
talked about preemption--we've talked in terms of going after 
specific facilities or specific capabilities. We've never 
talked about preemptively taking down a regime and changing a 
government, and I think that's a crucial distinction in this 
case.
    You also have the problem in preemption of what is the 
imminence of the threat. Here, as we've discussed this 
afternoon, it's indeterminate what the imminence of the threat 
is. The most conclusive argument is that you can't trust the 
intelligence anymore to give you any idea of what the imminence 
of the threat is. That leads to a series of steps that we don't 
want to pursue here in our country.
    So I'm comfortable with where we are moving on Iraq, but I 
don't see the need for bringing in this doctrine to it at this 
point.
    General Hoar. Sir, very briefly, I think that Iraq is not 
in compliance with U.N. Security Council resolutions, and that 
should be ample reason, if we need a reason, to go forward. I 
share with General Shalikashvili the concern of the message 
that this sends to other countries, particularly the example 
that he used between India and Pakistan, but there are others, 
as well.
    Thank you.
    General McInerney. Sir, I happen to believe in the 
preemption policy. I don't think it's required in this 
particular instance. I think deterrence, when you have 
terrorism--weapons of mass destruction have changed the 
calculus in terrorist states. They have changed the calculus. 
So the President must make those decisions at the appropriate 
time, not required in this, because there's 16 U.N. resolutions 
that he's violated. But almost daily he fires on our airplanes 
and coalition airplanes, which is an act of war. Anytime you 
fire on a nation's airplanes it's an act of war. So there is 
ample evidence for us to respond, and he continues to defy us 
because we continue to accept it.
    Senator Dayton. Thank you, Mr. Chairman.
    Chairman Levin. Let me thank each of our witnesses. Some of 
you have come some distance. Others have made time available in 
their schedule. In all cases, your schedules are heavy, for 
good reason, because of the experience that you bring to this 
issue and to a whole lot of other issues that you address.
    Saddam is clearly a problem and a threat to the region and 
to the world. I would just hope that the actions of this 
country would be focused on uniting the world to force 
compliance with disarmament in Iraq. Uniting the world, it 
seems to me, has great pluses, both in terms of more quickly 
achieving our goals militarily, should they be necessary, and 
also avoiding some of the risks which are incumbent if we're 
either proceeding unilaterally or being perceived as proceeding 
unilaterally.
    There may be some additional comments or questions that we 
would like from you for the record, in which case we will get 
to you within the next 48 hours.
    Again, our thanks to all of you, and we will stand 
adjourned.
    [Whereupon, at 5:42 p.m., the committee adjourned.]






                          U.S. POLICY ON IRAQ

                              ----------                              


                     WEDNESDAY, SEPTEMBER 25, 2002

                                       U.S. Senate,
                               Committee on Armed Services,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:44 a.m. in room 
SH-216, Hart Senate Office Building, Senator Carl Levin 
(chairman) presiding.
    Committee members present: Senators Levin, Kennedy, 
Lieberman, Cleland, Akaka, Bill Nelson, E. Benjamin Nelson, 
Warner, Inhofe, Allard, Hutchinson, Sessions, and Collins.
    Committee staff member present: David S. Lyles, staff 
director.
    Majority staff members present: Richard D. DeBobes, 
counsel; Evelyn N. Farkas, professional staff member; Richard 
W. Fieldhouse, professional staff member; Maren Leed, 
professional staff member; and Peter K. Levine, general 
counsel.
    Minority staff members present: Judith A. Ansley, 
Republican staff director; Charles W. Alsup, professional staff 
member; L. David Cherington, minority counsel; Edward H. Edens 
IV, professional staff member; Brian R. Green, professional 
staff member; Carolyn M. Hanna, professional staff member; 
Patricia L. Lewis, professional staff member; Thomas L. 
MacKenzie, professional staff member; Joseph T. Sixeas, 
professional staff member; and Scott W. Stucky, minority 
counsel.
    Staff assistants present: Leah C. Brewer, Daniel K. 
Goldsmith, and Andrew Kent.
    Committee members' assistants present: Brady King, 
assistant to Senator Kennedy; Marshall A. Hevron, assistant to 
Senator Landrieu; Elizabeth King, assistant to Senator Reed; 
Davelyn Noelani Kalipi and Richard Kessler, assistants to 
Senator Akaka; Peter A. Contostavlos and Eric Pierce, 
assistants to Senator Ben Nelson; William Todd Houchins, 
assistant to Senator Dayton; Benjamin L. Cassidy, assistant to 
Senator Warner; John A. Bonsell, assistant to Senator Inhofe; 
Robert Alan McCurry, assistant to Senator Roberts; Douglas 
Flanders, assistant to Senator Allard; James P. Dohoney, Jr., 
assistant to Senator Hutchinson; Arch Galloway II, assistant to 
Senator Sessions; Kristine Fauser, assistant to Senator 
Collins; and Derek Maurer, assistant to Senator Bunning.

       OPENING STATEMENT OF SENATOR CARL LEVIN, CHAIRMAN

    Chairman Levin. Good afternoon, everybody. Senator Warner 
is a few minutes away, but his staff says that he has no 
objection to our beginning.
    The Armed Services Committee meets this morning for the 
fourth of our series of hearings on U.S. policy toward Iraq. We 
welcome back to the committee Dr. James Schlesinger, former 
Secretary of Defense, Secretary of Energy, and Director of 
Central Intelligence; and Samuel Berger, former Assistant to 
the President for National Security Affairs.
    In their previous positions, our witnesses provided advice 
to the presidents that they served regarding the use of 
military force to further U.S. national security interests. 
They helped shape a national security strategy based on these 
interests and advised the presidents on its implementation. 
Over the years, Dr. Schlesinger and Mr. Berger have also 
provided advice to this committee on Iraq and on many other 
issues.
    Two days ago, three of the four former senior military 
commanders who testified before the committee offered a strong 
endorsement of the need for a multilateral approach to dealing 
with Iraq. They stressed that working with the U.N. to achieve 
a resolution regarding inspections and disarmament backed up by 
the threat of the use of force by member states to compel 
compliance would bring great political and military advantages.
    General John Shalikashvili, the former Chairman of the 
Joint Chiefs of Staff, told the committee that, ``a U.N. 
resolution authorizing the use of force would,'' in his words, 
``be a very powerful tool.'' He went on to say that, ``we need 
to impress upon Saddam Hussein that he's not just facing the 
United States, but that he's facing the will of the majority of 
the world. We must also ensure that we have made it possible 
for as many of our friends and allies to join us, some of whom 
believe very deeply that you should go to war only unless you 
are directly attacked or with the sanction of the United 
Nations.'' He added, ``every time we undermine the credibility 
of the United Nations we are probably hurting ourselves more 
than anybody else.''
    The general told us that, ``we must, under no 
circumstances, ever create the impression that the United 
States is not free to go to war, but that is very different 
than not trying to achieve the kind of resolution that, in this 
case, we want. It would make our job easier, it would help us 
in the future, and it would surely have an impact on how Saddam 
Hussein reacts to the current resolutions.''
    General Wesley Clark, former NATO Supreme Allied Commander, 
Europe, commented that the President had made the right move by 
going to the U.N., stating that, ``the President's strong 
statement provides leverage to build a new coalition for 
proceeding on a path of diplomacy backed by force. I think it's 
the appropriate path.'' Then he added, ``we need to be certain 
that we are really working through the United Nations in an 
effort to strengthen the institution in this process, and not 
simply `check a block.' '' He advocated taking the necessary 
time to build the strongest coalition possible to plan for a 
post-conflict Iraq, and then, if necessary, taking military 
actions with our allies and with the blessing of the United 
Nations.
    General Joseph Hoar, former Commander in Chief of the U.S. 
Central Command, testified that we should, ``take the time to 
do the tough diplomatic work to gain support in the Security 
Council for disarmament, and, failing disarmament, then 
military action.'' General Hoar cautioned us to get the timing 
and the means of going to war right, to consider the military 
risks, and to plan for what comes next in Iraq after war.
    I, too, believe that we should focus on mobilizing the 
world community to give Saddam Hussein a clear ultimatum to 
disarm and comply with U.N. Security Council resolutions or 
face military action by a multinational U.N.-authorized 
coalition of member states to compel compliance.
    I also believe that we should not announce to the world at 
this time that we will follow a unilateral go-it-alone policy 
if the U.N. does not act. Telling friends and potential allies 
at the time that we're seeking their support, but that it's 
``our way or the highway,'' will divide the world, not unite 
it. This doesn't mean giving the U.N. a veto over our actions. 
No one I know of is willing to do that. But what the 
multilateral approach does is keep the pressure on the U.N. to 
act and not let them off the hook by signaling that we want to 
be the world's police force.
    We look to our witnesses today to share with us their views 
on the administration's policy and to offer their advice on 
what would be the best possible strategy for dealing with the 
threat posed by Iraq.
    Senator Warner, I know, is going to be here at any minute. 
I think what I'll do, however, is call on the witnesses at this 
point because we're going to have some votes in 45 minutes. 
Then when Senator Warner comes, I would offer him the 
opportunity of making his opening statement at some point where 
it's not disruptive of the witnesses' presentation.
    After the opening remarks by our witnesses and by Senator 
Warner, we would then have a 6-minute round of questions 
following the normal early bird procedure.
    Mr. Berger.

  STATEMENT OF HON. SAMUEL R. BERGER, FORMER ASSISTANT TO THE 
            PRESIDENT FOR NATIONAL SECURITY AFFAIRS

    Mr. Berger. Mr. Chairman, members of the committee, I 
welcome this opportunity to discuss with you the critical 
issues of Iraq faced by the United States and the international 
community. I believe the Iraqi regime does pose a serious 
potential threat to the stability of a combustible and vital 
region of the world, and, therefore, to the United States. 
Doing nothing, in my judgement, is not an acceptable option. 
The challenge is to do the right thing in the right way, 
enhancing, not undermining, the stability of the region and the 
overall security of the United States.
    It is important for us to be as sharply focused as we can 
in an uncertain world about the nature of the threat. We have 
focused a great deal on Saddam Hussein's capabilities, and 
properly so, but capability is not the same as threat. That 
also involves questions of intention and urgency. It is not 
just the ``what,'' but also the ``why'' and the ``when.'' 
Threat is only half the equation for war. It must be balanced 
against the ``how,'' the cost and risks of proceeding.
    First, a few words about the ``what'' and the ``why.'' We 
know Saddam Hussein possesses chemical weapons. He has for 
nearly 20 years, as we know only so well from his use of them 
against his own people and the Iranians. He has deadly 
stockpiles of biological weapons. The possibility that Saddam 
Hussein will use his biological and chemical weapons to attack 
us directly or in concert with terrorists cannot be dismissed. 
We must continually evaluate it in light of available 
intelligence. However, it would be uncharacteristic for a man 
who has placed the highest premium on self-preservation. There 
would be a significant chance of detection followed, quite 
simply, by his annihilation. It is certainly possible, but 
perhaps no more so than the possibility that he will use these 
weapons against our troops or our allies if we attack him.
    It is his nuclear weapons capability that concerns me the 
most. I believe Saddam Hussein's strategic objective was and 
remains to assert dominance over the Gulf region. We stopped 
him in 1991. Amazingly, he tested our will again in 1994, 
moving troops in that direction. We deployed 30,000 U.S. forces 
to the region, and he pulled back. This region is critical for 
the United States and the world strategically and economically. 
I believe that a nuclear Iraq can change its fundamental 
dynamic, affecting how others behave toward us and toward 
allies such as Israel and emboldening Saddam Hussein to 
believe, rightly or wrongly, that he can attack his neighbors 
and, because of his nuclear capability, we will hesitate.
    Hussein maintains an active and aggressive nuclear weapons 
program. Most analysts believe that for him to develop his own 
capacity to produce fissile material, nuclear fuel, it will 
require several years. Acquiring that nuclear fuel abroad could 
enable him to produce a nuclear weapon in 1 or 2 years, 
according to Prime Minister Blair's statement on Monday.
    He has been seeking such material for many years. So far as 
we know, there has not yet been any case where significant 
quantities of weapons-grade fissile material have been 
diverted. Experts such as the highly respected International 
Institute for Strategic Studies have concluded that obtaining 
this material remains a formidable challenge--not impossible, 
but unlikely.
    I emphasize this point not to suggest that the Iraqi 
nuclear weapons program is not unacceptably dangerous to the 
United States--indeed, I believe it is--but the trajectory of 
his nuclear program affects the ``when'' of the threat 
equation, whether we have time to proceed in a way that 
isolates Saddam, builds a broader international coalition, and 
minimizes, to the extent possible, the risks.
    We most likely have the military power to do this virtually 
alone, but shifting the world's focus back to Saddam's 
intransigence will give us not only the power to act, but far 
greater legitimacy if we do so. The extent to which the 
legitimacy of our actions is recognized and accepted 
internationally, that we act collectively and not largely 
alone, is not an abstraction. It greatly reduces the risks of 
any future military action. Those risks are just as real and 
serious as the threat. They include inflaming an already 
volatile region in a way that undermines governments such as 
Jordan or Musharraf in Pakistan, and, worst case, leaves us 
with a radical regime in Pakistan with a ready-made nuclear 
arsenal. This increases the likelihood that a conflict breaks 
along a dangerous Israeli-Arab fault line, diverting us from 
the war against a terrorist threat that remains real and 
virulent at a time when cooperation--military, intelligence, 
and political--is essential, and undercutting burden-sharing in 
what will certainly be a long, arduous task of maintaining 
stability in Iraq and rebuilding after Saddam Hussein, 
something that will not be easy or inexpensive.
    That brings me to the essential question of how to go 
forward. How should we proceed in a way that maximizes our 
position?
    First, I believe we should press forward, as Secretary 
Powell is doing, for a United Nations Security Council 
resolution that makes clear that the world, not just the United 
States and Great Britain, expects compliance by Iraq with its 
disarmament obligations within a fixed time period. It should 
make clear that disarmament is Iraq's responsibility, not the 
inspectors', requiring affirmative cooperation. Any resolution 
should spell out what ``unfettered'' means--any site, any time, 
without notice. It should clear away the cobwebs that 
encumbered the United Nations Special Commission (UNSCOM), 
vague notions about Iraqi sovereignty or special sites that 
provide the Iraqi Government with a pretext for interference.
    Yes, there are a string of broken resolutions, but we are 
in an entirely new circumstance here contemplating a military 
invasion of Iraq, and the world expects us to test the 
nonmilitary option before we move to the military one. We also 
owe that to the men and women who will be risking their lives 
if we decide to do so.
    Unfettered inspections, Mr. Chairman, may not be the path 
to disarmament, but a serious effort to secure them is the path 
to isolating Saddam and gaining broader international support 
for what may be necessary if we fail, and we'd best obtain that 
legitimacy up front, because if military action is undertaken, 
we will be in Iraq for a long time.
    Second, with such a resolution, I would urge the United 
Nations Monitoring, Verification, and Inspection Commission 
(UNMOVIC), the new U.N. inspection organization, to move 
expeditiously to test Saddam Hussein's intentions with hard 
sites, not easy ones. What is at question is not whether U.N. 
inspectors can find the needles in a haystack, but whether, 
faced with the current situation, the Iraqi Government will 
cooperate or obstruct.
    Third, I hope that, as was done after September 11, the 
draft congressional resolution submitted by the administration 
can be sharpened and adopted in a bipartisan fashion.
    Finally, Mr. Chairman, we reserve the right to act 
primarily by ourselves if we have to, but I don't think we are 
at that point today, and doing so substantially increases the 
risks that we will wind up with a regime that is less stable--
with a region that is less stable rather than more peaceful and 
democratic. We can proceed in a strategic, methodical manner to 
put Saddam Hussein in a corner, not us.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Berger follows:]
              Prepared Statement by Hon. Samuel R. Berger
    Mr. Chairman, members of the committee: I welcome this opportunity 
to discuss with you the critical issues of Iraq faced by the United 
States and the international community.
    I believe the Iraqi regime does pose a serious potential threat to 
stability in a combustible and vital region of the world and, 
therefore, to the United States. Doing nothing, in my judgment, is not 
an acceptable option. The challenge is to do the right thing, in the 
right way, enhancing not undermining the stability of the region and 
the overall security of the United States.
    It is important for us to be as sharply focused as we can in an 
uncertain world about the nature of the threat. We have focused a great 
deal on Saddam Hussein's capabilities, and properly so. But capability 
is not the same thing as threat, which also involves questions of 
intention and urgency. It is not just the ``what,'' but also the 
``why'' and the ``when.'' Threat is only half the equation for war. It 
must be balanced against the ``how''--the costs and risks--of 
proceeding.
    First, a few words about the ``what'' and the ``why.'' We know 
Saddam Hussein possesses chemical weapons--he has for nearly 20 years 
as we know only so well from his use of them against his own people and 
the Iranians. He has deadly stockpile of biological weapons.
    The possibility that Saddam Hussein will use his biological and 
chemical weapons to attack us, directly or in concert with terrorists, 
cannot be dismissed. We must continually evaluate it in light of 
available intelligence. But it would be uncharacteristic for a man who 
has placed the highest premium on self-preservation. There would be a 
significant chance of detection, followed--quite simply--by his 
annihilation. It is certainly possible, but no more so than the 
possibility he will use these weapons against our troops or our allies 
if we attack him.
    It is his nuclear weapons capability that concerns me the most. I 
believe Saddam Hussein's strategic objective was, and remains, to 
assert dominance over the Gulf region. We stopped him in 1991. 
Amazingly, he tested our will again in 1994, moving troops in that 
direction; we deployed 30,000 U.S. forces to the region, and he pulled 
back.
    This region is critical for the U.S. and the world--strategically 
and economically. I believe that a nuclear Iraq can change its 
fundamental dynamic, affecting how others behave--toward us and toward 
allies such as Israel--and emboldening Saddam Hussein to believe, 
rightly or wrongly, that he can attack his neighbors and, because of 
his nuclear capability, we will hesitate.
    Hussein maintains an active and aggressive nuclear weapons program. 
Most analysts believe that for him to develop his own capacity to 
produce fissile material--nuclear fuel--will require several years. 
Acquiring that nuclear fuel abroad--the ``wild card''--could enable him 
to produce a nuclear weapon in 1 or 2 years, according to Prime 
Minister Blair.
    He has been seeking such material for many years. So far as we 
know, there has not yet been any case where significant quantities of 
weapons-grade fissile material has been diverted. Experts such as the 
highly respected International Institute for Strategic Studies have 
concluded that obtaining this material remains a ``formidable'' 
challenge--not impossible but ``unlikely.''
    I emphasize this point not to suggest that the Iraqi nuclear 
weapons program is not ``strategically unacceptably dangerous'' to us; 
indeed, I believe it is. But the trajectory of his nuclear program 
affects the ``when'' of the threat equation: whether we have time to 
proceed in a way that isolates Saddam, builds a broader international 
coalition and minimizes, to the extent possible, the risks.
    We most likely have the military power to do this virtually alone. 
But shifting the world's focus back to Saddam's intransigence will give 
us not only the power to act but far greater legitimacy if we do so.
    The extent to which the legitimacy of our actions is recognized and 
accepted internationally--that we can act collectively and not largely 
alone--is not an abstraction. It greatly reduces the risks of any 
future military action.
    Those risks are just as real and serious as the threat. They 
include:

        <bullet> Inflaming an already volatile region in a way that 
        undermines governments such as Jordan or Musharraf in Pakistan 
        and--worst case--leave us with a radical regime in Pakistan 
        with a ready-made nuclear arsenal.
        <bullet> Increasing the likelihood that a conflict breaks along 
        a dangerous Israeli-Arab fault line.
        <bullet> Diverting us from the war against a terrorist threat 
        that remains real and virulent, at a time when cooperation--
        military, intelligence, and political--is essential.
        <bullet> Undercutting burden-sharing in what will certainly be 
        a long, arduous task of maintaining stability in Iraq and 
        rebuilding after Saddam Hussein--something that will not be 
        easy or inexpensive.

    This brings me to the essential question: the ``how'' of going 
forward.
    How should we proceed in a way that maximizes our position?
    First, I believe we should press forward, as Secretary Powell is 
doing, for a U.N. Security Council (UNSC) resolution that makes clear 
that the world--not just the U.S. and Britain--expects compliance by 
Iraq with its disarmament obligations within a fixed time period. It 
should make clear that disarmament is Iraq's responsibility, not the 
inspectors--requiring affirmative cooperation. Any resolution should 
spell out what ``unfettered'' means--any site, any time without notice. 
It should clear away the cobwebs that encumbered UNSCOM--vague notions 
about Iraqi sovereignty or special sites that provide the Iraqi 
government with a pretext for interference.
    Yes, there are a string of broken resolutions. But we are in an 
entirely new circumstance--contemplating a military invasion of Iraq--
and the world expects us to test the non-military option before we move 
to a military one. We also owe that to the men and women who will be 
risking their lives if we decide to do so.
    Unfettered inspections may not be the path to disarmament. But a 
serious effort to secure them is the path to isolating Saddam and 
gaining broader international support for what may be necessary if they 
fail. We better obtain that legitimacy up front, because if military 
action is undertaken, we will be in Iraq for a long time.
    Second, with such a resolution, I would urge UNMOVIC to move 
expeditiously to test Saddam Hussein's intentions, with hard sites not 
easy ones. What is in question is not whether UN inspectors can find 
the needles in the haystack, but whether--faced with the current 
situation--the Iraqi government will cooperate or obstruct.
    Third, I hope that, as was done after September 11, the draft 
congressional resolution submitted by the administration can be 
sharpened and adopted in a bipartisan fashion.
    Finally, Mr. Chairman, we reserve the right to act primarily by 
ourselves if we have to. But I don't think we are at that point today 
and doing so substantially increases the risks that we will wind up 
with a region that is less stable, rather than more peaceful and 
democratic. We can proceed in a strategic, methodical manner to put 
Saddam Hussein in a corner, not us.

    Chairman Levin. Thank you, Mr. Berger.
    Dr. Schlesinger, welcome.

  STATEMENT OF DR. JAMES R. SCHLESINGER, FORMER SECRETARY OF 
     DEFENSE, SECRETARY OF ENERGY, AND DIRECTOR OF CENTRAL 
                          INTELLIGENCE

    Dr. Schlesinger. Thank you, Mr. Chairman.
    Mr. Chairman, members of the committee, I thank the 
committee for its invitation to appear before you today to 
discuss the question of United States policy toward Iraq.
    Mr. Chairman, as the President has stated, this is a test 
of whether the United Nations, in the face of perennial 
defiance by Saddam Hussein of its resolutions and, indeed, of 
his own promises will, like the League of Nations over half a 
century ago, turn out to be simply another institution given to 
talk.
    For more than 11 years since the end of the Gulf War, the 
record is replete with U.N. resolutions condemning Iraq for 
``serious violations,'' ``continued violations,'' and 
``flagrant violations.'' For that entire period, Saddam Hussein 
has regularly and successfully played the game of defiance.
    In 1998, Congress passed the Iraq Liberation Act approving 
the use of force to bring Saddam Hussein into compliance. 
Shortly thereafter, the Secretary General reached agreement 
with Saddam Hussein in a memorandum of understanding that 
promised, ``immediate, unconditional, and unrestricted 
access.'' Failure to do so would result in, ``the severest 
consequences.'' Some months later, Saddam Hussein excluded 
American inspectors and, by October, had ceased cooperation 
with U.N. inspectors entirely.
    In September 2002, recognizing the growing pressure 
stemming from the United States, Saddam Hussein has once again 
informed the United Nations that he is willing to ``allow 
unconditional return of the inspectors.'' His intention, quite 
obviously, is, again, to repeat that all-too-familiar cycle. I 
think it is clear, Mr. Chairman, in light of our previous 
experience, that we should observe that old adage, ``once 
burned, twice shy.''
    Will the United Nations prove as feckless as the League of 
Nations? Mr. Chairman, in 1935, Mussolini invaded Abyssinia. 
The League of Nations took note of this challenge to the 
international order. Day after day, week after week, the League 
deliberated what to do. The sessions went on endlessly. After 
each session, there was a press conference. After some weeks, 
one of the reporters present summarized the situation as 
follows: ``On the surface, very little is happening. But 
beneath the surface, nothing is happening.'' [Laughter.]
    Today, the United Nations faces a test of whether or not it 
can act more effectively than did the League. The League failed 
because its key members wanted it to fail. Endless talk at the 
League was safe, while action under the League's auspices might 
have been dangerous.
    There are some members of the U.N. who have the same idea 
today, that talk is safer than action. If there is to be a 
difference, it will arise from a conviction in the United 
Nations that the U.S. President and Congress are determined 
that action will take place, either action by Saddam Hussein to 
disarm or action under U.N. auspices to disarm him or, if 
necessary, action outside the U.N. framework.
    Mr. Chairman, discussion of this need for action has been 
muddied up by the issue of preemption. To be sure, the 
President at West Point used the word ``preemption'' in 
connection with the longer term design of U.S. policy. Other 
officials have from time to time used the phrase in connection 
with Iraq.
    Nonetheless, whatever the merits or the demerits of a 
policy of preemption in the longer run, it has little to do 
with Iraq. Preemption implies a surprise attack or preventive 
war. Surely in the speculations about Iraq, the word 
``surprise'' cannot be employed when one continuously reads 
about our supposed war plans in the daily newspapers. In the 
case of Iraq, preemption is limited to the obvious and rather 
circumscribed meaning that if we are to deal with Iraq, we 
should do so before Saddam Hussein acquires nuclear weapons in 
number.
    Iraq is a special case. We have been engaged in an ongoing 
conflict with Iraq since 1990. Vigorous action in the course of 
an ongoing conflict hardly constitutes preventive war. At this 
time, U.S. and British aircraft are overflying the northern no-
fly zone and the southern no-fly zone. They are overflying some 
60 percent of the country. Iraq has been firing anti-aircraft 
artillery and surface-to-air missiles at our aircraft. Our 
aircraft have attacked Iraqi air defenses and other targets. 
Indeed, in recent months, Saddam's air defenses have shot down 
three of our Predator aircraft. Moreover, the United States has 
established a virtual protectorate for the Kurds who live in 
Northern Iraq. Surely we can acknowledge that in these 
conditions of ongoing and continued conflict, the word 
``preemption'' does not really apply. Iraq, whatever the merits 
or demerits of preemption for long-run policy, remains a 
special case.
    In an ongoing conflict, the issue of preemption appears to 
be close to meaningless. Indeed, historically we have regarded 
preemption as permissible, even in the far more difficult case 
of the formerly neutral. In July 1940, less than a month after 
the fall of France, Winston Churchill had the British fleet 
attack the French, Britain's recent ally, at the naval base of 
Mers-el-Kebir, killing 1,300 French sailors and sinking a 
number of ships. Others escaped to British harbors, to join the 
Free French, or to Toulon. More significantly, in November 
1942, American troops landed in and occupied French North 
Africa, then under the control of Vichy France. To be sure, 
after our troops had entered French North Africa, we did 
receive an invitation to come in. Thus, as the record suggests, 
in time of war, restrictions on preemption are loosened.
    I have gone into this issue at some length, Mr. Chairman, 
for I fear that it has generated more heat than light, and 
needlessly so. We must not allow conceptual disputes to obscure 
the underlying reality. The United States has been for a decade 
and is now deeply engaged in the conflict with Iraq. We should 
like the support of other nations as we approach the decisive 
moment. Strong backing of the President by Congress will elicit 
stronger support from other nations at the U.N.
    Thank you, Mr. Chairman. I shall be happy to answer any 
questions that you or other members of the committee may have.
    [The prepared statement of Dr. Schlesinger follows:]
             Prepared Statement by Dr. James R. Schlesinger
    Mr. Chairman, members of the committee:
    I thank the committee for its invitation to appear before you today 
to discuss the question of United States policy towards Iraq. The issue 
before you is more than a test of the United Nations, it is equally a 
test of the unity and resolve of the American government. The greater 
the degree to which the President and Congress are united in purpose 
with respect to Iraq, the greater is the likelihood that the United 
Nations will take a firm and appropriate stand towards Iraq.
    Mr. Chairman, as the President has stated, this is a test of 
whether the United Nations--in the face of perennial defiance by Saddam 
Hussein of its resolutions and, indeed, of his own promises--will, like 
the League of Nations over half a century ago, turn out to be simply 
another institution given only to talk. For more than 11 years, since 
the end of the Gulf War, the record is replete with U.N. resolutions 
condemning Iraq for ``serious violations,'' ``continued violations,'' 
and ``flagrant violations.'' For that entire period, Saddam Hussein has 
regularly and successfully played that game of defiance. In 1998, 
Congress adopted a strong resolution approving the use of force to 
bring Saddam Hussein into compliance. Shortly thereafter, the Secretary 
General reached agreement with Saddam Hussein in a Memorandum of 
Understanding that promised ``immediate, unconditional, and 
unrestricted access.'' Failure to do so would result in ``severest 
consequences.'' Some months later, Saddam Hussein excluded American 
inspectors, and by October had ceased cooperation with U.N. inspectors 
entirely.
    In September of 2002, recognizing the growing pressure stemming 
from the United States, Saddam Hussein has once again informed the 
United Nations that he is willing to ``allow unconditional return'' of 
the inspectors. His intention, quite obviously, is again to repeat that 
all too familiar cycle. I think it is clear, Mr. Chairman, in light of 
our previous experience that we should observe that old adage, ``once 
burned, twice shy!''
    Will the United Nations prove as feckless as the League of Nations? 
Mr. Chairman, in 1935, Mussolini invaded Abyssinia. The League of 
Nations took note of this challenge to the international order. Day 
after day, week after week, the League deliberated what to do. These 
sessions went on endlessly. After each session, there was a press 
conference. After some weeks, one of the reporters present summarized 
the situation as follows: `` On the surface, very little is happening--
but beneath the surface, nothing is happening.''
    Today the United Nations faces a test whether or not it can act 
more effectively than did the League. The League failed because its key 
members wanted it to fail--endless talk at the League was safe, while 
action under the League's auspices might have been dangerous. There are 
some members of the U.N. who have the same idea today, that talk is 
safer than action. If there is to be a difference, it will arise from a 
conviction that the U.S. President--and Congress--are determined that 
action will take place: either action by Saddam Hussein to disarm, or 
action under U.N. auspices to disarm him, or, if necessary, action 
outside the U.N. framework.
    Mr. Chairman, discussion of this need for action has been muddied 
up by the issue of ``pre-emption.'' To be sure, the President at West 
Point used the word, pre-emption, in connection with the longer-term 
design of U.S. policy. Other officials have, from time to time, used 
the phrase in connection with Iraq. Nonetheless, whatever the merits or 
the demerits of a policy of pre-emption in the longer run, it has 
little to do with Iraq. Pre-emption implies a surprise attack or 
preventive war. Surely in the speculations about Iraq, the word 
surprise cannot be employed when one continuously reads about our 
supposed war plans in the daily newspapers. In the case of Iraq, pre-
emption is limited to the obvious, and rather circumscribed, meaning 
that, if we are to deal with Iraq, we should do so before Saddam 
Hussein acquires nuclear weapons in number.
    Iraq is a special case. We have been engaged in an on-going 
conflict with Iraq since 1990. Vigorous action in the course of an on-
going conflict hardly constitutes preventive war. At this time, U.S. 
(and British) aircraft are overflying the Northern No-fly zone, and the 
Southern No-fly zone. They are overflying some 60 percent of the 
country. Iraq has been firing anti-aircraft artillery and surface-to-
air missiles at our aircraft. Our aircraft have attacked Iraqi air 
defense and other targets. Indeed in recent months, Saddam's air 
defense forces have shot down three of our Predator aircraft. Moreover, 
the United States has established a virtual protectorate for the Kurds 
who live in Northern Iraq. Surely we can acknowledge that in these 
conditions of on-going and continued conflict, the word pre-emption 
does not really apply. Iraq, whatever the merits or demerits of pre-
emption for long-run policy, remains a special case.
    In an on-going conflict, the issue of pre-emption appears close to 
meaningless. Indeed, historically, we have regarded pre-emption as 
permissible even in the far more difficult case of the formally 
neutral. In July 1940, less than a month after the fall of France, 
Winston Churchill had the British Fleet attack the French (Britain's 
former ally) at the Naval Base of Mers-el-Kebir, killing 1,300 French 
sailors and sinking a number of ships. Others escaped to British 
harbors (to join the ``Free French'') or to Toulon. More significantly, 
in November 1942, American troops landed in and occupied French North 
Africa, then under the control of Vichy France. To be sure, after our 
troops had entered French North Africa, we did receive an invitation to 
come in. Thus, the record suggests that in time of war restrictions on 
pre-emption are loosened.
    I have gone into this issue at some length, Mr. Chairman. For I 
fear that it has generated more heat than light--and needlessly so. We 
must not allow conceptual disputes to obscure the underlying reality. 
The United States has been for a decade, and is now, deeply engaged in 
a conflict with Iraq. We should like the support of other nations, as 
we approach the decisive moment. Strong backing of the President by 
Congress will likely elicit stronger support from other nations in the 
U.N.
    Thank you, Mr. Chairman. I am happy to answer any questions that 
you or other members of the committee may have.

    Chairman Levin. Thank you, Dr. Schlesinger.
    Senator Warner, do you have an opening statement?
    Senator Warner. I will withhold and submit my statement for 
the record.
    [The prepared statement of Senator Warner follows:]
               Prepared Statement by Senator John Warner
                          u.s. policy on iraq
    Thank you, Mr. Chairman. I join you in welcoming these two 
distinguished public servants before our committee. Both of these 
gentlemen have served our Nation with great distinction, and continue 
to do so. I especially want to welcome Dr. Jim Schlesinger back before 
the committee. In addition to having served as a cabinet-level officer 
in three different administrations, Dr. Schlesinger has been one of our 
Nation's most productive citizens, as a professor, an economist, a 
leader, and a gifted strategic thinker. I am fortunate to be able to 
count him as a personal mentor and close friend.
    We, as a Nation, are fortunate that these two gentlemen are 
contributing to this important Iraq debate.
    Over the past several weeks, our President has courageously focused 
world attention on the defiant, illegal conduct of the brutal, ruthless 
dictator Saddam Hussein. In 1991, after his defeat in the Gulf War, 
Saddam Hussein accepted--in writing--U.N. terms for the suspension of 
military operations and committed to comply with all relevant U.N. 
Security Council Resolutions, including disarming Iraq of weapons of 
mass destruction and submitting to intrusive inspections to verify this 
disarmament. Eleven and a half years later, we are still waiting for 
Saddam Hussein to comply with international mandates, as reflected in 
16 United Nations Security Council Resolutions. The clear message 
Saddam Hussein has communicated to the world for the past 11 years is 
that he cannot be trusted, under any circumstances.
    Our President is, rightfully, seeking a strong statement of 
American and international resolve that clearly conveys to Saddam 
Hussein that he has to comply with U.N. Security Council Resolutions 
and disarm himself of weapons of mass destruction now, or accept the 
consequences of his actions. Clearly, a resolution from Congress 
authorizing the use of force and a resolution from the United Nations 
describing the consequences if he fails to comply will strengthen the 
hand of the diplomats who are trying to resolve this matter without 
force. Resorting to the use of force should be the last step, but it is 
a step we must be willing to take--collectively with the support of the 
United Nations, but alone, if necessary. It is also a step those who 
threaten us and those who continually defy international will must 
clearly understand that we are willing to take, and are authorized to 
take, quickly and decisively, if necessary.
    President Bush has asked Congress for a very strong resolution 
authorizing the use of force. I support the President on this 
resolution. We will have a debate in the Senate on this resolution and 
while we may make minor adjustments to the precise language proposed by 
the President, it is imperative that the final product clearly shows 
that the President, Congress, and the American people are united and 
willing to do whatever is necessary to end this longstanding and 
growing threat to our national security, as well as regional and 
international security.
    The threat posed to the United States, the region, and the entire 
world by Saddam Hussein is clear. The Prime Minister of Great Britain, 
Tony Blair, laid out a compelling case before the House of Commons 
yesterday: we know Saddam Hussein has weapons of mass destruction; we 
know he has used these weapons before; and, we know he will use them 
again, and can do so on as little as 45 minutes notice.
    President Bush called these revelations ``frightening.'' We cannot 
wait for a future attack before we respond to this frightening and 
growing danger. Saddam Hussein must be stopped--by military force, if 
necessary.
    Many have reacted as if this is a new crisis with Iraq. It is not a 
new crisis. It is the continuation of a crisis that Saddam Hussein 
initiated when he invaded Kuwait in 1990 and attempted to snuff out the 
existence of an entire nation. This crisis has ebbed and flowed, most 
recently in 1998 when Saddam Hussein expelled U.N. weapons inspectors. 
We in Congress all agreed at that time that we must act to end this 
menace to world peace. We did not solve the problem in 1998, however, 
and now we must confront it again. Saddam Hussein has had 4 more years 
to accumulate more of these terrible weapons. It is time to act--
forcefully--to end this crisis, once and for all.
    Again, thank you for your participation in this process as we 
prepare for deliberations in the Senate.

    Chairman Levin. We'll go right to questions, and we'll 
follow the procedure that I outlined before.
    Let me ask both of you a question about the type of U.N. 
resolution that would be the most constructive. Mr. Berger, can 
you tell us how you feel the U.N. can act in a way which would 
be the most effective, have the greatest chance of forcing 
Saddam's compliance or capitulation without war, that would 
then use the possibility of force if he does not comply? Could 
you outline for us what that resolution would contain?
    Mr. Berger. Mr. Chairman, I think that we should seek a 
resolution which--as I say, in the current context, in the 
context of the contemplation of military invasion of Iraq, 
which is not the historical context--strongly reaffirms the 
commitment of the international community, not just the United 
States or the British, that Saddam Hussein should be in 
compliance, particularly with his obligations for weapons of 
mass destruction, number one.
    Number two, it should impose upon him or reaffirm that this 
is his affirmative obligation. It's not the obligation of 
inspectors to find; this is the obligation of Saddam Hussein to 
affirmatively comply.
    Number three, in my judgment, it should spell out, to the 
extent possible, what ``unfettered access'' means so there's no 
question that some of the cobwebs that developed around UNSCOM 
during the late 1990s, of concerns about Iraqi sovereignty and 
other pretexts for obstruction were not what the United Nations 
had in mind.
    Now, it would be good if, in addition to that, the 
resolution authorized all necessary means, the magical language 
that explicitly authorizes military action. I don't think that 
is necessary. I don't think that's essential. In 1998, we acted 
pursuant to a Security Council resolution that talked about 
severest consequences. I think it's the act of the 
international community affirming in this context the 
obligation to comply and the rights of the inspectors that, I 
think, is what gives us the capability to build broader support 
if there's noncompliance and to act with legitimacy in that 
event.
    Chairman Levin. Do you believe that, at this time, we 
should notify the United Nations and the world that if the 
United Nations does not act in the way that you've outlined, 
that we would either keep the option open to act alone or, as 
an alternative, notify them that we will act on our own if they 
do not act, whether they authorize action and get the world to 
pull together behind their action or not, or some other 
approach? In other words, do we say at this time, ``Hey, we're 
not going to give you a veto, but we're going to keep that 
option open, on the one hand, to go it alone,'' or do we notify 
them and decide right now that, ``Hey, if you don't act, we're 
going to do it,'' or some other formulation?
    Mr. Berger. I think that the United States always reserves 
the option to act alone under extreme circumstances, and I 
don't think that we can forego that option. I don't think that 
it is particularly--and certainly that option lingers in the 
wind, it's out there, but I don't think we necessarily help 
ourselves at this stage by indicating that we're going to go 
alone.
    I think we ought to put the responsibility here where Dr. 
Schlesinger has put it, on the Security Council, in the first 
instance. I think there probably are members of the Security 
Council who would like to see our nose bloodied by acting 
largely alone and let them pick up the pieces. So let's leave 
the burden there.
    In the event that the Security Council doesn't act, I think 
we have the time then to try to still build an international 
coalition and act, to the greatest extent possible, 
collectively.
    Chairman Levin. Dr. Schlesinger, in your November 2001 
National Interest article, you assert that, ``the bases in 
Saudi Arabia are almost a necessity for successful action 
against Saddam Hussein.'' The foreign minister of Saudi Arabia 
recently stated that all members of the U.N. are bound by 
Security Council resolutions, suggesting that if there is a 
resolution, we would have access to the bases, but that without 
a U.N. resolution, we could not count on, and indeed, he 
suggested we could assume that there would not be--assistance 
from Saudi Arabia and the use of our bases.
    Is that your position still? Is there any change in that in 
the last year or so, that bases in Saudi Arabia are almost a 
necessity for successful action against Saddam Hussein?
    Dr. Schlesinger. The conditions in the field have changed 
somewhat, Mr. Chairman. As this committee is keenly aware, we 
have built base structure elsewhere. It would be desirable for 
us to be able to use Saudi bases, but it is no longer 
essential. From other areas in the region, we could go into 
Iraq.
    Chairman Levin. Thank you. My time's expired.
    Senator Warner.
    Senator Warner. Thank you, Mr. Chairman. I welcome both of 
our distinguished witnesses. We've had the pleasure, you and I, 
of many years of association with these fine Americans who 
continue their public service. Thank you.
    First, to Mr. Berger. I look back on the Clinton 
administration, and we worked together very closely. I remember 
so well when Tony Blair was elected Prime Minister, the 
President had him to Washington. I was privileged to be 
involved in one of the first meetings that the President had 
with the Prime Minister. My recollection is you had a close 
working relationship with him. Am I correct on that?
    Mr. Berger. Yes, absolutely.
    Senator Warner. Yes. But I pick up this morning your 
statement, ``nuclear weapons potential''--and we all recognize 
it's a potential--``concerns me the most.'' Yet the Prime 
Minister has reported in today's paper--says as follows, ``Iraq 
could deploy nerve gas and anthrax weapons within 45 minutes of 
an order from President Saddam Hussein or his son.'' Do I see a 
difference in priorities between you and the Prime Minister?
    Mr. Berger. No, I think what Prime Minister Blair is 
describing there is Saddam's capabilities. I have no reason to 
question that he's right. He also, I think, shares my view that 
Iraq is a potential threat to the stability of the region and 
the United States. But I don't think that necessarily goes to 
what the probability is that he would launch a preemptive 
attack. I think that is--with biological weapons--always a 
possibility. It's something I think we have to continually 
reevaluate. But I think it is also a distinct possibility that 
he would launch a biological attack in response to our military 
operation as well.
    Senator Warner. Speaking for myself, having gone through a 
series of briefings with my colleagues here, I'm gravely 
concerned about his significantly enhanced inventory of weapons 
of mass destruction in the two categories of biological and 
chemical. Let's just dwell on the biological.
    There's open testimony to the effect that Saddam has this 
enhanced capability. It is mobile. To me, that indicates that 
he could put small quantities in the hands of third parties in 
the terrorist regime. Yesterday, the Secretary of Defense, in 
open testimony, linked Iraq with al Qaeda. That could work its 
way to the shores of the United States. Those small quantities 
of biological weapons could be released in 45 minutes, or some 
figuratively similar period. That's my main concern.
    It seems to me our President has no alternative, as Prime 
Minister Blair indicates, to initiate preemptive actions, if 
that is necessary, to stop that transit. I mean, we're still 
struggling here in this country to know who put anthrax in the 
Senate. If this is put into the hands of the terrorist 
organization worldwide, we may not be able to quickly link 
Saddam Hussein directly to having perpetrated an attack on the 
United States.
    Therefore, I just want to get your consensus as to how 
dangerous you think this biological threat is and the fact that 
materials can be put into the hands of terrorists and readily 
distributed and transported to our shores.
    Mr. Berger. Senator, I, too, am concerned about Saddam's 
biological capability and his continued efforts to enhance that 
capability. I think that has to be a concern of the United 
States. I think that the point I was making goes to whether we 
have time--not years, not 5 years or 10 years--to try to do 
this in a way that maximizes the extent to which we have 
international support. I believe that we do have that time.
    Senator Warner. But you had firsthand experience with this 
inspection regime. You had to deal with it and make some tough 
decisions when--in your phrase, ``unfettered inspections''--
fell apart. But that cooperation by Iraq is absolutely an 
essential ingredient if the U.N. is to have any degree of 
success over and above what was experienced in the previous 11 
years. Am I not correct?
    Mr. Berger. Absolutely.
    Senator Warner. Do you see any indication from Iraq that 
they are going to cooperate? Because to go down this path of 
additional inspections without some strong indication that 
they're going to cooperate, to me, is futile.
    Mr. Berger. Well, I don't see any particular indication. As 
I said in my statement, Senator Warner, I'm skeptical that an 
inspection regime will result in disarmament without 
cooperation. To me, an inspection regime could conceivably slow 
down and disrupt his effort. But the most important reason for 
us to seek a Security Council resolution that calls for and 
describes ``unfettered inspections'' and then tests them in a 
rigorous way is to gain the support of the international 
community so that we're acting here in concert with others.
    Senator Warner. Let me turn to Dr. Schlesinger's closing 
comments with which I strongly associate myself, and that was 
as he observed Congress now looking at a resolution and, at the 
same time, the U.N. working on their resolution. Am I correct, 
Dr. Schlesinger, in the summary, that the extent that the 
congressional resolution is strong, clear, and decisive and 
shows no difference between the course of action chartered by 
the President and that by Congress supporting him through the 
resolution, that is the extent to which we're most likely to 
get a strong resolution in the United Nations. Have I stated 
that correctly?
    Dr. Schlesinger. You have stated it perfectly correctly. 
Any clear signs of equivocation in U.S. policy will, I think, 
weaken the willingness of the United Nations to have a strong 
resolution.
    Senator Warner. Your worry, Mr. Berger, was an interesting 
one: let's get a congressional resolution sharpened. I accept 
that word, ``sharpened.'' To me that makes it stronger and in 
no sense weaker than what the President submitted to Congress.
    Mr. Berger. Yes, Senator Warner. My view is that a more 
focused resolution that has genuinely broad support shows 
greater credibility than a broader resolution that has narrower 
genuine support.
    I'm not talking about what the number of votes may be.
    Senator Warner. No, I understand that, but I liked your 
word ``sharpened.'' To me that means more forceful. In no way 
should we try and weaken any of the provisions that are 
presently submitted to Congress by the President.
    Mr. Berger. I think the draft--and the President was quite 
clear this was a draft of the White House----
    Senator Warner. Yes.
    Mr. Berger.----that was submitted, I think is overly broad. 
I think that we're talking here about something that could take 
place for a very long time. We learned once before, many times 
before, how important it is to have American public support for 
the long haul. We ought to know that--the American people ought 
to know what we're getting in for. Therefore, we ought to 
describe that authority, I think, in a sharp way and a focused 
way and ask the President, as President Bush Sr. did in 1991, 
to come back to Congress before exercising that authority with 
certain determinations, for example, with respect to what a 
post-Saddam regime would look like.
    Senator Warner. Well, I certainly accept, let's sharpen it. 
Let's not dull the draft.
    I thank you.
    Chairman Levin. Thank you, Senator Warner.
    Senator Kennedy.
    Senator Kennedy. I want to thank both of you, as well, and 
thank our leaders in the committee for giving us the 
opportunity to listen to two experienced and thoughtful 
individuals that have been so concerned about our security and 
defense.
    Obviously, as has been pointed out, Saddam is the danger, 
and obviously the weapons of mass destruction are the basic 
problem. But there's also al Qaeda and the strength of al Qaeda 
out there. There's also what is happening in Afghanistan now 
with the potential of deterioration in Pakistan, as Mr. Berger 
pointed out, if Musharraf is displaced.
    We have, according to the Secretary of Defense, some 90 
nations that are cooperating with us now, giving us important 
information and intelligence. This battle, I believe, is going 
to go on and poses a very serious threat.
    Now, my question is this. If we were to see the actions 
that are going to be taken against Iraq--first of all, I 
listened to Tony Blair yesterday. I didn't associate his 
remarks with the actions of al Qaeda and the dangers of 
terrorism, providing these weapons of mass destruction. I might 
have missed something. I've listened carefully to the 
intelligence reports. We don't have intelligence reports, at 
least that I have seen, that say that Iraq is providing weapons 
of mass destruction to al Qaeda now. If that happens, we ought 
to know about it. I'm concerned that if Saddam Hussein's back 
is against the wall, he may provide them. That's a danger.
    But let me get back to my question. What are the 
implications in the battle with al Qaeda between a United 
Nations involvement in terms of Iraq and the United States 
going alone? Is there a difference in terms of the kind of 
cooperation we're going to have from the intelligence field and 
from the military cooperation that we are receiving now in the 
battle against al Qaeda? Will there be any differences, and how 
should we measure it?
    Mr. Berger. Senator, I think that there are two 
implications here. That doesn't deny the fact that we have to 
deal with Iraq, as I said earlier. But I think one is the focus 
of decision makers, and the other is the support of the 
international community.
    We debate whether or not the military has the capability to 
fight two wars. I'm not sure whether or not the senior 
leadership of a government has the capability of fighting two 
wars without some distraction. So question number one is 
whether we lose focus here. That, obviously, will be a more 
serious problem if we're acting largely alone, and, therefore, 
in my judgement, with a much more serious burden to bear and 
much more serious consequences.
    The second reason why I think that it reinforces the notion 
that we want to try to do this with the legitimacy that comes 
from international support is that we're entering a phase of 
the war against terrorism and the war against al Qaeda. I 
believe al Qaeda remains a real threat, a clear and present 
danger to the United States, a virulent threat. I believe that 
we most likely will be attacked again, and we cannot lose that 
sense of urgency.
    We're now in a phase of this war which requires 
cooperation: military cooperation, intelligence cooperation, 
and political cooperation. Much of this involves rooting out 
cells that are in third countries. We're not going to, 
presumably, drop the Special Forces into Hamburg or the--
perhaps after the election, that might be, some people in the 
White House may be discussing that.
    So, I think it's extremely important that the world is 
marching together on the major security threats that are not 
only threats to the United States, but to the world.
    Senator Kennedy. Dr. Schlesinger?
    Dr. Schlesinger. Senator, you quite rightly point to the al 
Qaeda problem. It will be with us for a long time. Al Qaeda has 
been disrupted. It's on the run. It has lost its safe haven. It 
has lost its training facilities, but it is still there, and it 
will be for a long time. Pakistan, as Sandy Berger has 
indicated, is a serious potential problem, and you've 
reiterated that.
    What would be the consequences of going into Iraq? It 
depends upon the effectiveness of a move into Iraq. If we have 
a quick success--and I pointed this out in the article that the 
Chairman cited--in Iraq, we will be surprised at the number of 
countries who are eager to help us. It just isn't politics. 
We'd have a bandwagon at that point. If it is a botch, the 
reverse will be true and we will not be in a position to arrest 
a decay, let us say, in Pakistan.
    A triumph of American and other arms will, as in November 
of last year, alter public opinion in Pakistan. A failure or 
semi-failure of American arms will lead to a revival of support 
for Osama bin Laden in Pakistan. There are the risks that are 
involved, and it depends how effective a campaign against Iraq 
might be.
    Senator Kennedy. In the strong likelihood of the 
involvement of Israel in this conflict--we saw Prime Minister 
Sharon indicate that if Israel was attacked, that, unlike the 
previous conflict, they would respond. Given the kind of 
information that Senator Warner pointed out, as Prime Minister 
Blair mentioned, the 45-minute ability to be able to use 
weapons of mass destruction, the real possibility of that kind 
of activity, Israel's response--what additional kind of a risk 
does that provide to this kind of endeavor in terms of both the 
United States and the United Nations?
    Mr. Berger. Senator Kennedy, first of all, if existentially 
threatened, I think that the possibility of Saddam launching an 
attack at Israel, perhaps a chemical or biological attack at 
Israel, is very real.
    Number two, I think that Israel, and perhaps any sovereign 
democratic country attacked by chemical or biological weapons, 
would be hard pressed not to respond. Whether it responds 
conventionally or in some other fashion will be a judgment that 
the Israelis will make. So I think they will respond. All the 
more reason, it seems to me, to embark on this to the extent, 
if it's at all possible, with the acceptance of the Arab world.
    The Saudis have indicated that they will support or accept 
something done with some form of a U.N. blessing. I don't know 
that they really are--the language here is all that critical. 
If we are seen as the United States and the British, I think 
the danger, under the circumstances you've described, of this 
situation breaking along an Arab-Israeli fault line is much 
more serious. Under those circumstances, I think Dr. 
Schlesinger's concern about effectiveness becomes more 
difficult.
    Senator Kennedy. Just to finish that thought, and the 
impact of that kind of division on the war against al Qaeda, 
would that have implications in terms of our ability to be more 
effective in terms of the war against al Qaeda? Would this 
diminish our ability if that were to happen?
    Mr. Berger. Well, certainly we need support and cooperation 
from countries in this region to fight the al Qaeda threat, 
which is, in a sense, the cockpit of the crucible of this 
threat. We're receiving that support from some, less from 
others, but I would not want to see the situation evolve in a 
way in which these countries believe that a hard anti-American 
position was necessary for their survival.
    Chairman Levin. Thank you, Senator Kennedy.
    Senator Hutchinson.
    Senator Hutchinson. Mr. Chairman, thank you. Thank you for 
holding this hearing today. I want to thank our distinguished 
witnesses today for their contribution to this very important 
national debate on how we address the threat that is posed by 
Saddam Hussein and Iraq.
    Mr. Berger, some of the issue is, from your testimony, the 
currency of the threat, the immediacy of the threat, and you've 
indicated that you believe that we have some time and that it 
would be uncharacteristic of Saddam to attack us with 
biological weapons. If I understood your testimony correctly, 
it was based on, number one, his desire to survive, and number 
two, the likelihood of detection and then subsequent 
annihilation.
    Following on what Senator Warner has said--I mean, we've 
been waiting over a year now attempting to detect the source of 
the anthrax attacks upon our country. Given Prime Minister 
Blair's report yesterday to the British Parliament and the 
dossier that they released that biological weapons could be 
released within 45 minutes on the order of Saddam Hussein and 
what I believe is a current link between Saddam Hussein and 
terrorists--I mean, it is widely reported that some members of 
al Qaeda have taken refuge in Iraq. Saddam has been an active 
and vocal supporter of Palestinian extremists, provided 
sanctuary for some of the most notorious terrorists over the 
last 2 decades--that those links are already established.
    So it seems to me if we wait until we know that he's 
provided al Qaeda with biological weapons, then we've waited 
too long, and that the immediacy or the currency of the threat, 
I mean, that is at the very heart of this debate as to how 
quickly the United States should move and how much time we 
really have. Could you respond to that?
    Mr. Berger. Well, first of all, Senator, I think the threat 
is real. When I say that we have some time, I don't mean some 
time to do nothing. I mean some time to begin to act in a way 
that puts ourselves in the best position here to secure either 
disarmament of Saddam--of Iraq, one way or the other. On that, 
I think that we have enough time to vigorously seek the support 
of the international community. If we obtain that support, or 
at least acceptance or understanding of the nature of the 
threat, I think the risks are much diminished.
    The potential that Saddam Hussein would preemptively use 
biological or chemical weapons against us or through a 
terrorist is not something that can be dismissed. I believe 
that is a possibility. But he would have to be fearful that we 
would detect that, knowing that every intelligence resource of 
the United States is trained on that.
    Senator Hutchinson. Have we not done that over the last 
year on the anthrax attacks?
    Mr. Berger. Well, we have different intelligence bodies 
working on those two matters. But that's for another committee, 
I think.
    I'm not saying that we would certainly be able to detect 
it, but it would be something that he would have to take into 
account, and I think that he would recognize that that would 
result in annihilation.
    If I could just say one last thing, he's had these weapons, 
of course, for many years, he's had chemical weapons for 20 
years, and has not used them preemptively. Again, I don't 
suggest here, Senator, that this is not something that is a 
real threat, something we should be genuinely concerned about. 
It simply, in my judgment, does not mean we have to act here 
without trying to lay the groundwork.
    Chairman Levin. Senator Hutchinson, if you would just yield 
for one moment, we have the first of two votes now that has 
started. I'm going to leave and try to come back immediately 
and then vote at the end of the second vote. After Senator 
Hutchinson is completed, Senator Akaka would be next on our 
side, and then Senator Sessions would be next. But we'll try to 
keep this going.
    Senator Sessions. Mr. Chairman, I think Senator Collins was 
ahead of me.
    Chairman Levin. I'm just following the list here, and I'm 
happy to change it. With the two of you in agreement, we'll put 
Senator Collins first. I'm just reading what they give me. 
Thank you, though, for saying that, Senator Sessions.
    We're going to try to keep this going, in other words, 
during these two votes.
    Senator Hutchinson. Thank you, Mr. Chairman.
    Mr. Berger, you indicated, in talking about how much time 
we have, that the U.N. resolution should have a time ultimatum. 
Could you suggest what the time ultimatum ought to be for 
compliance by Saddam Hussein?
    Mr. Berger. Well, I'm not sure precisely. I would need to 
have some conversations with U.N. envoy Hans Blix to determine 
how much time it would take to get inspectors in there, get 
them set up. I don't think that we ought to spend months and 
months checking whether the cameras are still working. I think 
that we ought to do what Richard Butler did in 1998 when the 
inspectors went back in, which is to test it against a hard 
site. So I think it's months. I don't know what exactly the 
right number is.
    Senator Hutchinson. Dr. Schlesinger, I didn't give you an 
opportunity on this whole issue of the risk of Saddam Hussein 
giving biological weapons to terrorist organizations and 
whether we have time.
    Dr. Schlesinger. Floating in this conversation has been 
comparison of the risks of nuclear weapons against biological 
or possibly chemical weapons. Nuclear weapons, if they can be 
delivered, are, of course, the most dangerous, but we are some 
period away from that, in all likelihood.
    The advantages from the standpoint of a terrorist group, is 
the ambiguity of biological weapons. If pressed, Saddam Hussein 
may wish to exploit that ambiguity by passing it on.
    On the question of time that you raise, there's another 
dimension, which is what is the capacity of al Qaeda or 
possibly other terrorist groups to exploit biological weapons 
that have been put into their hands? As we saw earlier during 
the campaign in Afghanistan, they were not yet ready to exploit 
biological weapons, probably not even chemical weapons. As time 
passes, it is quite possible that a revived al Qaeda will be in 
a better position to exploit such weapons. For that reason, one 
would like to diminish the time that might be available to them 
or to Saddam in passing on such weapons.
    Senator Hutchinson. Thank you, Dr. Schlesinger.
    My time has expired, but I do want to say how much I also 
associate myself with your remarks that a strong resolution 
passed by Congress on a bipartisan basis strengthens our 
position with the world community and the United Nations 
immensely. I thank you for your testimony.
    Thank you.
    Dr. Schlesinger. Thank you, Senator.
    Senator Akaka. Thank you very much.
    I have some questions for the witnesses. We had a good 
meeting on Monday with the panel of retired generals. We 
discussed the need for a postwar strategy. Both General 
Shalikashvili and General Clark stressed the importance of 
thinking through, not only our warfighting strategy, but also 
our peace strategy. General Clark commented that our peace 
strategy in Kosovo was critical for the success of that 
operation. I want to stress that comment.
    My question is, what are your comments regarding a peace 
strategy? What do you think are some of the key issues which 
need to be thoroughly planned for the postwar period? Mr. 
Berger, can you please comment on the reference made by General 
Clark to our prewar and postwar strategy in Kosovo?
    Mr. Berger. Well, in Kosovo, as in Bosnia, General Clark 
has said, we used diplomacy and force together. Thereafter, the 
international community, through the United Nations, through 
other bodies, moved in in substantial fashion. While it's been 
a slow process, we now largely have a peaceful and democratic 
Balkans, which is quite an extraordinary phenomenon.
    I think, in this case, we have to think, first of all, 
about the territorial integrity and security of Iraq. There 
could be incentive for the Kurds to move against oil fields, 
which could precipitate the Turks moving in to the north. There 
is obviously the risk of the Iranians doing the same in the 
south.
    So, number one, we would have to, I think, have a presence 
there for some time to protect the territorial integrity of 
Iraq.
    Number two, this is not simply a case of getting rid of 
Saddam and putting somebody else in his place. You have a 
regime here throughout the government that has to be 
essentially rooted out, replaced, and another civil structure 
brought to bear, and that will take some time.
    I think this is critical. I think the way we've handled 
postwar Afghanistan is not extraordinarily encouraging. We've 
not been willing to have an international countrywide presence, 
as Prime Minister Karzai has asked for. Perhaps we're changing 
that view now. Security is deteriorating in Afghanistan. 
Afghanistan, I can assure you, is a lot less formidable a 
problem than Iraq.
    I think that it is incumbent on the administration to 
discuss with Congress and the American people what our vision 
is for a post-Saddam Hussein Iraq. The factions, the opposition 
groups, both inside and outside the country, tend to hate each 
other almost as much as they hate Saddam Hussein. There has not 
been a natural alliance there, so it's going to be difficult to 
put together a coalition.
    I don't think any of these things are insurmountable, but I 
would, again, rather be doing this as an international 
community with the United States playing a very active role 
than the burden being almost entirely on our shoulders.
    I think Dr. Schlesinger's right. If we win, some of our 
friends, our erstwhile friends, will be happy to take the oil 
part of that reconstruction, but they may not be as happy to 
bear some of the less lucrative portions of the rebuilding 
effort.
    Senator Akaka. Dr. Schlesinger, you have a comment?
    Dr. Schlesinger. Thank you, Senator. I was observing to Mr. 
Berger that those two things can be tied together.
    Let me disagree with Mr. Berger on one point. I don't think 
that Afghanistan is that good an analogy. I agree with him that 
the situation has deteriorated, but these two countries are 
quite different. Historically, Iraq has been a secular country. 
It has been a country of some degree of economic well-being and 
cultural advancement. It would be, in a postwar world, easier 
to work with such a country than with Afghanistan which has all 
of the problems of a tribal structure with deep ethnic 
divisions.
    The first point I would make is that we must, as a 
psychological point, appear to the Iraqi people as coming, as 
the Secretary of State has said, to liberate them, not to 
conquer them. In the course of that, we need to see to it that 
the standard of living of the Iraqis, which, for a variety of 
reasons, has been repressed, rises respectably and gradually, 
and that way we can win internal support and begin to move 
toward democratization of the country. That is a slow process, 
by the way.
    The second point is hinted at by Mr. Berger, and that is 
that if we go in, the alliances change and attitudes change, 
and we will be obtaining support and rewarding support that did 
not exist prior to our going in.
    Mr. Berger has mentioned the oil contracts. Those should be 
a reflection of the need to raise the standard of living of the 
Iraqi people over time, desires to deal appropriately--I use 
that word advisedly--with the OPEC powers, and, at the same 
time, to see to it that those who are obdurate in their 
attitudes toward us are not rewarded.
    Mr. Berger's comment on territorial integrity is quite 
right. There are serious divisions. Over time, those divisions 
could weaken or they could grow stronger. It is important for 
us to reassure our Turkish allies that there will not be an 
independent Kurdistan, that we need to see what kind of 
federalized semi-autonomous structure can be built there so 
that each of these communities can feel better. We need, as 
your question implies, Senator, to be thinking very hard and 
seriously now about how to deal with that--hypothetically--
post-victory condition in Iraq. The tendency is, ``focus on the 
war and how we're going to win it.'' Very important. Critical. 
But this is also critical.
    Mr. Berger. Senator, may I add one point to what Dr. 
Schlesinger said?
    Senator Akaka. Yes.
    Mr. Berger. I don't think the American people have been 
prepared very well for this part of the deal. We see, a year 
after September 11, with the most devastating attack on the 
United States, the most searing experience that we have 
undergone as a country, some might say, that it's easy to lose 
attention, to lose focus. I think that the American people need 
to sign up for the whole deal, and they can't sign up for the 
whole deal if we're not talking about what's at the other side 
of victory, which is--I think Dr. Schlesinger and I both 
agree--costly, protracted, and not easy.
    I think that we make a big mistake to enter into military 
involvement without the American people not only knowing the 
threat, but also having a clear picture of what the costs and 
timetable of that involvement might be. I would hope the 
administration would come forward with that. I would hope that 
Congress would elicit that from the administration.
    Senator Akaka. Thank you very much for your responses. At 
this time, I'd like to call for a recess, but briefly, and 
we'll be back with you.
    Thank you. [Recess.]
    Chairman Levin. We'll come back to order. Again, our 
apologies for the interruption here, but there were a couple of 
votes on the floor of the Senate. As you're both old hands 
around here, I think you can understand that problem.
    Senator Collins.
    Senator Collins. Thank you, Mr. Chairman.
    Gentlemen, welcome, and thank you very much for your 
testimony this morning.
    Mr. Berger, I'd like your comment on Dr. Schlesinger's view 
that the best way for us to secure a strong United Nations 
resolution is for Congress to first pass a strong resolution of 
its own by a large bipartisan vote, since there's been much 
discussion of which should come first.
    Mr. Berger. In 1991, of course, it was the other way 
around. In 1991, the Security Council resolution came before 
the congressional resolution. I'm not sure the sequence is as 
critical.
    But, Senator, I would say this. I think that a narrower, 
more focused resolution that truly has genuine bipartisan 
support would do more for the credibility of the United States 
than a broader resolution that does not have genuine bipartisan 
support. That's not only measured in terms of what the vote may 
be. There are a lot of reasons why people vote. But it seems to 
me the President needs here to bring the country behind him on 
this. I think he would be well advised to work with Congress to 
focus this language in various ways so that there is genuine 
bipartisan support.
    Senator Collins. Do you have some specific suggestions for 
changing the wording of the draft resolution submitted by the 
administration?
    Mr. Berger. I think there are three or four areas, 
generally. There are some factual representations in the 
beginning which I think are overreaching. I would certainly 
narrow the authorization here to Iraq rather than the region. I 
would put this in the context of complying with his obligations 
on weapons of mass destruction. Although the American people, 
I'm sure, are concerned about the prisoners in Kuwait, I don't 
think they're prepared to go to war over them. I would find a 
way to support the President's effort in the U.N. to gain a 
resolution expressing the will of the international community.
    I think, like the 1991 resolution, as President Bush Sr. 
agreed, I would have the President come back to Congress before 
exercising the authority with certain determinations, 
particularly, for example, with respect to what a post-Saddam 
Hussein regime would look like and what our plan would be for 
such an enterprise, because I think that if we don't sign up 
for the whole enchilada at the beginning, Senator, I can see 
us, even if we are successful, losing interest, getting 
deflected by another crisis and leaving Iraq actually as bad 
off as it is now.
    Senator Collins. Dr. Schlesinger, Mr. Berger and others 
have raised concerns about the impact of a war in Iraq on 
regional stability and what Iraq might look like post-Saddam. 
In January, when I was in Turkey, the Chairman and many of us 
met with Turkish leaders who are very concerned about the 
impact on Turkey's stability if the United States were to 
launch an attack on Iraq. Can you envision a scenario where we 
might be worse off after removing Saddam Hussein?
    Dr. Schlesinger. Senator, there's a risk whichever way one 
goes. If one does not take action, there are risks. If one does 
take action, there are risks. In the case of taking action, I 
have emphasized earlier and I think in the article that the 
Chairman cited, that we cannot abide failure. If we have a 
failure out there, or even a semi-failure, we might be worse 
off than otherwise. If we go in, we must be assured that this 
is going to be a highly successful operation, that it will 
change the psychology, not only in Iraq, but in the neighboring 
countries.
    I believe that Turkey will be with us under almost any 
circumstances, and I think that, although it is frequently said 
by people in the administration, as in prior administrations, 
people will tell us things in private that they do not say in 
public. That is always the case. I think that one will find 
that the clearer the policy and the greater the success of the 
policy, that others will be much more inclined to jump in 
behind us.
    Success has a thousand fathers. Failure is an orphan.
    Senator Collins. Mr. Berger, I agree with you on the 
importance of building international support for whatever 
action we choose to take. I also agree on the importance of a 
U.N. resolution. Nevertheless, given Iraq's past defiance of 
numerous U.N. resolutions, do you see any realistic possibility 
that Saddam would comply with yet another U.N. resolution? I 
realize there's an argument to be made that we should go 
through the process in order to build international support. 
But, at the end of the day, is it realistic for us to think 
that Iraq is ever going to comply with any U.N. resolution?
    Mr. Berger. Senator Collins, I would not bet the ranch on 
it, but I also would not totally rule it out. Let's recognize 
here that we're dealing in a different set of circumstances in 
which the international community, implicitly at least, is 
saying that they're prepared to invade Iraq if he does not 
comply. He does have a survival instinct.
    So while I think we need to go through--we need to do this 
for the reasons I said and you said--that is, I think this is a 
way to build legitimacy and support, and I'm not overly 
optimistic that we're suddenly going to have a deathbed 
conversion--the fact of the matter is that this would be the 
first time that he was literally on his deathbed, and there are 
sometimes--that has a way of clarifying people's actions. So I 
wouldn't rule it out.
    Senator Collins. Dr. Schlesinger, it is said that nothing 
so concentrates the mind as the knowledge that one will be hung 
in a fortnight. Or whatever the expression is, picking up on 
Mr. Berger's analysis. What is your judgment? Do you see any 
possibility that Saddam, knowing what the alternatives would 
be, might decide to comply?
    Dr. Schlesinger. I think it's a theoretical possibility. 
One cannot dismiss it out of hand, but one must look at the 
nature of the man, the society that he has grown up in. Saddam 
came to the top by participating in an assassination attempt 
against a predecessor, General Kassim. From there, he fled to 
Cairo. In 1962 or 1963, General Kassim threatened to go into 
Kuwait to restore the ``19th province.'' Here was this man with 
a death penalty on his head sending a cable from Cairo to 
General Kassim saying, ``I'm all for you. I'm prepared to come 
back and fight for Iraq.''
    The nature of this man is that he is always going to be 
looking for an out, and he has grown up in that kind of 
society. So psychologically I don't think that one wants to bet 
the ranch, as Mr. Berger has said.
    Senator Collins. Thank you, gentlemen.
    Chairman Levin. Thank you very much, Senator Collins.
    Senator Cleland.
    Senator Cleland. Thank you very much.
    Gentlemen, thank you for being here. I've often sought your 
advice and guidance, and we do that today.
    Let me just get right to the point here. For me, the 
question is not so much whether to use force or not in Iraq. 
The question is to what objective, for what purpose is that 
force to be applied. As Colonel Harry Summers wrote in a 
marvelous book on strategy, he took Clausewitz's basic 
principles of war and applied them to the Vietnam War. You and 
I and Dr. Schlesinger were on a program with Colonel Harry 
Summers once. Colonel Harry Summers wrote that: ``The first 
principle of war is the principle of the objective. It's the 
first principle because all else flows from it.''
    So instead of focusing on the means, I'm looking to the 
ends here. As Clausewitz said, ``The leader should not take the 
first step without knowing the last step he's going to take.''
    So my question to you is, what do you consider the last 
step here? We have three options, it seems to me. First is 
destruction--destruction of the regime, which would involve the 
destruction of a lot of lives: ours, theirs, civilians--and the 
possible dismemberment of Iraq.
    General Hugh Shelton told me that if Saddam Hussein was 
removed from power, that the Kurds, the Sunnis, and the Shiites 
would be fighting each other like banshee chickens. Not to 
mention the possibility of Iran strengthening its hand in Iraq, 
and we know Iran is still a threat in many ways to Israel 
because it does provide tangible support to terrorists. 
Destruction of the regime.
    Second, deterrence, a la the old Soviet Union, which means 
we allow them the weapons of mass destruction, but we deter 
them by building our own and say, ``if you move into a 
neighbor, you're toast.''
    Then, finally, disarmament, which is what Tony Blair told 
the Parliament, which is what General Clark has said to us the 
other day was the goal, and General Shalikashvili said was the 
objective. It does seem to me that the course of disarmament is 
where we do have the greatest number of allies, the greatest 
likelihood of getting our resolution through the Security 
Council and the greatest support on Capitol Hill.
    All else flows from the objective. Mr. Berger, is it not 
true that the real objective here is not so much the 
destruction of the regime or a regime change or the 
dismemberment of Iraq, possibly, and creating civil war and 
chaos there, but more the real objective is disarmament?
    Mr. Berger. Senator, I believe that the objective is 
disarmament, and in the sense that we ought to use every means 
to see whether that can be achieved, short of war. If we have 
inspectors who go in under unfettered--truly unfettered--
conditions and they do not have the cooperation of Saddam 
Hussein, then it seems to me the purpose of war at that point 
is regime change, which is why I think we have to put the 
threshold very high. Once we embark on that, it seems to me it 
is not--in 1998, we bombed known weapons of mass destruction 
sites and we probably set his program back for some period of 
time, but, as we know, not forever.
    So I think our national interests would be served if we 
could achieve the goal of disarmament. The threat of force may 
be useful in doing that. But if we are actually then to go to 
war because Saddam Hussein will not cooperate in disarming, 
then I think the purpose of that war is a regime change.
    Senator Cleland. Dr. Schlesinger?
    Dr. Schlesinger. Senator, disarmament is that goal for 
which we can attract the greatest international support, it 
attracts that support because it's the lowest common 
denominator. I think, as Congress stated in 1998, that given 
Saddam's record, regime change must be an objective. As Mr. 
Berger has said, if we go, we should move on to that.
    Commenting on Clausewitz and all of that, first principles, 
I wish the world were as simple as it was for Clausewitz. What 
we had in Clausewitz is the notion of a nation fighting a 
nation, one on one, or one against two. Here we are dealing 
with, in the war on terrorism, a far more widespread and 
complicated problem. What we see, basically, is a civil war 
within the Muslim world in which a segment of that world now 
targets the United States so that it is impossible for us to 
focus simply upon a single nation. For that reason, that we are 
engaged in a war on terrorism, I don't think that we can find 
that last step that Clausewitz recommended to us.
    Senator Cleland. I agree, and I agree with your principle 
that if you're not going to win, don't go in.
    Dr. Schlesinger. Yes.
    Senator Cleland. Because once you commit militarily, you 
put the prestige of the United States and, in many ways, maybe 
the United Nations, on record, and you cannot fail, which is 
why I'm interested in drawing the objective as tightly and as 
firmly and as clearly as possible, particularly in terms of the 
military objective.
    I'd like to take you into that war on terrorism, though, 
Dr. Schlesinger and Mr. Berger. It does seem to me that al 
Qaeda, based on testimony from a number of generals and so 
forth, is our number one objective and that if we look at the 
principle of first things first, that is the war we're already 
in. We've already passed a congressional resolution in that 
regard.
    Interestingly enough, there was an ad in the New York Times 
today in the op-ed section. It's Osama bin Laden saying, posed 
as Uncle Sam, saying in a sense, ``I want you to invade Iraq.'' 
He says, ``go ahead. Send me a new generation of recruits. Your 
bombers will feed their hatred of America and their desire for 
revenge. Americans won't be safe anywhere. Please attack Iraq. 
Distract yourself from fighting al Qaeda. Divide the 
international community. Go ahead. Destabilize the region. 
Maybe Pakistan will fall. We want its nuclear weapons. Give 
Saddam a reason to strike first. You might draw Israel into a 
fight. Perfect. So, please, invade Iraq. Make my day.''
    Your reaction, Mr. Berger?
    Mr. Berger. I believe, Senator Cleland, that al Qaeda is 
the most clear and present danger faced by the United States at 
this moment. We have certainly disrupted it. We've not 
destroyed it. I believe it continues to maintain its mission. 
Its capabilities may be disrupted. There's a lot of work to be 
done. Our staying power at this point may be as important as 
our fire power.
    That doesn't lead me to the view that we can ignore Iraq. 
It leads me to the view that as we are doing what we have to do 
on al Qaeda, we have to be moving forward to build 
international legitimacy and support for what may be necessary 
on Iraq. If seen in that kind of parallel sequence, I think 
that makes the most sense to me.
    Dr. Schlesinger. Osama bin Laden may feel that he will get 
some relief if we divert our attention elsewhere, but it will 
be temporary relief. The number of recruits that responds to 
the colors, once again, depends upon the degree of success. A 
clear victory in Iraq is likely to lead to a falling off of 
support of al Qaeda rather than an increase in support of al 
Qaeda.
    It is important in the war on terrorism to recognize that 
dealing with al Qaeda, a set of terrorist cells, does not lend 
itself to victory in a traditional sense. It is going to be a 
long, long struggle. We cannot abandon other elements of U.S. 
foreign policy during this long struggle.
    What we need to do is sustain the momentum in the war on 
terrorism, and I believe that if we are successful--once again, 
one must take a careful assessment of the success that we are 
likely to achieve, military success--in that sense, that it 
will sustain the image of the United States.
    One final point. The President of the United States and 
others have been saying: ``regime change, regime change, regime 
change'' for some time. That is in the mind of the rest of the 
world as a goal of U.S. policy. Indeed, it's the stated goal of 
the U.S. Congress. If, once again, after all of the rhetoric 
that we have employed on this subject, we back off and that 
regime stays in power, many of our critics who are criticizing 
us today for being too aggressive will turn right around and 
say, ``You see? Osama bin Laden was right. The Americans are a 
bunch of cowards. They're wimps. They cannot stand the sight of 
blood. Therefore, despite their rhetorical objectives, they 
never deliver.''
    Incidentally, much of the population of Iraq will take that 
view. They were disappointed in 1991. They have been 
disappointed with our rhetoric recently. They were buoyed up, 
many of them, in Iraq by the President's speech to the United 
Nations. But the question in their minds is, ``Will the 
Americans deliver? Will Saddam be toppled?''
    Mr. Berger. Senator, can I add a point to that?
    Senator Cleland. Sure.
    Mr. Berger. Building on what Dr. Schlesinger has said, I 
think whether we are successful is directly related to how we 
proceed. I agree, a clear victory is what's necessary, but the 
ability for a clear victory, it seems to me, is greatly 
enhanced by the extent to which this is not seen in the region, 
even in Iraq, as an American invasion.
    Senator Cleland. Thank you.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you. We'll try a second round, 
perhaps 4 minutes each in case others come by.
    Senator Warner. How about 5 minutes?
    Chairman Levin. We'll stick to the 4 minutes and then we'll 
expand it for a third round in case others show up here.
    Mr. Berger, you said that we don't help ourselves by saying 
that we'll go it alone at this point. Why do you say that? 
Expand on that.
    Mr. Berger. I do believe, Mr. Chairman, that we have to 
preserve that option, because there may be circumstances in 
which the threat is such that we have to act even if others 
don't. I think that there's enough smell of gunpowder in the 
air already that the world gets it and understands that under 
certain circumstances we may be compelled or feel compelled to 
act alone.
    But by saying, at this point, as we're working toward the 
U.N. resolution--I understand there's a negotiating posture to 
some degree--it really doesn't matter, we may be letting the 
U.N. off the hook. I'm cynical enough to believe that there are 
some members of the U.N., maybe even some members of the U.N. 
Security Council, who will be very happy to let us do this, 
hold our coat, let us either win and then come in and get the 
oil, or lose and bring this big American hegemon down a couple 
of notches.
    I think we've contributed to that somewhat by putting out 
this doctrine on preemptive attack in which we're now saying--
which tends to suggest, and I think Dr. Schlesinger referred to 
this in his opening remarks--not quite in these terms, I don't 
want to put words in his mouth--that Iraq is the rule, not the 
exception. This is the template. We'll do it in Iraq, then 
we'll do it in Iran, do it in Syria--of how the Chinese begin 
to look at that.
    So it seems to me that all this talk about ``it doesn't 
matter'' is implicitly from the administration.
    Chairman Levin. Doesn't matter----
    Mr. Berger. Whether we have U.N. support or not. I think it 
may be a self-fulfilling prophecy.
    Chairman Levin. Let me ask you this question, because you 
used the word ``sharper,'' and Senator Warner picked up on 
that. Is what you've just described a narrower focus?
    Mr. Berger. Yes, I think it is a narrower focus, but it 
still is authority to use force.
    Chairman Levin. Is that a sharper focus? Is that what you 
mean by ``sharper,'' narrower?
    Mr. Berger. Yes.
    Chairman Levin. There's some--I think----
    Mr. Berger. I think, if you would prefer to call it 
narrower----
    Chairman Levin. Not me. I'm just asking you what you meant.
    Mr. Berger.----and Senator Warner would prefer to call it 
focused, and that's the way in which we can reach strong 
bipartisan consensus on something, that's fine.
    I think that my point is, this is not just about the 
politics of a resolution. This is about whether the American 
people are behind what we may have to do. This resolution could 
get 99 votes because of the circumstances under which it's 
being considered, but if many of those votes are not votes that 
have behind them deep conviction, then we're not going to have 
the kind of broad support. I think the President has more 
credibility with a narrower resolution that truly and genuinely 
has broad support, that alleviates some of the fears and 
anxieties that some people have--I think we're in a stronger 
position with that kind of resolution.
    Dr. Schlesinger. I prefer to think of Sandy Berger as sharp 
rather than narrow, Mr. Chairman. [Laughter.]
    Chairman Levin. Well, you used the word ``sharp.'' It's not 
my use of the word. You used the word ``sharp,'' and I want to 
see whether you mean by that ``narrow.''
    Senator Warner. It's a good word, too. I liked it.
    Chairman Levin. Yeah, I think Senator Warner is reading 
something into that word which maybe you didn't intend.
    Mr. Berger. I mean narrower and more focused.
    Chairman Levin. Okay. The next question, then, has to do 
with whether or not Iraq is likely to use weapons of mass 
destruction and attempt to transfer those weapons if it has 
nothing to lose, if it faces regime elimination. Is there much 
doubt in your mind that Saddam, if he has nothing to lose and 
he's cornered, would use everything he has, including weapons 
of mass destruction?
    Mr. Berger first, then Dr. Schlesinger, then my time is up.
    Mr. Berger. I think that is a strong possibility, if not a 
probability. I know Dr. Schlesinger said, if pressed, Saddam 
Hussein may use biological and chemical weapons. I think that 
if existentially threatened, that that is a distinct 
possibility.
    Chairman Levin. Dr. Schlesinger?
    Dr. Schlesinger. Mr. Chairman, this man's career, from the 
days that he was plotting to assassinate General Kassim, 
suggests that he is not going to go quietly into the night. 
Saddam Hussein will try to make use of all of his assets.
    The question--I think it's a much more significant 
question--is, will we make clear to military subordinates that 
if such weapons are employed in response to Saddam Hussein's 
directive, that they will be tried as war criminals, whereas, 
if they refrain, they have a good life in the future in Iraq? I 
think that under the circumstances envisaged, particularly if 
the initial attack on Iraq, should it come, is one that imposes 
shock--that you will find that there are many people in the 
military command who will refuse to execute such commands.
    Chairman Levin. But they would execute them----
    Dr. Schlesinger. Well, let me reassert your point that 
Saddam Hussein, in all likelihood, will attempt to use those 
weapons.
    Chairman Levin. If attacked?
    Dr. Schlesinger. If attacked. If attacked or if he thinks 
that an attack is imminent and certain.
    Chairman Levin. You made reference, by the way, Mr. Berger, 
to the politics of the resolution. I must tell you that 
triggers in me a very strong reaction. This is an issue of war 
and peace. There is no place for politics or partisanship in 
this issue.
    There is a serious effort, I believe, by Senators to try to 
reach the right conclusion, and--I want Senator Warner to hear 
this--I take umbrage at the quoted statement of the President 
last night that the democratically-controlled Senate is, ``not 
interested in the security of the American people.'' I don't 
know if that's an exact quote or not. That's what's in the 
morning paper. But if that is an accurate quote, it seems to 
me, it should be disowned by every Senator of whatever party.
    There is an honest effort here to achieve the right answer 
here for the security of this Nation. That is what we're all 
about. That's what we struggle to do. That's what we're sworn 
to do. There may be differences as to how best to achieve that 
security. There are no differences on the interest to achieve 
that security, the determination to achieve that security. I 
just hope that's not an accurate quote. Can we just leave it at 
that? I don't want to say that out of earshot of my dear 
friend, Senator Warner, but I hope that's not an accurate 
quote. I'll leave it at that.
    Senator Warner. Thank you, Mr. Chairman. You and I have 
worked together on this committee, this is our 24th year. I 
certainly do not in any way question the patriotism of our 
colleagues on the other side of the aisle. We may have our 
differences, but certainly they don't rest in any patriotism.
    What we're trying to do here this morning is to work with 
two extremely well-experienced, tried, tested, and true 
patriots themselves to search for facts and their views that 
can help guide the Senate and perhaps Congress as a whole as it 
embarks on a very critical mission. Namely, it's been called 
upon by the President--and I was there with you in the Cabinet 
room when he asked us for this resolution. The draft is up 
here. I'm not suggesting that we shouldn't consider language--
whether it's Democrat or Republican who might suggest changes, 
but I do believe--I think Mr. Berger said it clearly--we should 
move to sharpen rather than dull it. We have to be careful in 
the process not to send a signal abroad, that, as Dr. 
Schlesinger said, there are others who would love to seize upon 
the opportunity to hold our coat and let us embark on this 
mission.
    Chairman Levin. Mr. Berger, I think, used those words.
    Senator Warner. All right.
    Mr. Berger. Well, again, when I say ``sharpen,'' I mean 
focus this in a narrower way, Senator, that addresses the 
essential threat and builds a true bipartisan consensus.
    Senator Warner. I anticipate it will be bipartisan. While 
we may have some differences, I know good colleagues and 
friends on your side are who seeking to have it bipartisan, who 
have discussed with me as late as an hour ago suggestions about 
this amendment.
    The next question I put to Mr. Berger is by no means a 
political one, but I was fascinated with your phrase--and I've 
picked up one or two excellent phrases you've made this 
morning--``we have him on the deathbed this time.''
    Now, I go back, then, to 1998, when you were very active in 
this problem. On December 9, you made this statement: ``For the 
last 8 years, American policy toward Iraq has been based on the 
tangible threat Saddam Hussein poses to our country. That 
threat is clear. Saddam's history of aggression and his recent 
record of deception and defiance leave no doubt that he would 
resume his drive for regional domination if he had the chance. 
Year after year, in conflict after conflict, Saddam has proven 
that he seeks weapons, including weapons of mass destruction, 
in order to use them.''
    Then on December 23--I remember that period very well, 
because I used to confer with Secretary Cohen. He asked me to 
come to his office on occasion, and we sat down like two old 
friends because the burden was heavy on your administration at 
that time. I remember on December 23, 1998, shortly after the 
U.S. and Great Britain had carried out Operation Desert Fox--
that's the bombing we undertook because of the inspectors being 
thrown out--you addressed the National Press Club. Let me quote 
from that: ``If he''--that is, Saddam--``rebuilds his weapons 
of mass destruction capabilities, we will come. We will come. 
We have the obligation to do this. We have the will to do it. 
We have the forces in the region that are ready to do it.''
    Those are strong statements. Is there anything that has 
changed? In my judgment, the change is that the situation is 
worse than what the Clinton administration was faced with. If 
those were your thoughts then, which were unequivocal and 
clear, it seems to me, given the situation is more serious 
today--I assume that you feel that, in terms of his weapons of 
mass destruction capability, particularly biological and 
chemical--that your statements would even be stronger.
    That's why I seized upon the word ``sharpen,'' because I 
felt that was a harkening back to these statements that you 
felt worsened situations require for even sharper and stronger 
action by Congress in support of the President.
    Mr. Berger. Senator, I think that the determination that we 
made after 1998 was that containment strategy, by itself, 
probably was insufficient over the long term, that this was a 
leaky vessel, and that it was hard to sustain a sanctions 
regime for a decade. Therefore, we struck in December 1998 at 
weapons of mass destruction targets and other regime-related 
targets.
    Senator Warner. But he hadn't provoked us then, and yet we 
struck out.
    Mr. Berger. Yes.
    Senator Warner. That wasn't preemptive under the doctrine, 
do you believe?
    Mr. Berger. What I'm saying here today, Senator, is I 
believe that if, ultimately, war is necessary here, the 
objective should be regime change. But I believe that how we do 
this, how we go about doing this, relates directly to how 
effective we will be.
    There is a great deal of anti-American feeling in the 
region over the last 2 years that didn't exist before. I think 
that we are dealing with a much more volatile region, and, 
therefore, to the maximum extent possible, I think that we need 
to act. I've said that in my statement. Doing nothing here is 
not an option. But I think that we need to build international 
support. I think that we have time to do that in a strategic 
way.
    Senator Warner. But don't you believe the steps taken by 
the President going to the United Nations, the steps that have 
been, are being taken, and will be taken by our Secretary of 
State are consistent with what you've outlined?
    Mr. Berger. I welcome the President going to the United 
Nations. I wish he'd done it sooner. I think that's the right 
step.
    Senator Warner. So, thus far, we're on the right track.
    Mr. Berger. Well----
    Senator Warner. We haven't deviated yet.
    Mr. Berger. I think that some of the context here is 
clouding the situation. I think to put out a new national 
security doctrine which says that we're no longer in the 
business of deterrence, we're no longer in the business of 
containment, essentially we're now in the business--our 
fundamental national security doctrine is preemption--to do 
that in the context of this discussion of Iraq, it seems to me 
is a mistake.
    Every President reserves the right to act preemptively 
under the appropriate circumstances, but we're now saying to 
the world Iraq is the rule, not the exception. I think Dr. 
Schlesinger made a very clear case in his remarks: this is a 
special case.
    So I think we're making it more difficult for ourselves by 
acting as if this is part of a larger plan which has the United 
States moving around the world establishing a kind of a Pax 
Americana.
    Senator Warner. Describe the action that the President of 
the United States took on December 9, when he initiated the 
bombing of Iraq. Was that not preemptive, under the strict 
technical interpretations of the doctrine? Saddam Hussein had 
not used a weapon against any of our forces at that time, 
except the interdiction of our aircraft from time to time. If 
anything, that has worsened since that period. So, absent that, 
wasn't that a preemptive strike?
    Mr. Berger. I don't know what that word means in that 
context.
    Senator Warner. Well, a lot is being made about----
    Mr. Berger. Senator, we made very clear that if he did not 
cooperate with the inspectors that we would seek to use 
military force to try to degrade his weapons of mass 
destruction capability, and, in the course of doing that, 
talked about long-term regime change as probably the necessary 
end point.
    So, whether that action was preemptive or not I think is 
not the issue. The issue here, it seems to me, is how do we 
maximize the chance that we will get a result here that either 
disarms Iraq or eliminates Saddam Hussein with the least risk 
to the United States, the least risk to the stability of the 
region, and the greatest chance of success.
    Senator Warner. Mr. Chairman, could Dr. Schlesinger comment 
on my question? The strike of December 9, 1998, it seems to me 
that was preemptive, well founded. It didn't follow through, 
regrettably, and achieve the goals, but it was clearly a 
pattern of what we see today that the President is following.
    Dr. Schlesinger. Senator Warner, as I indicated in my 
remarks, whatever the merits, demerits, or necessity of a 
change in national strategy, Iraq remains a special case.
    We have been engaged in an ongoing military conflict with 
Iraq for the past 11 years. Sometimes it sputters up and 
sometimes it sputters down, but we have so engaged. Thus, I do 
not think that we were preempting back then, but I don't think 
that we would be preempting now.
    The focus that Mr. Berger has made is, it's better to have 
support and allies in the international community than not to 
have that.
    Senator Warner. I don't think anyone disagrees with that.
    Dr. Schlesinger. But preemption does not enter into it.
    Senator Warner. Mr. Chairman, I have a few more questions.
    Chairman Levin. Go ahead.
    Senator Warner. All right. Thank you very much.
    Dr. Schlesinger. Mr. Chairman?
    Chairman Levin. Yes? You have a 12:20 departure.
    Dr. Schlesinger. Could I give a couple of comments?
    Chairman Levin. You can do what you wish. Yes.
    Dr. Schlesinger. First, on the question that the Chairman 
has raised with regard to the use of nuclear weapons, I commend 
to the attention of the members of this committee an article 
last week in The Washington Post by General Mick Trainor, a 
former Marine general, who is an historian of the Gulf War. He 
makes the point very forcefully that we have a good opportunity 
to interfere in the execution of any Saddam orders by people 
beneath him. I recommend that article.
      
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    Dr. Schlesinger. Second, on the question of sharpening----
    Chairman Levin. Excuse me. That comment was not limited to 
nuclear weapons? That was weapons of mass destruction?
    Dr. Schlesinger. Yes, sir. Yes.
    Chairman Levin. Okay.
    Dr. Schlesinger. He was not suggesting that Iraq now has 
nuclear weapons. He's talking about the chemical and biological 
weapons that we know that Iraq possesses.
    Second, on the question of sharpening--if we are to sharpen 
this resolution, I hope that it does not go to the point of 
precluding any action outside of Iraq. The reason that I would 
not like to see that precluded is our presence in the region 
will change the strategic map of the region. We don't want to 
give reassurance to neighbors that may be conducting terrorist 
operations or harboring terrorist operations that they are 
secure.
    The third point is on this question of anti-Americanism. 
The events of September 11 and Osama bin Laden crystalized what 
was a latent anti-Americanism in the region. It flared up. In a 
recent poll in Kuwait, 75 percent of the citizens of Kuwait 
said that they admired Osama bin Laden. This is the same Kuwait 
that we reflagged her vessels 2 decades ago and rescued just a 
decade ago.
    The point is, though, I would like very much for Middle 
Easterners to think well of the United States. But if they 
don't think well of the United States, I want them to have 
respect for this country and recognize that killing Americans 
is not something that can be done with impunity.
    Thank you.
    Chairman Levin. I would just say those are not mutually 
inconsistent goals, I take it. We could achieve both if we act 
in a way which is aimed at achieving both?
    Dr. Schlesinger. Yes, mine were general observations.
    Senator Warner. Mr. Berger, I was very impressed with your 
comments, and I agree with them, on the situation that Israel 
is confronted with today, and that while they abstained from 
direct military action in the Gulf period in 1990-1991, largely 
at our request and those of our allies that were in the 
coalition, there's a question mark, and certain statements have 
been made to underline that question mark as to what they may 
do to protect their sovereignty if they are now attacked.
    That brings me to the question of the role of NATO. I 
followed with great interest this subject of Secretary Rumsfeld 
urging NATO to put together a force--that's fine--that can move 
and move quickly and combat terrorism wherever it is in the 
world.
    But I go back to the moves that your administration, that 
is, the Clinton administration, of which you were an integral 
part, when NATO expanded its charter to go out of area--you 
recall that very vividly, I think that was an initiative of 
your administration. Well, then, we have now a conflict out of 
area between Israel and the forces in Palestine, which are 
against Israel--I say ``forces''--I don't think all the people 
of Palestine are against Israel, but certainly certain forces 
of terrorism are directed against Israel--and I have said then 
and publicly a number of times on the floor of the Senate that 
NATO should consider offering to provide peacekeepers in this 
tragic conflict, but those peacekeepers would only go in under 
the conditions that they're invited by the Government of Israel 
and whatever structure of government remains in the Palestine 
organization and that a ceasefire be put in place between the 
two forces so that negotiations toward a lasting peace could be 
undertaken.
    It's a risk. There's no doubt about it. We could not 
guarantee that if NATO peacekeepers came in, that the tragic 
human suicide bombers would stop. But it seems to me it would 
send a strong signal throughout the world that followed this 
conflict that we are at least making a constructive effort to 
enable the parties to begin a negotiation.
    Now, the Europeans have had sympathies longstanding with 
the Palestine faction. We have had longstanding sympathies with 
the people of Israel and their struggle to maintain their 
sovereignty and democracy. A NATO force would be composed of 
some element of U.S. forces and a considerable element of 
European forces, so there would be a merger of these two 
dichotomies at this point into a force that comes solely at the 
invitation to maintain the peace.
    I feel that there's a linkage between that ongoing problem 
of suicide attack, necessary counterattack by Israel, and on 
and on it goes, and it festers the hatred throughout the 
militant Muslim world against our country and what we're doing. 
I think it factors into the difficult decisions as they relate 
to Iraq.
    Our President came out following the United Nations 
Security Council resolution, which I think the vote was 14 to 
0, with the abstention of the U.S., and was compelled to say 
that he hoped that the conflict could stop and the actions of 
the Israeli military could be modified in some way to end the 
standoff between the Israelis and Palestinian Authority.
    Have you a view on what role the United Nations could play 
in the conflict that you described in your earlier remarks with 
regard to Israel?
    Mr. Berger. The United Nations or NATO, Senator?
    Senator Warner. Excuse me, NATO. I misspoke.
    Mr. Berger. Yes.
    Senator Warner. I want to be very clear. NATO and what role 
NATO may have in this preparation for such actions, whether 
it's the Security Council resolution or the follow-on military 
action or some force to enforce this unfettered inspection 
regime which may evolve out of U.N. resolution.
    Mr. Berger. Senator, I think that in the context of a 
ceasefire and consent on both sides, peace----
    Senator Warner. In the Israel-Palestinian conflict?
    Mr. Berger. Right. That peacekeepers and perhaps NATO 
peacekeepers are something that ought to be considered. My 
concern, I believe quite honestly, Senator, that our 
disengagement from the effort to build a ceasefire in recent 
months compounds our problem in Iraq. We have always been a 
steadfast ally of Israel. I hope we always will be. But we've 
also always been engaged in the process of trying to diminish 
violence and create a more stable peace.
    The strategy of terror will not work. I think many 
Palestinians, although not all, unfortunately, are coming to 
that conclusion. But only the United States on the ground with 
our sleeves rolled up is going to be able to create opportunity 
out of exhaustion. I think the fact that we are not more active 
in trying to do that makes the Iraq problem all the more 
difficult, because it does tend to polarize views in the 
region.
    Senator Warner. So I judge that you feel if there are the 
conditions I laid out--a ceasefire and an invitation for them 
to come in--that the presence of the NATO peacekeepers could 
contribute to the basis for negotiations over a period of time.
    Mr. Berger. I think--with the consent of both sides.
    Senator Warner. That's correct. That's integral.
    What about the NATO forces in terms of being in 
consultation with the Iraqi issue?
    Mr. Berger. Well, I was disturbed to read one 
administration official said he never even considered the idea 
of asking NATO to be involved. Of course, in Kosovo, it was a 
European issue, but it was the unity of NATO. Even Italy and 
Greece, where public sentiment was overwhelmingly favorable to 
the Serbs, it was the unity of NATO that ultimately defeated 
Milosevic. So that obviously may be difficult to obtain in this 
circumstance, but it does go, again, to legitimacy.
    We acted with legitimacy, I believe, in Kosovo, even though 
we didn't have a Security Council resolution, because we acted 
in the context of 19 NATO members with diverse viewpoints.
    Senator Warner. Dr. Schlesinger, your thoughts on, first, 
my scenario in the Middle East, the Israel-Palestinian 
conflict, the involvement of NATO by invitation, and second, 
the consultation of NATO in regard to the ongoing events in 
Iraq.
    Dr. Schlesinger. On the first question, I have no objection 
to the scenario that you laid out and the suggestions that NATO 
might want to participate. NATO members have not been eager to 
provide forces, as opposed to providing advice, and that is 
always a problem.
    This history of peacekeepers in the neighborhood of 
Palestine and Israel, or in the neighborhood of Israel and her 
Arab neighbors, is mixed. It was a success, of course, in the 
Sinai, but that was because the Egyptians wanted it to be a 
success. It's not clear to me that we have the basis there.
    Senator Warner. They have been a success in Bosnia, NATO 
forces, in Kosovo. NATO is a coalition that is in place, it is 
ready to roll. It could be there in 72 hours.
    Dr. Schlesinger. I'm not suggesting that NATO would not be 
useful in the Middle East.
    The other point that I would make is that, even though 
these subjects do tend to overlap, Iraq and the Israeli-
Palestinian conflict are separable. For many of the Arab 
states, their inaction with regard to Palestine has been a 
major contributor to the problem, and that's true over a period 
of 50 years.
    What we have seen since September 11 is a tendency to use 
Israeli conduct toward the Palestinians as an excuse to 
continue to avoid the responsibilities that other Arab states 
might have toward the Palestinians. It has changed what had 
previously been the antagonism to the United States as the 
protector of regimes that were impure and that the Islamists 
wanted to change into a new focus, or a renewed focus on 
Israel-Palestine. So I think that it is important for us to 
recognize that much of the antagonism to American policy is not 
due to our support of Israel.
    Senator Warner. One last quick question to the panel, Mr. 
Chairman, and that is on the doctrine of preemption.
    Mr. Berger. Well, let me just say that I agree with that 
final statement by Dr. Schlesinger. I don't want there to be 
any mistake about that. I agree with the final statement of Dr. 
Schlesinger about it not being because of our support for 
Israel. We've been supporting Israel since 1947.
    Senator Warner. Yes.
    Mr. Berger. Every President since Richard Nixon has been 
deeply engaged in trying not only to support Israel, by not 
only protecting it, but also by trying to reduce violence and 
bring about some kind of a more durable peace.
    Senator Warner. Well, I associate myself with those 
remarks.
    Dr. Schlesinger. For that, we get no credit. Madrid, Oslo, 
the first President Bush's actions----
    Senator Warner. Gentlemen, I associate myself with the 
comments of Dr. Schlesinger and Mr. Berger.
    Last question. The doctrine of preemption has gotten, 
understandably, people stirred up. Our country has never 
sought, in its 215-216 year history, to take a square foot of 
land permanently from any other nation, and we have used our 
Armed Forces, I think, judiciously through the years. But what 
has changed is technology. As Tony Blair says, within 45 
minutes they could begin to deliver weapons of mass 
destruction.
    The doctrine of preemption grew out of the state-sponsored 
belligerencies where we then had time to declare war and go 
through these motions. We haven't declared war since World War 
II, but we have moved swiftly under a number of presidents to 
intercede where our security interests were involved. Today, 
cyber-security is reaching such a dangerous proportion that 
cyber-terrorists could strike America in a matter of a minute's 
time through our computer systems and shut down power grids and 
shut down the flow of water and all kinds of things.
    To me, this underlies the President's need to move out and 
tell the American public and the world that we can't sit and 
wait for the smoking gun, as did President Kennedy in the Cuban 
Missile Crisis with that picture of that missile headed into a 
position to be pointed against the United States. There may be 
no one left here to see the smoke after the gun is fired.
    So technology, in my judgment, underlies the need to change 
our doctrine and to move more toward preemption where it has to 
be done, and done quickly. Does anyone have a comment on that?
    Dr. Schlesinger. I think your observation is unanswerable. 
I think that the point of those who have raised questions has 
been preemption does not conclude containment or deterrence, 
that these are tools that work together.
    Of course, whatever we have said in the past, when we 
thought it necessary, we took action. President Reagan moved 
into Grenada, not by consulting the British. Indeed, President 
Kennedy, whom you just referred to, when he had that picture, 
engaged in what was an act of war under international law: to 
wit, the quarantine of Cuba. That is preemption, even though it 
did not involve an exchange of fire. So over the past, when we 
saw ourselves menaced, we were prepared to act.
    I think the question here is, should we be emphasizing 
preemption as our primary tool that displaces containment or 
deterrence.
    Mr. Berger. I think the option of preemption is one that 
every president has had, must have, to act in circumstances 
where the United States is immediately threatened. I think it 
is counterproductive to elevate that to an organizing doctrine 
or the organization doctrine of America's strategic policy, for 
several reasons. Number one, I think it tends to lower the 
threshold of use, because it puts governments on notice that 
``you'd better use them or you're going to lose them.'' Number 
two, I think it provides a rationale for other countries to act 
against their perceived opponents and enemies saying ``this is 
our doctrine of preemption.''
    I think it changes the perception of the United States in 
the world. I think that basically it says, to do this--to 
articulate this now is to say that Iraq is the rule, not a 
special case, as Dr. Schlesinger said; Iraq is the template. I 
think that makes it much more difficult for the United States 
in the world.
    So, option? Absolutely. Option we've used in the past? 
Absolutely. Organizing doctrine of American strategic policy? I 
think it's counterproductive.
    Senator Warner. Is there a difference between preemption, 
the use of the doctrine of preemption against state versus non-
state? Like, September 11 was non-state, so far as we know. It 
seems to me that should be unfettered, and it's to our 
advantage to tell them we're going to use preemption against 
non-state. Now, state, there is, I think, a debate, even though 
I support the President's time frame.
    Mr. Berger. I think it goes to the imminence of the threat 
to the United States. It, again, ought not to be elevated to 
the organizing principle.
    Senator Warner. Dr. Schlesinger, I must remind you, the 
clock's ticking. You said you have to leave.
    Dr. Schlesinger. I will leave in 5 minutes, Senator.
    Chairman Levin. Senator Sessions has a turn coming, so we 
hope you'll save some time for his questions if they're 
addressed to Dr. Schlesinger.
    Senator Sessions. All right, thank you, Mr. Chairman.
    Chairman Levin. I think, Dr. Schlesinger, if you want to 
just quickly wrap that up, I don't want to stop you from doing 
it, but make it quick.
    Dr. Schlesinger. I agree with Senator Warner with regard to 
terrorist organizations. We should tell them we will do 
whatever we can to blunt your activities. If you are even 
partially successful, we will continue to hunt you down 
wherever you are.
    With regard to the issue of nations, I think that you are 
absolutely right on the facts, the administration is right on 
the facts. It would be better to play this in a somewhat lower 
key than we have.
    Chairman Levin. Senator Sessions.
    Senator Sessions. I think that sums up the point pretty 
well. I agree with Senator Warner that it's good that the 
President has raised preemption and made it quite clear we are 
not going to sit by and allow ourselves to be vulnerable.
    Dr. Schlesinger, I tend to agree with you that we don't 
have to go to preemption in Iraq. We have such a continual 
history of violation of U.N. resolutions and basically 
continued warfare since 1991, we're in a state of conflict with 
them.
    My question is, the President has taken this issue to the 
U.N. He has asked for their support and met with leaders around 
the world. Iraq, feeling this pressure, playing its game again 
it would appear. Iraq has written to the U.N. to say they would 
unconditionally allow themselves to be inspected; however, in 
that very document (Saddam Hussein's letter to the U.N.) they 
state: ``The Republic of Iraq reiterates the importance of the 
commitment of all states, members of the Security Council, and 
the United Nations to respect the sovereignty, territorial 
integrity, and political independence of Iraq.''
    Well, any vigorous form of inspections, by its very 
nature--I'll ask you two experts--aren't those inspections, by 
their very nature, infringements of territorial integrity and 
sovereignty?
    Dr. Schlesinger. He has abandoned the question of 
sovereignty. In fact, he is attempting to reassert the question 
of sovereignty in principle. It just doesn't fly. As a general 
proposition, we are going to see Saddam Hussein attempt to 
evade, as he has in the past, the commitments into which he has 
entered, and we are engaged in a game similar to that of Lucy 
and Charlie Brown and the football, in that, will once again 
this autumn we be fooled, as Charlie Brown is? I don't think we 
will be, but in our quest for international support, the 
international community may once again be fooled.
    Senator Sessions. Mr. Berger, in your statement--I think 
you were correct, you went to heart of it; you said we have to 
have an honest commitment to inspections and a renunciation of 
weaponry. I believe you used the word ``unfettered access.'' 
Would you agree that term contradicts this letter in which 
Saddam Hussein continues to insist on his sovereignty and 
territorial integrity?
    Mr. Berger. Senator, as I said, one of the reasons why I 
think a U.N. Security Council resolution is important is so 
that the United Nations defines ``unfettered,'' not Saddam 
Hussein, and we get rid of some of the cobwebs that grew up 
around UNSCOM around this notion of sovereignty and special 
sites. Let the U.N. say what ``unfettered'' is; let the 
international community say, ``unfettered means anytime, 
anyplace, anywhere.'' Then, having defined, as an international 
community, what ``unfettered'' means, if Saddam does not comply 
with that, it seems to me we are on much stronger ground.
    Senator Sessions. Dr. Schlesinger, in that regard, you 
expressed some pessimism or some concern, as I do, about 
whether or not we can get clarity out of the U.N. on this 
question. How do you see it playing out?
    Let's say the inspections don't come unfettered, and what 
do we do? How do we get to the point where we either act or not 
act?
    Dr. Schlesinger. We are, I believe, going to ultimately see 
action. We prefer that action to be from the U.N. But if not, 
we are going to see action. We do not have to advertise that or 
blatantly say it, as Mr. Berger has indicated. But I think that 
that is understood.
    I think that it was a remark attributed to Samuel Goldwyn 
that ``prediction is difficult, especially about the future.'' 
I always find it a little difficult to predict what is going to 
come out of the United Nations. But it is clear that we must 
have a clear understanding of what ``unfettered'' means, that 
it does not mean that these palaces, or alleged palaces, of 
Saddam Hussein are off-limits to the inspection. They can go 
anywhere at any time, on demand.
    Senator Sessions. Mr. Berger, how do you see events 
unfolding? Any prospects for clarity out of the U.N., or will 
it remain feckless?
    Mr. Berger. I believe we could, I believe we can, Senator, 
get a resolution from the United Nations Security Council that 
reasserts, in this current context, the need for compliance, 
particularly with the weapons of mass destruction disarmament 
obligation, that calls for unrestricted inspections, and that 
defines that in U.N. terms, not in Saddam Hussein terms.
    I am actually less concerned about whether or not there is 
the operative ``all necessary means'' language in the first 
instance, because I think that getting that clear statement 
from the international community now, today, in these terms 
enhances our position. It puts Saddam with a clear choice. 
Either he complies with the world or there will be consequences 
of some nature.
    Senator Sessions. On the question, Mr. Berger, of Israel, 
several people have expressed concern about their situation. 
Israel has made it clear that this would be a decision for the 
United States, for it to go or no go, and they would be 
prepared to accept the risks that that might occur. They're not 
asking us not to go forward, are they?
    Mr. Berger. As far as I know, Senator, they're not asking 
us not to go forward with respect to Iraq, although I think 
they are reserving, as a national decision, how they would 
respond if they were attacked.
    Senator Sessions. Yes.
    Thank you, Mr. Chairman.
    Chairman Levin. Before Dr. Schlesinger leaves, and I think 
we're going to wind it up right now, let me thank both Dr. 
Schlesinger and Mr. Berger. It's been a very useful, very 
helpful hearing to this committee and I hope to Congress and 
the country.
    We would invite both of you, if you so chose, to give us 
specific suggestions relative to any modifications in the 
resolution that has been presented to us by the White House. I 
think both of you have had some suggestions here. You may want 
to give us some additional thought. Feel free to do so if you 
wish and to submit those to this committee.
    [The information referred to follows:]

    Dr. Schlesinger. I have nothing to add to my testimony regrarding 
the White House resolution on Iraq.
    Mr. Berger. I have made some suggestions in my testimony on 
proposed changes to the resolution. I am available to discuss more 
specific language with any member of the committee at his or her 
request.

    Senator Warner. I'd just join you, Mr. Chairman, in your 
observation. It's been an excellent hearing.
    Chairman Levin. You have one more question? Okay. Senator 
Sessions?
    Senator Sessions. Would you care to hazard a guess as to 
whether or not Saddam Hussein would, in fact, agree to 
unfettered access?
    Mr. Berger. I think, Senator, that the probability is that 
he will not. He may agree to it. He may let the inspectors back 
in. I think the probability is that he will interfere, but he 
will have then interfered with a current statement by the 
international community. I don't think you can rule out, as I 
said earlier when you weren't here, the possibility that, under 
these circumstances, where he is facing the potential of a 
military invasion against him, that his instinct for self-
preservation may result in a different calculation. I don't 
think that can be ruled out, but I think it not the most likely 
course.
    Senator Sessions. Thank you.
    Chairman Levin. Thank you, again. You've been very patient, 
and, as always, very helpful.
    We will stand adjourned.
    [Whereupon, at 12:34 p.m., the committee adjourned.]

                                 <all>

</pre></body></html>
